<html>
<title> - REAUTHORIZATION OF THE FEDERAL AVIATION ADMINISTRATION: PERSPECTIVES OF AVIATION STAKEHOLDERS</title>
<body><pre>[Senate Hearing 111-423]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-423
 
                         REAUTHORIZATION OF THE
                    FEDERAL AVIATION ADMINISTRATION:
                 PERSPECTIVES OF AVIATION STAKEHOLDERS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
51-473                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2009.....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator DeMint......................................    14
Statement of Senator Hutchison...................................    15
    Prepared statement...........................................    16
Statement of Senator Johanns.....................................    16
Statement of Senator Cantwell....................................    17
Statement of Senator Warner......................................    53
Statement of Senator Pryor.......................................    55
Statement of Senator Klobuchar...................................    56
Statement of Senator Begich......................................    59
Response to written questions submitted by Hon. Mark Begich to 
  James C. May...................................................    59
Statement of Senator Lautenberg..................................    66
Statement of Senator Thune.......................................    68

                               Witnesses

Charles M. Barclay, A.A.E., President, American Association of 
  Airport Executives.............................................     3
    Prepared statement...........................................     5
Hon. Marion C. Blakey, President and CEO, Aerospace Industries 
  Association....................................................    17
    Prepared statement...........................................    19
James C. May, President and CEO, Air Transport Association of 
  America, Inc. (ATA)............................................    26
    Prepared statement...........................................    28
Ed Bolen, President and CEO, National Business Aviation 
  Association....................................................    45
    Prepared statement...........................................    47
Patrick Forrey, President, National Air Traffic Controllers 
  Association....................................................    70
    Prepared statement...........................................    73
Captain John Prater, President, Air Line Pilots Association, 
  International..................................................    83
    Prepared statement...........................................    85
Robert Roach, Jr., General Vice President, International 
  Association of Machinists and Aerospace Workers................    93
    Prepared statement...........................................    95
Ken Hall, Vice President-At-Large, Package Division Director, 
  International Brotherhood of Teamsters.........................    98
    Prepared statement...........................................    99
Tom Brantley, President, Professional Aviation Safety 
  Specialists, AFL-CIO...........................................   101
    Prepared statement...........................................   103
William McGlashen, Executive Assistant to the International 
  President, Association of Flight Attendants--CWA, AFL-CIO......   112
    Prepared statement...........................................   114

                                Appendix

Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................   131
Craig Fuller, President, Aircraft Owners and Pilots Association, 
  prepared statement.............................................   132
Airport Minority Advisory Council (AMAC), prepared statement.....   135
Letter, dated May 12, 2009, to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison, from Greg Principato, President, 
  Airports Council International-North America; James C. May, 
  President and CEO, Air Transport Association; Charles Barclay, 
  President, American Association of Airport Executives; Thomas 
  E. Zoeller, President, National Air Carrier Association; James 
  C. Coyne, President, National Air Transport Association; Henry 
  M. Ogrodinski, President and CEO, National Association of State 
  Aviation Officials; and Roger Cohen, President, Regional 
  Airline Association............................................   140
William Horn on Behalf of the Alaska Professional Hunters 
  Association, prepared statement................................   142
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Charles M. Barclay, A.A.E....................................   143
    Hon. Marion C. Blakey........................................   143
    James C. May.................................................   146
Response to written questions submitted by Hon. Mark Begich to 
  James C. May...................................................   147
Response to written question submitted by Hon. Maria Cantwell to 
  Ed Bolen.......................................................   148


                         REAUTHORIZATION OF THE
                    FEDERAL AVIATION ADMINISTRATION:
                 PERSPECTIVES OF AVIATION STAKEHOLDERS

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron Dorgan, 
Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We'll call the hearing to order.
    This is a hearing of the Aviation Subcommittee of the 
Commerce, Science, and Transportation Committee.
    We appreciate all of you being here today. This is the 
second hearing on a bill to reauthorize the Federal Aviation 
Administration. We're in the process of drafting the 
legislation and we know that it's important for a lot of 
reasons to a lot of different interests in the aviation sector 
and the first hearing that we held focused on modernization of 
the Air Traffic Control System. That's very important, the 
issue that is sometimes called, ``NextGen'' or NextGeneration.
    It's important for a lot of reasons. The use of fuel, 
safety, the environment, but what seems of most interest to me 
is that the technology has marched ahead but the Air Traffic 
Control System has not, and part of that is the fault of the 
Congress, part of it is the fault of a bureaucracy and certain 
Federal agencies that just slow everything down just as a 
matter of habit, and we want to try to change that.
    We want to write a new FAA bill, a reauthorization, that 
includes modernization and really moves us more quickly than 
those in the FAA and elsewhere suggest we should. They're 
talking 2020 or 2025. No reason to be out that far, in my 
judgment. We ought to get about the business of modernizing the 
Air Traffic Control System.
    We still have a ground-based radar system in this country 
that can tell you about where an airplane is in the sky, not 
where an airplane is, about where it is. Might be 5-10 miles 
from where that dot is. It's about where the airplane is.
    The fact is that it exists with your car, it exists with 
your kids and their cell phones. Using GPS they can know 
exactly where they are or their friends are or your car is, but 
we can't with our current Air Traffic Control System. That's 
almost unbelievable to me.
    So we're going to try to modernize it and in doing so, we 
are wanting to, as we write the FAA Reauthorization Bill, we 
want to hear from all the sectors and all of the interests on 
these set of issues.
    All the stakeholders, I think, have significant stake in 
what we do. We've tried to do this before and were not 
successful. My fervent hope is we can do it now, get it done 
and get it done in a way that really advances our country's 
interests, advances safety and advances our system of air 
travel.
    I want to say, too, that there are other subjects that need 
to be discussed, including some safety issues, and I am at the 
moment seeking a date for a safety hearing. I expect to get 
that date in the next day or so and we'll make that public, but 
I want to say especially, I can't mention safety without 
mentioning what I heard on the news last night with respect to 
the tragic accident in Buffalo, New York.
    The accident at Buffalo, New York, was a tragedy, as are 
all airplane crashes in which there are fatalities, but last 
evening on the news and this morning reading some briefing 
material, it occurred to me again that I think there are 
legitimate questions about experience in the cockpit in certain 
areas in this country.
    I don't want to raise that just for the sake of raising it 
because I don't want to try to scare anybody or alarm anybody, 
but when I see a transcript of a co-pilot from an airplane in 
trouble suggesting that the co-pilot doesn't really understand 
or know about icing or hasn't flown in icing before, I'm 
thinking there's something fundamentally wrong on a commercial 
airplane where, in the co-pilot seat, you have a co-pilot that 
says the co-pilot has not been in icing before.
    I've been in icing, plenty of icing, not that I know much 
about it, but I must say it reminded me again of the question 
I've always had about what is the experience in the cockpit 
with various airplanes. Who's there? How long have they been 
flying? How much experience do they have? What are they paid?
    And then this morning I read that one of the people in the 
cockpit on that airplane was paid $16,000, had a second job 
working in a coffee shop. Prior to the take-off of that 
particular airplane, this co-pilot flew from Seattle to New 
York on an overnight flight, stopping in Memphis in order to 
get to New York to get on an airplane to fly the airplane.
    It reminds me of about four or five things that are wrong 
and I know we have the NTSB doing hearings yesterday and today, 
but I think it's an important question for all of us to ask.
    What do you expect to be in the cockpit of a commercial 
airplane when you board? What kind of experience? A $16,000-a-
year second officer?
    Well, I won't go further, except to say this to you. I 
think safety is a very important issue. I know all that come 
before this Committee take it seriously, as well, but I'm going 
to convene a hearing on safety very, very soon and we'll 
discuss some of these issues. I think we owe it to the American 
people. We owe it to the folks that lose their loved ones in 
these--in an air crash that has fatalities and so we will begin 
to work on that.
    The range of other issues is lengthy. I mean, it's a wide 
range of a lot of different issues. We're going to hear from a 
good many people today. Air traffic control contracts, for 
example. I'm pleased the new Administration has indicated that 
they're going to make a commitment to try to fix something that 
has gone haywire there.
    There are just a whole lot of issues and we're going to try 
to explore all of them.
    Let me describe, if I might, the hearing process today. 
We're not lacking in topics but we are lacking in time 
somewhat. We don't want to truncate this too much, but we have 
a larger and longer hearing schedule than is usual for this 
Committee just because this is the second of these hearings and 
I want to get on the record a whole lot of interests that have 
something significant at stake here.
    The first panel we'll have testifying will be Chip Barclay, 
the President of the American Association of Airport 
Executives. He's joined by Marion Blakey, the President and CEO 
of Aerospace Industries Association, former head of the FAA; 
Jim May, President and CEO of the Air Transport Association of 
America; and Mr. Ed Bolen, President and CEO of the National 
Business Aviation Association.
    I will introduce the second panel when they come up, but 
let me just say that we have the Air Traffic Controllers, the 
Airline Pilots, International Association of Machinists and 
Aerospace Workers, Brotherhood of Teamsters, the Professional 
Aviation of Safety Specialists, and Flight Attendants. So we 
have a wide range of interests testifying.
    This first panel is a very distinguished panel with a great 
deal of experience and we are advantaged to be able to hear 
them today, and let me begin, Mr. Barclay, with you and ask if 
we will limit testimony to 5 minutes, we would appreciate that, 
and your entire statement will be made a part of the permanent 
record.
    Mr. Barclay, you may proceed.

      STATEMENT OF CHARLES M. BARCLAY, A.A.E., PRESIDENT, 
           AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Barclay. Thank you, Chairman Dorgan and Members of the 
Committee and staff.
    It's always a great privilege to appear before the Commerce 
Committee's Aviation Subcommittee and airport executives look 
forward to working with the Committee under your leadership.
    I'd like to emphasize just a few points from our written 
testimony. First, a key priority in reauthorization for airport 
executives is our request to increase the PFC cap from $4.50 to 
$7.50 and index it for construction inflation.
    Construction costs have eroded about half of the $4.50 PFC 
that was put on in 2000 and at some airports the erosion has 
been even more dramatic than that. For example, at San 
Francisco, for a square foot of reconstructed runway in 2000, 
they were paying $201. So in 2000 at San Francisco, $201 for a 
square foot of runway and today that's $377. A simple runway 
light in 2000 $900, today it's $1,700.
    So the request to increase the cap on PFC is really a 
request to acknowledge the erosion that inflation has taken on 
$2,000 when that cap was set.
    It's also important to underscore the fact that raising the 
cap is raising a ceiling on a local decision that's made about 
specific needs for the PFC. Congress doesn't raise the fees. 
They have been put in the position of regulating a fixed-dollar 
cap and as long as that Federal cap exists in law, we would 
just respectfully recommend that it at least acknowledge the 
reality of inflation.
    Airport executives understand the seriousness of today's 
financial distress, and they've cut, delayed and eliminated 
discretionary capital projects and slashed operating budgets, 
but our members must also balance the need to make those budget 
cuts with the fact that long-term capacity programs at airports 
are measured in decades to get them done. So they can't all be 
shut down if we're going to have the capacity for the system's 
future when that future arrives.
    Second, on AIP grants, they represent the largest portion 
of smaller airports' capital programs, and we appreciate this 
Committee's strong support of that program's funding levels. 
They're critical to having a national network of airports, both 
large and small.
    Third, a provision that was not included in this 
Committee's bill in the last Congress and one that our members 
hope won't be included in this year's legislation is a proposal 
that would legislate a badly-tilted process for FAA's ongoing 
review of aircraft rescue and fire-fighting standards at 
airports.
    Our members support a fair evaluation of those standards 
based upon science, fact, and cost-benefit analysis, but they 
strongly oppose a provision that would tilt that process in 
favor of an outcome that would be enormously burdensome in 
costs without measurable safety improvements.
    Many members of the Committee, I know, have heard from 
their home state airports and that's an indication of the 
seriousness with which our members take this issue. As we point 
out in our testimony, the staffing increases alone at places 
like Bismarck and Myrtle Beach are enormous in the relative 
terms of their modest budgets. Bismarck would go from 7 
firefighters to 27 firefighters, Myrtle Beach from 13 to 23.
    Overall, our members are estimating that the new costs 
would be about $4 billion in capital costs and a billion 
dollars-a-year in new operating costs and again without a 
concomitant safety improvement as our members can see it.
    I have a letter with me signed by seven major aviation 
associations on this matter, and I'd like to submit that for 
the record.
    Airport executives are strong supporters of ATC 
modernization, provisions for small community air service and 
development, permanent fix for the airport private activity 
bond issue, and several other issues that are detailed in our 
testimony.
    Mr. Chairman, I'd be happy to answer questions.
    [The prepared statement of Mr. Barclay follows:]

     Prepared Statement of Charles M. Barclay, A.A.E., President, 
               American Association of Airport Executives

    Chairman Dorgan, Ranking Member DeMint and members of the Senate 
Science, Commerce, and Transportation Subcommittee on Aviation 
Operations, Safety, and Security, thank you for inviting me to 
participate in this hearing on the Federal Aviation Administration 
(FAA) reauthorization bill. I am Charles Barclay, the President of the 
American Association of Airport Executives (AAAE). AAAE is the world's 
largest professional organization representing the men and women who 
manage primary, commercial service, reliever and general aviation 
airports.
    I would like to begin by commending members of this committee for 
all of the good work that you did on S. 1300, the Aviation Investment 
and Modernization Act of 2007. The FAA Reauthorization Bill, which this 
Committee passed in the last Congress, called for expediting the 
implementation of the Next Generation Air Transportation System 
(NextGen). It also included a number of provisions that airport 
executives strongly support.
    Airports were particularly pleased that the bill proposed to 
increase Airport Improvement Program (AIP) funding by $100 million per 
year and that it addressed the needs of airports in small communities. 
Airports were also encouraged that it did not contain a provision that 
could have forced airports to comply with excessive National Fire 
Protection Association (NFPA) standards--a proposal that would impact 
airports of all sizes and could jeopardize service to small 
communities.
    Airports also appreciate this committee's help in extending FAA 
programs and aviation excise taxes since Vision 100 expired over a year 
and a half ago. As members of this Committee know, extensions and 
uncertain funding levels can be very disruptive to airports as they try 
to plan their construction projects. Airports around the country hope 
that this Committee will help guide an FAA reauthorization bill through 
Congress this year that increases funding for airport infrastructure 
projects, helps airports in small communities and allows for a fair 
conclusion to the Aircraft Rescue and Fire Fighting rulemaking process.
Future Demand, Continuing Delays and Rising Airport Capital Needs
    Passenger Levels to Rebound: Much has changed since this Committee 
introduced S. 1300 almost 2 years ago. Oil prices skyrocketed to nearly 
$150 per barrel last year, and the airlines responded by reducing their 
capacity. Passenger levels declined 1 percent from 2007 to 2008, and 
the FAA is predicting that enplanements will dip again this year as our 
economic struggles continue.
    However, passenger levels will undoubtedly rebound again as they 
did after the terrorist attacks in 2001. The FAA is predicting that 
enplanements will climb from just over 700 million this year to more 
than 1 billion passengers by 2021--almost a 43 percent increase. 
Economic conditions may have pushed that threshold back a few years 
from previous estimates, but airports need additional resources now in 
order to take advantage of this temporary downturn and prepare for the 
inevitable higher passenger levels to come.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Airline Delays Continue to Frustrate Passengers: On-time arrivals 
improved slightly in 2008 as the airlines began cutting back service 
and reducing aircraft from their fleets. However, airline delays 
continue to plague the aviation industry. According to the Bureau of 
Transportation Statistics, 24 percent of all flights were delayed, 
diverted or canceled last year. That's higher than the percentage of 
flights that were delayed, diverted or canceled in 1999 and in each 
year between 2001 and 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Not surprisingly, airline passengers continue to express their 
frustrations with flight delays. According to the Department of 
Transportation's Air Travel Consumer Report, airline delays topped the 
list of passenger grievances again in 2008. The report indicates that 
airline passengers filed almost 11,000 complaints last year. 
Approximately 31 percent of those were related to flight delays, 
cancellations and misconnections. By contrast, complaints about fares 
accounted for less than 3.7 percent.
    Airline delays are also having an adverse impact on our economy. 
Last year at this time, the Joint Economic Committee released a report 
on financial impact of airline delays. The report indicated that flight 
delays in 2007 cost the economy approximately $41 billion. Of that 
amount, airlines were hit with $19 billion in delay-related costs and 
passengers another $12 billion. The report also described how delays 
harm the environment by pointing out that delays resulted in the use of 
740 million gallons of jet fuel and the release of more than 7 million 
metric tons of carbon dioxide.
    We should expect that flight delays, cancellations, diverted 
flights and passenger complaints will rise when the economy improves 
and more passengers and aircraft return to the system. The FAA's 
Aerospace Forecast for 2009 to 2025 indicates that ``inadequate'' 
infrastructure could ``result in even more congestion and delays'' in 
the future. Delay-related problems will continue to be exacerbated 
unless airports have the resources they need to increase capacity.
    Rising Airport Capital Needs: Airport capital needs are continuing 
to rise as airports prepare for increasing passenger levels and work to 
reduce airline delays by increasing capacity. Late last year, the FAA 
released its National Plan of Integrated Airport Systems (NPIAS) for 
2009 to 2013. The report indicates that there will be $49.7 billion of 
AIP-eligible projects during the next 5 years--or an average of $9.9 
billion per year. This is approximately 21 percent higher than the 
$41.2 billion that FAA estimated for AIP-eligible construction projects 
for 2007 to 2011.
    The NPIAS identifies 3,356 existing and 55 newly proposed public-
use airports that are eligible to receive AIP grants. According to the 
report, 27 percent of the planned development is to bring airports up 
to current design standards and 17 percent is for capacity-related 
projects. Another 17 percent of the planned development is for 
replacing or rehabilitating airport facilities such as pavement and 
lighting systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Airports rely on a number of sources for airport capital 
development projects. The overwhelming majority of funds come from 
airport bonds, AIP and Passenger Facility Charges (PFCs). However, the 
FAA acknowledges that ``the NPIAS only includes planned development 
that is eligible to receive Federal grants under the AIP. It does not 
include necessary but ineligible airport development, such as 
automobile parking structures, hangars, air cargo building, or the 
revenue-producing portion of large passenger terminal buildings.'' So, 
the chart above only represents a portion of airport's total capital 
needs.
    The FAA suggests that high fuel prices last year and current 
economic conditions may affect its estimates for AIP-eligible projects. 
However, the agency correctly points out that ``the large scale, long-
term programs (i.e., a new runway or a significant runway extension) 
involving a sequence of planning, environmental analysis, approval, 
financing, and construction, typically over a 10- to 15-year period, 
are not particularly sensitive to short-term fluctuations in traffic.''
    In November, Washington Dulles, Chicago O'Hare and Seattle-Tacoma 
International Airports opened new runways. According to the Department 
of Transportation (DOT), the three new runways will accommodate an 
additional 330,000 take-offs and landings per year. However, each of 
those critical projects took years to complete. For example, the Port 
of Seattle began planning to increase capacity at its airport in 1989--
approximately 20 years ago.
    In 2007, the FAA also issued a report entitled, ``Capacity Needs in 
the National Airspace System.'' The report examined which of the 
busiest 35 airports in the FAA's Operational Evolution Plan will be 
able to meet future demand. It indicates that ``18 airports around the 
country are identified as needing additional capacity by 2015, and 27 
by 2025, if the airport system remains the same as it is today without 
the planned improvements.''
    Even if planned improvements occur, the report identifies 6 
airports that will need additional capacity by 2015 and 14 airports 
that will need additional capacity by 2025. Considering the long time 
it takes to complete capacity-enhancing projects it is critical that 
airports be able to prepare now for the increasing passenger levels to 
come.
    Airports Squeezed by High Construction Costs: Airport efforts to 
prepare for higher passenger levels and increasing aircraft operations 
have been hampered by construction costs, which skyrocketed in recent 
years. According to the Means Construction Cost Indexes, the average 
construction costs for 30 major U.S. cities have jumped more than 24 
percent since 2005 and almost 11 percent just since Congress began 
considering the FAA reauthorization bill in early 2007.
    Some airports have experienced even higher increases than the 
national average. For example, the cost of runway reconstruction at the 
San Francisco International Airport has increased from $201 to $377 per 
square foot since 2000--an 87 percent increase. Taxiway reconstruction 
has increased from $161 to $304 per square foot during the same 
timeframe--an 89 percent increase. Even the cost of a simple runway 
light at the airport has increased from $900 to $1,700.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Airports Need Additional Resources to Accommodate Future Demand, 
        Reduce Delays and Offset Construction Cost Inflation
    Congress, the Administration and aviation stakeholders should all 
be able to agree on the need to improve efficiencies and help reduce 
delays by implementing NextGen. Airports strongly support those 
efforts, and the Port Authority of New York and New Jersey is doing its 
part by heading the National Alliance to Advance NextGen. The group, 
which is pushing for the overhaul of our air traffic control system, 
includes 254 organizations including AAAE.
    As I mentioned previously, the passenger level is expected to 
increase from an estimated 702 million in 2009 to more than 1 billion 
in the next 12 years. That is the equivalent of adding the entire 
population of the U.S. to our aviation system. While many are 
understandably focusing on the need to implement a satellite-based 
navigation system to reduce congestion in the skies, we should not lose 
sight of the need to increase capacity and reduce congestion on the 
ground.
    According to the FAA, ``new runways and runway extensions provide 
the most significant capacity increases.'' In an effort to rebuild the 
infrastructure necessary to accommodate higher passenger levels in the 
longer term, to help reduce delays and to offset the impacts of 
construction costs, airport executives are urging Congress to raise the 
federally-imposed PFC cap, index the cap for construction cost 
inflation, increase AIP funding and permanently eliminate the 
Alternative Minimum Tax (AMT) penalty on airport private activity 
bonds.
    Raise the PFC Cap: The PFC program has helped airports increase 
safety, security and capacity and mitigate aircraft noise for almost 20 
years. The Aviation Safety and Capacity and Expansion Act of 1990 
included a provision that allowed airports to collect a local fee of up 
to $3 on passengers boarding aircraft at their facilities. AIR-21, 
which Congress passed in 2000, raised the cap to $4.50. Money generated 
from PFCs augments AIP funding and other sources or revenue that 
airports use for a variety of purposes including building new runways, 
taxiways and terminals.
    H.R. 915, the FAA Reauthorization Act of 2009, which the House 
Transportation and Infrastructure Committee approved earlier this year, 
proposes to raise the PFC cap to $7. That provision represents an 
enormous step in the right direction, but airports are encouraging 
Congress to raise the cap slightly higher to $7.50 and to index the cap 
for construction cost inflation.
    Airports collected about $2.7 billion from PFCs in calendar year 
2008--down from more than $2.8 billion the previous year. Airports are 
being hit on two fronts because overall PFC revenue is declining while 
the value of PFCs has eroded due to construction cost inflation. Since 
Congress raised the PFC cap to $4.50 in 2000, construction costs have 
risen by more than 53 percent.
    Due to construction cost inflation, a $3 PFC is worth approximately 
$1.53 today, and $4.50 PFC is worth about $2.51. Unless corrective 
action is taken, the value of PFCs will erode even more by 2012 when a 
$3 PFC is expected to be worth only $1.38 and a $4.50 PFC is expected 
to be worth only $2.26.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Some may suggest that raising the PFC cap by $3 is too much. But 
raising the PFC cap to $7.50 would not quite be enough to offset the 
impact of inflation in 2008. To accurately reflect construction cost 
inflation in 2009, the PFC cap would need to be raised to more than $8.
    According to the FAA, if all those airports collecting $4 and $4.50 
PFCs today began collecting $7 PFCs, raising the cap would generate 
approximately $1.3 billion per year. Raising the cap to $7.50 could 
generate slightly more funds for critical safety, security and delay-
reducing capacity projects at airports around the country including 97 
of the top 100 airports.
    Overall, 66 large and medium hub airports collect PFCs. However, 
large airports are not the only beneficiaries of the PFC program. Small 
airports also rely on PFC revenue to augment AIP funding they receive. 
According to the FAA, more than 300 small hub and smaller airports have 
been approved to collect PFCs, and 252 small airports collect PFCs at 
the maximum $4.50 level.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Even small airports that don't collect PFCs benefit from the 
program. That's because large and medium hub airports that collect PFCs 
have a portion of their AIP entitlements withheld. Specifically, large 
and medium hubs that collect $4.50 PFCs have 75 percent of their 
entitlements withheld. Current law requires 87.5 percent of those 
withheld funds be redistributed to small airports through the Small 
Airport Fund. Small airports received almost a half-billion dollars 
from the fund in FY07.
    Raising the PFC cap would also help stimulate the economy by 
creating much-needed jobs. According to DOT, every $1 billion invested 
in transportation infrastructure creates approximately 35,000 jobs. 
Raising the PFC cap to $7.50 and indexing it for construction cost 
inflation would help stimulate the economy by creating tens of 
thousands of good-paying jobs every year.
    Increase AIP Funding: In addition to raising the PFC cap, airport 
executives are continuing to urge Congress to increase AIP funding. AIP 
is an important source of funding for all sizes of airports and 
especially smaller airports around the country. Large and medium hub 
airports also depend on AIP funding--particularly money distributed 
through the Letter of Intent Program (both entitlement and 
discretionary funds) to help pay for large capacity projects.
    Airport executives are grateful that this subcommittee recommended 
increasing funding for airport construction projects by $100 million 
per year as part of S. 1300. We hope that you will increase AIP funding 
by at least that amount in the FAA reauthorization bill that you 
introduce this year and would encourage you to consider increasing 
funding so that the program keeps up with increased construction costs. 
Doing so would translate into $4.2 billion for AIP in FY10, $4.4 
billion in FY11 and $4.6 billion in FY12.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Impact of Economic Stimulus Package: Some may suggest that it isn't 
necessary to raise the PFC cap or increase AIP funding because airports 
will receive an additional $1.1 billion in AIP funds as part of the 
economic stimulus package that Congress passed earlier this year. 
Airports are grateful for the additional infrastructure funds. However, 
the additional revenue will essentially offset a shortfall in the 
amount of money that Congress appropriated for AIP in recent years.
    As members of this Subcommittee know, Vision 100 proposed 
increasing AIP funding by $100 million per year and authorized $3.6 
billion for AIP in FY06 and $3.7 billion in FY07. S. 1300, the FAA 
Reauthorization Bill that this panel approved in 2007, called for 
continuing that upward trend by authorizing $3.8 billion for AIP in 
FY08 and $3.9 billion in the following year.
    Despite the authorizing committee's support for increasing AIP 
funding by $100 million per year, Congress has appropriated 
approximately $3.5 billion for AIP every year during the past 4 years. 
This means that airports received approximately $1 billion less in AIP 
funds from FY06 through FY09 than this subcommittee approved. The 
additional AIP funding in the stimulus will help create jobs and make 
up the difference between the authorized and appropriated levels for 
AIP in recent years. However, the stimulus funding does not offset the 
need to raise the PFC cap or increase AIP funding.
    Permanent Fix for Airport Private Activity Bonds: AAAE has long 
argued that Federal tax law unfairly classified the vast majority of 
bonds that airports use as private activity even though they are used 
to finance runways, taxiways and other facilities that benefit the 
public. Since private activity bonds are subject to the AMT, airport 
bond issuers traditionally have been charged higher interest rates on 
their borrowing.
    The economic stimulus package eliminated the AMT penalty on private 
activity bonds that airports and other entities issue in the next 2 
years. The bill also allows airports and others to current refund bonds 
issued in the past 5 years that are callable in 2009 and 2010. The AMT 
provisions are helping airports create jobs by moving forward with 
critical infrastructure projects that had been delayed because of the 
financial crisis and the collapse of the bond market.
    The provisions in the stimulus package allowed the Metropolitan 
Washington Airports Authority to sell $400 million in airport revenue 
bonds in March. Other airports have also sold bonds including the Miami 
International Airport, which sold $600 million in airport revenue bonds 
just last week. Miami airport officials expect that eliminating the AMT 
penalty will save the airport between $9 million and $14 million per 
year. That's money that the airport could use to invest in other 
airport infrastructure projects and create even more jobs.
    Airports around the country owe Senate Majority Leader Harry Reid 
and Senator John Ensign a debt of gratitude for their leadership on 
this issue. I urge members of this panel to work with their colleagues 
on the Finance Committee to implement a permanent fix so airport 
private activity bonds are not subject to the AMT penalty.

Preserve Commercial Air Service To Small Communities: Fairly Conclude 
        ARFF Rulemaking Process
    Safety is by far the most important priority for airports around 
the country, and airport operators devote a great deal of time, effort 
and resources to continue to improve safety at their facilities. As 
part of that commitment to safety, airports work closely with the FAA 
and follow strict aircraft rescue and fire fighting requirements. Fire 
fighters are an integral component of a team of professionals dedicated 
to ensuring aviation safety, and all of us owe them a debt of gratitude 
for their service.
    Despite our strong relationship with fire fighters and our 
tremendous respect for their mission, we strongly oppose a provision in 
H.R. 915 that could force airports to comply with National Fire 
Protection Association (NFPA) standards. At first glance, this may seem 
like a reasonable approach to improve aviation safety. Upon closer 
review, however, it is clear that the plan would have a huge financial 
impact on airports of all sizes without demonstrating a clear safety 
benefit. It could also cause some small communities to lose commercial 
air service.
    To comply with NFPA standards airports would be required to 
dramatically increase the number of fire fighters at their facilities 
without any evidence that additional personnel are actually necessary. 
Airports would have no choice but to pass those additional operating 
costs on to the airlines at a time when large and small airports are 
trying to keep their costs low. Increased operating costs would be 
particularly devastating to small airports struggling to maintain and 
attract new commercial air service. In fact, many small airports fear 
that increased operating costs would cause them to completely lose 
commercial air service.
    The proposed NFPA standards would also increase airport 
infrastructure and equipment costs with little benefit in terms of 
enhanced safety. These requirements would force airports to divert 
scarce AIP funds away from necessary safety, security and capacity 
projects. This subcommittee previously proposed to fund AIP at between 
$3.8 billion and $4.1 billion per year. It could take as much as a full 
year's worth of AIP funding to pay for the additional infrastructure 
and equipment necessary to comply with NFPA standards.
    AAAE has been compiling information from airports around the 
country about the cost to comply with NFPA standards. Based on feedback 
the association has received from approximately 50 large, medium, small 
and non-hub airports, AAAE expects that the increased operating 
requirements could cost airports as much as $1 billion per year and $4 
billion in increased infrastructure and equipment costs.
    Again, these additional requirements would be particularly hard on 
small airports. For example, the Bismarck Municipal Airport would need 
to increase its roster of fire fighters from 7 to 27. The additional 
operating expenses would cost the airport almost $800,000 per year--
more than triple its current costs. The airport would also need to 
build a new ARFF station and purchase two new fire fighting vehicles 
costing a total of $6 million.
    The Myrtle Beach International Airport estimates that the NFPA 
standards would force the South Carolina airport to double the number 
of fire fighters from 13 to 23--costing the airport approximately 
$750,000 per year. Airport officials also anticipate that they would 
``incur increased infrastructure costs and equipment costs with little 
benefit in terms of enhanced safety.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The NFPA standards would have a huge financial impact on large 
airports, too. As Ranking Member Hutchison knows, Dallas-Fort Worth 
International Airport has seven runways and covers approximately 30 
square miles. It would cost the airport between $68.8 million and $83.8 
million to construct new ARFF facilities and purchase new fire fighting 
vehicles to comply with NFPA standards. The annual operations costs 
would add on another $25.6 million to $28.4 million every year.
    There is already an FAA-led process in place to review and update 
current fire fighting standards at airports. Rather than adopting a 
one-sided proposal that would tilt the playing field toward one 
particular stakeholder in that process, Congress should allow the FAA 
to continue to work with all aviation stakeholders toward bringing the 
existing rulemaking process to a fair conclusion instead.

AIP and PFC Modifications
    Maintain Higher Federal Match for Small Airports: Vision 100 
included a helpful provision that increased the Federal share for small 
hub and smaller airports from 90 percent to 95 percent through FY07. 
Airport executives around the country appreciate that this subcommittee 
proposed to maintain that higher Federal match in S. 1300. In these 
challenging economic times, small communities around the country are 
finding it very difficult to come up with a 5 percent local matching 
share. Increasing the amount to 10 percent could prevent certain small 
airports from moving forward with planned construction projects. We 
hope you will retain that provision in the next FAA bill.
    Minimum Entitlements and Annual Apportionments: We also recommend 
that you include a provision in the bill that would allow airports to 
continue to receive the minimum entitlements even if their enplanements 
dipped below 10,000 in 2008 as a result of service cuts related to high 
fuel costs and/or the downturn in the economy. We are similarly 
proposing that entitlements for airports with more than 10,000 
enplanements not be reduced if their passenger levels declined in 2008.
    Commercial service airports rely on revenue generated from 
airlines, other airport tenants and passengers to meet their 
operational and infrastructure requirements. Decreasing numbers of 
flights and passengers translate into fewer dollars for airports to use 
for operational purposes or to invest in infrastructure projects that 
help stimulate the economy by creating jobs. Allowing airports to 
continue to maintain their minimum entitlements and annual 
apportionments would ensure that airports are not unnecessarily 
penalized even more.
    Land Acquired for Noise Compatibility Purposes: Airports appreciate 
the fact that S. 1300 included a provision that would have made a grant 
assurance change regarding the sale of land that an airport initially 
acquired for a noise compatibility purpose but not longer needs. 
Current law requires that the proceeds proportional to the Federal 
Government's share of the land acquisition be returned to the aviation 
trust fund.
    The Senate version of the reauthorization bill would have allowed 
DOT to reinvest the government's share of the proceeds in another 
project at that airport or another airport. However, when an airport 
leases land that it initially acquired for a noise compatibility 
purpose, the FAA considers that to be a disposal and requires the 
airport to return the Federal funds it received to purchase the land.
    Airports would like to be able to retain control of the land they 
acquired for noise compatibility purposes through leasing so they are 
not forced to sell land that they may need at a later date when that 
same parcel of land may be selling at a higher price (and at a greater 
cost to the Federal Government and the airport) or may not be available 
to purchase at all. We would like to continue to work with this 
subcommittee to achieve that goal.
    Streamline PFC Process: Airports supported the previous 
Administration's proposal to streamline the PFC application and 
approval process. The FAA pointed out that ``current law requires an 
application and approval of each PFC project (or amendment to a 
project) that sometimes involves prolonged reviews and delays.'' We 
agree with the FAA's assessment and strongly support streamlining the 
PFC process, which currently takes several months to complete.
    Airports work closely with our airline partners to reach consensus 
on PFC-funded projects and will continue to do so if Congress endorses 
PFC streamlining. For instance, airports would continue to provide a 
reasonable notice and comment period for carriers operating at their 
facilities. However, airports should be allowed to impose a new PFC 
earlier in the process, avoid months in unnecessary delays, and create 
jobs more quickly. Should a carrier file an objection, DOT would have 
the authority to terminate the airport's authority to collect PFCs for 
the new project if the agency concurred with the objection.

Small Community Issues
    Increase Funding for Small Community Air Service Development 
Program: AAAE has been a long-time proponent of the Small Community Air 
Service Development Program. Since Congress created the Small Community 
Program in 2000, it has helped numerous small communities around the 
country suffering from insufficient air service or unreasonably high 
fares. Airports are grateful that S. 1300 included $35 million per year 
for this critical program.
    Considering the number of communities that apply for funds from 
this program and the increasing pressures on small communities, we urge 
this subcommittee to consider making a greater investment in this 
critical program. Specifically, we urge you to authorize $50 million 
for the program per year and allow communities to receive follow-on 
grants for the same project. We also recommend that small airports be 
allowed to reduce their operating costs by using small community grants 
for ground handling services.
    Mr. Chairman, we would also like to bring to your attention an 
issue related to the Small Community Program. Last year, DOT received 
66 proposals from communities in 32 states requesting more than $36 
million ``to support new and ongoing air service development 
projects.'' However, the demand for Federal assistance far exceeded the 
approximately $10 million that Congress approved for the program in the 
FY08.
    In September, DOT announced that it had awarded grants that will 
benefit 16 communities in 12 states. Those communities will receive 
between $100,000 and $750,000 in grants and are contributing their own 
resources to their respective projects. However, airport executives 
were shocked to learn that of the $10 million that Congress 
appropriated for this program, only $6.85 million is actually slated to 
go to small communities that need assistance. According to DOT's order, 
the other $3.15 million will be used to cover ``current and future 
administrative support costs.''
    Designating 32 percent of funds appropriated for the Small 
Community Program for administrative purposes seems unreasonably high 
to us. By contrast, the FAA withheld $75 million in Fiscal Year 2007 to 
distribute more than 2,000 AIP grants--or approximately 2 percent of 
the $3.5 billion that Congress appropriated for the AIP program that 
year.
    Many airport executives question why DOT needs $3.2 million to 
administer only 16 Small Community Program grants. Some or all of those 
funds could be distributed to other small communities struggling to 
retain or attract new commercial air service instead. Based on the 
average grant award, $3.2 million could be used to fund another seven 
projects.
    We encourage you and your colleagues on the Aviation Subcommittee 
to examine DOT's decision to allocate such a large portion of small 
community funds for administrative purposes. Airports would strongly 
prefer that DOT designate some or all of the $3.2 million to other 
small communities that have applied for grants instead.
    Maintain Essential Air Service Program: Last year was a challenging 
year for many EAS communities. Due, in part, to rapidly increasing fuel 
prices and air service cuts, 37 eligible EAS communities temporarily 
lost service last year. When all the service disruptions were added up, 
EAS communities were without air service for more than 200 months. 
Seven EAS communities still do not have air service.
    Airport executives are pleased that this subcommittee rejected the 
previous Administration's proposal to drastically cut funding for the 
EAS program to $50 million per year. Small airports around the country 
were encouraged that this panel agreed to provide a total of $175 
million per year for the program instead. We encourage Congress to 
maintain adequate funding for EAS and continue to take steps to improve 
this critical program.
    Invest in FAA's Contract Tower Program: Another program that has 
improved air traffic control efficiency and safety at airports in small 
communities is the FAA's Contract Tower Program. This program has been 
in place since 1982 and currently provides for the efficient and cost-
effective operation of air traffic control towers at 242 smaller 
airports in 46 states. Without the Contract Tower Program many simply 
would not have any air traffic control services at their facilities.
    AIR-21 included a provision that created the Contract Tower Cost 
Share Program, which currently allows 16 airports in 12 states that 
fall slightly below the eligibility criteria to participate in the 
program if they provide local funds. We recommend that this 
subcommittee authorize $9.5 million for the Contract Tower Cost Share 
Program in FY10 and increase the amount by $500,000 per year. Doing so 
would keep the existing towers operating and allow additional non-
towered airports to participate in the program.

Other Recommendations
    Expand VALE Program: As a result of a provision contained in Vision 
100, the FAA established the Voluntary Airport Low Emissions program to 
assist airports with implementing air quality emission reduction 
programs. Only those airports that are in nonattainment and maintenance 
areas for certain pollutants are eligible to participate in this 
program.
    Given the importance of air quality to communities we believe that 
this program should be opened up to all airports, regardless of their 
air quality designation. As a recent Governmental Accountability Office 
report noted, airports are just beginning to take advantage of this 
program, and opening it to more airports would enhance its success and 
reduce emissions.
    Phase Out Stage Two Aircraft: S. 1300 included a welcome provision 
calling for the phase out of Stage 2 aircraft with a maximum weight of 
75,000 pounds by December 31, 2012. We encourage you to maintain the 
provision in next version of the FAA reauthorization bill.

Conclusion
    Chairman Dorgan, Ranking Member DeMint and members of Aviation, 
thank you again for inviting me to appear before the Subcommittee on 
Aviation Operations, Safety, and Security, to discuss the FAA 
reauthorization bill. As I mentioned at the beginning of my statement, 
airports are grateful to this subcommittee for including a number of 
key airport provisions S. 1300 in the last Congress. We look forward to 
continuing to work with as you reconsider the FAA reauthorization bill 
again this year.

    Senator Dorgan. Mr. Barclay, thank you very much.
    We are joined by the Ranking Member of this Subcommittee 
and Ranking Member of the full Committee. I started with Mr. 
Barclay. We have not done opening statements. We started with 
the witnesses, but does the Ranking Member of the Subcommittee 
wish to comment at this moment?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. I thank the Chairman. I'll reserve most of 
my comments and ask if I can submit my whole statement for the 
record.
    But I was just reminded, I met with a few families who had 
lost family members in the crash going into Buffalo in 
February, and we met with the nominee, Mr. Babbitt, of the FAA, 
and he was gracious enough not only to meet with me but to meet 
with the families and we were reminded, which I know I don't 
need to remind anyone on this panel or here today, that 
everything we're doing is to serve those people who ride in the 
planes, the Americans who want a more efficient, safe air 
travel system in our country.
    It's not really to serve political goals or bureaucracy 
here, and a very somber meeting with folks who lost loved ones 
and then for them to begin to see, as the facts emerged, that 
maybe we didn't do everything we can to keep that from 
happening. I think as we go through this process of 
modernizing, there's a lot of work to do.
    Hopefully it will be bipartisan, not to serve our goals, 
but to serve those folks who trust us every day for their 
safety.
    I look forward to the testimony and I'll just reserve my 
questions for later.
    Thank you.
    Senator Dorgan. As a courtesy to the Ranking Member of the 
full Committee, do you wish to have a comment, and if so, then 
I'll call on the other two, as well, for very brief comments 
and then we'll go back to the panel?

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I, too, will be 
brief, but I do appreciate your having this hearing.
    It is very important. I was the Chairman and also Ranking 
Member of the Aviation Subcommittee before I became Ranking on 
the full Committee and when I was Ranking just last session, 
Senator Rockefeller and I came to an agreement on the FAA 
Reauthorization Bill. It was a very good proposal. We had 
hashed out all the issues and were ready to go forward, but we 
were not able to get the consensus with the House.
    Now we have another year and another Congress and I hope 
that we can have a bipartisan bill that really focuses on the 
two major issues and that is safety, which is Number 1, and 
NextGen, which is going to be a factor for not only increasing 
our air space but also hopefully increasing the stability and 
safety of our air space.
    I hope that we will look to confine the FAA Reauthorization 
Bill to those key issues and not get bogged down in other 
controversial but not essential issues. That would be my hope 
for this Subcommittee as well as the full Committee when we do 
go to a mark-up.
    It is essential that we go forward and have an FAA 
Administrator who sets the policy for NextGen, who determines 
what we can do for the investment that will be made because 
some of the organizations represented at this table will be 
asked to basically pay for the improvement in our air traffic 
control capabilities.
    So we need to be clear in that focus and then we must 
address the issues of safety and how we can ensure that our 
system is the very best in the land.
    So with that, Mr. Chairman, I thank you and certainly 
Senator Rockefeller and I will be very much a part of the mark-
up and the overall addressing of the authorization of the FAA 
going forward.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Mr. Chairman, for holding today's hearing. It is my 
understanding that our staffs have been working together and we may 
have a draft reauthorization proposal sometime after the Memorial Day 
recess.
    We have a tremendous opportunity over the next few months to make 
great strides toward modernizing our air traffic control system and 
putting the FAA on the right path, and I look forward to working with 
you on that goal
    We have an opportunity to directly impact and accelerate the FAA's 
air traffic control modernization efforts. While the FAA has been 
moving in the right direction, Congress needs to provide further 
clarification on what we expect in the short-term.
    While sound long-term planning is still an important cog in the 
overall process, it is time for the FAA to effectively and efficiently 
start implementing NextGen. We need to start seeing the development of 
programs and projects that provide specific benefits and efficiencies 
to the users of the system. We cannot expect stakeholders to support 
NextGen and the investment necessary if the FAA cannot demonstrate the 
benefits of modernization.
    Our air traffic facilities need to be upgraded. While airspace 
projects are sometimes more difficult to understand and less tangible 
than highway or rail projects, they are no less important and deserve a 
significant amount of attention.
    As this Committee knows, Chairman Rockefeller and I worked together 
on an amendment to the stimulus bill that would have accelerated 
NextGen developments and procedures across the country. That amendment 
ultimately was not accepted into the final package, but it was a move 
in the right direction and a signal that we are serious about improving 
this system.
    However, in order to pass an FAA Reauthorization Bill this year, we 
are going to need a lot of cooperation and understanding from the 
aviation community, the Administration, and Congress. As exhibited by 
the process last year, this bill cannot carry or be the vehicle for 
controversial provisions.
    Passing an FAA bill should be a priority for this Congress. This is 
a fragile process and Congress should focus on safety improvements and 
NextGen acceleration and not get bogged down with issues that could 
ultimately lead to the challenges we faced last Congress.
    Thank you, I look forward to the testimony.

    Senator Dorgan. Thank you very much. Senator Warner, do you 
wish to have a minute?
    Senator Warner. No, Mr. Chairman. I just, I am looking 
forward to learning. As somebody who was a former Governor and 
oftentimes got frustrated with the lack of progress on these 
issues, I'm anxious to learn why there has not been that 
progress and hopefully can contribute to a solution.
    Senator Dorgan. Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Just very, very briefly. I hadn't planned 
on saying anything, but, Mr. Chairman, your thoughts on a 
hearing on safety, I want to endorse.
    The family members from the Buffalo crash did come in to 
see me, too, and, first of all, it's enormously sad, but, 
second, when you read the transcript from those last minutes, 
it's appalling.
    I hope we dig deep there. I hope we get a good 
understanding of what training is happening, what is not 
happening, the condition of equipment, and the safety record of 
that equipment. I just think there are a lot of questions and I 
think we owe it to these families and other families who have 
been so profoundly impacted.
    So I was going to try to pull you aside and say is there 
something we can do here and so I really appreciate your 
comments about having a safety hearing. I want to endorse that 
and support that.
    Senator Dorgan. Senator Cantwell, we're doing one-minute 
openings. We started with the panel, but we'd be happy to 
recognize you for a minute.
    Senator Cantwell. One minute?
    Senator Dorgan. We weren't actually going to do any opening 
statement because we have 10 witnesses, but because of 
circumstances, we decided to offer some opening statements. 
You're welcome to make some.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well, thank you, Mr. Chairman. You know, 
I will. Thank you very much.
    I hopefully will have a chance to ask the witnesses today 
about the NextGen implementation and focus particularly on 
required navigation performance, RNP.
    To have very high precision navigation on determined paths 
really does help us in many ways, including on greenhouse gas 
emissions. And some of this technology is being tested now 
currently at SeaTac Airport with Alaska Airlines and so I want 
to get your thoughts on that.
    And obviously want to, Mr. May and Ms. Blakey, talk to you 
about the need for the Federal Government to continue to 
support efforts in aviation biofuels, something that I hope the 
FAA can pass the FAA airworthiness standards and I think that's 
very important in its development and I think we still probably 
have some gaps and it's very important that we fill those gaps.
    Last, just on UAVs, I think that this is important 
technology. Two years ago, Mr. Chairman, we tried to get an--
well, we did have an amendment, we didn't have the bill pass, 
but obviously in accelerating the use of UAVs and I know that's 
a challenge for FAA but something--the technology is so vital 
to improving so many different aspects of whether it's dealing 
with our security efforts on Coast Guard or Border Security or 
fighting forest fires and having information. We need better 
coordination and we need the FAA to move on that.
    So anyway, thank you, Mr. Chairman.
    Senator Dorgan. Thank you very much.
    Next, we'll hear from Marion Blakey, the President and 
Chief Executive Officer of Aerospace Industries Association.
    Ms. Blakey, you may proceed.

    STATEMENT OF HON. MARION C. BLAKEY, PRESIDENT AND CEO, 
                AEROSPACE INDUSTRIES ASSOCIATION

    Ms. Blakey. Good afternoon, Chairman Dorgan. Let's see if I 
can--is that better?
    Chairman Dorgan, Ranking Member DeMint, Ranking Member 
Hutchison, and all of the distinguished members of this panel, 
I want to say how very pleased I am to be here and have an 
opportunity to testify before you once again.
    I now represent the Aerospace Industries Association and 
our almost 300 member companies. In this economy, I think it's 
important to point out that our industry is responsible for 
more than two million well-paying jobs, $95 billion in exports 
last year, leading to a positive foreign trade balance of $57 
billion. It's the largest of any U.S. manufacturing sector.
    As you know, the civil aviation sector is going through a 
very difficult time. Commercial carriers continue to take 
capacity out of the system due to the decreased demand. At the 
same time, consequently, our commercial aircraft manufacturing 
sector had backlogs that were once stretching out for years. At 
this point they are shrinking.
    Manufacturers of general aviation aircraft have been 
particularly hard hit in this economy because of the negative 
effects of public anger at the behavior of executives in 
another industry, and the subsequent rhetoric that was hurled 
at the business jet community.
    Airlines will eventually recover with a strong return of 
demand and public confidence and economic progress will get the 
general aviation plants back humming, as well, but the 
sustained growth of commercial and general aviation does not 
simply depend on a return to national economic prosperity.
    What's needed is a national aerospace system that will 
accommodate new demand, economic growth and, critically 
importantly, enhanced safety. I like the emphasis in this 
hearing today on safety, it always has to be first and 
foremost, and I compliment you on beginning there.
    As you all know, the new system I'm referring to is 
NextGen. Nothing is more important to the future of global air 
travel than building and implementing the NextGeneration Air 
Transportation System.
    We have a unique opportunity to take advantage of our 
economic situation. We should use FAA Reauthorization and this 
Administration's commitment to recapitalize our Nation's 
transportation infrastructure as an opportunity to accelerate 
NextGen and help the users of the new system take full 
advantage of its benefits.
    This Administration is right to invest Recovery Act funds 
into infrastructure, but we missed an excellent opportunity to 
use some of that money to improve aviation infrastructure with 
shovel-ready improvements to our 50-year-old air traffic 
system, as well.
    President Obama has done a masterful job of selecting the 
right officials to move this forward. Secretary LaHood has hit 
the ground running and let this industry know that the 
Administration is committed to NextGen.
    We look forward to continued support from Secretary LaHood 
and from Randy Babbitt, the FAA Administrator-nominee.
    There are a number of significant challenges ahead. NextGen 
is comprised of three broad components: ground technology 
infrastructure, air traffic procedures, and aircraft equipment, 
all of which must be delivered together to ensure maximum 
benefits.
    ADS-B is a success story so far, Automatic Dependent 
Surveillance Broadcast is the backbone of the system, but we've 
got to redouble our efforts on data communications and SWIM, 
Systemwide Information Management.
    Second. We've got to ensure that we build and use 
performance-based navigation procedures. Yes, RNP, Senator 
Cantwell, you're quite right. And we need to have them at every 
airport that's currently capable of accommodating instrument 
flight rules traffic.
    And finally, there's that long pole in the tent and by 
this, I mean equipping aircraft to use the system.
    For these three critical factors to move implementation 
forward, we need to establish solid funding through the FAA's 
reauthorization and an increase in the annual General Fund 
contribution.
    Now, I want to mention just one other thing before closing 
and that is the House language in the Reauthorization Bill on 
repair stations.
    Industry is committed to safety and security at repair 
stations around the world as a global industry we should be. We 
depend on an international network of safe, secure stations to 
repair and maintain aircraft, but we believe that the proposed 
language, as currently constituted, could actually undermine 
the safety systems we're constantly improving while damaging 
leadership around the world for the United States and violating 
longstanding safety agreements. I hope the Committee will take 
a close look at this.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Blakey follows:]

    Prepared Statement of Hon. Marion C. Blakey, President and CEO, 
                    Aerospace Industries Association

    Chairman Dorgan, Senator DeMint, Members of the Committee--good 
morning. It is a pleasure and an honor to testify before this Committee 
once again. I represent the Aerospace Industries Association (AIA)--we 
are an association of nearly 300 aerospace manufacturing companies and 
the 657,000 highly skilled employees who make the aircraft that fly in 
our airspace every day as well as the avionics and air navigation 
equipment that allow them to do that safely. I'm especially happy to 
come before you to talk about the FAA Reauthorization, including the 
modernization of the air transportation system, and the safe use of 
foreign repair stations.
    You know, it's been said that in this town where you stand on an 
issue depends on where you sit. Well, when it comes to NextGen, I may 
have changed seats, but my views on NextGen haven't changed. Our 
National Airspace System (NAS) needs NextGen as much today as it did 
when I was at the Federal Aviation Administration (FAA). In fact, we 
need it even more. Because NextGen isn't just about reducing delays--
although it will certainly do that. And it isn't just about improving 
civil aviation's environmental stewardship--although that too will be a 
welcome benefit of NextGen's implementation. It isn't even about the 
added margin of safety NextGen technology will bring to our complex 
system of communication, navigation and surveillance. NextGen is no 
single thing . . . it's all of these things. And I would like to 
explain why we believe it is critical and why the benefits of NextGen 
may be closer than we think. NextGen is critical to our economy now. To 
delay or fail to implement the NextGen system risks the U.S. aerospace 
industry's position as the Nation's pre-eminent manufacturing exporter 
(approximately $95 billion annually). It has the potential to cost the 
Nation about $35 billion in annual economic loss by 2014, and 
approximately $52 billion in annual economic loss by 2024 just in unmet 
demand.\1\ If aviation growth is constrained, job growth suffers. 
Employment trends in aviation-related industries indicate a possible 
loss of as many as 2 million new jobs every 5 years.\2\ Only through 
NextGen will the U.S. retain its global aeronautics leadership, which 
affects not only aviation but numerous other industries and businesses 
as well because of aviation's extensive ripple effect throughout the 
economy.
---------------------------------------------------------------------------
    \1\ JPDO.
    \2\ AIA projected estimates based on industry forecasts, 
incorporating lower commercial airline employment expectations.
---------------------------------------------------------------------------
Environmental Benefits of NextGen
    Addressing climate change is high on everyone's agenda, including 
those of us in aerospace. We view NextGen and environmental improvement 
as inseparable. Air traffic control delays waste millions of gallons of 
fuel annually. For instance, more than 4.3 million hours of delays in 
2007 \3\ consumed an additional 740 million gallons of jet fuel, 
costing carriers more than $1.6 billion. This produced approximately 
7.1 million metric tons of carbon dioxide.\4\ It's simple math--a more 
efficient system means less fuel burn. And less fuel burn means less 
CO<INF>2</INF> emissions.
---------------------------------------------------------------------------
    \3\ Delay measurement excludes padding of block times to increase 
on-time performance; ibid, p. 3.
    \4\ Your Flight Has been Delayed Again, emissions during taxi and 
flight time, p. 5.
---------------------------------------------------------------------------
    The cost to the airlines and the cost to the environment are simply 
unacceptable, especially when we all know they can be significantly 
reduced. Delays cost the traveling public as well--billions of dollars 
in lost productivity. And consider, too, that these are unnecessary 
costs to consumers. Manufacturers are designing and building 21st 
Century aircraft. However our air traffic system has not moved into the 
21st Century--it is virtually the same system in which the noisier, 
dirtier aircraft of the 1960s flew.
    NextGen will create system efficiencies that will help reduce 
aviation's contribution to climate change. Forty years of innovative 
engine, airframe and avionics design have vastly improved aviation's 
noise and carbon footprint. Compared to the 1970s, ninety percent fewer 
people are impacted by aircraft noise today. And modern civil aircraft 
are seventy percent more fuel efficient than they were in the 1960s.
    But these improvements have come mostly from technological and 
procedural improvements within an air traffic system that has not 
changed fundamentally in more than forty years. It is now time to bring 
our National Airspace System into the 21st Century.

NextGen is Now
    I tell you about aviation's past success as prelude to what we can 
do in the near future. President Obama has identified implementation of 
NextGen as a national priority. Recently, Secretary of Transportation 
Ray LaHood has said that the Administration might be willing to ask 
Congress to provide extra funds to accelerate NextGen if the FAA and 
industry can articulate a roadmap that would shorten NextGen 
implementation to years instead of decades. Industry stands ready to do 
its part and support FAA on several important fronts. First, FAA needs 
to define standards and specifications for NextGen applications not yet 
certified for NAS-wide use, like Automatic Dependent Surveillance-
Broadcast (ADS-B) ``In,'' for example. Next, FAA needs to focus its 
certification of new performance-based procedures at airports and in 
regions that have the most traffic and delays. Many of NextGen's new 
operational procedures and technologies will shorten flights, reduce 
fuel burn, produce quieter approaches and departures and they are 
available today.
    Once we have identified the equipment that can be installed and the 
procedures that can be put in place, we can predict when and where we 
will begin collecting benefits. Every airport where performance-based 
approaches have been installed has demonstrated substantial economic, 
environmental and delay reduction benefits in the first year of 
operation. For example, Delta Air Lines reported combined fuel and 
operations efficiencies of $34 million in the first year after FAA 
added two RNAV departure posts at Atlanta Hartsfield International 
Airport.
    NextGen technologies will also bring efficiencies to the en route 
structure. Lockheed Martin's En Route Automation Modernization (ERAM) 
system will enable the FAA to increase capacity and improve efficiency 
in a way that is impossible with the current system, which cannot be 
expanded. The ERAM system adds capabilities needed to support the 
evolution to NextGen. ERAM is currently scheduled to be operational 
throughout the Nation next year--not decades from now. My friends in 
the airline industry can go into the details, but these are big 
savings. When translated into dollars, they can make a huge difference 
to an industry struggling through difficult times. NextGen can do this, 
but not without the resolve of this committee, the FAA and the entire 
civil aviation community.
    ADS-B has the potential to reduce delays, reduce fuel burn through 
more efficient routings and increase capacity--all while improving 
safety. ADS-B will provide pilots and controllers with better 
situational awareness, which will substantially reduce runway 
incursions and enhance traffic flow. But this can only be achieved if 
the current and future fleet of commercial and general aviation 
aircraft have the on-board equipment to use this technology.
    While these new capabilities will enhance safety, their accuracy 
will also allow closer separation of aircraft. This will increase 
system capacity, maintain safety and deliver economic benefits. These 
economic benefits are critical for operator investment in NextGen 
avionics equipment. ADS-B can also provide surveillance to areas 
without radar coverage such as the Gulf of Mexico, safely reducing 
aircraft separation over the Gulf from 100 miles to a standard 10-mile 
en route separation.
    Any doubters of FAA's ability to deliver these new capabilities 
should take note that in 2008 the General Accounting Office removed FAA 
modernization from its list of ``high-risk'' Federal programs. Further, 
the Office of Management and Budget's project management tool called 
the Earned Value Management (EVM) system (for Federal contracts of $10 
million or more) has given the ITT ADS-B contract a score of .97 out of 
a possible 1.0 for deployment of ground infrastructure and an above 
perfect score of 1.04 for being under budget.
    I also want to draw attention to the growth of the use of unmanned 
systems for civil missions and the importance of their integration in 
the NextGen system. Even now, Unmanned Aircraft Systems (UAS) are being 
used by Customs and Border Protection for surveillance and border 
patrol. They have the potential to support first responders in disaster 
relief, provide important weather data and are a cost-effective 
solution for local law enforcement in a variety of missions. AIA is 
encouraged by the FAA's efforts to provide a means to operate these 
aircraft in the NAS, while working to establish safety and operating 
standards. If the FAA hopes to meet current and projected demand for 
more routine military training missions as these aircraft return from 
Iraq and Afghanistan, and support other government agencies in their 
missions, adequate certification resources must be made available. With 
the projected demand in UAS services in the coming years, AIA 
encourages Congress to provide these resources and place more emphasis 
on this important issue.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the above excerpt from FAA's NextGen Implementation Plan shows, 
in order to accelerate NextGen, we need to address three critical 
areas. Failure to fully implement any one factor means the full 
benefits of NextGen will not be realized. Therefore, Congress must 
ensure that all three areas are funded or developed in concert. And, 
critically, we need a critical mass of user equipage to begin to 
realize system benefits of NextGen. We must also install ADS-B 
transmitters across the Nation for full coverage, and install 
Performance-Based Navigation (PBN) procedures at every airport 
currently capable of accommodating instrument flight rules traffic.
    Although the system will always evolve, FAA projects all currently 
planned aspects of NextGen will be fully operational in 2025. To 
achieve most of the benefits, I believe we can do much better than 
2025, but even under an accelerated schedule, NextGen is a multi-year, 
multi-billion dollar, nationwide transformation. It is not something 
that can be accomplished 90 days at a time. Yet, that is how we've 
treated the FAA's funding and expenditure authority for almost 2 years. 
As FAA is dependent on periodic legislation to modify, sustain and 
improve this essential program, the start-stop process of funding and 
authorization is impairing the ability to rebuild our aviation 
infrastructure.
    What few realize is that many of these systems are available today. 
With near-term benefits within arms reach, AIA and its industry 
partners call on this Committee, this Congress and the Obama 
Administration to pursue the modernization of the air transportation 
system as the national priority that it is. While this may sound 
daunting, it is imperative that we continue to flesh out the near term 
opportunities, and the almost 300 companies that make up AIA believe 
this is possible by addressing the two key points of modernization--
Infrastructure and Equipage.

Near-Term Opportunities: Infrastructure
    In order to increase the availability of performance-based 
navigation at airports, AIA recommends the inclusion of proper 
resources for the FAA Office of Aviation Safety to certify and oversee 
performance-based procedures developed by third parties. History tells 
us that huge improvements in efficiency--both economic and 
environmental--follow at airports that install performance-based 
navigation procedures. Technologies and procedures can be deployed to 
save fuel and reduce emissions. Required Navigation Performance, 
Continuous Descent Arrivals or Tailored Arrivals and Ground-Based 
Augmentation Systems are three technologies that have been shown to 
provide significant environmental benefits.

Required Navigation Performance and Continuous Descent Arrivals
    Performance-based navigation using Required Navigation Performance 
(RNP) and Area Navigation (RNAV) relies on Global Positioning System 
(GPS) and inertial navigation technology to allow aircraft to fly 
accurate paths independent of classical ground-based navigation 
infrastructure. This enables flight paths between cities that are more 
direct, with fewer miles flown, and approach and departure procedures 
that are shorter and involve little, if any, intervention from air 
traffic controllers. The result is significant decreases in distance 
and time flown. Practical, `real world' demonstrations of RNP's 
effectiveness abound:

  <bullet> Australia's Qantas Airlines, for example, has its fleet of 
        Boeing 737s flying more than 100 RNP procedures each day. These 
        procedures in Brisbane alone cut approximately 15 miles and 
        more than 1,600 pounds of CO<INF>2</INF> emissions on every 
        approach.

  <bullet> Southwest Airlines recently operated a Boeing 737 
        demonstration roundtrip between Dallas Love Field and Houston 
        Hobby using RNP procedures, yielding 904 pounds of carbon 
        dioxide savings, part of its $175 million program to implement 
        RNP fleet-wide.

  <bullet> Since 2005, Alaska Airlines, an early RNP pioneer, has 
        documented 5,300 flights that avoided diversions by using RNP 
        procedures. In 2008, these `saves' resulted in cost savings of 
        $8 million.

    Another procedural improvement that doesn't always require the use 
of RNP, but generates substantial efficiencies is Tailored Arrivals 
(TA). These procedures couple the lateral accuracy provided by RNP with 
the vertical accuracy provided by the aircraft's Flight Management 
System (FMS) and flight controls. The flight path is coordinated with 
air traffic control via data link communications. The resulting descent 
is flown from cruise altitude to final approach with few, if any, level 
segments and the engines operating continuously at or near idle power.

  <bullet> UPS uses these procedures at Louisville, with reported 
        savings of between 250 and 465 pounds of fuel (37-69 gallons, 
        780-1,456 pounds of CO<INF>2</INF>) per arrival.

  <bullet> SAS Airlines have flown more than 1,300 Continuous Descent 
        Arrivals to Arlanda, Sweden, with average fuel savings of 410 
        pounds of fuel (60 gallons, 1,279 pounds CO<INF>2</INF>) per 
        arrival.

  <bullet> Tailored Arrivals have reduced fuel use by nearly 2 million 
        pounds (or 1 million kilograms) and CO<INF>2</INF> emissions by 
        6.3 million pounds (or 3.1 million kilograms) over a year at 
        San Francisco International Airport. The data cover 1,000 
        flights by 777s and 747s from six airlines.

    Operational use of these capabilities should be accelerated, in 
accordance with the following implementation metrics:

  <bullet> First and foremost, accelerate developments of system 
        requirements so both government and industry can comply before 
        2020 deadline.

  <bullet> Performance based navigation procedures should be deployed 
        at the 35 Operational Evolution Partnership (OEP) airports by 
        2013 to include where applicable RNAV/RNP, CDA and Ground-Based 
        Augmentation System (GBAS).

Near-Term Opportunities: Equipage
    As you know, efficiencies, delay reductions and environmental 
benefits are directly related to the number of aircraft equipped to use 
performance-based procedures once they are installed at a congested 
airport. The more aircraft equipped to use these new procedures, the 
higher the benefits. It's as simple as that. No matter how many systems 
are operational, efficiencies will inevitably depend on an operator's 
commitment to equip aircraft.
    I would like to echo the sentiment of the GAO who earlier this year 
reported that without widespread user equipage, system-wide economic 
and environmental benefits of NextGen will not be realized. While I 
appreciate this Committee's support of equipage incentives in the 
economic recovery package, it is a shame that billions of dollars were 
obligated for national infrastructure priorities, but outside of money 
for airports, we spent virtually nothing on the global transportation 
infrastructure of the 21st Century--air transportation modernization. 
We have near-term, ``shovel-ready'' infrastructure improvements we must 
make to our fifty-year-old air traffic control system that will benefit 
our economy both immediately and for the next 50 years. Government and 
industry experts alike have long held that aircraft equipage is the 
``long pole in the tent'' to achieve this overdue transformation of our 
national airspace system. If commercial and general aviation aircraft 
are not equipped with NextGen-enabling avionics, implementation will 
not succeed.
    We need a two-pronged strategy with regard to user equipage. First, 
we need to make the purchase and installation of NextGen avionics 
economically viable in this difficult fiscal environment. The cost for 
these critical avionics components is prohibitive--especially the 
expensive and time-consuming process of retrofitting the current fleet. 
Second, we need to define NextGen's economic and environmental benefits 
in a way that makes the equipment purchase defensible to corporate 
boards and shareholders. The government should not mandate the purchase 
of new equipment if it is not prepared to commit to its benefits at a 
point in time. Below is a list of avionics equipment and procedures 
that will enable NextGen. These are already in use and some, such as 
Trajectory-Based Operations (TBO) and Closely Spaced Parallel 
Operations (CSPO), will provide additional benefits down the road.

  <bullet> ADS-B

  <bullet> RNP Equipage

  <bullet> FAA RNAV/RNP Procedure Development

  <bullet> FAA LPV Procedures Development

  <bullet> Electronic Display Upgrades (including Electronic Flight 
        Bags)

  <bullet> GBAS

    A few details on some of these capabilities may be helpful:

  <bullet> Automatic Dependent Surveillance-Broadcast (ADS-B)--ADS-B is 
        a critical component for advancing a next-generation air 
        transportation system. By relying upon satellite and additional 
        technology, ADS-B enables an aircraft to constantly broadcast 
        its current position simultaneously to air traffic controllers 
        and other aircraft. Tremendous safety, security, capacity and 
        environmental improvements are realized. ADS-B has two 
        components--ADS-B ``Out'' and ``In.'' ADS-B ``Out'' 
        continuously transmits an aircraft's position, altitude and 
        intent to controllers. ADS-B ``In'' is the reception of the 
        transmitted data by other aircraft, which allows pilots to have 
        a complete picture of their aircraft in relation to other 
        traffic.

  <bullet> Required Navigation Performance (RNP) procedures (higher 
        performance RNAV)--monitors aircraft performance, enables 
        closer en route spacing without intervention by air traffic 
        control and permits more precise and consistent departures/
        arrivals. Another immediate infrastructure improvement is 
        available with investments in precision satellite-based 
        instrument approaches, called Localizer Performance with 
        Vertical (LPV) approaches. LPV approach procedures improve 
        safety and provide all weather access at thousands of general 
        aviation airports.

  <bullet> Area Navigation (RNAV)--enables aircraft to fly on any path 
        within coverage of ground or space-based navigation aids, 
        permitting more access and flexibility for point-to-point 
        operations.

  <bullet> Ground-Based Augmentation System (GBAS)--GBAS is the next 
        generation technology to support precision landings. It 
        provides additional information to aircraft to allow GPS to be 
        used for landings in low visibility conditions. Due to 
        limitations with current ILS equipment, airports routinely lose 
        capacity as visibility decreases. Fifteen of our top U.S. 
        airports experience greater than 25 percent reduced capacity 
        when ceilings are below 200 feet. In these situations, aircraft 
        often waste time and fuel by waiting in holding patterns or, 
        even worse, diverting to alternate airports. This minimizes 
        schedule disruptions due to weather and also enables more 
        environmentally friendly procedures and increased safety during 
        ground operations.

    AIA recommends the development of equipage incentives or general 
fund grants that will increase the population of NextGen equipped 
aircraft at a rate of at least 20 percent annually at the 35 OEP 
airports.

Performance Metrics
    As with any highly productive operation, NextGen implementation 
must remain subject to constant oversight by all stakeholders, 
including Congress, FAA and industry. We encourage FAA to develop, 
publish and use a simple and clear set of progress-based metrics with 
20-year targets and yearly objectives to determine if NextGen plans and 
implementations are actually achieving the Nation's air transportation 
objectives. In doing so, industry believes the true test of the 
initiative's effectiveness in accomplishing the mission set forth under 
Vision 100 can be weighed against the following questions:

  <bullet> Are we continuing to improve safety?

  <bullet> Are we reducing aviation's contribution to climate change?

    <ctr-circle> Are we reducing noise and emissions?

    <ctr-circle> Are we increasing efficiency by making routes more 
            direct and shorter in time?

  <bullet> Are we increasing capacity by better using the runways we 
        have and adding more runways where needed?

    Specific metrics are being developed to measure progress in these 
areas. We would be pleased to share these metrics with the Committee. 
It is important that we track progress of the operational impact of 
NextGen, not just the programmatic accomplishments.

The Funding Dynamic
    Since the current reauthorization expired at the end of FY07, FAA 
has been funded by a series of continuing resolutions and extensions. 
FAA is a 44,000-employee organization responsible for a multi-billion 
dollar operation that touches virtually every part of our Nation's 
commercial economy. If FAA were a private entity, it would be a Fortune 
500 company, yet we expect it to sustain excellence and global 
leadership without long-term authority or stability in its programs and 
funding.
    Much of what is needed for NextGen falls under the category of 
``new starts,'' which, as you well know, are prohibited under short-
term continuing resolutions. A large number of FAA NextGen pre-
implementation issues, including development and acquisition decisions, 
have been adversely affected. Failure to fund these NextGen development 
and application programs as a national priority has a disastrous domino 
effect on near-, mid- and long-term NextGen efforts. We cannot continue 
this. We have to accept the responsibility of providing cutting-edge 
air transportation system services on a schedule that is not constantly 
sabotaged by funding battles. And underlying this is a basic question: 
Will the U.S. commit to retaining its global leadership position in 
civil aviation, or will it cede the ``gold standard'' in aerospace 
technology development and deployment to the EU, Australia or Canada?
    It is critically important that we keep pace with the rest of the 
world in our modernization efforts to maintain any hope of creating a 
globally harmonized air traffic system. Whoever sets the standards for 
equipment and procedures will define the global system. If we want to 
maintain a leadership position in this market, we need to be in the 
vanguard of air transportation system modernization. And let's not 
forget that although NextGen has entered the implementation phase, 
delayed funding of NextGen R&D will push the timeline further to the 
right while the European system--Single European Sky ATM Research 
Programme (SESAR)--and others are moving ahead smartly.
    Like other modes of transportation recently gaining considerable 
support for modernization and expansion, advancing NextGen must be a 
national commitment. While industry is pleased to hear that the 
Administration is commited to advancing NextGen, funding must be sound 
and sustainable for the initiative to become a reality. Because the air 
traffic control system provides important public policy benefits to our 
citizens and the military, it is appropriate for the General Fund to 
fund FAA operations.
    Delaying the development and deployment of NextGen is harmful for 
two simple economic reasons. Every year that R&D work is delayed, the 
costs of the work increase. Additionally, every year that NextGen is 
delayed, our economy is denied the benefits of an improved ATC system--
and that costs more in fuel, delays, environmental benefits, etc. The 
cost to promptly and fully fund NextGen is far less than the cost of 
delay.

Safety and Security of Foreign Repair Stations
    I would like to stress the aviation industry's commitment to safety 
and security at repair stations around the world. As you know, aviation 
is a global industry and requires an international network of safe and 
secure repair stations.
    AIA is particularly concerned about pending language in the House 
FAA Reauthorization Bill, which sets a minimum number of inspections by 
FAA personnel. Our industry operates foreign repair facilities that 
welcome inspections and oversight by the FAA. Our facilities are 
constantly inspected by the FAA, foreign aviation authorities, our air 
carrier customers and by our internal auditors. However, requiring the 
FAA to inspect each foreign repair station ``not fewer than two times'' 
annually presents several problems.
    First, the FAA does not have the resources or the inspection 
personnel required to inspect every foreign repair station with such 
frequency. Because of this challenge, I believe the agency should 
employ a risk-based model for inspections in order to use its valuable 
personnel in the most efficient manner possible. It makes more sense to 
send additional inspectors to facilities where safety oversight may be 
called into question rather than use these resources carrying out 
redundant inspections in locations that have exemplary safety records. 
Equally concerning is the premise that any foreign repair station that 
the FAA fails to inspect twice annually--whether or not it is in 
compliance with FAA safety rules--would lose its FAA repair 
certificate. This is fundamentally unfair since repair station 
operators have no ability to control FAA's oversight operations.
    Second, the inspection requirement undercuts the U.S.-European 
Union (EU) Bilateral Aviation Safety Agreement (BASA), raising the 
possibility of retaliatory trade practices from one of our most trusted 
trade allies. This agreement, as a general rule, requires reciprocal 
maintenance oversight (i.e., the FAA provides surveillance of U.S.-
based EU-certificated repair stations and vice versa). The concept is 
by no means revolutionary. As a matter of fact, the FAA has operated 
under reciprocal maintenance agreements with European nations for more 
than 35 years.
    As proposed, this language, will lead to reciprocal actions, ending 
implementation of the BASA and abrogating existing and future Open 
Skies agreements. In recent communications, EU officials stated that 
reciprocal actions will have a significant impact upon three additional 
areas of focus for international cooperation: acceptance of FAA 
certification of European pilots (an industry generating $72 million in 
annual domestic revenue); acceptance of FAA certification of U.S. 
airlines entering European airspace (a move that would require domestic 
airlines to undergo and pay for EU certification prior to flying their 
profitable transatlantic routes); and an increase in the fees and 
charges assigned to U.S. aviation manufacturers for EASA validation of 
products certificated by FAA.
    Should these actions come to fruition, U.S.-based repair stations 
would be subjected to additional certification fees, risking the 
ability to repair European registered airplanes, all of which could 
result in a significant loss of business and employment here in the 
U.S.--an outcome devastating to the hundreds of small businesses that 
comprise the aviation maintenance industry. As the U.S. currently has a 
positive balance of trade in repair work with the EU--with 1,237 U.S.-
based repair stations certificated to repair EU-registered airplanes, 
and only 708 FAA certificated repair stations around the world 
(including 425 in the EU)--domestic operators stand to lose far more 
work than we could ever hope to gain.
    In addition to the certification of repair stations, another 
consequence of backing out of the U.S.-EU agreement is the risk of 
jeopardizing our access to foreign markets. As stated earlier, the 
aerospace industry provides the largest trade surplus of any domestic 
manufacturing industry. A large part of this success rests with our 
ability to easily export products overseas. In addition to safety 
oversight, the bilateral provides for reciprocal certification of 
aircraft. It can take up to 5 years for a new aircraft to go through 
the FAA certification process. Under the agreement, the EU accepts the 
FAA's certification which allows for instant access to their markets. 
Without this, our manufacturers would have to go through a separate 
certification process for every European market--an effort that would 
cost time, money and jeopardize our export base.
    We will send our bi-lateral partners a terrible message if we 
violate this safety agreement. After decades of cooperative oversight, 
we would signal our lack of faith in their work. Doing so would slight 
our European partners, undermine the FAA's credibility and make it 
harder for the FAA to maintain its worldwide leadership on safety 
issues.
    The importance of this agreement simply cannot be overstated. The 
U.S.--EU safety agreement will serve as a foundation for future 
negotiations in areas such as licensing and operations that have huge 
economic impacts for U.S. industry. To endanger this agreement through 
foreign repair station legislation risks future economic growth and job 
creation in our country.
    For these reasons, I respectfully ask the Committee to take my 
comments into consideration and continue to examine this issue and its 
ramifications for the aerospace industry and workforce.

Conclusion
    It is important to note that NextGen progress has expansive 
ramifications for our national economic growth, job creation, and 
environmental benefits. Aviation is the glue that holds the high-value 
global economy together. It has been described as the physical 
internet. More than surface or water transportation, civil aviation has 
a tremendous ripple effect on our economy. For every dollar invested or 
job created in aviation, 2.6 to 4 more are created. Aviation carries 
only 2 percent of the world's goods--but 40 percent of the value.
    FAA and industry are presented with significant funding challenges. 
But government, industry and many lawmakers are united on one issue--
increased funding of FAA from the General Fund is needed to cover FAA 
operations and to pay for NextGen. While the recently approved omnibus 
bill increases the General Fund allocation from 18 percent to 24.6 
percent that is just enough to pay current FAA expenses, what is 
required is a general fund contribution well above 25 percent that 
supports full NextGen implementation.
    The important point is that NextGen cannot, must not, be deferred--
it has to be developed and implemented concurrently with full funding 
of FAA's present operational and capital needs. FAA and industry both 
must be held to account. We must have concrete measures to assure that 
our investment is producing results. In this time of limited resources, 
both the private and public sectors must be extremely judicious in our 
expenditures, but we need to act boldly. There is no doubt of the 
public benefit that will be gained, and the boost to economic and job 
growth, that will come from timely and full funding of FAA and NextGen 
needs.

    Senator Dorgan. Ms. Blakey, thank you very much.
    Next, we'll hear from Mr. Jim May, who is the President and 
Chief Executive Officer of the Air Transport Association of 
America.
    Mr. May.

         STATEMENT OF JAMES C. MAY, PRESIDENT AND CEO, 
        AIR TRANSPORT ASSOCIATION OF AMERICA, INC. (ATA)

    Mr. May. Thank you, Mr. Chairman. I appreciate the 
opportunity. As always, it's a pleasure to be here and 
especially with my esteemed colleagues.
    Airlines, manufacturers, business and general aviation 
airports, controllers, organized labor, and others are 
committed 100 percent to working with you, the Administration, 
and, most importantly, I think, each other to try and ensure 
successful passage of FAA Reauthorization.
    Reauthorization of FAA programs and funding must ensure 
that ATC modernization will be done early and by that I mean 
several years rather than several decades, right, and in a way 
that transforms air travel in this country.
    If done right, modernization will be transformational for 
our entire economy, reduce over $40 billion a year that flight 
delays cost the economy every year, allow planes to fly more 
direct, efficient routes, significantly reducing fuel burn. 
That's economy, and CO<INF>2</INF> emissions. That's a better 
environmental footprint.
    It'll create and retain good jobs that cost the aviation 
sector and a host of other businesses that depend on efficient 
air transportation and will ensure the United States remains 
the global leader in safety, security, environment and 
foresight. It's a win-win for Congress, the Administration, and 
the public, and ought to be the cornerstone of our 
reauthorization efforts.
    Now to move forward, let's talk a little bit about what we 
mean. Aviation has a plan. I think it's straightforward and 
it's doable. It envisions that we should agree to the right 
leadership and funding. We can transform the ATC, the Air 
Traffic Control System, in 3 to 5 years, not 3 to 5 decades.
    I think we can agree that the key ingredients to what I'll 
call NowGen are aircraft equipment, ground infrastructure, FAA 
procedures and standards, training and, most importantly, 
cooperation among all the stakeholders.
    Third, that the key capabilities we need today and tomorrow 
are ADS-B in and out, that's the satellite navigation, RNAV and 
RNP, electronic display upgrades to help pilots better see 
where they're moving on the runway and to open up new flight 
paths, GBAS, ground-based augmentation systems, to provide 
better visibility in poor weather, and LPV, which are 
procedures that improve safety in all-weather access to general 
aviation airports.
    Fourth, since ATC modernization benefits the entire nation, 
we think it should be paid for out of General Fund, a national 
infrastructure bank, as some have suggested, or innovative 
government financing or stimulus--something that isn't going to 
come from a beleaguered trust fund.
    So why not turn to that Trust Fund? Well, data and common 
sense tell us that the revenues are not going to be as large as 
expected. About a half billion dollars less will be collected 
this year as opposed to last year. There will be reduced 
capacity, fewer flights, lower fares, and about a half million 
fewer flights this January than January a year ago and that's 
going to impact the revenues for the fund.
    Some predict the Trust Fund balance will zero out by 2010 
with no discretionary or uncommitted funds available. General 
Fund contributions have averaged 38 percent since 1971, but 
it's now down to 16 percent. We think we need roughly $6 
billion additional investment in NowGen over the next few years 
and, quite frankly, the Trust Fund is not prepared to handle 
that kind of an infusion.
    So not only is the Trust Fund not the answer to 
accelerating ATC modernization, I think it remains an 
unreliable, unfair funding vehicle for the FAA. Commercial 
airlines and their customers still contribute more than 90 
percent of the Trust Fund revenue, even though we impose less 
than 70 percent of the costs of the Fund to the system.
    In addition, airlines and their customers, through PFCs, 
AIP money and airport rates and charges combined, spend nearly 
$13 billion a year underwriting airport expenses exclusively. 
That means that the airlines and their customers together spend 
over $20 billion underwriting a combination of the Trust Fund 
and airports.
    Now that's from an industry whose total market 
capitalization on the passenger side is about $18.5 billion. 
It's unreal. Now we don't question the airports' need for 
sufficient funds, but in today's economic environment, their 
continued push for higher PFC and AIP funds, I think, is out of 
sync with economic reality. It isn't a spending issue, it's a 
funding issue.
    So I think it's time, then, instead of looking at the Trust 
Fund all of the time, to look at innovative funding sources, 
reprogramming stimulus dollars, FAA bonding authority to issue 
tax credit bonds which have been a reliable way to leverage 
funds to accelerate modernization, infrastructure banks, more 
stable funding, and, finally, I think to do it, we need to have 
everyone back at the table.
    In conclusion, Mr. Chairman, ours is a challenged industry. 
We've endured successive hits on our operation caused by high 
fuel prices, worldwide economic crisis and even the impact of 
H1N1. Last year we lost $8 billion.
    I say this not seeking sympathy, but recognition that we're 
dealing with those challenges. We've cut capacity, jobs, 
planes; 500 jobs were eliminated in Florida by one of our 
carriers today, and our ask is simple. Help us invest in our 
future, which is NowGen, and resist those that see airlines and 
our passengers as the aviation equivalent of an ATM machine.
    Thank you.
    [The prepared statement of Mr. May follows:]

        Prepared Statement of James C. May, President and CEO, 
            Air Transport Association of America, Inc. (ATA)

Overview
    Federal Aviation Administration (FAA) air traffic control (ATC) 
services are central to the ability of airlines to operate efficiently 
and, ultimately, sustain timely, reliable, economically viable air 
service for their customers. Airline operations only can be as 
efficient as the ATC system allows. Inefficient services drive 
unnecessary costs for airlines and their customers--both passengers and 
shippers. Today's ATC services are woefully inadequate, depriving the 
flying public--and the U.S. public-at-large--of substantial economic 
and environmental benefits.
    Likewise, the outdated policies underlying how ATC services are 
funded unfairly burden the U.S. airline industry and hinder its 
competitive standing in the global aviation marketplace. The current 
cost recovery methodology does not accurately reflect the extent to 
which different users consume ATC services and drive resultant costs. 
Consequently, government data show that the aggregate annual financial 
contribution made by airlines and their customers for ATC services 
significantly exceeds the costs they impose when utilizing Federal ATC 
services.
    Now is the time for Congress to make the infrastructure and funding 
policy changes needed for U.S. airlines to achieve consistent 
operational integrity, improve customer service, reduce environmental 
impacts and enable U.S. airlines to compete effectively against global 
competitors. ATC modernization is critical to improving the fuel 
efficiency of flight operations, reducing fuel-related emissions and 
reducing energy costs. FAA reauthorization offers Congress the 
opportunity to lead on these important issues and to enable much needed 
change:

  <bullet> Change technology--modernize the ATC system as quickly as 
        possible and revise operating ATC procedures to reap the 
        benefits.

  <bullet> Change ATC funding--embrace equitable cost-based funding so 
        that the airline industry does not subsidize other user groups.

  <bullet> Change infrastructure development funding--enable innovative 
        financing.

  <bullet> Change aviation's environmental impact--ATC modernization 
        will enable material improvements in fuel efficiency and a 
        corresponding reduction in emissions.

  <bullet> Change philosophy--recognize that airlines are modern, 
        publicly-owned businesses that will not be able to improve 
        wages and benefits for employees and attract much needed 
        capital if financial stability continues to remain elusive.

    ATA's primary goals for FAA reauthorization are: (1) program 
authority and funding for FAA to swiftly transform the ATC system into 
a modern, satellite-based system, including authority for research and 
development, innovative financing mechanisms for modernization 
equipment acquisition and deployment, support for aircraft equipage and 
asset/human resource management to capture cost savings; (2) an ATC 
cost-recovery structure that allocates costs to user groups in 
proportion to their use of the system; (3) an Airport Improvement 
Program (AIP) structure that does not use funds derived from airlines 
and their passengers to subsidize noncommercial airport development--
our point here is not that noncommercial public-use airports do not 
deserve funding, but merely that funding should be public-source funds 
such as the General Fund; and (4) a forward-looking national aviation 
policy to address the many challenges facing the industry.

A Healthy Airline Industry Stimulates the U.S. Economy
    As we have noted on many occasions, the U.S. airline industry is 
not simply an important sector of the national economy; its services 
drives our entire economy. Air transportation is an indispensable 
element of America's infrastructure and our Nation's economic well-
being. The airline industry is the foundation of the commercial 
aviation sector, which comprises airlines, airports, manufacturers and 
associated vendors. U.S. commercial aviation ultimately drives more 
than $1 trillion per year in U.S. economic activity and more than 10 
million U.S. jobs. \1\ By any measure, the U.S. airline industry is a 
valuable national asset and its continued economic health should be a 
national priority.
---------------------------------------------------------------------------
    \1\ FAA Air Traffic Organization, The Economic Impact of Civil 
Aviation on the U.S. Economy, October 2008.
---------------------------------------------------------------------------
    Recent events illustrate the positive impact that a healthy 
industry can have on our national economy. Prior to the fourth quarter 
of 2008, U.S. airlines transported more than two million passengers on 
a typical day, operating approximately 30,000 flights per day and 
directly employing more than 500,000 people to do so. Airlines were 
forced to reduce operations and staffing in the fourth quarter of 2008 
due to the meteoric rise of jet fuel prices earlier that year. As a 
result, the industry lost an estimated $8 billion in 2008. Because of 
the current recession, airlines have been unable to restore those 
operations and jobs, and now employ less than 500,000 people,\2\ with 
the prospect of further cutbacks if the economy continues to falter or 
if more external shocks like the 2009 H1N1 virus occur. On April 21, 
2009, the Bureau of Transportation Statistics (BTS) reported that 
scheduled passenger airlines employed 6.6 percent fewer workers in 
February 2009 than in February 2008, making eight consecutive months of 
job losses in the industry.
---------------------------------------------------------------------------
    \2\ The industry has lost 151,000 FTEs from its peak employment in 
May 2001; 28,000 jobs were lost in 2008 alone.
---------------------------------------------------------------------------
    It is clear from these events that a healthy industry drives high-
paying jobs that, in turn, can help drive the economy back to health. 
For this reason, government policies in all areas should foster 
financial stability and growth in the airline industry. Commercial air 
service also is critical to the small communities of our Nation. For 
this reason, we firmly support the continuation of a strong Essential 
Air Service Program.
    The U.S. airline industry cannot sustain its vital role of 
transporting people and goods, and continue to be a national economic 
engine, if the government infrastructure that it depends on, the ATC 
system, remains an impediment to efficiency and growth. U.S. airlines 
risk becoming a wasting national asset if the industry's fundamental 
features--speed, dependability and efficiency--are undermined by an 
obsolete ATC system.

Modernization Is Needed Now: from NextGen to NowGen
    All sectors of the broader aviation industry--airports, airlines, 
business aviation, manufacturers, passengers and shippers--agree that 
the FAA ATC system is badly in need of modernization and that the FAA 
Next Generation Air Transportation System (NextGen) is needed now. The 
current ATC system has reached the limits of its capabilities, is 
expensive to maintain and is labor intensive to operate. In several 
areas of the country, most notably in the Northeast, the system is 
unable to provide the capacity needed to meet the demand for ATC 
services at peak periods and at times of severe weather conditions. 
With FAA forecasting significant long-term growth, it is critical that 
modernization initiatives be implemented as soon as possible. The 
current recession may delay that growth, but it will be only a short 
respite that we cannot afford to waste. Indeed, now is the right time 
to accelerate several key NextGen components to drive ``NowGen,'' which 
will deliver many of NextGen's benefits much sooner.

NextGen
    NextGen, which will employ a number of new technologies in a 
satellite-based air traffic management system, coupled with new 
operating policies and procedures that take advantage of these 
technologies, will provide tremendous improvements over the current 
system and will benefit all system users passengers and shippers, the 
public in general and the U.S. economy. Public benefits include 
improved operational efficiency, reduced fuel consumption and emissions 
and lower operating costs for airlines. NextGen will provide several 
critical needs:

  <bullet> Efficiency and Productivity. NextGen will enable more 
        efficient flying. Today's ground radar system requires planes 
        to fly over specific points on the ground to maintain radar and 
        communications contact. Navigational aids, radar and 
        controllers are all terrestrial. They are linked to form a 
        complex network system that supports airways, through which 
        aircraft fly. Today's system also requires spacing to 
        accommodate the time it takes for radar to detect objects. 
        Consequently, aircraft fly indirect routings and aircraft 
        spacing--required for safety--wastes capacity. Today's ATC 
        system cannot, and never will be able to, take full advantage 
        of available technology or integrate and fully exploit emerging 
        technology.

    The environmental and economic impact of today's inefficient ATC 
        system is illustrated below. The flight in this example burned 
        an additional 1,493 pounds of fuel (218 gallons), releasing an 
        extra 4,560 pounds of carbon dioxide (CO<INF>2</INF>) and 
        adding unnecessary cost when margins already are razor thin.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    In contrast to today's ATC system, NextGen will enable: optimized, 
        direct routings between airports; reduced aircraft spacing; 
        continuous descent arrivals, precise arrival and departure 
        routings (known as RNAV and RNP procedures), and closely spaced 
        approaches on parallel runways in instrument flight rule 
        conditions. These are just a few of the operational benefits of 
        NextGen.

    These efficiency enhancements will drive significant improvements 
        in productivity--both in terms of asset utilization and 
        personnel. That, in turn, will reduce operating costs, which 
        will help keep fares down and enable those savings to be plowed 
        back into wages and benefits and operating capital.

    Improved ATC efficiency also will benefit private aircraft owners. 
        Corporations use private aircraft with the expectation that 
        such use is efficient. While we disagree with that proposition, 
        ATC modernization will provide corporate aircraft owners the 
        same kind of efficiency benefits that commercial airlines will 
        enjoy if their aircraft are properly equipped. Even if they are 
        not properly equipped, they still will enjoy a spinoff benefit 
        simply from operating in the same airspace as more efficient 
        commercial aircraft.

  <bullet> Environmental Benefits. More efficient operations also will 
        use less fuel, increasing aircraft fuel efficiency and reducing 
        greenhouse gas and other emissions. It has been estimated that 
        full implementation of NextGen will reduce emissions by 10-15 
        percent. Early implementation of certain NextGen elements and 
        other airline initiatives are providing some benefit toward 
        those totals already, but full implementation is needed. 
        Improved fuel efficiency also will reduce operating costs and 
        contribute to improved financial conditions that, like the 
        productivity improvements discussed above, will benefit the 
        public and employees and put the airlines in a better position 
        to continue to invest in new aircraft, alternative fuels and 
        other operational improvements that bring environmental 
        improvements.

  <bullet> Capacity. The current ATC system is saturated and, in some 
        locations, cannot provide the capacity to meet the public's 
        demand for convenient, safe air transportation. This situation 
        inhibits competition and industry growth. It also is the source 
        of unnecessary congestion and delays, and compounds the effect 
        of weather-related delays. NextGen will enable more precise 
        spacing of aircraft and flight paths, which will allow FAA to 
        handle safely and efficiently the traffic growth that it 
        forecasts.

  <bullet> Operational Integrity and Customer Satisfaction. Closely 
        linked to capacity, efficiency and productivity is operational 
        integrity. By expanding capacity and enabling more efficient 
        operations, NextGen will enable better on-time performance and 
        improved customer satisfaction. Today's outdated ATC system 
        contributes to delays and disruptions that could be avoided and 
        will be avoided when NextGen is implemented. With improved 
        operational integrity comes fewer delays, fewer missed 
        connections, fewer misplaced checked bags and more satisfied 
        customers.

  <bullet> Safety. NextGen's satellite-based system will look and act 
        much like a network to which aircraft and ATC are 
        interconnected. It will provide more precise information to 
        both controllers and pilots about aircraft locations, both in 
        the air and on the ground, and will enable aircraft to 
        constantly know one another's locations. This locational 
        awareness and corresponding digital communications capability 
        will provide critical real-time flight status information not 
        available today. Some of the technology and operating 
        procedures have already been tested and have produced dramatic 
        results. A sharp drop in aircraft accidents in Alaska occurred 
        under the Capstone Program, introduced earlier this decade, 
        which utilizes ADS-B technology, a foundational technology for 
        NextGen.

  <bullet> Scalability. NextGen will be considerably more nimble than 
        today's facility and labor-intensive system. Accordingly, it 
        will be much easier for the FAA to scale the system to meet 
        demand from all aviation sectors, whether that demand is a 
        steady growth curve or fluctuates from time to time. Automation 
        and digital data communications will make it easier for the FAA 
        to adjust the system as needed.

  <bullet> Improved Financial Performance. Modernization will respond 
        to legitimate shareholder expectations that the airlines they 
        invest in will earn a positive return on investment. The 
        current ATC system hobbles the industry's ability to achieve 
        financial stability because of the costs it drives by being 
        inefficient. These failures lead to delays and congestion. The 
        Joint Economic Committee found that the total cost to the 
        economy of domestic delays in 2007 was nearly $41 billion, 
        including $19 billion for airlines and $12 billion for 
        passengers. Delayed aircraft also drive the need for extra 
        gates and ground personnel and impose costs on airline 
        customers (including shippers) in the form of lost 
        productivity, wages and goodwill. The industry cannot survive, 
        and the public will not invest in it, if these conditions 
        remain the status quo.

NowGen
    By accelerating several key NextGen components and investing in 
proven technologies, much of NextGen can be transformed into NowGen to 
deliver immediate benefits. NowGen accelerates the manufacture and 
installation of required avionics, the installation of associated 
ground infrastructure and the development and implementation of new 
procedures. Instead of achieving roughly 12 percent fleet readiness by 
2012 under the existing FAA NextGen schedule, NowGen delivers 100 
percent fleet readiness in 2012. As a result, NowGen delivers 
tremendous public benefits immediately and total benefits will exceed 
costs as early as 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NowGen will work because it focuses on accelerating five key proven 
technologies and implementing related procedures. These are:

  <bullet> Automatic Dependent Surveillance-Broadcast (ADS-B). ADS-B 
        requires new equipment, ground infrastructure, airspace 
        revisions and pilot procedures using a GPS source. The cost and 
        complexity of equipment installation varies significantly 
        depending on current aircraft configuration. ADS-B enables an 
        aircraft to constantly broadcast its current position 
        simultaneously to air traffic controllers and other aircraft. 
        Utilizing GPS to display an aircraft's position more accurately 
        and frequently enables more efficient use of existing airspace 
        because aircraft separation standards can be safely reduced. 
        Routing efficiencies reduce fuel burn and emissions.

  <bullet> Area Navigation (RNAV)/Required Navigation Performance 
        (RNP). RNAV/RNP requires new onboard equipment and approved 
        procedures. Installation or upgrades to existing flight-
        management systems, installation of a GPS position source and 
        integration with new and existing cockpit displays drive 
        equipment costs. Extensive revisions to airspace and pilot 
        procedures will be needed. RNAV enables aircraft to fly on any 
        path within coverage of ground- or space-based navigation aids, 
        permitting more direct operations. New flight-path procedures 
        decrease the number of miles flown, reducing fuel burn and 
        emissions. Like RNAV, RNP enables aircraft to fly on any path 
        within GPS coverage, and also includes an onboard performance-
        monitoring capability; RNP enables closer en route spacing and 
        permits more precise and consistent departures/arrivals.

  <bullet> Electronic Display Upgrades. Some aircraft will require the 
        addition of new specialized display screens to utilize ADS-B 
        and RNAV/RNP; some will require a supplemental display, such as 
        an Electronic Flight Bag. These screens will accurately display 
        an airplane's position relative to itself and other aircraft. 
        These displays can also be used to show new optimum flight 
        paths.

  <bullet> Ground-Based Augmentation System (GBAS). GBAS provides 
        additional information to aircraft to allow GPS to be used for 
        landings in low-visibility conditions, minimizing schedule 
        disruptions due to weather and enabling more environmentally 
        friendly procedures. It requires new equipment, ground 
        infrastructure and procedures. Special avionics are necessary 
        to receive the corrected GPS signal information and must be 
        integrated with the aircraft's flight-management system. GBAS 
        also requires several antennas, a broadcast transmitter and a 
        processing unit at each airport. In some cases, a single 
        installation can service multiple airports due to its 30-mile-
        radius effective range.

  <bullet> Localizer Performance with Vertical Guidance (LPV). LPV 
        procedures leverage satellite-based precision to improve safety 
        and provide all-weather access at thousands of general aviation 
        airports. Using GPS and leveraging the existing Wide Area 
        Augmentation System (WAAS) enables more accurate flight-path 
        guidance. Action is limited to the development, certification 
        and publishing of procedures.

    In addition to the many operational, environmental and customer-
service benefits discussed above, NowGen also will throw off 
significant stimulative benefits. We estimate that NowGen will yield 
over $12 billion in U.S. economic benefits through 2012, including $7.4 
billion in job creation--as many as 167,000 U.S. jobs distributed 
widely across the country. These are important societal benefits as the 
country struggles to recover from the current recession.

Establish Fair and Equitable ATC Funding
    The ATC system is funded by its users through fees and taxes. 
Unfortunately, the funding structure has remained static since its 
creation even though system use has changed over time. Consequently, 
the share that each user group pays is not aligned with its use of the 
ATC system. It is time to repair the funding structure so that it is 
fair to all users and equitably charges user groups based on their use 
of ATC services.
    In 1970 when the Trust Fund was established, airlines were the 
principal users of the ATC system. FAA data show 2,586 airliners were 
in service then compared with 1,833 corporate aircraft. Today there are 
almost 10,500 more high-performance general aviation aircraft than 
commercial airliners in the U.S. fleet. While this fact alone does not 
mean corporate and private jet operations have overtaken commercial jet 
operations, common sense tells us that they are much bigger users of 
the ATC system today than they were in 1970. And in fact, an FAA study 
shows that high-performance general aviation and fractional aircraft 
account for 17 percent of ATC costs.

------------------------------------------------------------------------
        Number of Aircraft             1970         2008        Growth
------------------------------------------------------------------------
U.S. air carriers (all psgr. and         2,586        7,274         2.8x
 cargo props and jets)
Turbine-powered GA (turboprops +         1,833       21,000        11.5x
 turbojets)
Turbine GA share of total           41 percent   74 percent      33 pts.
------------------------------------------------------------------------

    Unfortunately, the taxes and fees paid by this user group have not 
kept up with this dramatic growth, leading to an imbalance in payments 
into the Trust Fund. This imbalance in ATC system use and payments has 
lead to an obvious and undeniable economic distortion that has airlines 
and their customers subsidizing business aviation.
    According to data compiled by the FAA and certified by the IRS, 
airlines and their customers contributed $11 billion to the Trust Fund, 
well in excess of 90 percent of total Trust Fund receipts, yet the FAA 
Cost Allocation Report shows that passenger and cargo airline 
operations only account for approximately two-thirds of ATC costs.\3\ 
In contrast, business jets (general aviation, turbine aircraft and 
fractional aircraft) contributed only 5 percent of the revenue ($573 
million) but accounted for 17 percent of the costs.\4\
---------------------------------------------------------------------------
    \3\ The FAA cost-allocation study for FY 2005.
    \4\ The cost-allocation study breaks it down as follows: general 
aviation turbine and air taxis/fractionals drove 9.7 percent and 7.2 
percent of system costs respectively; general aviation piston drove 5.9 
percent of system costs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The inequity of this situation is illustrated by comparing the 
taxes and fees paid by a commercial passenger flight and a private 
corporate aircraft flight over the same route. A commercial passenger 
Boeing 737 flying from Washington, D.C. to Fort Lauderdale, Florida, a 
distance of 902 miles, would generate approximately $1,434 in taxes and 
fees, assuming a load factor of 75 percent. A private Cessna C750 
carrying four passengers would pay just $112. That's more than a 
tenfold difference. The same aircraft on a flight from Washington, D.C. 
to New York City would pay $1,007 and $26, respectively, while a 
transcontinental flight from Washington, D.C. to Los Angeles would 
generate $1,897 from the commercial airline and just $287 from the 
corporate jet. The irony, of course, is that the FAA provides the same 
air traffic control services to the commercial flights and private 
aircraft in these examples. Day-in and day-out, corporate aircraft 
operate in the same airspace as commercial aircraft and utilize the 
exact same ATC services, but at a fraction of the cost.
    ATA has long supported the principle that ATC system charges to 
different user groups should reflect each group's use of the system. We 
continue to endorse that principle and urge that it be embraced in FAA 
reauthorization legislation.

Update How Aviation Infrastructure Is Funded
The Airport and Airway Trust Fund Is at Risk
    It is time to alter the traditional approach to funding FAA 
operations and infrastructure development from the Airport and Airway 
Trust Fund (Trust Fund) and passenger facility charges (PFCs). In 
particular, the Trust Fund is at risk. Given the recent decline in 
airline operations and the potential for additional cuts in 2009, near-
term revenue into the Trust Fund will decline significantly. It is 
unclear when growth will return in light of current economic terms--it 
could be 2010 or even later. This situation has two important adverse 
effects: (a) the uncommitted balance--discretionary funds--will soon 
fall into negative territory and likely remain there for several years, 
and (b) it diminishes the long-term revenue forecast. The charts below 
illustrate these problems:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This situation demands a solution and justifies new, diversified 
approaches to funding infrastructure development as well as FAA 
operations in general. FAA funding, and in particular funding for 
NextGen, has been debated for years. Not only have we missed the 
opportunity to get ahead of this challenge, the Trust Fund is now 
experiencing pressure that, if allowed to continue, will delay the 
introduction of NextGen.
The Role of the General Fund Should Expand
    As a preliminary matter, it should be an obvious fundamental 
principle that ``public good'' programs and functions carried out by 
the FAA to protect the public, such as safety regulation and oversight, 
are funded by the General Fund. The Trust Fund should be reserved for 
its original intended purpose, to provide for the expansion and 
improvement of the Nation's airport and airway system.\5\ Adhering to 
this fundamental principle will relieve the Trust Fund of ``mission 
creep'' and ensure that the public fairly contributes to the cost the 
FAA incurs in overseeing the safest air transportation system in the 
world. The public derives tremendous value from FAA safety activities. 
It bears repeating here that U.S. commercial aviation ultimately drives 
more than $1 trillion per year in U.S. economic activity and more than 
10 million U.S. jobs.
---------------------------------------------------------------------------
    \5\ ``The principal purpose of this legislation is to provide for 
the expansion and improvement of the Nation's airport and airway 
system. In substantial part, this purpose is to be achieved through the 
imposition and application of airport and airway user charges.'' H.R. 
No. 91-601, reprinted in 1970 U.S.C.C.A.N. 3047.
---------------------------------------------------------------------------
    Another appropriate role for the General Fund is to fund airport 
development projects at noncommercial public-use airports, instead of 
funding them with Trust Fund revenues through the Airport Improvement 
Program (AIP). Roughly $1 billion of Trust Fund revenues are allocated 
through AIP annually to public-use airports that do not receive any 
commercial service. But, as discussed above, the users of those 
airports contribute very little to the Trust Fund. Thus, commercial 
aviation is unfairly subsidizing development projects at these airports 
and the effect is to drain the Trust Fund of badly needed revenues that 
could be used to pay for ATC services, the development of NextGen and 
critical infrastructure projects at key commercial airports. ATA does 
not oppose development at noncommercial public-use airports. Just like 
FAA safety regulation and enforcement, however, these projects are 
``public good'' activities and should not be funded out of the Trust 
Fund. Instead, General Fund revenues should be substituted for the 
Trust Fund revenues that support these projects through AIP. This would 
help repair the health of the Trust Fund.

New Ideas for NextGen
    The condition of the Trust Fund combined with the urgent need to 
implement NextGen makes the historical way of funding this project--on 
a cash-only basis by means of annual appropriations--impracticable. The 
present circumstances demand that we look at new ideas. In particular, 
NowGen should be supported by the General Fund.
    First among these creative financing concepts is to give the FAA 
bonding authority. The benefit of bonding authority is that it would 
give the FAA a known and reliable funding stream without facing the 
vagaries of the annual appropriations process. In addition, FAA would 
be able to leverage this funding stream to enhance the capital 
available for NextGen.
    Another concept is to make NextGen eligible for funding from a 
National Infrastructure Bank, as proposed by Congress and the 
President. Creating an independent national infrastructure bank with 
the power to issue the equivalent of municipal bonds would be 
instrumental in providing NextGen with a known, reliable funding source 
and would hasten NextGen's full deployment.

Changes for Airport Development Funding
    Airports have been hampered in their efforts to issue bonds for 
development projects due to application of the AMT tax. This occurs 
because Federal tax law classifies most airport bonds as private 
activity bonds, even though they finance projects that realistically 
are public works projects. AMT application has two effects--the 
earnings on airport bonds are subject to AMT tax calculation, making 
them less attractive, and airport issuers are charged higher rates on 
their borrowing. Permanently eliminating this punitive tax on airport 
bonds would result in broader access to bond markets for critical 
infrastructure projects (the American Recovery and Reinvestment Act 
(ARRA) provided relief from the AMT for new private activity bonds 
issued in 2009 and 2010, as well as allowing the refinancing of current 
AMT bonds issued between December 31, 2003 and January 1, 2009). 
Particularly now, when the credit is difficult to obtain, Congress 
should do everything it can to free up the markets for development 
projects that will drive jobs and important public benefits.
    If Congress passes legislation establishing a National 
Infrastructure Bank, then airport infrastructure projects that will 
increase capacity and improve safety should be made eligible for such 
funding.

A Forward-looking National Aviation Policy Will Enable the Industry 
        to Meet the Many Challenges it Faces and Continue to Drive 
        Economic Activity
    A weak U.S. airline industry results in fewer jobs and reduced 
economic activity, not just for airlines, but across the broad supply 
chain--including manufacturers (airframe, engine and avionics), hotels 
and tourism, computer technology and services, maintenance providers, 
catering and cleaning services, insurance and financial services--that 
relies on a healthy aviation industry. Consequently, as the industry 
shrinks, it is unable to help lead the country out of the current 
economic downturn.
    One important contributing factor to this situation is the absence 
of a clear and forward-looking national aviation policy that recognizes 
the economic and social importance of the airline industry. This is 
surprising, even shocking, given that U.S. commercial aviation 
ultimately drives more than $1 trillion in U.S. economic activity 
annually and more than 10 million U.S. jobs. A national aviation policy 
would make a financially healthy airline industry a priority, encourage 
growth and competition by eliminating airspace and airport capacity 
constraints, and avoid single-interest and regressive policies that 
interfere with safe and rational business decisions--in other words, do 
no harm.
    Financial health and stability are important for many reasons. 
Financial stability enables airlines to:

  <bullet> Address environmental concerns--invest in new aircraft and 
        equipment. To continue our decades-long track record of 
        reducing emissions, airlines must have the financial capacity 
        to acquire new aircraft, engines and ground service equipment. 
        Until alternative fuels become commercially available to 
        replace today's carbon-based fuels, the only way to reduce fuel 
        consumption and emissions is by acquiring new and more 
        efficient equipment. New aircraft also reduce noise and local 
        environmental impacts.

  <bullet> Support the development and commercialization of alternative 
        fuels. Alternative fuels will not be developed and become 
        commercially viable unless the airline industry provides a 
        market for them. U.S. airlines are actively supporting the 
        development of alternative jet fuels. That development will 
        take years and the commercialization of alternative fuels will 
        require significant investments in new infrastructure for their 
        transportation, storage and delivery, in addition to the cost 
        of acquiring the fuel itself.

  <bullet> Improve wages and benefits for employees. The post-Sept. 11 
        period saw the industry lose tens of billions of dollars and 
        the wages and benefits of employees--those who survived 
        reductions in force--shrink. It is obvious that this trend can 
        be reversed only if the financial health of the industry is 
        restored. Without sustained profitability, wages and benefits 
        stagnate and talented employees move on to other jobs in other 
        industries.

  <bullet> Improve customer service. Airlines need the ability to 
        invest in staffing, training, systems and the equipment needed 
        to improve customer service. New aircraft will increase 
        reliability and further improve customer service. Equipping for 
        NextGen, which will provide capacity and efficiency 
        improvements, likewise will lead to higher levels of customer 
        satisfaction.

  <bullet> Support U.S. security initiatives. Many initiatives of the 
        Transportation Security Administration and the Department of 
        Homeland Security impose significant direct and ongoing costs 
        on passenger and cargo airlines. The airlines must invest in 
        personnel, equipment and computer systems to make these 
        initiatives work to protect the public. The industry supports 
        these initiatives but can do so only if they are financially 
        sound.

  <bullet> Invest in safety. ``Safety first'' is the bedrock principle 
        of the airline industry. Operating with the highest degree of 
        safety possible and complying with rigorous regulatory scheme 
        of the FAA requires a significant ongoing investment in 
        aircraft, maintenance, people, training, equipment, audit, 
        quality-assurance and compliance systems. The airlines ongoing 
        commitment to safety has resulted in an ever-improving and 
        unparalleled safety record. The industry's commitment to safety 
        means that it will never shortchange the needed investment to 
        continue this remarkable track record.

  <bullet> Survive exogenous shocks. The airline industry must be able 
        to endure the exogenous shocks that regularly threaten its 
        survival, from basic economic cycles to unprecedented energy 
        prices to international wars to acts of terrorism. No other 
        industry in America has been subjected to more challenges over 
        the past quarter century, and without a doubt they will keep 
        coming.

  <bullet> Attract investment. Airlines are publicly-owned entities 
        whose shareholders expect a return on their investment. If 
        shareholders are continually disappointed, capital will dry up 
        and the industry will shrink even further. Financial stability 
        will attract the capital for the many needs discussed above.

Do No Harm
    The U.S. airline industry profit margin, when it has one, is razor 
thin. It compares unfavorably to most other U.S. industries. This is 
one reason why a national aviation policy must include a ``do no harm'' 
component.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    U.S. airlines are in a precarious position. Losses have dogged the 
industry since 2001, with only a brief respite in 2006-2007. The U.S. 
airline industry lost an estimated $8 billion in 2008, due largely to 
unprecedented oil and jet fuel prices.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This year, the current recession, and more recently the 2009 H1N1 
virus (swine flu) pandemic, has further depressed demand for air 
travel, particularly valuable business travel. U.S. passenger airlines 
lost $1.8 billion in the first quarter of 2009, producing an average 
negative 6.9 percent profit margin. One aviation research and 
consulting firm issued a report recently that concludes U.S. airlines 
will carry 41 million fewer passengers in 2009 than in 2008 and 
experience a revenue drop of $7 billion in 2009 and $9 billion in 
2010.\6\
---------------------------------------------------------------------------
    \6\ Boyd Group International, Airline Traffic: 2009 Prospects Going 
South, February 2009.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Put simply, the U.S. airline industry cannot afford regressive 
policies that inhibit best business practices and unnecessarily 
constrict management decision-making, or that add unnecessary fees and 
costs. Such policies undermine the ability of airlines to earn a 
profit, impair shareholder value and impair the ability of airlines to 
attract new capital and debt financing. That downward cycle prevents 
airlines from improving employee wages and benefits and from investing 
in equipment, facilities and new employees. For this reason, Congress 
should avoid the temptation to interfere with practices that have 
proven safety records and that satisfy legitimate business needs.
    The numerous special taxes and fees that airlines and their 
customers pay contribute directly to the industry's poor financial 
performance. In 2008, airlines and their customers paid $18 billion in 
special taxes and fees--before the usual Federal, state and local 
taxes. This unique burden creates a huge drag on industry 
profitability.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Do No Harm--Do Not Increase Passenger Facility Charges
    Under the heading of ``Do No Harm,'' passenger facility charges 
(PFCs) should not be increased from $4.50 to $7 per segment as 
advocated by the airport community. First, PFCs are a direct tax on 
passengers. Raising PFCs to $7 would impose an additional $2 billion in 
taxes on passengers, raising the cost of air travel and harming both 
passengers and airlines. PFCs, like any other tax, ultimately reduce 
consumption of the underlying product or service--in this case air 
transportation--thereby directly impacting airlines, too. Second, there 
is no evidence to suggest that necessary projects will go unfunded in 
the future without increasing PFCs. Indeed, PFCs reached record 
collections of more than $2.8 billion in 2007. While 2008 collections 
decreased slightly (approximately $2.7 billion), they still exceeded 
2006 levels and FAA is currently estimating record collections for 
2009. Third, virtually every PFC application has been approved since 
PFCs were enacted, so there should be no concern from airports on their 
ability to impose a PFC. Fourth, GAO reports that from 2001-2005 
airports received an average of $13 billion a year for planned capital 
projects from bonds, Federal grants and PFCs. This level of funding 
should be sufficient to meet current and future capital needs given the 
current economic conditions and reduced growth projections. If not, 
airports have accumulated more than $27 billion in unrestricted assets, 
meaning discretionary funds are available to support necessary capital 
projects. Finally, although credit markets are tight, airports continue 
to maintain extremely high credit ratings and historically have had no 
trouble making successful bond offerings for critical, viable projects. 
In fact, several airports have recently issued bonds after a provision 
in the American Recovery and Reinvestment Act (ARRA) provided relief 
from the Alternative Minimum Tax (AMT) for new private activity bonds 
issued in 2009 and 2010 as well as allowing the refinancing of current 
AMT bonds issued between December 31, 2003 and January 1, 2009. While 
certain airports may be feeling pressure from credit markets, this 
temporary situation does not justify a permanent change in PFC funding, 
which will add billions of additional taxes. Instead, airports should 
revise their spending plans and Congress can consider other options 
such as permanently eliminating the AMT penalty, providing funds from 
the General Fund or establishing other innovative financing mechanisms, 
discussed previously.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Do No Harm--Maintain Antitrust Immunity Standards and Process
    Closely integrated, immunized alliances provide a lawful means for 
U.S. airlines to achieve significant consumer benefits, optimizing the 
utilization of both U.S. and foreign carrier networks to mutual 
advantage. DOT has approved international airline alliances because 
they produce numerous and substantial benefits both to the public and 
the participating carriers. Public benefits include new online service 
and more frequent and convenient online service options, more 
connecting options across alliances and enhanced interalliance 
competition. More options and greater competition translates into more 
competitive fares for consumers. Carrier benefits include strengthened 
ability to compete, efficient use of assets and enhanced financial 
performance. The public will lose these important benefits if antitrust 
immunity is withdrawn--even temporarily--and carriers are forced to 
demonstrate that an alliance satisfies new and different standards.
    Terminating antitrust immunity, as H.R. 831 proposes, would have a 
harsh impact on airline employees, and cause a ripple effect across the 
travel and tourism industry at a time when U.S. unemployment is 
escalating rapidly. We estimate that terminating immunity for existing 
approved agreements and changing current practice would cost thousands 
of airline jobs. Parties to alliances and proposed alliances would not 
continue or go forward with such arrangements without antitrust 
immunity because they simply cannot incur the uncertainty and risk 
associated with a potential legal challenge after an alliance has begun 
operations. Changing antitrust immunity for alliances would suppress 
economic activity and counter other economic stimulus efforts.

Do No Harm--Foreign Repair Stations are Important and Safe
    Safety is the top priority for U.S. airlines. In today's 
international markets--with U.S.-registered aircraft positioned 
throughout the world--the ability to outsource maintenance to qualified 
facilities outside of the U.S., particularly heavy maintenance, is 
essential and efficient. Also, for some aircraft, U.S. facilities do 
not have the capacity to meet demand. Even more important, it is safe 
and subject to full oversight by the FAA and reciprocal international 
safety regulatory authorities. These facilities unquestionably have the 
competence to perform maintenance on U.S.-registered aircraft that meet 
our demanding standards. Data compiled by the National Transportation 
Safety Board shows that as U.S. airlines increased contract maintenance 
work to vendors around the world, accidents with maintenance as a 
probable cause declined from 0.05 per 100,000 departures to absolute 
zero in recent years. The industry's safety record remains unmatched; 
no evidence indicates that offshore MRO services are unsafe or 
insecure.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    International aviation maintenance is a global business, enabling 
more than 200,000 highly skilled jobs at U.S. MRO facilities performing 
maintenance on U.S.- and non-U.S-registered aircraft, and sustaining 
thousands of domestic manufacturing jobs. Prohibitions and unnecessary 
barriers on maintenance outsourcing are not only unnecessary to sustain 
safety--they will mean U.S. job losses. This is not idle speculation. 
Representatives from the European Union recently made it very clear to 
us and Federal officials that U.S. maintenance protectionism will 
provoke retaliation in Europe.
    ATA supports FAA oversight of foreign repair station operations, 
but opposes calls for a moratorium or discriminatory regulations and 
oversight. In this case, evidence that maintenance performed at foreign 
repair stations is inferior or unsafe is lacking.

Other Do No Harm Issues
    Several other items also fall under the ``do no harm'' heading. 
These include:

  <bullet> Slot Auctions. Requiring airlines to forfeit slots and then 
        allowing FAA or airports to auction them off does nothing to 
        address congestion but will add costs that can force airlines 
        to raise fares and discontinue service in smaller markets.

  <bullet> Congestion Pricing. Allowing airports to impose additional 
        costs during congested periods will add costs that can raise 
        fares and force airlines to discontinue service to smaller 
        markets. Both congestion pricing and slot auctions distract 
        policymakers from the real problem: FAA's failure to provide 
        airspace capacity and to work with airports and airlines to 
        develop capacity enhancements at specific locations.

  <bullet> Grandfathered Revenue Diversion. Federal law allows a few 
        airports to divert revenue to local or state governments, so-
        called grandfathered revenue diversion. These exceptions to the 
        principle of plowing airport revenues back into maintaining and 
        growing airports so they are self-sufficient are decades old 
        and it is questionable if they continue to serve a legitimate 
        purpose. Airlines must make up these revenues at these airports 
        so their costs increase unnecessarily. These exceptions should 
        be eliminated.

  <bullet> Airport Firefighter Stations. FAA regulations have safely 
        dictated staffing and equipment requirements for airport fire 
        stations for years based on the needs within the airport 
        boundary. Increasing staffing and equipment based on 
        surrounding populations will not enhance airport safety but 
        will increase costs unnecessarily. These are not legitimate 
        safety claims and should be rejected.

    This FAA reauthorization legislative process offers a rare 
opportunity for Congress to make aviation a priority by establishing a 
strong, forward-looking national aviation policy. It should take 
advantage of this opportunity.

Customer Service--Improvements Are Continuing Without Legislation
    We said in 2007 that customer service legislation is not needed for 
several reasons, including marketplace competition for customers, the 
airlines' own self-interest in earning repeat business, public 
attention to this issue and regulatory oversight and enforcement by the 
Department of Transportation (DOT).\7\ We stated that customer service 
in general would improve over time, and that airlines would learn from 
the unusual and extreme events of December 2006 and February 2007, in 
how to better handle lengthy delay situations and improve the decision 
process to cancel flights. We were right then and we remain firm in our 
conviction that legislation is not needed.
---------------------------------------------------------------------------
    \7\ See: Statement of James C. May, President and CEO of the Air 
Transport Association of America before the Senate Committee on 
Commerce, Science, and Transportation, April 11, 2007, on Airline 
Service Improvements.
---------------------------------------------------------------------------
    Recent DOT data show that customer service has improved . . .
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    . . . and that extended delays are down.

                                         Taxi-Out Delays Have Decreased
----------------------------------------------------------------------------------------------------------------
                                     Taxi-Out Delays (per 10,000 departures)
-----------------------------------------------------------------------------------------------------------------
                                                          2 hrs and/or more              3 hrs and/or more
----------------------------------------------------------------------------------------------------------------
2007                                                                       11.88                           2.15
----------------------------------------------------------------------------------------------------------------
2008                                                                       10.20                           1.76
----------------------------------------------------------------------------------------------------------------
Jan-Feb 2009                                                                7.04                           1.03
----------------------------------------------------------------------------------------------------------------

    In addition, the most recent DOT Consumer Report \8\ shows that 
lengthy tarmac delays remain extremely rare:
---------------------------------------------------------------------------
    \8\ Issued May 2009.

  <bullet> A total of 21 flights out of 557,442 scheduled flights in 
        March 2009 (0.0038 percent) had tarmac delays of 4 hours or 
---------------------------------------------------------------------------
        more; 88 had delays of 3 hours or more (0.0158 percent).

  <bullet> Of the 21 flights delayed 4 hours or more, 18 occurred on 
        March 1 due to an unusual weather event, and the remaining 3 
        occurred on March 29.

    ATA member airlines have been very active in addressing the issues 
associated with lengthy tarmac delays since the winter of 2006-2007. 
For example, the Congressional hearings in April 2007 revealed gaps in 
the delay data collected by BTS, particularly with respect to canceled 
and diverted flights. ATA and its members supported changes to the 
reporting system to capture this data and worked with DOT and BTS to 
update the reporting system. Carriers began reporting this new data in 
October 2008.
    ATA and its members also participated in the National Task Force to 
Develop Model Contingency Plans to Deal with Lengthy Airline On-Board 
Ground Delays (Task Force) established by former DOT Secretary Peters 
in early 2008. The Task Force addressed contingency planning for both 
airports and airlines, and produced an extensive document capturing 
numerous issues that contingency plans should address, and best 
practices to deal with them. It was a highly successful exercise that 
enabled airlines and airports to review and update their internal 
contingency plans on an ongoing basis as the Task Force worked on these 
issues.
    In November 2007, DOT initiated a rulemaking process to expand its 
consumer protection regulations for airline passengers. ATA and its 
members have actively participated in this rulemaking and, in fact, 
have supported several DOT proposals. While we disagree with certain 
proposals having to do with incorporating contingency plans and related 
items into airline contracts of carriage, when finalized, the rule will 
enable consumers to obtain more relevant information and provide 
additional protections to passengers when things go wrong despite the 
best efforts of airlines.
    Beyond the regulatory front, innovation and competition continue to 
drive airlines to improve the passenger experience. Online and kiosk 
applications to obtain boarding passes are no longer novel--they are 
considered de rigueur. Airlines are now experimenting with electronic 
boarding passes so that cell phones and personal digital assistants 
(PDAs) can be used, thereby eliminating paper boarding passes entirely. 
And a la carte pricing for services not every passenger needs or wants 
is helping to offset upward pressure on base fares. These innovations 
have become a point of competition, which is exactly what Congress 
looked for--innovation and competition--when it passed the Airline 
Deregulation Act.
    For all of these reasons, we do not think consumer protection 
legislation is needed. In particular, we oppose a hard and fast rule 
requiring airlines to give passengers the option to deplane after 3 
hours. Mandatory deplaning will have numerous unintended consequences 
that, ultimately, will create even more inconvenience for passengers 
and lead to even more flight cancellations. Forcing airplanes to return 
to the gate or get out of line to deplane a passenger to a ground 
vehicle on an active taxiway will be highly disruptive to airport and 
airline operations and raises significant safety issues.
    As we noted in prior testimony,\9\ if a flight returns to a gate 
and is canceled, then the passengers will very likely be delayed at 
least into the next day, if not longer. Even if a flight is not 
canceled, planes will lose their place in line to depart by being 
forced to go back to the terminal or pull out of line to deplane 
passengers by air stairs. This will cause even longer delays for 
everyone else. Consequences that will occur, particularly from a return 
to the gate to deplane a passenger, include:
---------------------------------------------------------------------------
    \9\ See footnote 7 above.

  <bullet> Cancellations because crews ``time out'' \10\
---------------------------------------------------------------------------
    \10\ FAA regulations on duty limits and rest requirements for 
pilots and flight attendants, as well as carrier collective bargaining 
agreements that go beyond the regulations, limit the amount of time 
pilots and flight attendants may be on duty without a rest break. 
Limited provisions that allow the duty day to be extended because of 
reasons beyond the control of the airline assist in dealing with 
weather-related delays. However, the utility of these provisions will 
be curtailed significantly by forcing planes back to the gate to 
deplane passengers.

  <bullet> Flights delayed because they lose their place in the 
---------------------------------------------------------------------------
        departure line

  <bullet> Unplanned overnight stays for unaccompanied minors

  <bullet> Mishandled baggage

  <bullet> Missed meetings and vacations

  <bullet> Cascading cancellations and delays caused by planes and 
        crews out of position, especially when diversions are involved

  <bullet> An overall increase in cancellations because airlines will 
        pre-cancel flights to limit passenger inconvenience and 
        operational complications caused by the bill's requirements

    These consequences are likely to be exacerbated for flights 
diverted to alternate airports.
    The impact of flight cancellations extends beyond the passengers on 
the canceled flight. Operationally, the consequences for airlines and 
the next day's passengers include:

  <bullet> Crews and aircraft are `out of position' and the next day's 
        schedule is compromised

  <bullet> Passengers at the destination city must wait for the 
        aircraft to arrive the following day, delaying or canceling 
        their departures

  <bullet> Flight crews `deadheading' on the canceled flight will not 
        reach their destinations and will not be available to operate 
        their scheduled flights

  <bullet> Aircraft will be forced to traverse congested runways/
        taxiways when logistically possible (as it was not for long 
        periods at JFK during the storm gridlock) to return to the 
        terminal

    Based on objective metrics, customer service is improving and 
airlines are doing a better job of responding to lengthy tarmac delays. 
Competition, regulatory oversight and enforcement, and public scrutiny 
are working. On the other hand, proposed legislation will be disruptive 
and add unnecessary costs. We continue to believe that additional 
legislation is not necessary.

Conclusion
    It is imperative that Congress enable FAA to move forward promptly 
with its NextGen program and authorize its acceleration through NowGen. 
The environmental, capacity and efficiency benefits of NextGen are 
critical to meeting the needs of the flying and shipping public and 
improving the financial condition of the U.S. airline industry. FAA 
reauthorization legislation should embrace new thinking and new ideas 
about infrastructure funding, especially in light of current economic 
conditions and the need for FAA to be able to plan its research, 
development and acquisitions over several years. The principle of fair 
and equitable funding of the ATC system and the AIP program should be 
imbedded in reauthorization legislation. What user groups pay for ATC 
services should be aligned with their consumption of those services--
airlines should not subsidize other users. Likewise, AIP funding for 
development projects at noncommercial public use airports should not 
come solely from the taxes and fees that commercial airlines pay into 
the Trust Fund. In addition, we urge Congress to adopt a forward-
looking national aviation policy that recognizes the commercial airline 
industry's value and importance to our economy and society. Finally, 
customer service legislation is not needed. The industry has done a 
good job of responding to issues related to long tarmac delays and, on 
an objective basis, is providing better customer service.

    Senator Dorgan. Mr. May, thank you very much.
    And finally on this panel, we will hear from Mr. Ed Bolen, 
President and Chief Executive Officer of the National Business 
Aviation Association.
    Mr. Bolen.

           STATEMENT OF ED BOLEN, PRESIDENT AND CEO, 
             NATIONAL BUSINESS AVIATION ASSOCIATION

    Mr. Bolen. Thank you, Mr. Chairman, and thanks to the 
leadership of this Committee for making this hearing a reality 
today.
    The National Business Aviation Association is unlike most 
associations because most associations represent companies at 
their core business. NBAA represents 8,000 diverse companies, 
non-profits, state government organizations, and other non-
profits, all who have one thing in common. They rely on the use 
of their general aviation airplane to meet at least some 
portion of their transportation challenges.
    As everyone on this subcommittee knows, business aviation 
is an FAA-defined term. According to the FAA, business aviation 
is the use of any general aviation aircraft--piston, turboprop 
or turbofan--for a business purpose.
    Business aviation in the United States is represented by 85 
percent of small and mid-sized companies and surveys show that 
the senior executive is onboard the plane about 15 percent of 
the time.
    Business aviation is used by companies to do things like 
visit multiple destinations in a single day, move teams of 
employees to locations with little or no commercial airline 
service, transport products that are too big to fit in the 
overhead bin and too sensitive to fit in the cargo hold, and 
they move teams of people that need to discuss proprietary 
business en route.
    Today, business aviation is fundamental to our Nation's 
economy and our air transportation system, and when I use the 
term ``business aviation,'' I hope everyone recognizes that 
``business aviation'' and ``general aviation'' are terms that 
are sometimes used interchangeably and I will do so today.
    General aviation in the United States is essential because 
general aviation means jobs, 1.2 million manufacturing and 
service jobs. Business aviation is important in the United 
States because it provides a lifeline to communities all across 
America with little or no commercial airline service.
    Business aviation is important to America because it allows 
companies to be productive and efficient and business aviation 
is important because it provides humanitarian relief every day 
in the United States, and Mr. Chairman, you know this. When we 
had floods in North Dakota a couple of weeks ago, companies 
were giving their airplanes to try to assist in that and they 
do that every day--flying vital organs, flying cancer patients 
to treatment, trying to move combat veterans with their 
families. It's a fundamental part of our air transportation 
system.
    Now, today the general aviation industry is hurting, 
hurting in ways that it has not hurt for decades. In March, 
business jet flights fell by 30 percent compared to the same 
time last year. Charter operations are down by 40 percent. The 
inventory of used airplanes is at an all-time high and prices 
for airplanes have declined by 40 percent in the last year. 
Every major manufacturer has laid off a significant portion of 
their workforce. So have FBOs, charter companies and everyone 
else associated with the industry.
    Production lines have slowed and in some cases they've 
stopped. A couple of very high-profile manufacturers have 
declared Chapter 7 and liquidated. So make no mistake about it. 
These are very difficult times for the general aviation 
industry, but we're a resilient bunch.
    Many of the leading general aviation companies have been 
around since before the Great Depression. So as difficult as 
today is, our eye is still on the future and we intend to be 
every bit as important to our Nation's economy and air 
transportation system in the future as we have been to its past 
and it's that reason that I want to come before you today to 
say that the general aviation community is squarely behind 
NextGen.
    As you know, we were the organization and the community 
that stepped up to funding NextGen when we discussed this last 
year and we are not stepping back from that commitment today.
    The general aviation community believes the benefits of 
NextGen are primarily safety by improving situational 
awareness, they are expanding the capacity of the system by 
allowing more precise spacing, and they are important for the 
environmental reasons, by allowing more direct routing.
    So we believe in NextGen and we intend to support you and 
be your partner as we try to make this a reality today. We look 
forward to working with you on all the funding issues. We look 
forward to working with you on the technical issues. We look 
forward to being your partner in making sure that the United 
States has tomorrow what it has always had in the past and that 
is the largest, the safest, the most diverse, and the most 
efficient air transportation system in the world.
    [The prepared statement of Mr. Bolen follows:]

          Prepared Statement of Ed Bolen, President and CEO, 
                 National Business Aviation Association

    Mr. Chairman and members of the Subcommittee, my name is Ed Bolen, 
and I am the President and CEO of the National Business Aviation 
Association. I am grateful for the opportunity to appear before you 
today.
    NBAA commends Chairmen Rockefeller and Dorgan and Ranking Members 
Hutchison and DeMint for the Committee's work on aviation system 
modernization and for holding this important hearing to discuss the 
future of our national air transportation system and reauthorization of 
FAA.
    We strongly support your work to improve our Nation's aviation 
system, which will also significantly contribute to economic growth and 
job creation. In these challenging economic times, the importance of a 
robust transportation system cannot be overemphasized.
    NBAA was founded 62 years ago. Today, we represent a diverse group 
of approximately 8,000 businesses, government agencies, universities, 
non-profits, and other organizations from all across America who have 
only one thing in common: they depend upon general aviation aircraft to 
help them meet some of their most difficult transportation challenges.
    NBAA and our Members are committed to working with Congress to 
transform and modernize the Nation's aviation system. Likewise, we are 
committed to modernization policies that support the continued growth 
of each aviation segment, including general aviation, which plays a 
critical role in driving economic growth, jobs and investment across 
the U.S. We strongly support the shared goal of keeping our national 
aviation system the largest, safest, most diverse, and most efficient 
air transportation system in the world.

What is Business Aviation?
    Business aviation, as members of the Subcommittee well know, is an 
FAA-defined term. According to the FAA, business aviation is the use of 
any general aviation aircraft--piston or turbine--for a business 
purpose.
    Eighty-five percent of the companies that utilize business aviation 
in the United States are small or mid-size. And surveys show that the 
senior executive is only on board the airplane about 15 percent of the 
flights.
    Business aviation is used by companies to do things like visit 
multiple destinations in a single day; move teams of employees to 
locations with little or no commercial airline service; transport 
products that are too big to fit in an overhead bin and too sensitive 
to be checked; discuss proprietary information en route without fear of 
eavesdropping; stay connected with the home office as they manage a 
difficult situation; or to stay flexible enough to respond to changing 
circumstances.
    Let me illustrate this point with two examples:

  <bullet> First, consider MacNeil Automotive, which produces rubber 
        floor mats for cars from a factory in Illinois. The company 
        relies on its two business aircraft--a Beech Bonanza G36 and a 
        Cessna Citation to transport measuring instruments that are too 
        delicate to be shipped to auto manufacturers, and won't fit in 
        an airliner's overhead compartment. They literally cannot 
        conduct business without their airplanes.

  <bullet> Similarly, Luck Stone--a family-owned supplier of stone 
        construction products for homes in Manakin, Virginia--must have 
        its King Air turboprop to efficiently manage its 16 sites 
        located across the Southeastern U.S.

Why is Business Aviation Essential to our Economy and Transportation 
        System?

    Because Business Aviation means jobs--good jobs--more than 1.2 
million manufacturing and service jobs in the Untied States. It is part 
of a general aviation industry that contributes more than $150 billion 
to our economy each year and contributes positively to our Nation's 
balance of trade.
    There are more than 5,000 public use airports in the United 
States--fewer than 500 have commercial airline service--making business 
aviation an economic lifeline for thousands of communities. Business 
Aviation serves also as a lifeline to communities with declining 
airline service. Last year, over 100 communities in the United States 
lost some or all scheduled airline service.
    Business Aviation helps businesses of all sizes be efficient and 
productive.
    And, business aviation helps us respond to emergencies and provide 
humanitarian relief.
    For example, in the days and weeks following Hurricane Katrina, 
hundreds of thousands of pounds of supplies were transported into small 
airports throughout the Gulf Coast region aboard business aircraft. 
These aircraft also were used to transport victims out of harm's way.
    More recently, general aviation has snapped into action when 
there's a need to confront floods in the Midwest, fires in the West, or 
a whole host of other natural disasters.
    The business aviation community--working mostly on a volunteer 
basis--has been quick to help assess damage, rescue those affected by 
these disasters, and carry in lifesaving support and supplies to the 
affected regions.
    The people who rely on a general aviation aircraft for business are 
also dedicated to helping provide lifesaving flights to the communities 
in which they live and work.
    Operations like the Corporate Angel Network arrange free air 
transportation for cancer patients traveling to treatment using the 
empty seats aboard business airplanes. They have arranged more than 
20,000 lifesaving flights since their founding in 1981. Angel Flight, 
America's seven member organizations and 7,200 volunteer pilots 
arranged more than 18,000 flights in 2005 alone to carry patients to 
medical facilities.
    Veterans Airlift Command uses business airplanes and unused hours 
of fractional aircraft ownership programs to provide free flights for 
medical and other purposes for wounded service members, veterans and 
their families. Veterans Airlift finds volunteers in the business 
aviation community to fly missions on request and contribute the full 
cost of their aircraft and fuel for the missions flown.
State of the Industry
    Today, Business Aviation, indeed the entire general aviation 
industry, is hurting--hurting to a degree we have not experienced for 
decades.

  <bullet> In March, business jet flights fell by 30 percent compared 
        to the same time last year.

  <bullet> Charter operations are down 40 percent.

  <bullet> The inventory of used airplanes continues to rise to 
        historic levels and prices for used airplanes have declined by 
        40 percent.

  <bullet> Every manufacturer has been forced to lay off a significant 
        portion of its workforce. So have FBOs, charter operators, and 
        flight departments.

  <bullet> Production lines have slowed, and in some cases stopped.

  <bullet> New airplane programs have been canceled.

  <bullet> A couple of high-profile airplane companies have been forced 
        to liquidate.

    Make no mistake about it, these are very difficult times. And 
projections are that things will get worse in 2010. But people in the 
general aviation community are a resilient bunch. Keep in mind that 
some of the leading general aviation companies in the United States 
survived the Great Depression.
    At NBAA, we believe that general aviation will be every bit as 
fundamental to America's future as it has been to its past. And, we are 
prepared to work with the Senate to start building that future today.
FAA Reauthorization
    Clearly, much has changed for the industry I represent in the two 
years since I last testified before this Subcommittee on FAA 
reauthorization.
    However, in spite of all the challenges faced by the business 
aviation community, one thing has remained constant--our continued 
support for comprehensive FAA reauthorization legislation and 
modernization of the Nation's air traffic control system.
    We commend the Subcommittee for conducting a thorough examination 
of all of the issues during the 110th Congress, which ultimately 
resulted in the compromise legislation that went to the Senate floor.
    That legislation provided multi-year funding for enhanced 
investment in FAA programs to modernize and expand the Nation's air 
transportation system, and clearly reflected the commitment of the 
general aviation community to that goal. We supported the legislation 
then, and we continue to support it today.
    Our support for FAA Reauthorization reflects general aviation's 
commitment to NextGen.
    As this Subcommittee knows, NextGen is about technologies, policies 
and procedures that can expand system capacity, enhance safety, and 
reduce our environmental footprint by allowing more precise sequencing 
and spacing, improving situational awareness, and providing more direct 
routings.
    Accelerating the transition to the Next Generation Air 
Transportation system should be a national priority.
    For years, general aviation has been at forefront of our Nation's 
modernization effort. We were early adopters of GPS navigation systems. 
We equipped to make Domestic Reduced Vertical Separation Minima a 
reality.
    And for more than a decade, we have enthusiastically supported the 
development of the ADS-B test program in Alaska--a test program that is 
now the cornerstone technology of the modernization effort.
    You can expect us to continue to be partners in NextGen as we 
deploy necessary ground stations, produce more RNAV/RNP routes, certify 
ADS-B, and find ways to collectively solve the challenging equipage 
issue.

Conclusion
    Despite the current economic challenges facing the industry, we 
remain committed to NextGen.
    Aviation plays a critical role in driving economic growth and 
investment across the country. Our air transportation system is 
critical to the Nation's economy.
    We are committed to working with the Congress to complete an FAA 
Reauthorization bill that achieves our shared goal of keeping the U.S. 
aviation system the safest, largest and most efficient in the world.
    NBAA and our Member companies across the Nation look forward to 
working with this Subcommittee to accomplish this vital national 
objective.

    Senator Dorgan. Mr. Bolen, thank you very much for your 
testimony. We appreciate the testimony of the entire panel.
    I want to ask a couple of questions, but first let me ask 
Ms. Blakey. You're formerly the head of the FAA, the FAA 
Administrator.
    When I began today, I talked about the tragic accident in 
Buffalo and described what we now learn that someone in the 
cockpit is making $16,000 a year, who flew all night before 
because they have a duty station on the East Coast and live on 
the West Coast and have to have a second job, live at home, I 
mean, and apparently, according to the cockpit recordings 
doesn't know much about icing and hasn't flown in icing.
    Are you surprised by that? I mean, I gotta tell you, I was 
really, really troubled by what we've learned about the 
experience and the circumstances of those in the cockpit. We've 
got a lot of great people flying airplanes around this country. 
A lot of them. I don't want to tarnish in any way the 
reputation of those that climb in the cockpit and fly 
commercial airplanes, but I was stunned to read the 
circumstances of that cockpit. Were you?
    Ms. Blakey. Yes, Mr. Chairman, I was. I will have to tell 
you that whenever something like this comes to light, I think 
it shakes all of us a bit because when you realize that every 
day phenomenal crews fly in the system and they do a wonderful 
job and they do have very, very effective safety oversight 99.9 
percent of the time, when something like this happens, it does 
shake you.
    I'm also the former Chairman of the NTSB investigating 
accidents. So one of the things I would put forward is the 
importance of the investigative process and the hearings to 
bring to light all of the facts and then make solid 
recommendations.
    I have a great deal of confidence in that process and don't 
want to second-guess what actually has transpired until they 
are able to complete that.
    Senator Dorgan. Well, I was only responding to what's now 
in the public record.
    Ms. Blakey. I understand.
    Senator Dorgan. But as I said earlier, we're going to hold 
a hearing on safety, I want to do that very soon, which will 
include some of these issues.
    Mr. Bolen, over the past 30 years we've asked everybody out 
there flying an airplane to put a transponder on it. You know, 
the fact is most all of them did it. I suppose there are a few 
planes out there sitting in hangars out on a farm some place 
that don't have a transponder. Almost everybody out there's 
flying with a transponder.
    How difficult will it be to equip most of our general 
aviation airplanes, I think most commercial airplanes already 
have a GPS system, but how difficult will it be to equip 
general aviation with GPS capability?
    Mr. Bolen. Well, I think the equipage issue is a huge issue 
that's on the table. Now historically in the United States, we 
have handled equipage issues in a couple of different ways.
    With the transponders, the way we encouraged equipment was 
we provided a certain amount of air space and said to enter 
this air space you need to be equipped. If you are not 
equipped, you can't enter that air space and that was certainly 
one way to do it.
    We had a similar approach with domestic vertical separation 
minima where we said that if you are interested in flying 
between 29,000 feet and 41,000 feet, you'll invest in altimetry 
and the community has largely made that decision.
    I believe that the equipage issue that is before us, we 
could handle the way we have with ADS-B technology in Alaska 
which is largely to have the government pay for it and provide 
it so that the entire country can enjoy the benefits of that. 
We could do that through tax credits. We could do it through 
other means.
    I think everyone in the community has said we'd like to see 
equipage addressed. We'd like to see it done primarily through 
the General Fund. I think in order to make that happen, we 
would like to see standards that are set and clear.
    Senator Dorgan. Mr. May,----
    Mr. Bolen. And I also think we need to do that over a 
multi-year period where we set out precisely what the 
schedule's going to be.
    Senator Dorgan. Mr. May, I'm going to ask Mr. Barclay about 
EAS in a moment, but, first, if I might ask you. Mr. Barclay 
talked about indexing the PFCs. PFCs have been flat for some 
while. What's your response to that?
    Mr. May. Mr. Chairman, my response is that we're in 
economic crisis. This is the last time we need to increase the 
levels----
    Senator Dorgan. If we weren't in a crisis, what would your 
response be?
    Mr. May. The same, because----
    Senator Dorgan. It's not about a crisis then?
    Mr. May.--I don't think--I don't think the commercial 
aviation sector and its passengers ought to be the ATM for the 
rest of the industry.
    Senator Dorgan. So it's not about a crisis, though?
    Mr. May. It has more impact in a crisis because it 
ultimately goes as an increase in pricing.
    Senator Dorgan. I understand. Mr. Barclay, Essential Air 
Service. We have an Essential Air Service Program. You know, 
there's some controversy with respect to some areas where you 
have very few people getting on an airplane, very little effort 
in the community to maximize the use of that service.
    Are there some things that you would recommend with respect 
to the EAS Program on behalf of the airports?
    Mr. Barclay. Well, we've recommended the increased funding 
that Congress has consistently brought to the program after--
and this has been true of Administrations for years--
recommended under-funding, but we do think or I think that this 
needs a whole new look.
    You've got about 550 airports in the country that get some 
kind of scheduled air service, 150 of those have 90 percent of 
the passengers. So those top hunk, the largest 150, are always 
going to get pretty good service delivered by the marketplace. 
They're going to be market-driven and wind up getting air 
service that is appropriate to that market.
    The other 400 are often--it's a case of geography whether 
they're going to get good service into that market-driven 
system. They are the rural and smaller points that don't have 
as much market power to connect up properly to that system and 
it's not just an EAS issue. It's a broader issue of are the 
transportation needs of the country being delivered by that 
system overall and they're going to be delivered where most of 
the passengers are, but I do think there's a broader issue to 
look at.
    Senator Dorgan. Obviously, I'm a strong supporter of the 
Essential Air Service Program. The question is about 
improvements.
    My time has expired, but I want to say to Mr. May, before I 
call on Senator DeMint, while we won't be dealing with it in 
this bill, you and your organization's support, trying to do 
something about this unbelievable and unbridled speculation in 
the price of oil going to $147 a barrel, and what it did to jet 
fuel and so on and the imposition of significant difficulties 
for the country. I thought your organization did a great job 
working with us on those issues.
    We haven't yet done the things that will prevent it from 
ever happening again, but we need to----
    Mr. May. Mr. Chairman, through your leadership and that of 
Senator Cantwell and others, we've made a big dent in the 
education gap on that issue. We saw oil today and yesterday 
jump back up above $60. There is widespread speculation, pun 
intended, that some market manipulation is starting to creep 
back into the system and we are wholeheartedly in support of 
your efforts to try and bring it under control.
    Senator Dorgan. Thank you. Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman. I appreciate the 
testimony. It seems that we're in rare agreement here as a 
committee and everyone who has been in front of us that we need 
to move ahead with NextGen as quickly as we can.
    Mr. May, you particularly talked about the need to fund it 
and make it happen. How do you think we can fund it? What are 
your thoughts?
    Mr. May. Mr. Chairman, Senator DeMint, the first part of 
the answer is I wouldn't rely on the Aviation Trust Fund to be 
able to do it. So if that is ruled out, then I think it's 
imperative that the Congress, working with the Administration, 
look at any of a number of solutions, some of which could be 
done in tandem. A national infrastructure bank, greater 
contributions directly from the General Fund, some kind of tax 
credit bonding.
    I think there are a number of innovative financing 
solutions that could be used, reprogramming some of the 
stimulus money to this effect, but it's going to take some 
careful thought, and I think we are absolutely convinced and 
have indicated as much to the DOT and the Administration, that 
if we can find a way to have an additional $6 billion to $7 
billion investment over the next few years, we can jumpstart 
this process under the leadership of FAA Administrator Babbitt 
and get the job done well before 2013 or 2014 as opposed to 
letting it stretch out to 2025.
    Senator DeMint. One of you mentioned the creative revenue 
sources. Should we avoid any kind of usage tax or tax on gas? 
Should we try to pay for it within the system or do you want 
all to come from the outside? Is there room for the system 
itself to help fund this thing?
    Mr. May. Senator, we contribute about 90 percent of the 
dollars going--tax dollars going into the Trust Fund today. I 
don't expect that to go down any. We have a longstanding 
position that suggests there ought to be better equity in the 
funding of the Aviation Trust Fund, but there are just so many 
battles you're going to be able to take on and I would 
recommend to this committee that they look for alternative ways 
to fund it, other than through the Trust Fund.
    There are lots of challenges that the Trust Fund itself is 
going to have to meet going forward. So I'd like to see the 
funding come elsewhere, from elsewhere.
    Senator DeMint. Ms. Blakey, you expressed some reservations 
in how the legislation was constructed at this point. What are 
those more specifically, as much as you can talk about it in a 
couple of minutes?
    Ms. Blakey. Well, what I was reflecting today was the House 
bill has provisions that require the FAA to inspect foreign 
repair stations on a twice-annual basis. We are very concerned 
about that because we do believe it will have very negative 
repercussions on our safety and other bilateral agreements that 
we have that are of longstanding and we also have great 
concerns that, in fact, it will strap the FAA's resources.
    We should be looking at this as a risk-based system and 
inspecting where the needs are the greatest and that should be 
the principal, not an arbitrary measure like I just outlined.
    Senator DeMint. Well, I'm glad you brought that up. The 
data I've seen suggest that if there's any advantage to safety, 
it would go to the foreign repair services at this point, and 
it would seem that that is a tangential issue that does not 
relate to the goals of the safety we're talking about or 
efficiency. I have the same concern that we don't alienate our 
European partners in any way when we have good evidence that 
we've got a pretty good relationship now. So I'm glad you 
brought that up.
    Is that primarily the concern from the House side?
    Ms. Blakey. I think, given the time constraints, but I'd be 
also happy to send you a note about a few other concerns.
    Senator DeMint. Anything, I would appreciate that very 
much.
    Ms. Blakey. Certainly.
    Senator DeMint. Thank you, Mr. Chairman. I yield back.
    Senator Dorgan. Senator DeMint, thank you very much. 
Senator Johanns has left.
    Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and thank you and 
the members who serve on this Committee.
    For some time, as I have indicated in my opening comment, 
I'm not new to these issues, and I want to follow up on some of 
Senator DeMint's comments about the sense that there's 
agreement around NextGen, clearly this panel has all testified 
to that.
    I do get reluctant at times when everybody says we all want 
it but we don't want to pay for it. How our country, which has 
always led in this area, it appears to me, again from minimal 
knowledge, that I have some of the things I learned during the 
campaign about how sorry our current system and antiquated it 
is, how are other countries doing it?
    I think Chairman Rockefeller at one point in one comment 
said that even Mongolia is moving toward a GPS-based system and 
moving forward and that we are lagging behind most other 
industrialized countries and obviously if Mongolia is stepping 
ahead of us, not just First World but Second and Third World 
countries.
    You know, why don't we--the talk is good, but why have we 
not found the will to get that solution set in and how have 
other countries figured this out in a more effective or 
efficient way? And again, apologies, I know this issue has 
probably been debated through many, many times. So a neophyte 
question.
    Mr. May. I don't think it's neophyte at all, and I think 
it's critical to understanding that we have had, whether it's a 
moribund bureaucracy or whether it's a lack of funding or 
whether it's fights over different pieces of technology, the 
reality is that we have fallen behind so many other countries.
    The system that is being deployed across the European 
Union, SESAR, is, in my opinion, ahead of where we are. You are 
correct that there are places, like Tibet, Mongolia and 
elsewhere, that are very challenging flying environments that 
are deploying these technologies far faster than we are.
    But I think the real lesson is not as much to look back as 
it is to look forward, make this a national priority. President 
Eisenhower in 1956 made infrastructure of our Nation's highways 
the Number 1 priority. I think it's time for this Congress and 
the Administration to establish the same kind of priority for 
aviation infrastructure, to put the funding behind it.
    We know the technologies are proven. We know they are 
available. We know that organizations that range from GAMA on 
my left to AOPA to the airports to AIA, from the manufacturing 
side, as well,----
    Senator Warner. Are you saying--let me just make----
    Mr. May.--are all in unison together.
    Senator Warner. I'd like to hear other comments, but are 
you saying that other countries have--are funding these from 
alternative revenue streams?
    Mr. May. Yes.
    Senator Warner. Non-aviation-related revenue streams?
    Mr. May. Yes.
    Senator Warner. Ms. Blakey?
    Ms. Blakey. The EU is investing very heavily in SESAR, 
their system that is the parallel system to NextGen. So I would 
certainly point that out, and I think it is important to note 
that up to this point, we have been the gold standard, no 
question about it, in terms of technology and we do risk losing 
that in our development if we don't move ahead smartly because 
it's not just the question of the technologies themselves.
    We need to set the standards and we need to start 
deploying. All of this gives the United States still the 
advantage that we have maintained throughout aviation's 
history. They are different systems.
    I might debate my colleague here a bit about which one is 
ahead right now because they are being deployed on a very 
different basis. That said, there is no question we are in 
jeopardy unless we move ahead now with the funding support.
    Senator Warner. Mr. Bolen?
    Mr. Bolen. Yes, just following up on that, I think that the 
United States clearly has the largest, the safest, the most 
diverse and efficient air transportation system in the world.
    The question on the future, I think there are areas, like 
Tibet, or Mongolia, that really didn't have a system in place. 
They've looked at some of the NextGen technologies, strictly 
some that we have demonstrated in Alaska, for well over a 
decade and said that's where the future is, let's put them into 
place, and they have had government support.
    I think what you see in the United States is a system that 
has built up over a long period of time. We're not going to 
turn it off one day and turn on a new system. We're going to 
need to evolve to it and I think we need to make a commitment 
to it, and I would just go back and say that the general 
aviation community has stepped forward and said this is so 
important, we will put additional revenues behind it.
    Senator Warner. My concern is, though, that not only some 
of the stories I've heard of the aging nature of our system 
combined with an aging population of our air traffic 
controllers and the need to get more folks in to the 
appropriate modern training as air traffic controllers, is I 
don't think this is a, as a well-informed citizen, I don't 
think I fully appreciated, potentially, what jeopardy we are 
placing all of our flying public in if we don't act 
aggressively, whether you're a carrier's traffic or whether 
you're general aviation.
    Thank you, Mr. Chairman. I look forward to working with you 
on this issue.
    Senator Dorgan. Senator Warner, thank you very much. 
Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. If I may start with 
you, Mr. Bolen, let me ask about the Large Aircraft Security 
Program and wondering if you have an update on that for the 
Subcommittee.
    Among other things, I want to know if the TSA seems to be 
listening to your concerns.
    Mr. Bolen. Well, thank you, Senator. As you know, the 
general aviation community has a long history of demonstrating 
its primary commitment to hardening our industry against attack 
and we've shown that consistently, whether it is petitioning 
the Federal Government for new photo IDs or petitioning them 
for numbers to call in suspicious activity, guidelines for 
suspicious financing, whatever.
    We have always said we want to be first and foremost a 
partner of the Federal Government as we harden our industry 
against attack.
    Last October, the TSA came forward with a proposal called 
the Large Aircraft Security Program. Unfortunately, it applies 
to very small airplanes and it doesn't recognize the inherent 
nature or the type of operations that we have in general 
aviation. Basically, it's a cut and paste of commercial 
regulations.
    Over the course of several months, hearings have been held 
around the United States that have stimulated over 7,000 
comments to the docket, all in a number of areas, including 
third parties, independent oversight, looking at things like 
pilot backgrounds and aircraft weight.
    I think that over the course of the past couple months, we 
have made some progress. We are in conversations with the TSA. 
It appears that they are coming to a better understanding of 
the unique situation that general aviation is in and have 
expressed a desire to work with us to get reasonable, workable 
and effective solutions in place, and I think we are making 
progress in all of those areas, but I don't have anything 
definitive to report to you.
    Senator Pryor. That's good news. What is your sense of the 
current status of that rulemaking? Do they have a time frame in 
which you think they'll act?
    Mr. Bolen. No. The comments to the docket closed on 
February 27. The most recent meeting that several of us from 
industry had with the TSA was May 6 and clearly there are 
additional areas of conversation that need to be had before 
they go forward, but there is a sense that they are growing in 
their understanding of general aviation and we are coming 
closer to finding reasonable, workable, and, most importantly, 
effective solutions.
    Senator Pryor. Do any of the other witnesses want to 
comment on the Large Aircraft Security Program before I move 
on?
    [No response.]
    Senator Pryor. OK. Let me ask my second question, if I can, 
and that is, for Mr. Barclay, the question of passenger 
facility charges.
    There has been two bills in the Congress and they're pretty 
different in how they approach this, but basically I'd just 
like to get your thoughts and your preference on how you'd like 
to see the Congress resolve that.
    Mr. Barclay. I think it was before you came in. As I said, 
the issue right now is that the $4.50 PFC was put in place back 
in 2000 and that's only worth $2.50 in today's construction 
dollars.
    So the request at the moment is to go to a level that would 
at least replace it to its purchasing power of 2000 and then 
index it for inflation. Congress has been put in the position 
of having a fixed-dollar ceiling that you regulate over what's 
a local charge. The local folks decide with their full checks 
and balances at local airports what the actual need is there, 
but they're living under this cap. So at some airports they 
don't need to increase PFC. Other airports badly need to 
because of the construction cycle they're in, and they're being 
limited on what they can do to build facilities that are needed 
by the airlines.
    I mean, you're hearing this argument between Mr. May and 
myself. I have enormous respect for his members, but it's the 
argument between a landlord and a tenant, and the landlords out 
there, the airports, have to balance their tenants' desires for 
low costs with the need that airport facilities take a decade 
to build.
    The new Seattle runway that just came onboard took 20 years 
to go from planning to implementation. So airports are seeking 
to provide the tools this system's going to need in 10 and 15 
years to provide the capacity for the system.
    Senator Pryor. Mr. May, you want to comment?
    Mr. May. It will come as no surprise to you, Senator, that 
we do have a modest disagreement here. Three or four dollars 
were appropriate in 2001 when the PFCs were set. Collections in 
the first full year, which was 2002, were about $1.8 billion.
    The projected estimate in 2009 to be collected is $2.9 
billion. Airlines and their passengers are currently paying 
roughly $13 billion a year toward the airports through AIP PFCs 
and we know that the airports have unrestricted financial 
assets currently on the books of about $27 billion.
    So given the economic environment that we're in today, 
we're not in favor of lifting the caps.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Mr. Bolen, we just had a hearing this morning on the travel 
industry, the tourism industry. Senator Dorgan has a bill that 
many of us are co-sponsoring on travel promotion and it was a 
very good hearing, sort of startling news in terms of the 
decrease, of course, which you pointed out, with general 
aviation.
    And do you want to talk a little bit about the effect the 
economy's had and what came out a lot at the hearing was the 
negative effect it's had, sort of there were a few bad actors 
abusing travel and corporate travel when in fact we want to 
generally promote business travel.
    The effect that this has had, and how perhaps the rhetoric 
should change so that we remember that one out of eight jobs in 
America is related to tourism and travel.
    Mr. Bolen. Yes. I think to be clear, following the 
automobile executives coming to Washington, an unfair and 
unfounded and unrepresentative stereotype of business aviation 
was promoted that has done untold harm to our industry.
    As I said before, we have seen operations go down by over 
30 percent, manufacturers laying off significant portions of 
their workforce, and a huge effect at FBOs which, of course, 
trickles down to general aviation airport funding. It has been 
a very difficult situation.
    Now, clearly, business aviation has always followed 
economic cycles. So just like commercial aviation, we expand in 
times of expansion, contract in times of contraction, but this 
time has been farther, deeper and more significant. We believe 
a lot of that is because of this negative stereotype that has 
been perpetuated and that's why we've been so aggressive about 
explaining to people that general aviation is about doing 
things you can't do with other operations, and the benefits of 
visiting multiple sites in a single day, talking about 
proprietary information, going to locations where there is no 
good commercial airline service, or moving products. We're 
helping to try to explain to people what general aviation is 
all about in the United States and why it's so essential to our 
job base and a lifeline for our small towns and rural 
communities.
    Senator Klobuchar. Thank you very much. The ``done right,'' 
just based on what some of your testimony is and other things 
I've heard, NextGen can increase air traffic capacity, reduce 
delays, improve safety and curb greenhouse gas.
    The proponents say that one other lesser known benefit of 
NextGen is that it can help reduce noise pollution. It sort of 
seems counterintuitive because, as you know, one of the 
benefits is that it will allow aircraft to land and take off 
closer together.
    So how can these things co-exist, that you can have NextGen 
allowing aircraft to fly closer together and have more landings 
and take-offs and presumably more aircraft in the sky, yet at 
the same time reduce noise pollution?
    Ms. Blakey?
    Ms. Blakey. I'm delighted you asked because it is a little 
counterintuitive, isn't it?
    But the fact of the matter is that one of the terrific 
things about the kind of performance-based navigation and 
precision approaches and departures that you can have under 
NextGen is that you can go to virtually idle on descent to an 
airport. It's called continuous descent approach, and it means 
you're essentially on a glide path.
    You also can have much greater precision and therefore much 
less time in the air. All of what we used to call dive and 
drive, where you hear throttle up, throttle back, throttle up, 
and go to specific altitudes, and often hold and wait is 
eliminated. Those holding patterns that we've all been a part 
of really do go away under this system.
    So there is both tremendous new technology in terms of the 
procedures and the way we're able to apply them and just the 
simple efficiency in the system that's going to be there that 
has huge benefit for noise and emissions.
    Senator Klobuchar. You know, the FAA has said that 70 
percent of air traffic delays are weather-related and we focus 
a lot on weather in my state and one of the benefits of 
NextGen, as I understand it, is that it can integrate GPS with 
more accurate weather services.
    At the hearing that we had back in March, the GAO testified 
that the FAA's working with the Department of Commerce to 
integrate into NextGen a cutting edge weather cube which 
describes the atmosphere in three dimensions, latitude, 
longitude and altitude.
    If anyone can comment on where this is and how this could 
help with traffic management?
    Mr. May. Senator,----
    Senator Klobuchar. Mr. May.
    Mr. May.--there is a specific task force of the JPDO 
working on NextGen that is the Weather Task Force.
    I can't tell you today exactly where that project is, but I 
know the answer is available and I'll be happy to make sure 
your office gets a detailed report on it.
    [The information referred to follows:]

    Essentially what this JPDO effort does is bring real time weather 
to all users and air navigation service providers (FAA) and enable 
better decision support tools to lessen the impact of weather on 
delays. Since 60-70 percent of delays are attributed to weather, 
providing a common picture of weather to users and providers, and 
integrating that into decision support systems, you should be able to 
lessen the impacts of weather on the National Airspace System (NAS). 
See the link below (executive summary will suffice) for more details if 
desired. This JPDO effort is in progress with an expected delivery date 
in the 2013-14 timeframe.
    Through its Weather Working Group, the JPDO is developing the 
concept of the Four-Dimensional (4-D) Weather Cube. The 4-D Weather 
Cube will offer all users of the national air transportation system 
(e.g., controllers and pilots), at all levels, the capability to 
display and utilize a common weather picture in their respective 
decision-making processes. This capability will rely on a virtual 
database that serves as a single authoritative source for government-
based activities. A document entitled, ``Four-Dimensional Weather 
Functional Requirements for NextGen Air Traffic Management'', which 
contains more details on the 4-D Weather Cube, was released in January 
2008, and is currently available here, on the JPDO Website.
    http://www.jpdo.gov/library/4D_Weather_Funt_Reqs_V6_CSv2-2.pdf 

    Ed, I don't know if you've got any further information.
    Mr. Bolen. Well, rather than get into the specifics, I 
think this shows something that's fundamentally important about 
our efforts to move forward on NextGen and that is all of 
NextGen is not necessarily under the control of the FAA and it 
does depend on us pulling in different agencies, like NASA, 
like the Department of Commerce where NOAA exists, bringing in 
the Department of Defense, and making this a national priority.
    I think that the FAA is the right group to lead the effort, 
but I think clear comments from the Senate on the importance of 
this and making it a national priority will encourage all of 
our other agencies to contribute their talent and experience to 
the effort.
    Ms. Blakey. I think all of us who have flown in the system 
have experienced those days when the thunder clouds go up to 
what we're told by the pilot may be 60,000 feet. It's very 
impressive to look at the question therefore of how do you get 
through that.
    The two things I would say about the weather work that's 
going on through the JPDO and through the FAA is you can 
combine much better weather sources right now than we have had 
and therefore get near-term benefits.
    The efficiency of being able to do very precise en route 
routing means you can bring the planes closer together in terms 
of en trail separation and therefore those slots through the 
weather thunder clouds, you can take better advantage of them. 
Finally, there is the weather cube and more advanced research 
on better predictive capability where you really are going to 
be able to predict longer-term about what really will happen.
    Senator Klobuchar. It just made me think, in fourth grade I 
wrote a story about a weather machine, Moonbeam Mackeldorf, the 
man who can control the weather. So when I read about the 
weather cube, I thought this is really getting advanced.
    All right. Thank you.
    Senator Dorgan. Thank you, Senator Klobuchar.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you all for being here.
    And coming from a state where aviation is truly the 
lifeblood of what goes on from an economy, to literally life 
safety. We like to brag we're the small plane capital of the 
country when you think about how many small planes we have. You 
have a car and then you have a small plane more than likely.
    Let me, if I can, I've got a few questions and, first, Ms. 
Blakey, if you--the comments Senator DeMint talked about, I 
would love to also hear at a later time some documentation on 
some of the concerns you might have, if you could share that 
with our office, too, I'd greatly appreciate it.
    Ms. Blakey. I'd be delighted.
    [The information referred to follows:]

    Response to Written Questions Submitted by Hon. Mark Begich to 
                              James C. May

    Senator Begich requested additional information on industry's 
position on the House passed repair station language in Section 303 of 
H.R. 915.

    As President and Chief Executive Officer of the Aerospace 
Industries Association of America (AIA), I appreciate the opportunity 
to follow up on our brief discussion of Section 303 of H.R. 915 during 
the May 13th hearing on the Reauthorization of the Federal Aviation 
Administration (FAA). As you know, AIA's members along with our 
industry partners remain deeply concerned with the foreign repair 
station language contained in Section 303 of the House passed Federal 
Aviation Administration (FAA) Reauthorization Act of 2009 (H.R. 915). 
We believe this issue has the potential to create a serious trade 
dispute between the U.S. and other countries.
    If Section 303 is enacted, countries covered under bilateral 
maintenance agreements will be forced to take reciprocal action 
(including twice annual inspections of U.S.-based, EU repair stations). 
This would halt implementation of the U.S.-EU Bilateral Aviation Safety 
Agreement which could, in turn, have serious repercussions affecting 
existing Open Skies agreements and threaten U.S. jobs and businesses 
relying on EU maintenance work.
    Because the EU employs personnel sufficient to inspect only 100 of 
the 1,237 U.S.-based European Aviation Safety Agency (EASA)-
certificated repair stations, most U.S. stations will lose their EASA 
certification and will be unable to repair European-registered 
aircraft. Those U.S.-based stations fortunate enough to receive the 
required inspections would be subject to additional certification fees, 
totaling as much as $64,000 per year.
    While there are those who believe the EU is bluffing, I can assure 
you that they are taking this issue very seriously. On June 22, 2009, 
Patrick Goudou of EASA instructed Daniel Calleja, Executive Director, 
EC Air Transport Directorate to evaluate the personnel and budgetary 
requirements of conducting reciprocal oversight of U.S.-based EASA 
repair facilities. Reciprocal actions will have an impact on three 
additional areas of international cooperation: flight training, U.S. 
airlines operations in Europe and certification of U.S. products by the 
EU. If acceptance of FAA certification of European pilot training were 
altered, it would harm an industry generating $72 million in annual 
U.S. revenue. Further, if U.S. airlines entering European airspace were 
impacted, then U.S. airlines would be required to undergo and pay for 
EU certification prior to flying their profitable transatlantic routes. 
This would also result in a failure to reduce the fees and charges 
assigned to U.S. aviation manufacturers for the EASA validation of 
products certificated by FAA.
    Governments across the globe depend on our industry as a powerful 
and reliable source of high tech manufacturing, engineering employment, 
advanced technological innovation, environmental stewardship, and 
export revenue. As leaders in the global marketplace, our industry is 
weathering the current global economic crisis and looks forward to 
playing a major role in its recovery, but in order to do so, national 
governments must avoid adoption of protectionist policies such as 
Section 303 in its current state. This would stifle our industry's 
ability to generate new growth and prosperity.
    The current relationship between Europe and the United States 
fosters a climate in which the aerospace and defense sectors thrive. In 
this way, our member companies will continue to deliver products and 
services that contribute to global safety, security and economic 
prosperity. AIA's members appreciate your leadership and respectfully 
urge you to object to protectionist measures such as those in Section 
303 of H.R. 915.
Attachments
  <bullet> June 5, 2009 Letter from Daniel Calleja; Director, European 
        Commission, Directorate F-Air Transport to Patrick Goudou, EASA 
        Executive Director.

  <bullet> June 22, 2009 Letter from Patrick Goudou to Daniel Calleja, 
        Recommending Agency Measures for the Inspection of U.S.-based 
        EASA Facilities.

  <bullet> Industry One Pager Urging Opposition to Protectionist 
        Measure in H.R. 915.
                                 ______
                                 
   European Commission--Directorate-General for Energy and 
                    Transport--Directorate F--Air Transport
                                     Brussels, Belgium--5 JUIN 2009
M. Patrick Goudou
EASA Executive Director
By e-mail only

Dear Mr. Goudou,

    As I announced to you over the phone, following the discussions in 
the aviation working group of the Council on 29 May as well as those of 
the EU-U.S. special committee held on 2 June in preparation of the 
meeting of the EU-U.S. Joint Committee meeting scheduled for June 24, I 
wish to come back to the urgent need for the Agency to prepare measures 
for the inspection of U.S.-based maintenance organisations which 
maintain and release to service European aircraft.
    As the U.S. Senate is preparing to table proposals regarding this 
issue as part of the discussions of the U.S. FAA re-authorisation act, 
Europe needs to have urgently a set of draft measures which can be 
quickly put in place to ensure that, if the U.S. legislation obliges 
the U.S. administration to proceed twice yearly with inspections which 
cannot be delegated to its contractual partners, we will be 
reciprocating in full.
    As the Community rules on the matter (Regulation (EC) No. 2042/2003 
and its modifications) do not foresee any particular time-frame within 
which approved maintenance organisations have to be inspected to 
maintain/renew their approvals, the Agency can introduce such mandatory 
inspections twice yearly. Since the Agency is by law the competent 
authority of all maintenance organisations located outside the 
Community, the introduction of such measures would not contradict 
existing maintenance specific bilateral agreements between Member 
States and the U.S. Besides, if the U.S. proposed rules are enacted, 
they will equally affect maintenance organisations in the Community 
irrespective of the existence of bilateral agreements.
    I would be grateful for receiving draft measures in advance of the 
EU--U.S. Joint Committee scheduled for June 24, so that the matter can 
be also discussed in that committee with the U.S. side.
    Finally, I would appreciate receiving information on the financial 
and human resources the Agency plans to deploy to carry out these extra 
oversight activities.
            Yours sincerely,
                                             Daniel Calleja
                                 ______
                                 
                           European Aviation Safety Agency.
                                     Cologne, Germany, 22 June 2009
Mr. Daniel Calleja Crespo,
Director,
Directorate F--Air Transport,
Directorate General Energy and Transport,
European Commission,
DM 24 05/153,
BE-1049 Brussels, Belgium.

Subject: Agency measures for the inspection of U.S. based organisations
Attachments: Manpower requirements table and draft tender <SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ These attachments were not made available to the Commerce 
Committee.

---------------------------------------------------------------------------
Dear Mr. Calleja Crespo,

    Thank your for your letter dated 5 June 2009 (Ref: TREN F3--OK/vp 
D2009) 55777) concerning the above mentioned subject.
    The Agreement between EC and the U.S. signed on 30 June 2009 is 
based on mutual trust of each other's system, Therefore, the 
legislative proposal affecting the U.S. FAA Reauthorisation Act that 
would require the U.S. FAA to inspect twice yearly all 325 foreign 
repair stations located in the Community serving American airlines 
particularly contravene the confidence built in the regulatory 
oversight carried out by both parties.
    As a result, I do have the same opinion that measures should be put 
in place to make sure, that the European side will act in a reciprocal 
manner, if the above mentioned act is finally adopted. Therefore, the 
Agency considers that the following measures can be put in place:
    EASA to carry out oversight of all 1,233 U.S. repair station 
approvals of stations located in the U.S. that have been granted an 
EASA 145 and are currently surveilled by the FAA.
    For this purpose, an invitation to tender is currently under 
preparation and will be launched shortly to establish a service 
contract to conduct a study aiming at defining the most efficient way 
for oversight of U.S. repair stations applying for, or having, an EASA 
approval. The study should, in particular, consider the establishment 
of local EASA offices in the U.S.
    The requested service contract (see enclosed draft) will include:

        1. Identification of U.S. Maintenance Organisations having an 
        EASA approval, and their location in the U.S.

        2. Identification and evaluation of possible solutions for 
        ensuring direct approval and oversight of U.S. Maintenance 
        Organisations (including two inspections per year of the 
        approved facilities); such as direct oversight from EASA 
        Headquarters and establishment of local offices.

        3. As part of the evaluation, the study should estimate, for 
        each solution (as relevant) the staff needed for the good 
        conduct of operations and their level of expertise.

        4. Concerning the possible establishment of local offices, the 
        study shall identify the number of local offices needed for 
        efficiently approve and oversee U.S. Maintenance Organisations, 
        and more generally, the costs associated to the establishment 
        of such offices.

        5. In addition, the study will have to consider the legal 
        aspects linked to any solution such as the impact of the 
        associated costs on the current fees and charges regulation, 
        the need for amending regulatory texts as well as other general 
        legal issues such as U.S. emigration rules in the case of 
        establishment of local offices.

    Moreover, as a preliminary outcome to the above mentioned contract, 
my services have indentified the following options in case that EASA 
carries out direct approval and oversight of all 1,233 repair station 
located in the U.S.
    Option 1: All surveyors are based in Europe, the surveillance 
activities will be organized from Europe. This option could serve as 
the initial option before all open legal questions with regard to a 
deployment in the U.S. are dealt with.
    Option 2: All surveyors are based in the U.S. including managers 
and support staff. This option could be activated if all legal 
prerequisites for a deployment in the U.S. have been met.
    In the attachment to this letter you can find the manpower 
requirements for the above mentioned options.
Financial aspects:
    For the time being EASA is raising fees in accordance to Commission 
Regulation (EC) No. 593/2007, Part III, No. 1: ``Acceptance of 
approvals equivalent to ``Part 145'' and ``Part 147'' approvals in 
accordance with applicable bilateral agreements,'' that means 1,500 EUR 
for en initial approval and 750 EUR for renewals of existing approvals.
    It must be clarified when the status of these approvals will or 
should change from a ``Bilateral'' status to a ``full'' Maintenance 
Organisation Approval i.a.w. Part I--table 9 if the aforesaid 
Regulation.
    To prepare for this change there should be an additional 
Intermediate measure The purpose of the intermediate measure is to 
inform the U.S. industry as soon as possible of an envisaged change in 
applying the Fees and Charges Regulation.
    By letter to all 1,233 EASA Maintenance Organisations in the U.S., 
EASA will request information on the number of employees of the 
affected repair station and on the technical rating the affected 
Maintenance Organisation will have to be applied for if their status 
changes from ``Bilateral accepted approval'' to a full EASA Part 145 
approval. This letter would serve the purpose of informing all 
maintenance organizations on the negative impact of the envisaged 
change, and this will trigger most probably some reactions in the 
repair station community.
    Based on the replies EASA be in a position to evaluate:

  <bullet> The income which could be expected on the basis of the 
        rating applied for and the number of employees and

  <bullet> The total number of repair stations which will be interested 
        in keeping their approval after the envisaged status changes.

EASA draft measures:
    Letter to U.S. industry: July 2009
    Launch study: July 2009
    End study: September 2009
    Choice of option following the study: October 2009
    Deployment: November 2009 to June 2010

    This includes definition of transition measures, recruitment and 
deployment of staff and the tendering process of the activities, as 
necessary.

    Start of full implementation of oversight: July 2010

    This does not take into account the further actions, as described 
in the EASA Briefing Note on the Consequences of the absence of 
ratification of the Agreement between the U.S. and the EC on co-
operation in the regulation of civil aviation safety, that would be 
deemed necessary by the Commission, such as, actions resulting from a 
change to the Annex 2 to this Agreement and the oversight that will be 
made necessary when Regulation (EC) No. 216/2008 fully enters into 
force.
    We would appreciate if the Commission would agree to these 
measures.
            Yours sincerely,
                                            Patrick Goudou,
                                                Executive Director.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Let me first go with Mr. Bolen, and I don't 
know if you can answer this, but you kind of moved into it a 
little bit with general aviation and that is the concern that 
we have not only with general aviation but also small carriers 
in regards to some rules that TSA was busy getting ready to 
implement and then they pulled back in where they're headed.
    Can you give some commentary? I like to always describe 
Alaska, we're rural but we're extreme rural in a lot of ways, 
and the rules that TSA may lay down will dramatically impact 
the commerce that occurs in rural Alaska, and I don't know if 
you have any comments that you want to make.
    I know most of what you all do is commercial, but I'm just 
curious if you have some commentary.
    Mr. Bolen. Well, I think Alaska has got a lot about it 
that's just plain bigger and the way that these rules would 
affect general aviation would have even bigger impact in Alaska 
because of its more rural nature and because of the tremendous 
amount of aviation that does go on up there.
    But I think the fundamental issue is trying to help TSA 
understand that general aviation operations are unique and this 
is something that the FAA has always understood. They have 
different safety regulations for commercial carriers, Part 121, 
for scheduled airlines, for commercial operations, Part 135, 
for private operations, Part 91, different safety regulations 
targeted to unique operations that yield an equivalent level of 
safety.
    We want the same thing in the security field where we have 
targeted regulations for the specific type of industry and the 
specific type of operation. A regulation that would make sense 
for a city bus would be different from a company's own 
passenger van or delivery truck and we're trying to help make 
that work together, and I think we are making some progress.
    Senator Begich. That was--you picked my next question. Do 
you think there's some progress occurring in that arena?
    Mr. Bolen. I do. There seems to be an openness to dialogue 
that is encouraging.
    Senator Begich. OK. Very good. I know one specific one 
which may sound odd to some people, but, you know, we have 
actually a state law in our safety kits, what's required to be 
on a plane, and one of the requirements is that you have a 
firearm on that plane because of the hunting and other 
activities that occur in a commercial endeavor, that if you're 
trapped out there, you know.
    Mr. Bolen. Right.
    Senator Begich. I actually joked with a TSA person. I'll 
take our safety kit, you take yours and see who comes out 
because I think we will survive, but I think that's--but you 
feel that there's some progress?
    Mr. Bolen. I do, and you're touching on it. Now, a 
prohibited items list makes sense when you are flying 
commercially. You are opening yourself up to the general 
public. It is different if you're flying in a separate 
operation.
    So we have in the prohibited items list proposed by the 
TSA, a tool company could not take tools on their airplane. You 
couldn't take a gun on the airplane and, as you know, in Alaska 
it's required for survival reasons. So we're just walking 
through exactly what the operation is, what's been proposed and 
different ways, alternative ways we could ensure that general 
aviation is every bit as secure as any other industry in the 
United States.
    Senator Begich. Very good. Thank you. Thank you for your 
comments about the NextGen. You know, we are the--we see the 
value of this and I think all of you, and if I'm wrong about 
this comment, just acknowledge it, but what I hear, and I've 
heard over and over again, this can be accelerated. It's not a 
2025 project. It really could be a 2012-2013-2014, somewhere in 
that range. Am I missing that at all?
    Ms. Blakey. No, and it's important to note that Alaska 
pioneered a lot of the technology that we are now deploying in 
the Lower 48 and throughout the world.
    Senator Begich. Absolutely.
    Ms. Blakey. So there's a lot of credit due on that.
    Senator Begich. Thank you. Then on that, I'm just about to 
run out of time, and I guess to anyone, I'll first maybe direct 
to Mr. May, if you could answer.
    What--you see this as a national priority, so therefore 
applying that $6 billion number, give or take in there that you 
had thrown out there, but some way to fund this, one of the 
comments you had made was--mentioned was reappropriations or 
redesignating some of the stimulus money or doing something.
    Can you help me be specific? The reason I ask this, I'm a 
big fan of NextGen. I mean, I obviously, just as I say, for 
Alaska reasons, it has proven its worth in value beyond what I 
think anyone had anticipated. So do you have some specific 
examples that you would throw out there or maybe not just this 
moment but could help us in the future because I think this is 
one that we should fund, get it done and move on.
    Mr. May. Senator Begich, I'd be happy to come by and give 
you a whole host of very detailed specifics, but, in general 
terms, we thought this should have been included in the 
Stimulus Package.
    [The information referred to follows:]

                   What Specific Actions Are Needed?

  <bullet> Automatic Dependent Surveillance-Broadcast (ADS-B)--ADS-B 
        requires new equipment, ground infrastructure and procedures 
        using a GPS source. The cost/complexity of equipment 
        installation varies significantly depending on current aircraft 
        configuration. Accelerating deployment of ADS-B ground stations 
        is critical, as are extensive revisions to airspace and pilot 
        procedures to reflect new spacing criteria.

  <bullet> Area Navigation (RNAV)/Required Navigation Performance 
        (RNP)--RNAV/RNP requires new equipment and procedures. 
        Installation or upgrades to existing flight-management systems, 
        installation of a GPS position source and integration with 
        newly installed/existing displays drive equipment costs. 
        Extensive revisions to airspace and pilot procedures will be 
        needed.

  <bullet> Electronic Display Upgrades--Some aircraft will require the 
        addition of new specialized display screens to utilize ADS-B 
        and RNAV/RNP; some will require a supplemental display, such as 
        an Electronic Flight Bag. These screens will accurately display 
        an airplane's position relative to itself and other aircraft. 
        These displays can also be used to show new optimum flight 
        paths.

  <bullet> Ground-Based Augmentation System (GBAS)--GBAS requires new 
        equipment, ground infrastructure and procedures. Special 
        avionics are necessary to receive the corrected GPS signal 
        information and must be integrated with the aircraft's flight-
        management system. GBAS also requires several antennas, a 
        broadcast transmitter and a processing unit at each airport. In 
        some cases, a single installation can service multiple airports 
        due to its 30-mile-radius effective range. Some procedural 
        changes will be required.

  <bullet> Localizer Performance with Vertical Guidance (LPV)--Using 
        GPS and leveraging the existing Wide Area Augmentation System 
        (WAAS) enables more accurate flight-path guidance. Action is 
        limited to the development, certification and publishing of 
        procedures.

    I know there are a lot of very devout supporters of rail 
here, high-speed rail in particular, for the Eastern Corridor. 
If we're going to spend $13 billion on rail and it's a long-
term project, why not spend $6 billion on aviation which can be 
done in 3 to 4 years and yield equal benefits from an economic 
as well as environmental perspective?
    You know, we're going to--we've got $41 billion a year in 
delay costs to business and to passengers and others. We need 
to resolve that. So this is a real investment in the economy, 
the transformational nature of the economy here in the United 
States, and we think it's high time.
    Senator Begich. We'll take you up on that offer. Thank you 
very much.
    Mr. May. You're on.
    Senator Begich. Thank you.
    Senator Dorgan. Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, and I welcome all 
of you. I have an active interest in aviation.
    Mr. May, please don't pick on rail. One day in New York 
City, more people go through Penn Station in New York than all 
three major airports from New York City.
    Mr. May. Not picking on rail, sir. Just want to have our 
just due, as well.
    Senator Lautenberg. No, no. I want you to keep flying, 
flying high, fly on time, fly, continue the safety, safe 
operating record that this country of ours has had. It's 
fantastic.
    And Mr. Bolen, you know, you talked about the foolishness 
of isolating the fellows who came into town looking for money 
using their private aircraft, and it was a foolish individual 
act and it shouldn't point to the industry as being any way 
left off.
    See, the industry, the general aviation industry is a 
critical one and I for one would like to see its growth and its 
development and its contribution that it makes. You know, in 
New Jersey we have probably the most active general aviation 
airport at Teterboro that exists in the country and it's a good 
airport and we want to keep its efficiency and value.
    What's happened with the industry, the manufacturing side 
of general aviation now since the recession just in general and 
relatively short-term? If you can give me an idea, because I 
think that's where the hurt comes to the industry rather than 
the fact that these silly guys did this.
    Mr. Bolen. Yes. Well, you mentioned Teterboro. At 
Teterboro, operations are down 35 percent this March compared 
to March the previous year, 35 percent fewer operations. That 
means fewer airplane sales. It means less fuel being sold by 
FBOs.
    We are experiencing the greatest downturn in our industry 
since the Great Depression.
    Senator Lautenberg. Manufacturing side?
    Mr. Bolen. Yes, manufacturing and operations. This is 
affecting the FBOs that are trying to sell fuel. It also 
affects another group, the people that are trying to insure 
airplanes, broker airplanes, and finance airplanes.
    There's a huge infrastructure that starts with the airplane 
itself but it builds out. It's maintaining it, it's insuring 
it, it's financing it,----
    Senator Lautenberg. I don't mean to interrupt. How about 
the restrictions on general aviation? You know, you can't come 
in here without a rigmarole of some significance to get in. The 
security question is one that's been very hurtful, I think, 
also to the industry.
    I just wanted to get some sense of what's happening on the 
manufacturing side. I know that that has to be hurt badly where 
there were long waits for deliveries of aircraft, I don't think 
they exist anymore, and so I thank you for that.
    For Mr. May,----
    Ms. Blakey. Senator, if I might just a moment because we 
represent the manufacturers from that standpoint and we have 
seen tremendous problems in terms of production cuts, layoffs 
in some cases of much as half of the workforce.
    Here you're talking about real American icons, Hawker, 
Beechcraft, Cessna, Gulfstream, and these are companies that 
have traditionally contributed tremendously to our export 
positive balance of trade, because, remember, we manufacture 
aircraft here that virtually you can't find anywhere else 
around the world. So it's an important thing to focus on.
    Senator Lautenberg. Mr. May, the airlines have promised to 
do more to avoid having passengers stranded on the tarmac but 
nearly every month we hear another horrific delay, and I 
recently flew in to LaGuardia Airport because my home is midway 
between LaGuardia and Newark Airport in New Jersey and it was 
advertised by the pilot to be a 45-minute flight and everybody 
felt good about that. We pulled away from the jetway and he 
came on the air, he said, ``Gee. I'm sorry. We just got notice 
that there's a two-hour delay at LaGuardia.'' The sun was out. 
The same sun that was out in New York.
    Where would you point a finger as to the principle reason 
for these delays?
    Mr. May. Senator, I think it is squarely at the feet of the 
Air Traffic Control System and the inefficiencies that continue 
to exist there.
    As you know, 50 percent of all the delays in the system 
originate in New York. We now have operational caps on all of 
the major airports in New York. We have significantly cut 
capacity in all of the airports in New York and yet New York as 
a region falls behind its peers in almost every single 
category.
    So we think, and we're very worried about the upcoming 
summer events, that either with--even with the caps and cuts in 
capacity, we could be facing a tough year in New York for 
delays and I think it ought to be a priority of the new FAA 
Administrator to try and make sure that they tackle those 
problems specifically.
    One of the solutions is going to be the implementation of 
the many recommendations that were made as part of the New York 
Delay Task Force that was put together a year ago. Many of 
those recommendations have still not been implemented.
    I think we have to pay attention to trying to make sure 
that the metrics, the measurement metrics are being adhered to, 
that the call rates are appropriate to the airports and to the 
conditions at the time.
    I think there are a number of solutions. We'd be happy to 
communicate them directly to your office.
    Senator Lautenberg. Thank you. Thanks, Mr. Chairman.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
having the hearing and getting this debate going. We need to 
get the FAA reauthorized. They are the principal agency 
responsible for managing air travel and ensuring that it's safe 
and we need to get the legislation that's been tied up here for 
a long time going and hopefully this committee and the Senate 
will be able to do that.
    I want to come back to the question of air space management 
and it, of course, improves both the safety and efficiency of 
the travel, and if, in response to Senator Begich's question, 
you can get NextGen implemented much more quickly than some 
have stated and if that's in the next 5 years, I don't know 
when it is, but prior to that system being implemented, what 
steps do you believe can be taken to improve air space 
management?
    I guess I would direct that at anybody on the panel.
    Mr. Bolen. Well, let me start with that, saying that, you 
know, as has already been mentioned, a lot of the delays 
emanate from the New York area. That is the problem area Number 
1.
    An aviation rulemaking committee was convened over a year 
ago where the community came together and laid out 77 different 
things that could be done in the New York area to help reduce 
those delays. Many of those have not been done.
    I will say and want to make clear that at no point in the 
discussions was it ever believed that general aviation was the 
cause of any delays in the New York area or elsewhere and that 
was testimony from NATCA itself and went all the way through 
looking at how the general aviation operations in the New York 
area have been going down over the past several years and it's 
down precipitously again this year.
    Ms. Blakey. Let me also add, Senator Thune, that I think 
that there is a tremendous opportunity in moving ahead more 
aggressively with new procedures. A lot of our aircraft right 
now have good technology on them that we could take advantage 
of for performance-based navigation, RNP, RNAV, and we'd like 
to see those in the most congested airports.
    The FAA operates with a set of 35 airports that they 
particularly regard as the ones that are most critical in the 
system with the most traffic. If we could see RNP, RNAV, and 
performance-based procedures in all of those airports quickly, 
and it's a matter of designing them and, frankly, the private 
sector can step up and provide more of that as well as those 
that are done within FAA, but putting a priority on those 
airports would leave a tremendous amount of latitude in the 
system that we don't have right now.
    Senator Thune. What is keeping that from happening? Is that 
just the will to do it? Is it a resource issue? Why is the FAA 
not doing it? And back to your question or to your answer, why 
are we not then implementing these 77 recommendations that were 
made about the New York airport? I mean, I want you--I'd like, 
Mr. Bolen, if you could answer that, but why are we not doing 
the things that you mentioned?
    Ms. Blakey. Part of it has been a resource issue. It costs 
money, obviously, to design new procedures. There's a 
tremendous amount of exacting work that goes into it when you 
lay out a new flight path, but the fact of the matter also is 
that a number of opportunities are there from the private 
sector.
    RNP in Alaska was paid for significantly by Alaska 
Airlines. Southwest Airlines is also moving out very 
aggressively in new procedures for the airports that serve them 
and for their aircraft.
    So the private sector can do more of that and the FAA is 
moving to allow not only FAA procedures but much more work by 
private companies which will get it done a lot quicker and 
that's important.
    Senator Thune. Mr. Bolen.
    Mr. Bolen. Senator, I think largely we lost our focus. At 
that time there was a tremendous focus by the Administration on 
doing slot auctions that I think were to the detriment of some 
of the other 77 proposals. Now that that issue seems to be 
behind us, I think we can refocus our attention and get some of 
those done.
    Mr. May. Senator, one area that we think is critical, there 
was a call for and on behalf of the industry broadly to create 
a--this is an overworked term currently but at the time it 
wasn't--New York Czar, if you will, to oversee performance in 
that market.
    I think that Czar status has been reduced to project 
manager status and we need somebody who can have measurable 
metrics and enforce those metrics throughout the system in New 
York and who has the authority to do that.
    I would hope that would be one of the things that the new 
FAA Administrator would pursue.
    Senator Thune. Let me ask just one more question, if I can. 
My time is running out.
    But everybody's highlighted the--and Mr. Barclay, you 
highlighted, too, I think the trouble of airline delays in your 
testimony. As you know and most of you know, I've advocated 
airlines disclosing on their websites notifying consumers and 
fliers before they purchase airline tickets about whether the 
flight is chronically delayed or chronically canceled and I'm 
talking--obviously going to try and get that provision included 
in the Committee's bill.
    What do you believe can be done to help prevent and shorten 
these delays? I mean, we talked a little bit about the New York 
situation, a little bit about the technology. Anything else out 
there that----
    Mr. Barclay. Well, adding capacity, adding----
    Senator Thune. I know that half of them are weather-related 
or more.
    Mr. Barclay. Yes. And when Atlanta adds a new runway, there 
was a tremendous reduction in delays of not only in Atlanta but 
people trying to connect through Atlanta. So focusing on 
capacity, particularly at the major hub airports, is an 
enormously important issue for reducing delays.
    The airlines do have an issue that the Federal Government 
owns the production line of a major commercial industry and 
that's the airlines. So this Committee's focus on saying how 
can we take that production line, run it better, run it more 
efficiently, is tremendously important. A lot of it is about 
focus and resources and you can do a lot.
    Senator Thune. Thank you, Mr. Chairman. Thank you all very 
much.
    Senator Dorgan. Senator Thune, thank you very much.
    I think this panel demonstrates the breadth of the issues 
one has to consider. The people who run the airports, the staff 
at the Air Traffic Control System, the airline company that 
have the planes, the pilots and the flight attendants that get 
the plane in the air, the fixed base operators, the caterers, 
the fuel suppliers. I mean, the breadth of this issue and its 
impact is very substantial.
    Let me thank the panel for your input and encourage you, if 
you have additional things to offer us, feel free to send it to 
us in writing. We'd be happy to do that and we will keep the 
record open for 2 weeks.
    Ms. Blakey. Thank you.
    Senator Dorgan. Thank the panel very much.
    We will now call up the second panel. If we can ask your 
assistance and ask those who are going to serve on the second 
panel to come forward.
    Mr. Patrick Forrey, President of the National Air Traffic 
Controllers Association; Captain John Prater, the President of 
the Air Line Pilots Association; Mr. Robert Roach, General Vice 
President of the Transportation International Association of 
Machinists and Aerospace Workers; Mr. Ken Hall, Vice President-
at-Large, International Brotherhood of Teamsters; Mr. Tom 
Brantley, President, Professional Aviation Safety Specialists; 
and Mr. William McGlashen, Executive Assistant to the 
International President, Association of Flight Attendants.
    If you would all please be seated and we will clear the 
room and proceed.
    All right. We appreciate the witnesses, we appreciate your 
patience. I have some bad news for you. There are three votes 
about to begin. So we will necessarily be required to have a 
recess, but we're going to begin and when the three votes 
start, I will alert you and we'll decide how long a recess that 
we're going to have to have.
    Mr. Patrick Forrey is President of the National Air Traffic 
Controllers Association.
    Mr. Forrey, welcome, and as I indicated to the other panel, 
your entire statement will be made a part of the permanent 
record, and we ask that you summarize.

            STATEMENT OF PATRICK FORREY, PRESIDENT, 
          NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION

    Mr. Forrey. Chairman Dorgan and the Distinguished Members 
of the Committee, thank you very much for giving me this 
opportunity to testify this afternoon and provide you all with 
the perspective of FAA Reauthorization from the men and women 
who operate the National Air Space System.
    The ongoing contract dispute between NATCA and the FAA is 
on the verge of ending. Two weeks ago Secretary LaHood 
announced that former FAA Administrator, Jane Garvey, will 
oversee a team of mediators to help negotiate a fair contract 
between the FAA and NATCA.
    It is our hope that the negotiations will produce an 
equitable contract quickly so that the matter can be put behind 
us permanently. We applaud both Secretary LaHood and President 
Obama for recognizing the critical and irreplaceable role that 
the dedicated safety professionals and employees play in the 
safe operation of the National Air Space System.
    To ensure that this matter remains in the rear view mirror, 
NATCA supports the inclusion of language similar to Section 313 
of S. 1300, the Aviation Modernization Act of 2007, which 
provided that in the event of a future dispute, the matter 
would then go before mediation followed by binding arbitration.
    This provision was included during the 110th Congress at 
the behest of Senator Trent Lott, then Republican Ranking 
Member of the Subcommittee, and, of course, Chairman 
Rockefeller, who both wanted to ensure that the Congress would 
never have to deal with another contract dispute between the 
FAA and its employees.
    The imposed work rules and its effects on the controller 
retirement and attrition rates have been well documented. The 
DOT Inspector General Report released on April 23, stated that 
the retirement wave hit record numbers in 2007 and 2008 and is 
projected to increase through at least 2012.
    The report goes on to say that the FAA faces an increasing 
risk of not having enough fully-certified controllers in its 
workforce with 27 percent of the workforce now in training 
compared to 15 percent in 2004.
    The IG also states that the staffing ranges used in the FAA 
have yet to be validated and therefore cannot ensure that they 
truly represent the facility needs.
    NATCA supports including language in the FAA 
Reauthorization Act of 2009 to provide for an objective third 
party assessment of the FAA's air controller staffing needs. 
NATCA's hopeful that a resolution to our contract dispute will 
lead to a more collaborative relationship within the FAA, as 
well.
    Whether it is technological development, implementing air 
space redesign or realigning FAA facilities, NATCA has made 
recommendations to the FAA that could help improve safety and 
efficiency of air travel as well as transition to NextGen while 
saving critical tax dollars. Unfortunately, the FAA is ignoring 
our recommendations.
    The FAA's ad hoc non-inclusive approach to facility 
realignments has been particularly frustrating. NATCA's worked 
collaboratively with the agency in the past during the creation 
of several regional terminal approach control facilities. 
However, this go-it-alone approach has also frustrated Members 
of Congress, such as Senator Mike Crapo of Idaho, who called 
the agency's plan to remove radar services from Boise to Salt 
Lake City, a decision in search of a rationale.
    Last year, the FAA moved forward with plans to move the 
radar functions from facilities in Pueblo, Colorado, and Palm 
Springs, California, despite the NATCA warnings of insufficient 
staffing at the receiving facilities to safely accommodate the 
transfers.
    We turned out to be right, unfortunately. Both locations 
have seen deteriorations in safety and services. An FAA manager 
at the Denver En Route Center wrote a memo to his employees 
earlier this year that a lack of experienced controllers at 
Denver TRACON made that facility unable to handle, safely and 
efficiently handle its traffic levels.
    This decision to transfer Pueblo Airport's radar functions 
has proven too much for the Denver TRACON to absorb just as 
NATCA had warned, and at Southern California TRACON, the IG 
warns that it is one of the most critically understaffed 
facilities in the United States with overtime leaping an 
incredible 400 percent in the 2 years since the transfer of 
Palm Springs air space radar duties.
    With trainees expected to make up over 40 percent of the 
TRACON's staffing later this year, the IG warns that the 
extremely high training ratio has the potential to overwhelm 
training.
    In Memphis, the FAA plans to move forward next month with 
another unnecessary tower radar split. Again, the staffing is 
inadequate to facilitate this realignment in a safe and 
efficient manner.
    NATCA instead recommends that the FAA postpone its 
realignment efforts at Memphis and elsewhere until the agency 
has had a new administrator in place and Congress has had the 
chance to pass a comprehensive reauthorization bill.
    We join the GAO in recommending the implementation of a 
process that will allow for the meaningful involvement of vital 
aviation stakeholders, including agency employees. 
Collaboration with NATCA is absolutely crucial to the success 
of the FAA's Modernization Plan.
    Let me give you an example of where the FAA's moving ahead 
without NATCA and what is occurring as a result. ERAM, which 
stands for En Route Automation Modernization, is the NextGen 
computer system at our regional en route centers.
    While NATCA supports ERAM as a good concept and necessary 
for the future of air traffic control, the FAA's testing has 
yielded more than 40,000 problem reports, including 100 that 
are considered crucial.
    Recently, the glitch at the FAA during testing resulted in 
ERAM mistakenly being used as full time on live air traffic, 
resulting in the loss of flight data information and 
problematic handoffs between control facilities.
    NATCA would like to see better briefings and training for 
controllers and better planning for ERAM tests. I will point 
out that NATCA and the FAA are currently negotiating for 
involvement in the project, but these talks began in the 
eleventh hour just before the FAA began testing.
    At this time it is unclear as to whether the agency is 
prepared to reach an agreement with us.
    Meeting a contractual deadline should not be the measure of 
success for ERAM. Technology must be deployed only when the 
technology is stable and fully functional to prevent putting 
the safety of the flying public at risk. NATCA and all the 
stakeholders must be included in such modernization efforts for 
the front end to prevent the type of mistake and costly delays 
we are seeing with ERAM.
    Passage of a comprehensive FAA Reauthorization Act will 
ensure that NATCA and the rest of the aviation community are 
treated as vital stakeholders whose subject matter expertise is 
welcomed rather than shunned.
    These changes are necessary if we hope to put our aviation 
system on the flight path to modernization.
    Thank you, sir.
    [The prepared statement of Mr. Forrey follows:]

           Prepared Statement of Patrick Forrey, President, 
              National Air Traffic Controllers Association

Introduction
    The National Air Traffic Controllers Association (NATCA) is the 
exclusive representative of more than 15,000 air traffic controllers 
serving the Federal Aviation Administration (FAA), the Department of 
Defense and the private sector. In addition, NATCA represents 
approximately 1,200 FAA engineers, 600 traffic management coordinators, 
500 aircraft certification professionals, agency operational support 
staff, regional personnel from FAA's logistics, budget, finance and 
computer specialist divisions, and agency occupational health 
specialists, nurses and medical program specialists. NATCA's mission is 
to preserve, promote and improve the safety of air travel within the 
United States, and to serve as an advocate for air traffic controllers 
and other aviation safety professionals. NATCA has a long history of 
supporting new aviation technology, modernizing and enhancing our 
Nation's air traffic control system, and working to ensure that we are 
prepared to meet the growing demand for aviation services.

Why Passage of FAA Reauthorization Is Urgently Needed: NATCA's 
        Perspective
    The air traffic controllers and aviation safety professionals that 
NATCA represents are highly trained and highly skilled; they deserve to 
have the most advanced technology to enable them to more effectively 
direct aircraft, contributing to a safer and more efficient National 
Airspace System (NAS). NATCA has been a vocal supporter of FAA 
Reauthorization and continues to urge swift passage of the legislation 
to facilitate safe and effective modernization of the NAS while 
maintaining, up keeping and improving vital human and physical 
infrastructure.
    The current economic downturn and the subsequent decrease in flight 
volume present not only a challenge, but also an opportunity to improve 
the NAS so that air traffic controllers will be better able to handle 
the inevitable resurgence of our aviation industry when the economy 
fully rebounds.
    NATCA remains completely committed to the safety and efficiency of 
the NAS and recognizes technology has the potential to improve safety, 
expand capacity, and increase efficiency. Therefore, we support the 
FAA's willingness to undertake the large-scale and long-term research, 
development and modernization project called the Next Generation Air 
Transportation System (NextGen). Yet the complexity and the risk of 
this program should not be underestimated. The GAO has stated that 
NextGen is a ``high-risk effort'' \1\ because of its cost and 
complexity, making it imperative that the FAA proceed in a manner that 
maximizes the chances of success.
---------------------------------------------------------------------------
    \1\ U.S. House of Representatives Committee on Transportation and 
Infrastructure summary of subject matter for members of the Aviation 
Subcommittee from Aviation Subcommittee staff on Air Traffic Control 
Modernization and Next Generation Air Transportation System: Near Term 
Achievable Goals March 16, 2009.
---------------------------------------------------------------------------
    NATCA believes that the ultimate success of NextGen is dependent 
upon collaboration between the Union and the FAA. Currently, the FAA is 
prohibiting any meaningful level of collaboration with NATCA, allowing 
key NextGen modernization projects, airspace redesign and changes to 
air traffic control procedures to move forward despite serious 
outstanding flaws and unmitigated safety risks. The Department of 
Transportation Inspector General and the Government Accountability 
Office have both testified before Congress that stakeholder involvement 
prevents cost overruns and prevents project delays.
    The Agency is also moving forward on ad hoc air traffic control 
facility and service realignment efforts without a comprehensive review 
procedure to determine whether the realignment provides an operational 
benefit to users, increases safety and efficiency, and/or saves the 
taxpayer money. FAA Reauthorization is needed to provide that review 
procedure and compel the Agency to subject all current realignment 
efforts to this needed layer of oversight, accountability and 
transparency. Just as with technological development, realignment 
efforts completed in a collaborative environment will ensure benefits 
are realized rather than squandered.
    A restoration of what was once a great collaborative relationship 
is only possible with the existence of a collective bargaining 
agreement (CBA) and a fair process for negotiating future CBAs and 
other labor agreements. Air traffic controllers have been working under 
FAA-imposed work and pay rules for nearly 1,000 days. Two weeks ago, 
the Obama Administration announced that it was appointing former FAA 
Administrator, Jane Garvey, to lead a team of three to mediate the 
contract dispute between NATCA and the FAA. With this bold step, 
President Obama and Secretary LaHood are fulfilling a commitment to the 
safety and modernization of the air traffic control system and to the 
dedicated men and women safety professionals who run the system each 
day.
    As the President and the Secretary have repeatedly made clear, a 
resolution to the dispute is critical to stabilizing the controller 
workforce, restoring a collaborative working relationship between 
controllers and the FAA, and successfully implementing the Next 
Generation Air Transportation System needed to spur economic 
development and increase the safety, efficiency and effectiveness of 
air travel.
    As the President also made clear, the current process that was used 
by the FAA to unfairly impose its will on the controller workforce in 
2006 is terribly flawed, but this process can be improved by an FAA 
Reauthorization bill. We supported this Committee's language last 
Congress in S. 1300 that provided a fix to the process by addressing 
the FAA Personnel Management System. Section 313 would restore fairness 
to the collective bargaining process and ensures that the Agency can 
never again unilaterally impose a work or pay rules upon its workforce.

NATCA's Recommendations for FAA Reauthorization
        1. Contract Dispute Resolution: NATCA supports the inclusion of 
        language similar to Section 313 of S. 1300, the Aviation 
        Investment and Modernization Act of 2007, which sought to 
        prevent future disputes between the Agency and its employees. 
        The bill amended Title 49 to allow for, in the event of a 
        bargaining impasse, the proposals to go through mediation and 
        ultimately, binding arbitration. Implementation of such a 
        process would ensure that Congress will never again find itself 
        in the middle of a contract dispute between the FAA and NATCA.

        2. Realignment of Facilities and Services: NATCA supports the 
        inclusion of language in FAA Reauthorization that would ensure 
        that all FAA realignment initiatives are considered in a 
        collaborative environment and provide a specific operational 
        benefit. NATCA supports the establishment of a workgroup of 
        stakeholders to review all realignment proposals prior to the 
        FAA beginning the realignment process, which we believe must 
        include representatives of all of the affected bargaining 
        units. Additionally, NATCA recommends that realignment be 
        clearly defined as to prevent ambiguity and to provide clarity 
        and uniformity to the process.

        3. Staffing: NATCA fully supports and endorses an air traffic 
        controller staffing provision within the FAA Reauthorization 
        bill authorizing a third-party to conduct scientific study of 
        the system's air traffic controller staffing need. This 
        language would allow the FAA, Congress, and NATCA to 
        objectively and accurately assess the current risk to the NAS 
        and set benchmarks for resolving the staffing crisis. Just last 
        month, a Department of Transportation Inspector General report 
        stated that the FAA has not yet validated its staffing ranges 
        and therefore cannot ensure it truly represents the workforce 
        needs. The report also said that the ``FAA faces an increasing 
        risk of not having enough fully certified controllers in its 
        workforce,'' \2\ further making the case that such a study is 
        necessary.
---------------------------------------------------------------------------
    \2\ FAA Document, ``Controller Staffing at Key California Air 
Traffic Control Facilities,'' April 23, 2009, Report Number: AV-2009-
047.

        4. Modernization: NATCA supports appropriate funding levels in 
        the FAA Reauthorization bill to modernize the air traffic 
        control system. The NextGen modernization project's initial 
        plan lacked clearly-defined goals, leadership, and had begun 
        without including stakeholders in the process. The problems 
        associated with ERAM and airspace redesign, which are outlined 
        later in NATCA's testimony, are demonstrative of projects that 
        have run into problems at least partly because NATCA was not 
        meaningfully involved. NextGen's success is highly dependent 
        upon a cooperative environment for the development and 
---------------------------------------------------------------------------
        implementation of new and pre-existing technology.

        5. Maintenance of Air Traffic Control (ATC) Infrastructure: 
        NATCA supports adequate funding for the maintenance of our ATC 
        infrastructure. It is imperative that the funding of NextGen 
        does not come at the expense of the NowGen. During the previous 
        Administration, the FAA allowed existing facilities to fall 
        into disrepair while focusing all its energy and budget on 
        NextGen projects. While NATCA supports the modernization of the 
        NAS, we also insist upon the proper maintenance of the system. 
        FAA facilities and ATC infrastructure must be maintained in a 
        manner that ensures the safety and security of FAA personnel 
        and allows aviation safety professionals the tools they need to 
        do their jobs to the high standard of excellence we expect and 
        depend on.

Realignment of Facilities and Services
    Realignment--the consolidation, deconsolidation or reorganization 
of FAA facilities and services--must be implemented only when such 
changes enhance operational services, provide continued or improved 
safety, support and facilitate modernization of the NAS, is cost-
effective, and the concerns raised by stakeholders are addressed and 
mitigated. During the past 20 years, the FAA has completed several 
realignments, including Southern and Northern California, and Potomac 
in the Washington, D.C. area. NATCA worked cooperatively and 
collaboratively with the FAA on these efforts because air traffic 
controllers and other vital stakeholders were included in the planning 
to help ensure the maintenance of safe and efficient operations, and to 
express their concerns about controller staffing levels, equipment, 
training, and redundancy.
    During the previous Administration, the FAA began to separate radar 
and tower air traffic services at several airports across the country 
without seeking input from stakeholders. The FAA continued to move 
forward on these initiatives despite serious outstanding concerns over 
the effect such changes would have on safety and doubts over the 
operational benefit. Of particular concern in these cases was the 
staffing shortage, loss of staffing flexibility, barriers to 
coordination, and the deterioration of controllers' knowledge of 
operations.
    In Colorado, for example, the FAA transferred the radar functions 
from the Pueblo International Airport to the Denver TRACON in September 
2008, despite a significant shortage of certified controllers in Denver 
to absorb the new workload. The increase in workload led to a decrease 
in ATC services for users in the Denver airspace, leading a manager at 
the Denver En Route Center to advise his employees in February ``that 
the volume issues created by eight different routes flowing into their 
airspace routinely creates situations that put their controllers at 
risk, and they are unable to provide the level of service our customers 
deserve.'' \3\
---------------------------------------------------------------------------
    \3\ FAA Memorandum, ``Denver Traffic,'' February 19, 2009.
---------------------------------------------------------------------------
    A similar situation has arisen at the Southern California TRACON 
(SCT), which has seen overtime increase by a staggering 400 percent 
since the radar services for Palm Springs International Airport were 
transferred nearly 2 years ago. According to an April 23, 2009 report 
by the DOT Inspector General, SCT is not only the busiest TRACON in the 
world, handling over 2.2 million operations last year, but one of the 
most critically understaffed. The report states that SCT ``has 
experienced a sharp decline in CPCs over the last 5 years . . .'' and 
``. . . expects to have over 100 controllers in training later this 
year--which is more than 40 percent of its workforce and could 
overwhelm SCT's training capacity.'' NATCA does not believe that these 
are ideal conditions for absorbing additional radar 
responsibilities.\4\
---------------------------------------------------------------------------
    \4\ FAA Document, ``Controller Staffing at Key California Air 
Traffic Control Facilities,'' April 23, 2009, Report Number: AV-2009-
047.
---------------------------------------------------------------------------
    At Orlando International Airport (MCO) the split has left the tower 
with significant levels of inexperience; more than fifty percent of MCO 
tower controllers have 5 years of experience or less. When the facility 
was combined this percentage was reduced to 35 percent, which, while 
still very high, was less dangerous.
    For Miami and Philadelphia, also targeted by the FAA for tower/
TRACON separation, NATCA offered an alternative configuration that 
enabled the facility to simultaneously maintain the advantages of a 
combined facility while reducing training time. After Congressional and 
public pressure forced the FAA to review this alternative 
configuration, the FAA ultimately agreed that the proposed 
configuration would resolve the issues at hand without creating 
additional safety risks. This sudden course correction revealed the 
need for a thorough and open selection and review process for FAA 
facility realignment initiatives.
    The FAA conducted a study at Memphis International Airport (MEM) 
which found that a stand-alone TRACON at MEM would need to be staffed 
with 43 certified professional controllers (CPCs) while the tower would 
require 37. A split facility would therefore require a total of 80 
CPCs.\5\ However the combined facility currently employs only 47 
CPCs,\6\ less than 60 percent of what is necessary to operate a split 
facility. Unfortunately, the FAA is rushing ahead to complete its split 
of MEM on June 7, 2009, instead of postponing the move until Congress 
has completed its work on FAA Reauthorization. In general, split 
facilities require additional staffing, as there is a reduction in 
flexibility when the workforce is split.
---------------------------------------------------------------------------
    \5\ FAA Document ``Needs Comparison for 4 Splits: MTP Comparison 
for the 4 Splits.''
    \6\ Based on Payroll data provided to NATCA from the FAA. This data 
is current as of the end of FY 2008.
---------------------------------------------------------------------------
    Additionally, controllers at combined tower/TRACON facilities must 
learn all aspects of operations required for safe and efficient 
arrivals and departures. Controllers therefore understand how their 
actions at one position effect the operations of adjacent positions, 
enabling them to optimize their performance for both safety and 
efficiency. When facilities are split this knowledge is lost. Not only 
will new trainees be denied the opportunity to train on all aspects of 
the operation, they will not even have the opportunity to observe 
operations at other sectors.
    The FAA has an obligation to involve Members of Congress, the 
public, airport operators, pilots, controllers, and other stakeholders 
in the decision-making, planning, and implementation process of any 
agency effort that could affect the safety and efficiency of the 
airspace. Regrettably, the agency has chosen to exclude stakeholders 
from the process, ignore their concerns, and inform the public only 
after its decision has been made. This go-it-alone method allows the 
FAA to remain ignorant of authentic and substantial inadequacies in its 
planning and has led to the unnecessary and regrettable ATC service 
denigration in Southern California, Colorado and Orlando.
    NATCA supports the inclusion of comprehensive language in FAA 
Reauthorization to ensure that all FAA realignment initiatives are 
considered in a collaborative environment and provide a specific 
operational benefit. We support the establishment of a workgroup of 
stakeholders to review all realignment proposals prior to the FAA 
beginning the realignment process, with representatives of all of the 
affected bargaining units included. In addition, to prevent ambiguity 
and confusion, realignment must be clearly defined.

Staffing
The State of the Air Traffic Controller Workforce
    NATCA and the FAA began contract negotiations in July 2005 over a 
successor agreement to the 2003 extension to the parties' 1998 
collective bargaining agreement. The FAA unilaterally declared an 
impasse after only 9 months of negotiations (in 1989, 1993, and 1998 
the parties reached an agreement after an average of 24 months of 
negotiation). In September of 2006, the FAA did declare an impasse, as 
NATCA predicted, and unilaterally imposed work and pay rules (IWRs) on 
the air traffic controller workforce. This action not only violated the 
FAA's legal obligation to bargain in good faith, but it also violated 
fundamental principals of fairness. This action, in effect, stripped 
this union of its collective bargaining rights.
    The effects of the imposed work rules have been devastating, not 
only to the working lives of controllers, but to the safety and 
integrity of the National Airspace System. Prior to the imposed work 
rules, NATCA officials warned that imposing work rules would result in 
a mass exodus of controllers from the FAA workforce and would result in 
dangerously low staffing levels. NATCA's predictions have proven 
accurate.
    In the two fiscal years following the imposed work rules, 3,356 air 
traffic controllers left the controller workforce through attrition. 
Less than 2 percent had reached the mandatory retirement age of 56. 
Ninety-eight percent left before mandatory retirement.\7\
---------------------------------------------------------------------------
    \7\ Based on payroll data provided to NATCA from the FAA.
---------------------------------------------------------------------------
    The FAA now insists that this exodus had been long anticipated and 
that it was the result of nothing more than an increase in retirement 
eligibility. This, however, is not the case. In FY2008 there were 947 
retirements and 442 resignations, removals and deaths. Three months 
prior to the implementation of the IWRs, the FAA predicted there would 
be 645 retirements and 84 resignations removals and deaths in 
FY2008,\8\ approximately half of the actual attrition level.
---------------------------------------------------------------------------
    \8\ Based on the ``A Plan for the Future 2006-2015: The Federal 
Aviation Administration's 10-Year Strategy for the Air Traffic Control 
Workforce'' June 2006.
---------------------------------------------------------------------------
    In its April 23, 2009 report, the IG stated that ``the retirement 
wave hit record numbers in 2007 and 2008 and is projected to increase 
through at least 2012 . . . FAA faces an increasing risk of not having 
enough fully certified controllers in its workforce--with 27 percent of 
the workforce now in training compared to 15 percent in 2004.'' \9\
---------------------------------------------------------------------------
    \9\ FAA Document, ``Controller Staffing at Key California Air 
Traffic Control Facilities,'' April 23, 2009, Report Number: AV-2009-
047.
---------------------------------------------------------------------------
    As NATCA has previously testified, the gap between the FAA's 
prediction and the actual attrition can be attributed directly to the 
IWRs and the adverse work environment that those rules created. These 
rules removed career advancement opportunities, established new pay 
bands that decreased controller wages by an average of 30 percent, 
reduced the availability and duration of rest periods, instituted 
unpopular changes to the annual leave policy, and created an adverse 
work environment without a viable process to appeal or address 
managerial abuses of authority.
    As a result of the new pay bands, veteran controllers who are 
eligible to retire have already worked their three highest salary years 
which will determine their pensions. Combined with the deterioration of 
working conditions and a more acute fear of errors due to increased 
workload, all incentives for experienced controllers to stay on board 
until their mandatory retirement age have been removed.
    On the other end of the spectrum, new hires are experiencing the 
stress and challenge of air traffic control, coupled with poor 
treatment from management and B-Scale wages, and are choosing to leave 
the FAA in favor of careers in the private sector.
    One former controller summed up the sentiments of many in his 
resignation letter to the FAA:

        Under the FAA's new imposed work rules I cannot justify staying 
        with the Agency . . . I do not feel I can continue to work in 
        an environment that is so vindictive, or for an employer who is 
        more worried about the bottom line rather than safety. I cannot 
        justify staying when I can return to a company that knows how 
        and makes it a point to take care of its employees. My take 
        home pay will go up, my quality of life will improve and my 
        workload will decrease.\10\
---------------------------------------------------------------------------
    \10\ Employee resigned from Albuquerque ARTCC, in October 2006.
---------------------------------------------------------------------------
Fatigue
    The staffing shortage has created an environment conducive to high 
levels of fatigue among air traffic controllers, as controllers are 
required to work excessive amounts of overtime and work on short-
staffed shifts.
    At Orlando International Tower and TRACON, for example, controllers 
were required to work an average of 558 hours of overtime per pay 
period in CY2008. If divided evenly among the fully certified 
controllers, each controller would have to work more than 14 additional 
hours per pay period \11\--cutting available rest and recovery time 
almost in half. In its April 23, 2009 report on staffing and training 
issues at key FAA facilities in California, the DOT Inspector General 
found that overtime hours at LAX Tower, Southern California TRACON and 
Northern California TRACON significantly increased over the past 2 
years, by 868, 400 and 120 percent, respectively.\12\
---------------------------------------------------------------------------
    \11\ According to NATCA records, there were 38 certified 
professional controllers (CPCs) at MCO.
    \12\ FAA Document, ``Controller Staffing at Key California Air 
Traffic Control Facilities,'' April 23, 2009, Report Number: AV-2009-
047.
---------------------------------------------------------------------------
    While moderate amounts of overtime can be absorbed into the system 
without noticeable effects on performance, excessive overtime 
introduces fatigue into the system. In order to absorb the fatigue-
inducing effects of overtime, an individual controller must have 
sufficient time for recovery following a long week, while the workforce 
must be made up of non-fatigued controllers who can provide support 
during the shifts themselves. With the staffing shortage such as it is, 
this is impossible. In addition, excessive overtime negatively affects 
controllers' quality of life and interferes with home life issues, such 
as childcare, lowering the morale of the workforce.
    The alternative to excessive overtime is to work each shift without 
proper staffing levels. A short-staffed shift often means controllers 
are afforded fewer opportunities for rest and recovery during the shift 
itself, being required to work longer on position and given shorter 
rest periods. Although the FAA had, until recently, limited time-on-
position to 2 hours based on Civil Aeronautics Medical Institute (CAMI) 
data, this limitation was removed when the imposed work rules were 
instituted and is currently ignored throughout the system. At Atlanta 
tower (ATL), controllers report that they are given exactly 20 minutes 
of break time, regardless of the length of time on position or the 
intensity of the traffic they work.
    Not only are controllers working longer on position, but the 
workload during that time has increased as well. On a short-handed 
shift, managers reduce the number of radar assistants (RAs), increasing 
the workload for the controller working radar. A controller working 
without an assistant is responsible not only for communication with 
aircraft, but also for coordination with other controller positions and 
facilities, as well as updating flight progress information. 
Additionally, managers may be forced to combine positions, creating 
greater complexity by requiring each controller to monitor greater 
numbers of confliction points and an increased volume of aircraft. One 
recent internal FAA document reported that as many as 56.3 percent of 
errors in Eastern En Route facilities occur when there are combined 
sectors, combined Radar/RA positions, or both.\13\
---------------------------------------------------------------------------
    \13\ Weekly En Route (FY 08) Report May 30, 2008 Eastern 
Facilities, Federal Aviation Administration.
---------------------------------------------------------------------------
Inexperience and the Training Backlog
    Rather than taking meaningful steps to stem the flow of experienced 
personnel, the FAA simply began a massive hiring effort. As a result, 
trainees now make up an extremely high percentage of the workforce. As 
of the end of FY2008, trainees (excluding CPC-ITS, previously certified 
controllers training on a new area or facility) accounted for nearly a 
quarter of the controller workforce (22 percent). This exceeds what the 
Inspector General of the Department of Transportation recently reported 
experts to consider the safe upper limit for the system.\14\ In many 
facilities the situation is even worse, with 48 facilities exceeding 35 
percent trainees.
---------------------------------------------------------------------------
    \14\ Statement made by Calvin L. Scovel II, Inspector General, U.S. 
Department of Transportation before the Senate Committee on 
Appropriations Subcommittee on Transportation, Housing and Urban 
Development and Related Agencies. April 17, 2008. ``Key Safety and 
Modernization Challenges Facing the Federal Aviation Administration.''
---------------------------------------------------------------------------
    Staffing shortages and high trainee ratios have a direct effect on 
the efficiency of training itself. With so many trainees, and a small 
and shrinking number of Certified Professional Controllers (CPCs), 
there are a limited number of controllers capable of providing 
training, creating a backlog of trainees. At Miami Center (ZMA), for 
example, trainees have had to wait up to sixteen months from their 
start date to receive on-the-job training \15\ due to the facility's 
staffing shortage.
---------------------------------------------------------------------------
    \15\ Interview with facility representative from ZMA.
---------------------------------------------------------------------------
    For the first time since the 1980s, trainees are being put directly 
into some of the most demanding and difficult terminal facilities after 
completing their classroom training at Oklahoma City. These facilities 
include Atlanta Hartsfield Jackson Tower (ATL), Atlanta TRACON (A80), 
Charlotte Tower (CLT), New York TRACON (N90), Dallas-Fort Worth Tower 
(DFW), San Francisco Tower (SFO), Southern California TRACON (SCT), and 
Northern California TRACON (NCT). These higher level facilities do not 
have training curricula designed to teach new hires aircraft types, 
airline identification and other basic fundamental air traffic control 
knowledge and skills. In the past, terminal trainees were placed in a 
lower-level tower to receive initial certification and would transfer 
to a higher-level facility as their careers and skills advanced. The 
imposed work rules, however, removed financial incentives for 
experienced controllers to transfer to more difficult facilities 
because many would actually take a pay cut with such a transfer. 
Because retirement eligible controllers are leaving in record numbers, 
staffing has become critical at these terminal facilities, forcing the 
Agency to hire trainees with no previous air traffic control 
experience.
    Even as these trainees certify, the air traffic control system is 
still left staffed by individuals with little to no experience. These 
new hires are the future of air traffic control and have tremendous 
potential, but they are denied the opportunity to learn from 
experienced controllers and are forced to shoulder too much of the air 
traffic control burden at this early stage of their careers.
    Since the implementation of the imposed work rules, the FAA lost 
more than 46,000 years of air traffic control experience through 
retirements alone.\16\ Nearly one third (27 percent) of air traffic 
controllers in the FAA have less than 5 years experience, and 40 air 
traffic control facilities have more than half of its workforce 
composed of individuals with less than 5 years experience.
---------------------------------------------------------------------------
    \16\ Calculation assumes 25 years experience for every retiree. 
Twenty-five years of services is the minimum for retirement eligibility 
for most air traffic controllers.
---------------------------------------------------------------------------
Establishing Scientific Staffing Standards
    In 1998, the FAA and NATCA agreed upon the optimal number of 
controllers for each facility based on a scientific study that factored 
in time-and-motion studies, sector complexity and workload, number of 
operations on the 90th percentile day, and relevant non-operational 
activities (i.e., training, annual/sick leave). Although the current 
number of operations is similar to that of 1998,\17\ the FAA has 
abandoned these standards in favor of staffing ranges concocted to 
conceal the severity of the controller staffing shortage.
---------------------------------------------------------------------------
    \17\ According to the FAA's OPSNET database there were 45,394,027 
instrument operations in FY2007 compared to 48,985,472 in FY1998 (93 
percent).
---------------------------------------------------------------------------
    As part of its 2007 Controller Workforce Plan, the FAA established 
staffing ranges for each air traffic control facility, which it 
modified slightly in 2008. Rather than basing its staffing goals on an 
accurate and precise scientific assessment of each facility's 
requirements for safe operation, the FAA has designed these ranges in 
order to deliberately mislead stakeholders about the staffing crisis 
currently facing the air traffic control system in this country. They 
were also designed in order to meet specific budget goals, with 
regional directors identifying the number of air traffic control 
positions it could fund at each facility and remain within its fixed 
budgets.\18\ NATCA has reason to believe that the FAA's official 
staffing ranges were engineered by the Air Traffic Organization (ATO) 
Finance office, rather than the ATO Safety Office based on a memo 
written by the workforce staffing manager, Jodi McCarthy.\19\
---------------------------------------------------------------------------
    \18\ Letter from FAA Regional Administrator Christopher R. Blum, 
Central Region, to Congressman Dennis Moore. February 22, 2006.
    \19\ Untitled memo from Jodi S. McCarthy, ATO-T Finance, Manager, 
Workforce Staffing. Received February 28, 2007 on the topic of the 
Staffing ranges featured in the 2007 Controller Workforce Plan.
---------------------------------------------------------------------------
    FAA attempts to justify this budget-based staffing standard by 
presenting a pseudo-scientific justification for its staffing numbers 
in its controller workforce plan. The FAA's reasoning is based on an 
average of the following:

        1. Scientific Data--The FAA does not specify which study this 
        refers to, who conducted it, or whether the study was conducted 
        by an unbiased third party. It has thus far refused to provide 
        NATCA with the details of the study parameters or the results.

        2. Current Staffing at Peer Facilities--As the entire system is 
        suffering the same staffing shortage, peer facilities will be 
        equally understaffed. Therefore using these as a basis of 
        comparison yields an anticipated deflated standard.

        3. Past Staffing Lows--The FAA misleadingly refers to this 
        comparison as the past year of ``highest productivity.'' 
        However, it goes on to define productivity as the highest 
        number of operations per controller--or the year when the 
        fewest controllers were relied upon to control the largest 
        amount of traffic--without taking into account error rates, 
        delays, or effect on the workforce.

        4. Managers' Advice--The FAA misleadingly refers to this as 
        ``service unit input.'' This input did not include input from 
        NATCA and came entirely from within FAA management ranks, who 
        are under pressure to conceal the extent of the staffing 
        shortage and assure Congress and the flying public that all is 
        under control. Therefore this too is likely to yield a 
        dangerously low and inaccurate estimate of needed staffing.

    In the summer of 2008 the FAA acted in a way that corroborated 
NATCA's claims of the invalidity of these staffing ranges by offering 
significant relocation incentives to controllers to transfer to many 
facilities throughout the country. These incentives included increases 
to base pay, bonuses, and relocation payments, and allowed controllers 
to remain above the new pay bands, contrary to transfer procedure 
outlined in the imposed work rules. Yet, in every case where such 
incentives were offered, current controller staffing is within or in 
some cases even above the FAA staffing ranges (See Table 1). If FAA's 
staffing ranges were accepted as valid it would appear as if the Agency 
is offering lucrative incentives to transfer controllers to well-
staffed, even overstaffed, facilities. The truth, however, is that the 
facilities are indeed severely understaffed.
    NATCA fully supports and endorses the language in the FAA 
Reauthorization Act of 2009 that authorizes a scientific study of the 
system's air traffic controller staffing to be conducted by an 
objective third party. This language allows the FAA, Congress and NATCA 
to truly assess the current risk to the NAS and set benchmarks for 
resolving the staffing crisis.

                                 Table 1
------------------------------------------------------------------------
          Facilities with Transfer Incentives Summer 2008 \20\
-------------------------------------------------------------------------
                                            FAA  Staffing
 Facility Name   FAC ID    Total On  Board    Range \22\        1998
                            Staffing \21\                    Authorized
------------------------------------------------------------------------
8

Atlanta TRACON  A80       93                86-105         104
\20\ Transfer
 incentives
 identified on
 the FAA
 career
 opportunities
 website http:/
 /jobs.faa.gov/
 .
8

Atlanta ATCT    ATL       50                42-52          55
\21\ Staffing
 based on
 payroll
 information
 provided to
 NATCA by the
 FAA. Total on-
 board
 staffing
 includes both
 CPCs and
 Trainees.
8

Chicago TRACON  C90       99                82-100         101
\22\ Federal
 Aviation
 Administratio
 n ``A Plan
 for the
 Future: The
 Federal
 Aviation
 Administratio
 n's 10-year
 Strategy for
 the Air
 Traffic
 Control
 Workforce
 2008-2017.''
8

Charlotte ATCT  CLT       79                68-84          740
6

Cincinnati      CVG       78                59-73          860
 ATCT
8

Detroit TRACON  D21       48                47-57          710
6

Spokane ATCT    GEG       30                23-28          32
6

Greenbay ATCT   GRB       25                20-24          22
6

Greer ATCT      GSP       21                16-20          180
8

Houston TRACON  I90       77                69-85          76
8

Indianapolis    IND       43                42-52          56
 ATCT
8

Los Angeles     LAX       46                39-47          470
 ATCT
6

Milwaukee ATCT  MKE       48                38-46          51
6

New York        N90       223               176-215        270
 TRACON
6

O'Hare ATCT     ORD       69                56-68          710
8

Norfolk ATCT    ORF       42                34-42          UNK
8

Potomac TRACON  PCT       168               151-185        211
8

Raleigh ATCT    RDU       44                38-46          480
6

Roanoke ATCT    ROA       26                20-24          300
8

South Bend IND  SBN       24                20-24          24
8

Southern        SCT       221               194-237        261
 California
 TRACON
8

Syracuse ATCT   SYR       22                20-24          300
6

Tampa ATCT      TPA       70                55-67          670
------------------------------------------------------------------------
8Within FAA ranges.0
6Above FAA ranges.0

Modernization
    NATCA supports the modernization of the NAS, and supports adequate 
funding in an FAA Reauthorization bill to accelerate the implementation 
of NextGen. Our support of NextGen is not without conditions, however. 
Thus far, NATCA, like much of the industry community, has been 
disappointed by the FAA's lack of clear direction for NextGen plans as 
well as the FAA's continued exclusion of stakeholders from the planning 
and implementation of new technologies.
    As NATCA's Director of Safety and Technology, Dale Wright, 
described in greater detail in his March 25, 2009 testimony before this 
subcommittee, there are several outstanding shortcomings with the FAA's 
methodology and plans that must be addressed at this early stage of the 
process.

        1. The FAA must collaborate meaningfully with stakeholders--The 
        inclusion of NATCA is critical to the success of NextGen and 
        all projects relating to modernization, technology and 
        procedures. The Government Accountability Office and the 
        Inspector General of the Transportation Department have both 
        testified before Congress that controller involvement prevents 
        cost overruns and implementation delays. NATCA must be included 
        in all stages, from inception to implementation.

        2. NowGen must not be neglected as we prepare for NextGen--The 
        current air traffic control system has fallen into disrepair. 
        Both the human infrastructure (including staffing levels of air 
        traffic controllers, inspectors, engineers, and other aviation 
        safety professionals) and physical infrastructure (such as 
        poorly-maintained and deteriorating air traffic control 
        facilities) need attention in the near term.

        3. Human factors must be addressed--Several of NextGen's 
        proposals raise serious concerns regarding human factors, 
        including the increased complexity and safety risk inherent in 
        a best-equipped, best-served policy. These issues must be 
        addressed during the development stages in order to avoid 
        delays, cost overruns, and safety failures.

        4. Safety requires redundancy--NATCA is concerned that the 
        system being proposed by the FAA, which is centralized and 
        lacking a viable backup, is unacceptably vulnerable to attack 
        or natural disaster. Human intervention must not be the first 
        and only layer of redundancy. The FAA must build redundancy 
        into the system in order to ensure that safety is not 
        compromised in the event of an attack, natural disaster, or 
        technological failure.

    NextGen will only be successful if it is done with complete 
participation and agreement from government, labor and industry groups 
from development through implementation. By collaborating meaningfully 
with NATCA from the early stages of the project through implementation, 
the FAA will be able to identify and address potential issues early on 
in the process, thereby saving time, money, resources and, most 
importantly, avoiding unnecessary safety risks. Currently, NATCA has 
been able to identify several serious concerns with the FAA's NextGen 
initiatives; many of the plans ignore serious human factors 
implications while others eliminate redundancy necessary for safety. We 
believe that if given the opportunity to collaborate meaningfully, 
NATCA would be able to assist the FAA in addressing these and other 
issues and mitigating the risks associated with them.
    During the late 1990s and into the early part of this decade, NATCA 
had representatives on over 70 national modernization and procedure 
development task forces.\23\ Working collaboratively through these task 
forces, we were able to complete more than 7,100 projects to install 
and integrate new facilities, systems and equipment into the NAS. In 
addition, more than 10,000 hardware and software upgrades were 
completed.
---------------------------------------------------------------------------
    \23\ National Air Traffic Controllers Association, 2002 Air Traffic 
Modernization Tools.
---------------------------------------------------------------------------
    Under the Bush Administration, the FAA routinely avoided 
collaboration with NATCA on key issues and initiatives related to 
modernization and ultimately terminated the successful Controller 
Liaison Program, under which controllers provided crucial insight and 
guidance for the development and implementation of some of the most 
effective technological and procedural advancements, including: 
Advanced Technologies and Oceanic Procedures (ATOP), Display System 
Replacement (DSR), User Request Evaluation Tool (URET), Voice 
Switching, Control System (VSCS), Reduced Vertical Separation Minimum 
(DRVSM) and Standard Terminal Automation Replacement System (STARS).
    NATCA believes that the success of NextGen is dependent upon this 
level of NATCA involvement. It is our hope once NATCA and the FAA are 
able reach a mutually acceptable collective bargaining agreement we can 
again return to an era of cooperation and collaboration that will best 
serve the needs of the NAS and the flying public.
Status of Near-Term NextGen Collaboration Efforts: ERAM
    One of the earliest NextGen projects to be deployed will be the 
switch from the Host computer system (Host), which currently serves as 
the technological backbone of en route air traffic control, to En Route 
Automation Modernization (ERAM). Host, which was originally deployed in 
the 1980s, is the mainframe computer processor which provides data to 
display terminals at en route air traffic control positions. It is 
expected to become unsustainable within the next 2 years, as the 
availability of new technology has made replacement parts for older 
computers harder to find. It is also incapable of handling the 
satellite-based ADS-B system around which NextGen has been developed. 
In contrast, ERAM is designed to process data from both radar and 
satellite sources. Rather than rely on a single processor, ERAM will be 
a network of computers in which the old Host display terminals will be 
replaced by individual PC processors. Once it is properly implemented, 
this distributive processing will allow the system to handle a 
significantly larger volume of data and provide a more seamless backup 
system than the one currently in place.
    While NATCA supports ERAM as a good concept and necessary for the 
future of air traffic control, confidence is low in the product in its 
current state. ERAM testing has yielded more than 40,000 problem 
reports, over 100 of which are considered to be Initial Operating 
Capability (IOC) critical, meaning they must be resolved prior to 
deploying the system for use with live traffic. Earlier this year, 
officials on the ERAM team disclosed that ERAM had yet to remain stable 
and functional for a full twenty-four hours of continuous operational 
testing, and when it was field tested earlier this month, the test 
failed miserably. Additionally, air traffic controllers have come 
across significant problems with the human interface of ERAM as they 
found the new formats cumbersome, confusing, and difficult to navigate.
    NATCA is very concerned about the risk to the NAS if ERAM is 
implemented before these problems are comprehensively addressed. Short-
term, piecemeal fixes or workarounds are unacceptable. ERAM must be 
deployed only when the technology is stable and fully functional 
because failure of ERAM, particularly during peak traffic hours, would 
create extreme confusion and put the safety of the flying public at 
risk.
    This February, the FAA approached NATCA with an invitation seeking 
our collaboration in the implementation phase of ERAM. At that time, we 
enthusiastically embraced the opportunity to substantively contribute 
to finding solutions cooperatively with the FAA. NATCA responded 
swiftly by submitting comprehensive proposals regarding the terms of 
our collaboration to the Agency within 9 days of receiving the full 
ERAM briefing from them. Since then, we have engaged in a constructive 
negotiations process with the Agency a number of times. Additional 
negotiations sessions over ERAM are scheduled for May and June. NATCA 
is committed to continuing to work with the Agency to reach an 
agreement over ERAM.
    NATCA is also looking forward to a change in the Agency's stance on 
collaborating with our organization. As with all NextGen and 
modernization efforts, we believe that our expertise would serve the 
Agency and the flying public well. We remain committed to continuing 
the effort to reach an agreement with the Agency over the deployment of 
ERAM.

Airspace Redesign to Alleviate Congestion
    In the 1990s, the FAA collaborated with NATCA to address the issue 
of airspace congestion. Working together, the group identified 
chokepoints, analyzed weaknesses in the system, and developed a 
multilateral and comprehensive approach to improving the system. 
However, during the Bush Administration, the FAA abandoned this 
collaborative approach and instead chose to unilaterally implement 
piecemeal changes to air traffic control functions and procedures. 
Recent events pertaining to airspace redesign for the New York, New 
Jersey and Philadelphia areas have also shown that the FAA still does 
not intend to include NATCA in this project, despite significant 
problems with the roll-out of the redesign's first phase.
    Last year, the FAA implemented Phase I of the NY-NJ-PHL airspace 
redesign effort, which included new dispersal headings for Philadelphia 
International Airport (PHL) departures that were implemented without 
input from system users including air traffic controllers. As a result, 
the new procedures were plagued by serious inadequacies, including a 
lack of published procedures, incomplete testing, insufficient training 
for both controllers and pilots, and frequent miscommunication between 
controllers and pilots.
    Now the FAA is ready to begin implementation of Phase II, which 
will involve the terminalization of airspace currently controlled by 
Boston Air Route Traffic Control Center (ARTCC) and New York ARTCC. 
This shift is highly complex and will require changes not only to 
procedures but also to technology, personnel, facilities and training. 
Yet it appears that the FAA has not learned its lesson from Phase I 
and, despite outreach attempts from NATCA, the FAA has refused to 
collaborate with the frontline controller workforce.
    History has shown us that successful modernization efforts require 
the input and involvement of all stakeholders, and airspace redesign is 
no exception. NATCA believes that without the collaboration of the air 
traffic controller workforce in developing and implementing the 
airspace redesign, the FAA's plans will be expensive, unsafe, 
inefficient, and unlikely to significantly improve the capacity of the 
New York area airspace.
    This is a belief not limited to air traffic controllers or unions. 
Jim May, President and CEO of the Air Transport Association (ATA) spoke 
about the importance of ``controller acceptance of implementation and 
new procedures'' at a hearing before the House Transportation and 
Infrastructure Subcommittee on Aviation. Of airspace redesign, 
specifically, he said, ``you've got to bring Pat [Forrey, President of 
NATCA] and his guys into the process . . . We can't do New York without 
his folks.'' \24\
---------------------------------------------------------------------------
    \24\ Jim May, President and CEO, Air Transport Association. 
Testimony before House Transportation and Infrastructure Committee, 
Subcommittee on Aviation. March 18, 2008 hearing on ``ATC Modernization 
and NextGen: Near-Term Achievable Goals.''
---------------------------------------------------------------------------
    With NATCA's help, the FAA may be able to avoid the shortcomings 
that were present during Phase I of airspace redesign and, by so doing, 
may be able to transition more smoothly to the new procedures and 
reduce the risk to the flying public during the transition.
Maintenance of Air Traffic Control Infrastructure
    While NATCA supports the upgrade of air traffic control technology, 
it is imperative that the funding of NextGen not come at the expense of 
NowGen. During the previous Administration, FAA facilities were allowed 
to fall into disrepair while the FAA pursued its ill-defined and still-
unrealized modernization goals.
    According to a recent report by the Department of Transportation 
Inspector General, 59 percent of FAA facilities are beyond their 30-
year design life. All En Route Centers are over 40 years old and 
falling into disrepair. Certain terminal facilities are also falling 
into unacceptable levels of disrepair--putting the health and safety of 
FAA employees at risk. For example, inspectors have confirmed the 
presence at Detroit Metropolitan Airport Tower and TRACON of 
stachybotrys, a toxic form of mold believed to be a contributory factor 
in health problems experienced by controllers at the facility 
(including cases of occupational asthma as well as seven cancer 
diagnoses during the past 6 years.)
    This level of deterioration is unacceptable. The FAA must repair 
and maintain existing air traffic control facilities in a manner that 
ensures the safety and security of FAA personnel and allows aviation 
safety professionals the tools they need to do their jobs to the high 
standard of excellence we expect and depend on.

Conclusion
    NATCA urges swift passage of an FAA Reauthorization bill in order 
to ensure the short and long-term health, growth, safety and efficiency 
of the National Airspace System.
    In NextGen, the FAA has undertaken a large-scale and long-term 
research and development project to overhaul the technological 
infrastructure of the air traffic control system. This ambitious 
undertaking has serious implications for the future of the National 
Airspace System and should therefore include the meaningful 
participation of all NAS stakeholders, most notably NATCA. 
Collaboration with NATCA by the FAA is predicated on the resolution of 
our current contract dispute as well as a fix to the collective 
bargaining process to ensure fairness in future negotiations.
    NATCA supports the FAA's modernization efforts and is eager to be a 
part of the team developing and planning the technology that will bring 
us into the next generation of air traffic control. We look forward to 
working with the FAA to help them address the serious outstanding 
issues including human factors, equipage and redundancy concerns. It is 
essential for us to be included as partners in this ongoing 
modernization effort.

    Senator Dorgan. Mr. Forrey, thank you very much.
    Next, we'll hear from Captain John Prater. I hope I'm 
pronouncing that correctly. Captain John Prater, the President 
of the Air Line Pilots Association.
    Captain Prater, welcome.

         STATEMENT OF CAPTAIN JOHN PRATER, PRESIDENT, 
           AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Captain Prater. Good afternoon, Mr. Chairman, Subcommittee 
Members.
    I cannot start my remarks without thanking the Chairman for 
his opening remarks. You will have the full assistance and 
support of the Air Line Pilots Association to peel back any of 
the investigations required to get down into the causes and the 
ways that we can improve the safety of our industry, whether 
that's training of pilots, whether it's selection of pilots, 
experience or weather factors. We would look forward to joining 
you in that effort.
    That's where we begin today with the FAA Reauthorization 
Act. It holds the potential to make significant strides in 
advancing aviation safety and to herald a new era for U.S. air 
transportation.
    I will outline six priority safety and policy areas for the 
Air Line Pilots Association International. Several were covered 
in last Congress's Reauthorization Bill. However, a number of 
our most critical concerns remain unaddressed.
    First. No industry was hit harder by the 9/11 attacks than 
the U.S. airlines. To keep our companies in business, our 
members took enormous concessions, exacerbated by scores of 
airline bankruptcies. As a result, our members often fly right 
up to the current regulatory limits for flight and duty time. 
Sixteen-hour domestic duty days and longer in international 
flying are a fact of life for today's airline pilots. Irregular 
shift work, multiple time zones, all-night operations and 
disrupted Circadian rhythms all contribute to pilot fatigue.
    ALPA advocates for a complete overhaul of the regulations 
based upon modern fatigue science. The rules must apply to all 
sizes of both passengers and cargo operations. The regulations 
must encompass adequate rest periods, reasonable duty periods, 
and provisions for crossing multiple time zones and flying on 
the back side of the clock.
    ALPA strongly supports the bill's language that directs the 
FAA to commission a National Academy of Sciences study to 
collect new data on pilot fatigue and then to use it to update 
these critical safety regulations.
    Second. Fostering a safe air transportation system also 
requires a foundation of voluntary, non-punitive safety 
reporting programs.
    These programs must be based on the unshakeable sense of 
trust among the participants. Most reports are sole source, 
meaning that the only person or crew reporting it knew that a 
mistake had occurred. Without the full confidence that 
reporting an error will be used solely to advance safety, 
employees will have little incentive to come forward and 
valuable safety data will be lost.
    Moreover, safety management systems, as outlined in the 
ICAO Programs, will be stymied without these reporting 
programs.
    ASAP Programs have been suspended because of misused 
reports. We ask Congress to protect these safety programs 
against further misuse.
    Third. Few would deny the need to modernize the Nation's 
air space. Infrastructure equipment and facilities are severely 
outdated. Modernization is a complex, expensive and long-term 
endeavor that must be done right this time. Long-term stable 
funding is essential.
    Airlines currently pay the majority of costs for operating 
the National Air Space System. All users will benefit from a 
safety modern system. All should bear a fair share of the cost.
    A related air space management concern for pilots is 
unmanned aerial systems. Regulations must be in place to ensure 
safety before these unmanned air vehicles can share the air 
space with loaded airliners.
    ALPA strongly supports provisions in the bill to enhance 
runway safety, to research weight turbulence and other weather 
phenomena on airline operations, including icing. We must 
continue to operate both Midway and Wake Island Airfields as 
TransPacific emergency landing options. Research to reduce the 
hazards of volcanic ash and wildlife encounters also warrants 
additional funding support.
    Fourth. Many cargo aircraft currently operate without 
flight deck doors to separate pilots from personnel, such as 
animal handlers and couriers who should not have access to the 
cockpit during flight.
    All FAR Part 121 operations must be held to one standard of 
safety and security. We call on Congress to ensure that cargo 
aircraft are equipped with reinforced flight deck doors or an 
equivalent level of protection.
    Fifth. ALPA also strongly believes that U.S. citizens must 
control key operational aspects of U.S. airlines. We urge the 
Subcommittee to reiterate the control requirements by 
identifying fleet composition, route selection, pricing, and 
labor relations as among the operational elements that the 
Department of Transportation must ensure that U.S. citizens 
control.
    Finally. While safety decisions must never be based on 
economics, our industry's financial health is extremely 
important to pilots.
    Large price spikes and jet fuel scarcity pose a tremendous 
threat. ALPA urges Congress to adopt a national energy policy 
that will stabilize jet fuel supply, reduce oil investor 
speculation, and hold the line on new fuel taxes, charges or 
fees on an already overtax industry.
    This FAA Reauthorization Bill holds promise for powerful 
change. As the professionals who make the airline system work 
day in and day out, 365 days a year, we urge and respectfully 
so urge Congress to act swiftly to pass this legislation.
    On behalf of our 54,000 air line pilot members, we thank 
you for the opportunity to share our concerns.
    [The prepared statement of Captain Prater follows:]

         Prepared Statement of Captain John Prater, President, 
               Air Line Pilots Association, International

    Good afternoon, Mr. Chairman and members of the Subcommittee. I am 
Captain John Prater, President of the Air Line Pilots Association, 
International (ALPA). ALPA represents more than 54,000 pilots who fly 
for 36 passenger and all-cargo airlines in the United States and 
Canada. On behalf of our members, I want to thank you for the 
opportunity to provide our perspectives on the FAA reauthorization 
bill. We provided input during the 110th Congress on S. 1300, and 
supported its passage, as it included funding for many aviation 
programs and enhancements that are important to airline pilots.
    Recognizing that there have been some changes to the Subcommittee 
since the last Congress, our comments are intended to not only identify 
those provisions from S. 1300 that are of special interest to us, but 
also explain why they are important.
Flight Crew Fatigue and Flight-Time/Duty-Time Rules
    One of the many hardships that the post-9/11 era brought to airline 
flying was pilots flying right up to the FAA regulatory limit. This has 
resulted in adverse safety impacts, fatigue, and more stress. The pay 
and productivity hits of the last few years mean that our members are 
routinely working at or near regulatory limits as a normal operating 
practice. Sixteen-hour domestic duty days--even longer with some long-
range international operations--are facts of life for many airline 
pilots. Irregular shifts, crossing time zones, all-night operations, 
FAR Part 91 flying at the end of a duty day, and significant circadian 
rhythm challenges all contribute to pilot fatigue. Remember, too, that 
the current regulatory requirement of 8 hours of rest after a 16-hour 
day has to include travel to and from a hotel, meals, and sleep. So 
when we see a requirement for 8 hours of rest required for a pilot to 
operate a flight that translates into only a 4 or 5 hour window 
available for sleep.
    Technological advances have exacerbated the problem of pilot 
fatigue. The current prescriptive regulations regarding maximum flight 
time and duty periods have not been significantly changed since well 
before jet transports came into commercial use in the late 1950s. Some 
airliners being operated now can fly for more than 20 hours without 
refueling. With flights of this duration, combating flight crew fatigue 
is a real and constant concern.
    The National Transportation Safety Board (NTSB) lists as one of its 
``most wanted'' aviation safety improvements reducing the potential for 
accidents and incidents caused by human fatigue. Although the FAA 
issued a notice of proposed rulemaking in December 1995 to update the 
flight and duty regulations for airline pilots, in the intervening 14 
years, the regulations have not been revised. Last summer, the FAA held 
a conference on the subject of fatigue, at which hundreds of government 
and industry personnel convened to discuss the need for creating new 
flight and duty requirements, which will protect against fatigue-
related accidents and incidents. The agency has stated that it is 
interested in developing fatigue risk management systems (FRMS) to 
provide an alternative to prescriptive limitations, and last year it 
issued Operations Specifications for ultra-long range (ULR) operations 
(i.e., those in excess of 16 hours of flight time). Several ULR 
carriers subsequently sued the FAA to block implementation of these 
operations specifications, however, and the agency withdrew the 
specifications which has further complicated efforts to address 
fatigue.
    To address the problem of pilot fatigue, ALPA advocates for 
adequate rest periods, reasonable duty periods and special provisions 
for flying ``backside of the clock'' and for crossing multiple time 
zones. Any regulations developed to deal with fatigue should be based 
on modern scientific principles, and should apply to all sizes of 
aircraft engaged in domestic and international passenger and cargo 
operations. Fatigue risk management systems should complement, and not 
be used as a substitute for an overdue, comprehensive updating of the 
FAA's flight and duty time regulations. Regulatory reform must also 
close loopholes currently in the rules applicable to air carriers 
operating under FAR Part 121. Some of our smaller carriers, for 
example, are currently allowed to use the less restrictive rules in FAR 
Part 135, even though they are carrying ticketed airline passengers in 
scheduled service--passengers who deserve the same high ``One Level of 
Safety'' that must be the hallmark of the airline industry.
    ALPA strongly supports Section 507 of S. 1300 which would direct 
FAA to: (1) arrange for a study by the National Academy of Sciences on 
pilot fatigue to include an examination of recommendations made by the 
NTSB and the National Aeronautics and Space Administration (NASA) on 
this subject; and (2) provide recommendations with respect to the FAA's 
flight and duty regulations based on the study's findings. We suggest 
some minor clarifications to reiterate the urgency of the problem and 
build on the progress made in the last year.
    We note, however, a significant omission in the draft legislative 
language. Currently, airline pilots may be required to operate 
transport aircraft for extended periods under FAR Part 91 after a long 
duty day of Part 121 or 135 flying. We strongly support inclusion of 
language which would require that FAR Part 91, or ``tail-end ferry'' 
flying by airline pilots be included in the regulatory calculation of 
flight and duty time.

Air Carrier Citizenship
    ALPA would also like to reaffirm our support for the addition of 
language providing for specific air carrier citizenship requirements.
    We feel it is important for Congress, through this legislation, to 
affirm that U.S. citizens must be in firm control of all the key 
operational aspects of U.S. air carriers. Language to accomplish that 
should specifically identify marketing, branding, fleet composition, 
route selection, pricing and labor relations as some of the operational 
elements that DOT must ensure are controlled by U.S. citizens. This 
affirmation is consistent with the longstanding U.S. citizenship 
requirements of the aviation statutes.
    Inclusion of such provisions would help ensure that as U.S. 
airlines seek to enter into ever closer alliance relationships with 
foreign carriers that there are clear limits on how far those 
relationships can go. The latest generation of joint ventures, under 
which U.S. and foreign carriers share revenues so that they are 
indifferent as to which airlines or pilots actually fly the aircraft, 
increases the importance of making sure that decisions that have a 
direct effect on the number of U.S. employees will be required for the 
joint services. It is essential that U.S. carriers not become 
subordinate components of foreign carrier networks but retain the 
incentive to develop and take advantage of growth opportunities that 
will benefit their own employees. This is particularly important at a 
time when the creation of high quality jobs for U.S. workers is a 
leading objective of the national economic and social policy.

Protection of Voluntarily Provided Safety Data
    We urge the Senate to take advantage of the opportunity presented 
during the reauthorization of the FAA to make significant improvements 
in proven, valuable safety reporting programs. Last year's bill was 
silent with respect to providing protection against the misuse of 
safety data provided voluntarily by those employees in positions to see 
the entire breadth and scope of aviation operations. Such protections 
are a key element in improving upon the already enviable safety record 
of commercial aviation in the United States.
    Voluntary, non-punitive safety reporting programs have proven to be 
an invaluable source of safety information. The most familiar examples 
of these programs are the Aviation Safety Action Program (ASAP) and the 
Flight Operations Quality Assurance program (FOQA). These programs, 
especially ASAP, rely on a sound foundation of trust between three 
parties--the airline, the regulator, and the employee group concerned. 
The trust on which these programs are based needs to be embodied in a 
strong guarantee that when issues arise, personalities change or 
interpretations are made; parties to the agreement have a fundamental 
guarantee that their efforts to improve safety will not be met with 
punishment.
    Pilots, flight attendants, controllers, mechanics, and other 
aviation professionals are on the front lines of daily operations and 
need to be able to report safety hazards they observe without fear of 
certificate action by the regulator, discipline by the company, or 
action in civil litigation. Pilots have a professional interest in 
identifying and correcting safety deficiencies and they must not be 
hindered from doing so. Pilots are also willing to identify and discuss 
the underlying causes of their own errors so that they and their peers 
can learn from them, but need assurance that their forthrightness will 
not result in punishment. In a very large percentage of cases, 
information obtained by ASAP reports cannot be obtained any other way. 
That is, no one but the reporter is aware of the problem identified. 
Jeopardizing the full, free and open reporting of safety concerns by 
these ``sole source'' reporters would represent an unrecoverable loss 
of a significant portion of available safety data.
    ASAP fosters a voluntary, cooperative, non-punitive environment, 
and a positive safety culture for the open reporting of safety of 
flight concerns. Through such reporting, all parties have access to 
valuable safety information that may not otherwise be obtainable. This 
information is analyzed to develop corrective actions aimed at solving 
safety issues and possibly eliminating deviations from Federal Aviation 
Regulations.
    FOQA collects and analyzes large amounts of flight data generated 
during normal line operations. These data provide great insight into 
the total flight operations environment and have proven valuable in 
identifying trends that may indicate potential hazards. The information 
and insights provided by FOQA data, particularly when large quantities 
of such data are combined, can improve safety by significantly 
enhancing training effectiveness, operational procedures, maintenance 
and engineering procedures, and air traffic control procedures. While 
not ``provided'' directly by flight crews as a report, these data must 
nevertheless be protected from misuse for disciplinary or other 
punitive purposes.
    Legislation is necessary to provide guaranteed protection from 
misuse of voluntarily supplied safety information. Programs have been 
suspended over misuse of reports for purposes of discipline or 
litigation. When the FAA, an air carrier and its employees agree on 
effective corrective action for voluntarily reported problems, the 
completion of the agreed upon corrective action should be conclusive 
and employees should not be subject to additional disciplinary action. 
Legislative protections must extend to actions by the regulator, the 
employer, and use in litigation. Failure to provide such protection 
will undoubtedly result in a significant reduction in the amount and 
quality of safety data that can be obtained.
    Quality safety data from pilots and other aviation workers is an 
essential factor in meeting the requirements for implementation of 
Safety Management Systems (SMS). An SMS is a systematic approach to 
managing safety and includes the necessary organizational structures, 
accountabilities, policies, and procedures. The International Civil 
Aviation Organization (ICAO) established a deadline of January 1, 2009, 
for States' airlines, airports and service providers to implement SMS--
a deadline that the FAA declared last year that it would not meet. 
However, the FAA is working to establish SMS standards and regulatory 
guidance through an Aviation Rulemaking Committee (ARC) with the goal 
of meeting it in the future. A properly structured and implemented SMS 
will provide not only a safer operation for employees and customers, 
but should also eventually save money through improved efficiencies. 
The FAA must continue its efforts to develop SMS guidance and training 
materials to meet the ICAO standard. They must also provide training to 
their own workforce and safety inspectors to ensure correct 
implementation and oversight of this new way to manage safety.

National Airspace System Modernization
    Long-term, stable funding of the Nation's airspace and air traffic 
control (ATC) infrastructure is essential for safety, capacity and 
efficiency gains that are needed to modernize the aviation system. The 
project will take a long time; it is complicated, expensive, and 
absolutely must be done right the first time. ALPA believes that 
funding must be comprised of both Federal funds and an equitable 
funding stream from all airspace users since all users will benefit 
from modernization. All users should pay their fair share. Right now, 
airlines pay the majority of costs for operating the National Airspace 
System (NAS). Reducing the tax burden on our employers would help our 
industry recover. All users will reap the benefits and all should bear 
a share of the cost.
    There is little debate over the need to modernize the Nation's 
airspace system. The current U.S. ATC infrastructure is outdated, the 
equipment's capabilities are limited, facilities must be modernized, 
and efficiency is decreasing. The delays and similar problems in the 
system that currently plague the ATC system clearly underscore the 
critical need for ongoing NAS modernization. The key to improving 
efficiency, reducing delays and most importantly, avoiding potential 
hazards of using outdated equipment, is the ability to finish that 
which we start. That requires sustained, committed resources supported 
by funding that is not diverted, curtailed, or denied. The entire 
country will benefit from the airlines' return to economic solvency if 
capacity and efficiency can be improved. New technologies and 
procedures can also increase safety, particularly in areas not well 
served by the current infrastructure. However, in many cases we are 
developing ways to put more airplanes in the same amount of space, so 
any new procedures must be studied, modeled, and thoroughly evaluated 
to guarantee that the current high level of safety is maintained or 
improved.
    The FAA will realize the first benefits from NAS modernization; 
airspace users may not reap the benefits of installing new aircraft 
avionics for many years despite the fact that the equipage is necessary 
to build the foundation for the future. We urge Congress to work with 
the industry on the development of an appropriate NextGen airspace 
management system funding mechanism.

Unmanned Aircraft Systems
    The much-publicized success of Unmanned Aircraft Systems (UAS) in 
combat operations has created a large potential market for the use of 
these aircraft by commercial enterprises. Many are also in domestic use 
by government agencies (e.g., Law Enforcement, Customs, Agriculture, 
etc). As the number of these aircraft increases, and the potential for 
business use also increases, so does pressure to allow their 
unrestricted operation in the NAS.
    ALPA believes that the language in Section 607 of S. 1300 
accurately describes the depth and breadth of the study needed to 
evaluate this paradigm shift in the character of the NAS. The timeline 
set out in the bill to develop a plan may be sound, but we do not 
believe the actual process of UAS integration can be undertaken on a 
fixed timeline. A plan for integration must include a study of hazards 
and mitigation methods that must be taken to conclusion--however long 
that takes. In addition, we believe that the goal of this section 
should not be limited to the safety of the UAS vehicles themselves, but 
rather it must explicitly include the safety of all users of the 
National Airspace System and persons and property on the ground. Before 
UAS can be authorized to occupy the same airspace as airlines, or 
operate in areas where UAS might inadvertently stray into airspace used 
by commercial flights, there needs to be in place a standard or 
combination of standards that will ensure the same high level of safety 
as is currently present in the NAS. In order to guarantee that high 
level of safety, extensive study of all potential hazards and ways to 
mitigate those hazards must be undertaken.
    The extreme variation of UAS types--which range in size from as 
small as a bird to as large as a Boeing 737--makes this a complex 
issue. So, too, does the fact that they are flown remotely from 
operational centers or control stations which may be located at the 
launch-and-recovery site or thousands of miles away. Some are capable 
of ``autonomous operation,'' meaning that they follow pre-programmed 
instructions without direct operator control. The pilots of autonomous 
operation UAS are not presently required to hold any FAA license. Most 
of the current designs were developed for the Department of Defense 
(DoD) for use in combat areas and so are not necessarily designed, 
built, maintained or operated in the same manner as other aircraft in 
the NAS. As a result, they are typically flown today in segregated 
airspace, i.e., military restricted airspace or its equivalent.
    ALPA believes that a well-trained and well-qualified pilot is the 
most important safety component of the commercial aviation system. The 
role of the pilot is a major area of concern within the UAS and piloted 
aircraft communities. These pilots should be trained, qualified, and 
monitored to the same standards as pilots that operate aircraft from 
within the aircraft. The equipment they fly must be designed, built, 
and maintained to the same high standards as those operated by other 
commercial users of the airspace. ALPA will continue to work to protect 
the safety and integrity of the NAS and ensure that the introduction of 
UAS operations will not compromise the safety of our members, 
passengers, cargo or the public at large.

National Energy Policy and Alternative Fuel Research
    There is currently no greater threat to the long-term health of the 
airline industry than the ongoing potential for large price escalations 
and scarcity of jet fuel. Jet fuel is the ``lifeblood'' of the airline 
industry and it must be in abundant supply and reasonably priced in 
order for commercial aviation to survive.
    Despite the airline industry's best efforts to take advantage of 
every opportunity to improve efficiencies through technology and 
operational improvements to conserve fuel, jet fuel expenses have 
become the airlines' largest operating expense and consume as much as 
40 percent of every revenue dollar, up from 15 percent in 2000. As the 
result of the exorbitant jet fuel price increases this past summer, 
many thousands of airline workers including pilots were furloughed and 
the economic fallout from those increases, combined with other economic 
woes, is worsening still.
    U.S. airlines consumed about 430 million barrels of jet fuel in 
2008.\1\ Although that is a huge amount of fuel, it represents only 
about 8 percent of total fuel used by all transportation modes in the 
country (96 percent of which is petroleum-based) and only 2 percent of 
all fuel of all types used in the U.S.\2\ Other sources of the Nation's 
fuel include natural gas, coal, renewals, and nuclear power. Some 
industries that currently use petroleum, such as electric power 
utilities, could convert to coal, nuclear power or renewable sources, 
thereby making more petroleum available to the transportation industry 
which relies so heavily on oil-based fuel.
---------------------------------------------------------------------------
    \1\ Source: Air Transport Association.
    \2\ Source: U.S. Department of Energy.
---------------------------------------------------------------------------
    Because jet fuel consumption represents a small portion of the 
country's total energy needs, it is impossible to significantly 
increase its supply, and thereby decrease its price, in the foreseeable 
future without: (1) increasing oil production (whether domestically, 
abroad, or both), (2) decreasing the amounts of oil used by non-
aviation entities by their switching to alternative energy source(s) in 
order to make more of it available to aviation, or (3) both.
    ALPA was at the center of industry activity that began in early 
2008 to urge Congress to reform oil commodities trading practices to 
reduce the effects of rampant speculation. Regardless of what may 
happen to the price of oil in the near future as a result of 
speculation reform or other short-term legislative remedies, the 
reality is that the U.S. does not have a comprehensive national energy 
policy. Without the creation and implementation of a national energy 
policy which will increase the supply and decrease the price of jet 
fuel, the future of U.S. airlines will continue to be precarious. At 
present, pilots can merely hope that the price of jet fuel will be so 
priced that their carriers can remain in business.
    ALPA urges Congress to adopt a national energy policy which will 
include the goals of making jet fuel available and affordable into the 
future. Such a policy should include the following principles:

        1. Regulate oil commodities trading to eliminate loopholes, 
        increase transparency, and reduce the potential for rampant 
        investor speculation that may lead to artificially higher 
        prices;

        2. Prohibit any new taxes, charges, or fees on fuel used by 
        airline operations;

        3. Encourage the development of new technologies and 
        operational concepts that reduce transportation energy 
        consumption and minimize environmental impacts;

        4. Increase domestic production of energy sources focusing on 
        clean energy and environmentally responsible oil production;

        5. Promote greater use of non-oil-based energy sources within 
        the aviation industry and transportation modes that can use 
        alternative types of energy; and

        6. Provide government-funded research and development of a low-
        cost, renewable, low- or non-emitting alternative fuel(s) for 
        use by commercial aviation and other transportation modes.

    We are pleased that Section 602 of S. 1300 included provisions for 
alternative fuel research and we strongly encourage that those 
provisions be retained in the final FAA reauthorization bill.

Flight Deck Doors for All-Cargo Aircraft
    Following the events of September 11, 2001, Congress mandated that 
fortified flight deck doors replace existing barriers on certain 
commercial aircraft types. Subsequently, the Department of 
Transportation (DOT) Rapid Response Team (RRT) identified a need to ``. 
. . conduct a retrofit of the entire U.S. fleet of aircraft.'' The 
reinforced door has since proven to be a valuable enhancement to flight 
deck security, and the DOT has determined that all-cargo aircraft are 
``equally vulnerable.'' The Transportation Security Administration 
(TSA) has publicly stated that hijacking poses the greatest threat to 
the all-cargo domain.
    In the unique all-cargo environment, many aircraft, including wide-
body designs, operate with no flight deck doors at all. Flight deck 
doors are not required equipment on newly manufactured cargo aircraft. 
Flight crewmembers of all-cargo aircraft are not supported by cabin 
attendants or air marshals, and are not afforded the possibility of 
passenger intervention. It is a little known fact that all-cargo 
airliners frequently carry additional, non-crew personnel, such as 
couriers and animal handlers. It is potentially easier for an intruder 
to gain access to a cargo aircraft due to limited ground security 
procedures. These vulnerabilities can be readily exploited by 
terrorists or other persons with malicious intent.
    In November 2005, ALPA responded to a DOT/FAA Notice of Proposed 
Rulemaking (NPRM) regarding crewmember monitoring of the area outside 
the flight deck door. Language proposed for inclusion in FAR Parts 
121.313(k) and 121.582 specifically excluded all-cargo operations. As 
stated at that time, given that the same threat existing for passenger-
only operations also exists for aircraft involved in all-cargo 
operations, ALPA continues to believe that all aircraft operating under 
FAR Part 121 must be afforded the same standard of safety and security 
protection. As such, all-cargo aircraft should be equipped with 
reinforced flight deck doors or provided an equivalent level of 
protection. Use of equipment that is a secondary barrier on a passenger 
aircraft might well provide needed additional security if used as the 
only barrier on an all-cargo aircraft.

Wildlife Hazards
    The recent airline accident in New York City which necessitated a 
ditching in the Hudson River has been attributed to the aircraft 
striking geese while in flight which resulted in a loss of power in 
both engines. The potential for bird strikes is a risk that is far from 
new; the Wright brothers recorded the first bird strike in 1905. The 
first bird strike-related fatality occurred in 1912 when aviation 
pioneer Cal Rodgers collided with a gull which became jammed in his 
aircraft's controls and caused it to crash. Striking large birds at 
high speeds may result in catastrophic damage to an engine, airframe, 
or pilot's windshield. Even a ``small'' bird of four pounds struck by 
an aircraft traveling 250 knots (288 mph) delivers the force of 
approximately 38,000 pounds at the point of impact.\3\
---------------------------------------------------------------------------
    \3\ Source: Transport Canada.
---------------------------------------------------------------------------
    It is impossible to completely prevent birds from being struck by 
aircraft, so efforts have focused for many years on reducing the 
possibility of a strike and the severity of the consequences. Airframe 
and engine manufacturers have made great strides in designing aircraft 
structures, including windshields and engines that are able to 
withstand the force that results from striking and ingesting most 
birds. Engine design standards were updated in 2004 to require that 
engines be capable of ingesting up to an 8-pound bird depending on the 
engine's inlet size. Engines must also demonstrate the ability to 
withstand some level of damage and continue to operate. Windshields and 
windows must be tested to withstand a 4-pound bird strike. In 2007, new 
requirements addressed flocking birds and bird weight variability. ALPA 
was part of the team developing these standards. Obviously, however, 
aircraft cannot be made impervious to the effects of bird strikes, 
especially when all engines are impacted. Control of the wildlife 
population is also a critical part of the solution. The Federal 
Aviation Administration (FAA) requires commercial service airports to 
conduct wildlife hazard assessments and implement a wildlife hazard 
management plan, if warranted. Airport operators scare birds and 
wildlife away from aircraft operating areas using such measures as air 
guns, lasers, and wildlife patrols, and they use fencing and 
extermination to reduce the threat posed by large mammals such as deer. 
We urge Congress to ensure that sufficient funds are available for 
wildlife hazard mitigation research.

Runway Safety
    We have previously testified on the vitally important subject of 
runway safety. We urge Congress to continue to promote FAA leadership 
and industry efforts to mitigate the risks of runway incursions, 
excursions, and confusion. Congress can greatly facilitate this 
undertaking by ensuring that appropriate funding is available for a 
long-term modernization effort targeting those communications, 
navigation, and surveillance systems which directly impact runway 
safety.
    Many aviation industry partners collaborated with the FAA on ways 
to improve runway safety following its ``Call to Action on Runway 
Safety'' in August 2007. ALPA is doing its part by engaging in 
activities focused on a heightened awareness of runway and airport 
safety. For example, we have published a series of runway safety 
newsletters for our membership since January 2008. Additionally, 
working in conjunction with AOPA, we provided our membership with an 
interactive runway safety website designed to inform pilots of best 
practices to increase their vigilance and operational safety during 
airport surface movements. In fact, we have made runway safety 
information available to non-ALPA members and the international 
community. In spite of the efforts of all industry stakeholders, 
however, runway safety concerns remain. To its credit, the FAA 
established a new Runway Safety Council (RSC) and its subgroup, the 
Root Cause Analysis Team (RCAT) in late 2008. ALPA co-chairs the RSC, 
whose mission is to provide government and industry leadership to 
develop and focus implementation on an integrated, data-driven strategy 
to reduce the number and severity of runway incursions. ALPA applauds 
the increased focus and attention being paid to runway incursions and 
we are optimistic that safety will benefit as a result.
    We support language in S. 1300 which would require the FAA to 
develop a strategic runway safety plan and implement a runway safety 
alerting system. In addition to runway incursions, we are also focused 
on reducing the risk from runway excursions.
    ALPA's white paper on Runway Incursions, published in March 2007, 
proposed that the U.S. Government and aviation industry fulfill the 
commitments that were made to implement the recommendations of the 
Commercial Aviation Safety Team (CAST) Runway Incursion Joint Safety 
Implementation Team. CAST determined that 95 percent of all runway 
incursions could be prevented with the appropriate mix of technologies. 
ALPA encourages government and industry action to implement the CAST 
recommendations. ALPA's position on the issue of runway safety is 
articulated in greater detail in previous Congressional testimony.

Airport Rescue and Fire Fighting
    ALPA supports the inclusion of language that would prompt a review 
of existing requirements to provide fire fighting services at airports. 
This represents an excellent opportunity to correct a critical safety 
deficiency that exists at a number of airports served by airline 
aircraft. Current law and FAA regulations allow airports serving 
airlines involved in all-cargo operations to reduce, and in some cases 
even eliminate, firefighting capability on the airport while those all-
cargo flights are operating. This means that the crews, other occupants 
and contents of these all-cargo aircraft are at considerably increased 
risk in the event of an on-board fire. We urge the Congress to ensure 
that the review of airport fire fighting standards include a 
requirement to correct this discrepancy and provide the same level of 
safety for cargo operations as is available to passenger airlines.

Pacific Island Airfields
    Funding for the continued operation of Wake Island and Midway 
Island airfields is important to both the financial health of our 
industry and the safe operation of trans-Pacific flights. Long, over-
water commercial flights should always be conducted using routes that 
allow diversion to a suitable landing area in the event of an engine 
failure or similar emergency. Without these airports available as 
alternates in the event of an in-flight emergency, trans-Pacific 
flights will be required to use longer, less efficient routes. We are 
pleased to see support for sustaining the operation of these and other 
similar airfields and urge the Congress to maintain this position.

Aviation Research
    As we move to modernize the Nation's air transportation system, 
many of the emerging procedures for capacity enhancement must be 
supported by sound research efforts to ensure that the U.S.'s enviable 
level of safety is maintained. As more and more precise navigation 
capability allows us to put aircraft closer together without increasing 
collision risk, we must nevertheless be mindful of the fact that there 
is much to be learned about the nature of wake vortices and the effect 
of wake turbulence both in the terminal and en route realms of 
operations.
    We are encouraged by the level of support shown by the Congress in 
identifying the need for research into wake turbulence effects as well 
as the impact on operations of weather such as icing. We urge the 
inclusion of research into the impact of volcanic ash on operations as 
well. In addition, phenomena under study in these efforts must not only 
be studied to determine their operational impact, but methods must be 
developed to describe the location and effects of such phenomena. This 
information must be relayed in terms that are operationally relevant 
and can be transmitted to flight crews and dispatchers in a timely 
manner to support improved safety decisionmaking.

Airman Certificate Denial
    Section 503 of S. 1300 would give the FAA a right to challenge the 
NTSB's decision to grant an application for an airman, including 
medical, certificate in the U.S. Court of Appeals. Under existing law, 
 44703(d) of Title 49, the NTSB may review the FAA's denial of an 
application for the issuance or renewal of an airman, including 
medical, certificate. If the NTSB finds the airman qualified, the 
NTSB's decision is binding on the FAA and the law provides that the FAA 
shall issue the certificate.
    Currently, only the airman has a right of further appeal from the 
NTSB. It should be noted that in 1992, the FAA was given a right to 
appeal NTSB orders issued under  44709 (i.e., suspensions or 
revocations of existing certificates) per P.L. 102-345. Section 503, 
would be an expansion of government power with no apparent safety 
benefit.
    Because the FAA has the right under Section 609 of the Federal 
Aviation Act of 1958 (49 U.S.C.  44709(a)) to reexamine any 
certificated airman ``at any time,'' the expansion of power sought by 
proposed section 503 is simply not necessary for public safety. So long 
as the reexamination power is appropriately used, the FAA may in its 
discretion reexamine ``at any time'' the medical or other 
qualifications of an airman issued a certificate under 49 U.S.C.  
44703, even after the statutory NTSB review currently permitted by  
44703(d) is completed. This perpetual right of reexamination gives the 
agency a right not available to an airman and the safety check it needs 
for the public interest.
    Consider, for example, the approval processes used for an FAA 
medical certificate. An airline pilot must have an FAA aviation 
physical examination and obtain a new FAA medical certificate each 6 
months (in most cases). Currently an airman completes a paper FAA 
medical application form and undergoes a physical examination by an 
FAA-designated aviation medical examiner (usually a physician). The 
FAA-designated medical examiner reviews the application, the 
applicant's medical history and conducts a physical examination of the 
applicant. The medical examiner then makes a decision to grant, deny 
(or defer to the FAA) the decision to issue a current FAA medical 
certificate. The medical examiner then forwards to the FAA the record 
of his medical decision (with supporting documentation).
    The FAA reviews the decision of the medical examiner and makes an 
agency decision to grant or deny the medical certificate. (This is the 
first level of governmental review. In case the agency reverses the 
decision of the medical examiner, the airman must surrender the 
certificate.) Historically, further review of this FAA first-level 
decision was internal to the FAA itself. Because of past concerns about 
bias within the FAA, airmen petitioned Congress for relief and a 
process was provided some years ago under  44703(d) to provide that 
appeals of FAA decisions denying a certificate were to be made to an 
independent agency with industry expertise; Congress selected the NTSB.
    Now, if the FAA denies the certificate at the first level of 
review, the airman has a right of appeal of the certificate denial to 
the NTSB. After a petition for review of the FAA's decision to deny a 
certificate is filed with the NTSB, a hearing on the record is 
scheduled and held before an NTSB Administrative Law Judge (ALJ). The 
ALJ conducts a full hearing on the record (usually in a Federal 
courthouse) with testimony and exhibits, and a full opportunity for 
argument and cross-examination. At the conclusion of the hearing, the 
ALJ issues an initial decision. (The second level of governmental 
review). If either the FAA or the airman disagrees with the ALJ's 
initial decision, a further appeal may be taken to the full five-member 
National Transportation Safety Board. (The third level of governmental 
review).
    (We have used the example of the FAA medical certificate thus far, 
but a similar procedure is applicable to the FAA's denial of pilot 
certificates and ratings, many of which may have been initially issued 
by designated pilot examiners who are not FAA employees. Again, 
Congress selected the NTSB for this further review because of its 
industry expertise.)
    The five members of the NTSB (or as many members as may be seated 
if there are vacancies) review the record of hearing and the ALJ 
initial decision and issue a decision that is binding upon the parties, 
with one basic exception. The airman as an affected citizen is 
permitted to appeal an adverse Board's decision as a final agency order 
subject to the typical grounds that the government's (here the NTSB's) 
final decision was not in issued compliance with the Administrative 
Procedure Act or was otherwise contrary to law. The FAA has no such 
statutory rights.
    The FAA now seeks a right to appeal its sister agency's final 
orders under the proposed section 503. ALPA does not believe that 
giving the FAA the requested power would be good government or a 
correct policy position. ALPA believes the FAA does not need any 
further review here because it's perpetual right of reexamination of 
certificated airmen under  44709(a) satisfies the public safety 
interest in the (apparently hypothetical) event that the NTSB's opinion 
may differ in a future case from that of the FAA. Were the authority 
sought by the FAA to seek judicial review its sister agency's (the 
NTSB's) decision granted, it will essentially make the hapless airman a 
party in a fourth (fifth if you count the original designee's decision) 
level of governmental review where the essential appellate dispute is 
really between the differing opinions of two governmental agencies--the 
NTSB and the FAA.
    This amount of government review is excessive to an ordinary 
citizen. It would risk effectively overwhelming any rational cost or 
timeliness considerations when the resources of ordinary individuals 
are pitted against abilities of Federal agencies to essentially 
litigate these simple individual certificate denial decisions 
indefinitely. In sum, the existing process is burdensome enough--adding 
additional levels of review proposed by the FAA risks making the 
process so burdensome that any effective right of review may be denied 
altogether.
    Accordingly, ALPA opposes Section 503 of S. 1300 for the following 
reasons:

  <bullet> Current law already provides an acceptable and safe decision 
        mechanism and appeal procedure, with a final decision made by a 
        government board with expertise in the field;

  <bullet> There has been no demonstration or other showing that the 
        current procedures under  44703(d) are inadequate or that 
        there is any real or substantive risk to public safety under 
        these procedures. Imposing an additional level of Court review 
        without showing a need to change the existing procedures will 
        simply increase the burden and complexity of the medical and 
        airman certificate application processes without any benefit to 
        the public, air safety or the government. A system that would 
        require an individual airman to defend an NTSB decision in his 
        favor in Federal Court after he or she has already defended his 
        or her application for a certificate through two appellate 
        levels of government administrative review is unduly onerous 
        and burdensome upon both the applicant and taxpayers who would 
        be responsible for funding both the cost of the FAA's appeal 
        and the judicial resources necessary for review.

Human Intervention and Motivation Study (HIMS) Program
    The Human Intervention and Motivation Study is a vital program that 
helps flight crewmembers operate in as safe a manner as possible. It 
has been an extremely successful program since its inception in 1974, 
and we are pleased that Section 702 was included in S. 1300. It is 
funded through Fiscal Year 2009 and needs to be reauthorized for Fiscal 
Years 2010 through 2013.
    Finally, I want to express ALPA's appreciation for this Committee's 
commitment to moving a reauthorization bill as expeditiously as 
possible this year. As has been discussed at length today, passing a 
long-term, comprehensive bill to reauthorize the activities of the FAA, 
to upgrade airports and modernize the NAS, and to improve aviation 
safety is critical not only to pilots and the aviation industry but to 
the entire nation and our national economy. Thank you for the 
opportunity to testify today. I would be pleased to address any 
questions that you may have.

    Senator Dorgan. Captain Prater, thank you very much.
    Next, we will hear from Mr. Robert Roach, Jr., General Vice 
President of the Transportation International Association of 
Machinists and Aerospace Workers.
    Mr. Roach, you may proceed.

          STATEMENT OF ROBERT ROACH, JR., GENERAL VICE

    PRESIDENT, INTERNATIONAL ASSOCIATION OF MACHINISTS AND 
                       AEROSPACE WORKERS

    Mr. Roach. Thank you, Mr. Chairman, and Members of this 
Subcommittee, for the opportunity to speak to you today.
    My name is Robert Roach, Jr., General Vice President--
Transportation, for the International Association of Machinists 
and Aerospace Workers, and I'm appearing at the request of 
International President, R. Thomas Buffenbarger.
    The Machinists Union is the largest airline union in North 
America. We represent more than 100,000 U.S. airline workers in 
almost every classification, including flight attendants, ramp 
service workers, mechanics, and public contact employees.
    On behalf of those workers who ensure the United States has 
a safe, secure and reliable air transportation system, I am 
presenting to you today some of the concerns they hope to be 
addressed in the FAA Reauthorization Bill.
    The aviation industry is at a crossroads. Thirty years of 
airline deregulation and more than 100 bankruptcies have left 
it hobbled. Airline workers have shouldered more than their 
fair share to help revitalize their employers and their 
industry.
    After surviving an agonizing bankruptcy, their valuable 
pensions and union protection of our members, such as with 
Northwest Airlines, are in jeopardy once again because of the 
upcoming integration with Delta Airlines. America deserves an 
airline industry that benefits employees, passengers and 
shareholders.
    The FAA Reauthorization Bill is a chance to change course.
    Express Carrier. FedEx and United Parcel Service are the 
Nation's two largest package delivery companies but FedEx 
asserts that its non-airport operation employees, like truck 
mechanics and delivery drivers, should also be covered by the 
Railway Labor Reg. The company argues that the language in the 
Railway Labor Act that provides the NMB, the National Mediation 
Board, with jurisdiction over express companies applies to 
FedEx.
    Similar employees at UPS, however, fall under the National 
Labor Relations Act and many are unionized. The National Labor 
Relations Act allows employees to be organized in one location 
or portion thereof at a time, making it more difficult for 
employees to join unions and therefore avoid paying the fair 
wages and benefits. FedEx has a competitive advantage of UPS.
    Congress had deliberately removed the term ``express 
company'' from the Railway Labor Act in 1995 as part of the 
Interstate Commerce Commission Termination Act. This was done 
because the last express company had gone out of business two 
decades earlier. FedEx spearheaded the reinserting of this 
language in the Railway Labor Act a year after it was removed 
to unionize itself from organizing campaigns.
    Likewise, Congress should exempt FedEx from the same law it 
applies to UPS. I urge it should not exempt FedEx from the same 
law that applies to UPS.
    In recent years, the National Mediation Board asserted 
jurisdiction over companies that either are airlines or 
railroads and whose companies whose employees have worked and 
negotiated contracts under the jurisdiction of the National 
Labor Relations Act for decades.
    This misapplication of Railway Labor Act has left many 
workers without a union or a contract. This very serious 
situation allowed 100 employees in Minneapolis Airport to be 
walked off the job after the National Mediation Board 
disasserted jurisdiction without an election of people who had 
voted for a union by secret ballot for more than 50 years.
    FAA Oversight of Aircraft Maintenance. As carriers try to 
cut costs in an effort to deal with the effects of 
deregulation, they increasingly look toward aircraft 
maintenance for savings and this directly impacts the quality 
of work performed.
    The FAA needs adequate funding to hire sufficient number of 
inspectors to ensure aviation maintenance safety at home and 
abroad. An immediate increase in FAA inspectors along with the 
resources they need is necessary to safeguard the U.S. aviation 
industry.
    Maintenance personnel who work on U.S. aircraft should meet 
the same eligibility requirements at home and abroad. A 
mechanic working on an aircraft at an airline's base in the 
United States must pass a criminal background check and be 
subject to random drug testing, yet a mechanic working on the 
same aircraft overseas is not subject to the same safety 
precautions.
    The Committee should demand one level of safety and 
oversight for the industry regardless of where the aircraft is 
repaired.
    Flight Attendant Fatigue Safety. Flight attendant fatigue 
is a safety issue that needs to be better addressed by the 
Federal Air Regulations. Similarly, the lack of workplace 
health and safety regulations for flight attendants is 
dangerous. It is time for Congress and the Administration to 
put flight attendant workplace under OSHA jurisdiction.
    To prevent flight attendant fatigue, mandatory flight 
attendant rest periods should be changed to require a period of 
rest exclusive of any job responsibilities or hotel transfer. 
Flight attendants cannot ensure safety of their passengers if 
they are fatigued. Rest means rest period. Rest means rest.
    While most Americans strive for an 8-hour day and work 16 
hours free of work, flight attendants work 16-hour days with 
only 8 hours off.
    In closing, since 9/11 airline workers have sacrificed 
their wages, pensions, work rules and 2,000 jobs in order to 
rescue the airline industry. Industry conditions have imposed 
great burdens on workers, such as carriers compete to reduce 
costs. Such an extraordinary focus on the bottom line demands 
greater, not less, government oversight and proper FAA funding 
is a must.
    No group is more interested in airline safety than IA 
members. Congress must assure that the FAA bill is good for 
workers, passengers and entire aviation system and the 
Machinists Union urges the Committee to take appropriate action 
to protect the skies, and we stand willing to work with this 
Committee to reach that goal.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Roach follows:]

   Prepared Statement of Robert Roach, Jr., General Vice President, 
     International Association of Machinists and Aerospace Workers

    Thank you, Mr. Chairman, and Members of this Subcommittee, for the 
opportunity to speak to you today. My name is Robert Roach, Jr., 
General Vice President of Transportation for the International 
Association of Machinists and Aerospace Workers (IAM). I am appearing 
at the request of International President R. Thomas Buffenbarger. The 
Machinists Union is the largest airline union in North America. We 
represent more than 100,000 U.S. airline workers in almost every 
classification, including Flight Attendants, Ramp Service workers, 
Mechanics and Public Contact employees. On behalf of the workers who 
ensure the United States has a safe, secure and reliable air 
transportation system, I am presenting to you today some of the 
concerns they hope will be addressed in the FAA reauthorization bill.
    The aviation industry is at a crossroads. Thirty years of airline 
deregulation, reckless management decisions and more than a hundred 
bankruptcies have left it hobbled. Airline workers have shouldered more 
than their fair share to help revitalize their employers and their 
industry. After surviving an agonizing bankruptcy, the valuable 
pensions and union protection our members have at Northwest Airlines 
are in jeopardy once again because of the upcoming integration with 
Delta Air Lines. America deserves an airline industry that benefits 
employees, passengers and shareholders, not just executives. This FAA 
reauthorization bill is a chance to change course, and I urge you to 
take advantage of this opportunity.

Express Carrier
    FedEx and United Parcel Service (UPS) are the Nation's two largest 
package delivery companies. They each have employees that work 
exclusively in the air transportation sector of their operation 
(pilots, aircraft mechanics, aircraft cargo loaders), and package 
delivery personnel (truck drivers, truck mechanics and customer service 
agents). The employees of each company serve the same functions and 
deliver the same type of service. Yet, employees of UPS and FedEx fall 
under different labor laws, and it is time for Congress to provide 
consistency in the industry.
    UPS and FedEx pilots are both unionized under the jurisdiction of 
the National Mediation Board (NMB) and Railway Labor Act (RLA), which 
requires all employees in a class and craft to be organized 
simultaneously nationwide. Similarly, both corporations airport 
employee are correctly regulated by the RLA. But FedEx asserts that its 
non-airport operation employees, like truck mechanics and delivery 
drivers, should also be covered by the RLA. The company believes that 
language in the RLA that provides the NMB with jurisdiction over 
``express companies'' applies to FedEx. Similar employees at UPS, 
however, fall under the National Labor Relations Act (NLRA) and many 
are unionized. The NLRA allows employees to organize one location, or 
portion thereof, at a time. By making it more difficult for its 
employees to join unions, and thereby avoiding paying the higher wages 
and benefits that come with unionization, FedEx has a competitive 
advantage over UPS.
    Congress had deliberately removed the term ``express company'' from 
the RLA in 1995 as part of the Interstate Commerce Commission (ICC) 
Termination Act. This was done because the last ``express company'' had 
gone out of business two decades earlier. ``Express companies,'' as 
cited in the RLA and ICC, does not include today's parcel delivery 
companies, such as FedEx and UPS. ``Express companies'' were regulated 
by the ICC and accepted small packages and arranged for their shipment 
on common carrier railroads. FedEx spearheaded reinserting the language 
into the RLA a year after it was removed to immunize itself from union 
organizing campaigns. Congress gave FedEx a competitive advantage, and 
it is only fair to level the playing field.
    The FedEx legislation did not pass without controversy. Senator Ted 
Kennedy said at the time that, ``Federal Express is notorious for its 
anti-union ideology--but there is no justification for Congress to 
become an accomplice in its union-busting tactic.''
    FedEx recently announced that if its non-airline-related employees 
should fall under the jurisdiction of the NLRA and have the same rights 
as UPS workers, it would cancel a $6.75 billion order for 30 Boeing 
777s. Mr. Chairman, the Machinists Union represents more than 35,000 
Boeing workers. FedEx CEO Fred Smith should buy Boeing planes because 
they are the best-made planes in the world, not because Congress gave 
him a competitive advantage over UPS.
    Removing the outdated language does not mean FedEx employees will 
unionize. It only means FedEx can no longer deny them the opportunity 
to organize if they so choose. Congress should not exempt FedEx from 
the same law that applies to UPS.
    I urge the Senate to also put fairness and consistency back in to 
the law by modifying the misapplied ``express carrier'' language in the 
RLA.

Fixed Base Operators
    The Railway Labor Act (RLA) vests the National Mediation Board 
(NMB) with the responsibility to investigate and conduct union 
representation elections for airline and railroad employees. The 
National Labor Relations Board (NLRB) has the same responsibility in 
virtually all other private sector industries.
    In recent years the NMB has improperly asserted jurisdiction over 
companies that are neither airlines nor railroads, and whose employees 
have worked and negotiated contracts under the jurisdiction of the NLRB 
for decades. The misapplication of the Railway Labor Act has left many 
workers without a union or a contract. In one case, the NMB terminated 
the union representation and collective bargaining agreement for 
airport fuelers who were organized under the NLRA and who had union 
protection for more than thirty years. These workers lost the grievance 
procedure, right to double time, holidays, sick leave and vacation 
leave that had been negotiated by the Machinists Union--and they lost 
those benefits without a vote.

FAA Oversight
    As carriers tried to cut costs to in an effort to deal with the 
effects of deregulation, they increasingly looked toward aircraft 
maintenance for savings, and this directly impacts the quality of the 
work performed.
    Airlines used the grossly unfair bankruptcy laws to cut employee 
wages and fracture labor agreements that prohibited or strictly limited 
outsourcing aircraft maintenance. As a consequence of putting dollars 
ahead of sense, maintenance of U.S. aircraft has been exported across 
the globe at a faster pace than the FAA could respond.
    The FAA needs adequate funding to hire a sufficient number of 
inspectors to ensure aviation maintenance safety, at home and abroad. 
An immediate increase in FAA inspectors, along with the resources they 
need, is necessary to safeguard the U.S. aviation industry.
    IAM mechanics have found aircraft that return from overseas flights 
departed with obvious mechanical problems. When they reported the 
problems to the FAA, inspectors expressed frustration. Budget 
constraints limit their ability to inspect overseas maintenance 
operations, and when they do perform inspections they must provide 
overseas repair stations advance notice, making the inspections 
worthless. Not only is more oversight of overseas repair stations 
necessary, but the ability to make unannounced inspections is 
absolutely imperative to ensure compliance with FAA directives.
    IAM mechanics working on a U.S. Airways aircraft in Charlotte, NC 
encounter FAA inspectors on a daily basis. It is unacceptable that 
maintenance personnel working on the airline's planes in El Salvador do 
not have the same oversight.
    Similarly, personnel who work on U.S. aircraft should meet the same 
eligibility requirements at home and abroad. A mechanic working on an 
aircraft at an airline's overhaul base in the United States must pass a 
criminal background check and is subject to random drug testing. Yet, a 
mechanic working on the same aircraft overseas is not subject to the 
same safety precautions. This committee should demand one level of 
safety and oversight for the industry regardless of where the aircraft 
is repaired.

Flight Attendant Safety
    The recent successful evacuations of Continental flight 1404 in 
Denver and U.S. Airways flight 1549 in the Hudson River demonstrate 
flight attendants' skill and heroism. The time is long overdue for the 
FAA to protect these professionals who are responsible for protecting 
the public.
    Currently, the FAA mandates flight attendants receive only 9 hours 
rest on layovers, or as little as 8 hours if there are irregular 
operations. Although well intentioned, this regulation does little to 
ensure public safety because the rest period includes time when flight 
attendants are required to perform other job-related duties.
    To prevent flight attendant fatigue, the mandatory rest period 
should be changed to require a period of rest EXCLUSIVE of any other 
job responsibilities or hotel transfer time. Flight attendants cannot 
ensure the safety of their passengers if they are fatigued. Rest means 
rest--period. While most Americans strive for an 8-hour work day and 16 
hours free from work, flight attendants work 16-hour days with only 8 
hours off.
    The IAM's flight attendant collective bargaining agreements exceed 
the FAA's mandatory rest minimum, but not all flight attendants have 
the security of a collective bargaining agreement. Flight attendant 
fatigue is a safety issue that needs to be better addressed by the 
Federal Air Regulations.
    Similarly, the lack of health and safety regulations for flight 
attendants at work is dangerous. Flight attendants are one of the few 
work groups in the country not protected by the Occupational Safety and 
Health Administration (OSHA). In 1975, the FAA claimed jurisdiction 
over workplace safety and health of flight crew members. The FAA, 
however, has done nothing to enforce safety and health standards for 
flight attendants. After complaints from the Machinists and other 
unions, the FAA and OSHA in August 2000 signed a Memorandum of 
Understanding to explore extending OSHA jurisdiction to cover seven 
flight attendant health and safety issues: whistle blower protections; 
recordkeeping; blood borne pathogens; noise; sanitation; hazard 
communication; anti-discrimination and access to employee exposure/
medical records. In 2001, however, the new Bush Administration abruptly 
stopped their progress, leaving flight attendants the only airline 
workers without workplace safety and health protections. It is time for 
this Congress and this Administration to put flight attendant workplace 
safety under OSHA jurisdiction.
    Since 9/11, airline workers have sacrificed their wages, pensions, 
work rules and, more than 200,000 jobs in order to rescue the airline 
industry. Industry conditions have imposed great burdens on workers as 
carriers compete to reduce costs. Such an extraordinary focus on the 
bottom line demands greater, not less, government oversight, and proper 
FAA funding is a must. No group is more interested in airline safety 
than IAM members. Congress must ensure that an FAA bill is good for 
workers, passengers and the entire aviation system. The Machinists 
Union urges the Committee to take appropriate action to protect our 
skies, and we stand willing to work with the Committee to reach that 
goal.
    Thank you for the opportunity to speak here today. I look forward 
to your questions.

    Senator Dorgan. Mr. Roach, thank you very much.
    Next, we will hear from Mr. Ken Hall, Vice President-at-
Large of the International Brotherhood of Teamsters.
    Mr. Hall, welcome.

        STATEMENT OF KEN HALL, VICE PRESIDENT-AT-LARGE,

                   PACKAGE DIVISION DIRECTOR,

             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Hall. Good afternoon, Mr. Chairman, Members of the 
Aviation Subcommittee.
    My name is Ken Hall. I'm Vice President-at-Large and the 
Director of the Package Division of the International 
Brotherhood of Teamsters, the largest transportation union in 
the country.
    I'm honored to have the opportunity to testify before this 
subcommittee on behalf of the more than 1.4 million Teamster 
men and women and especially on behalf of more than 300,000 
Teamsters who work in the Package and Airline Divisions.
    In the short time available for my presentation, I will 
focus on two areas of concern to Teamsters and the entire 
American public: fixing the express carrier loophole to level 
the playing field in the package delivery industry and creating 
a single high regulatory standard with respect to aircraft 
maintenance outsourcing.
    Mr. Chairman, the Teamsters strongly support the language 
in H.R. 915 authored by Chairman Oberstar which closes a 
loophole in current law allowing one company, FedEx, to 
misclassify thousands of its workers under the wrong labor law.
    The result is that Congress has granted one company an 
unfair competitive advantage and deprived its workers of rights 
that similarly-situated employees working for other package 
delivery companies enjoy.
    The loophole in current law is bad public policy. Because 
of the special treatment that FedEx Express receives, the 
majority of its employees, as a practical matter, cannot choose 
to secure union representation.
    For example, UPS employees who work as package car drivers, 
tractor-trailer drivers, loaders, unloaders, sorters and truck 
mechanics can organize under the NLRA. Employees at FedEx 
Express who perform precisely the same work requiring the same 
skill sets are treated dramatically different under our labor 
laws and are subject to the Railway Labor Act, even though they 
never touch an airplane.
    The employees performing the same work employed by 
companies that provide the same service should have the same 
rights to organize a union. Unfortunately, the quirk in the 
current law has deprived FedEx workers of their right to 
determine whether to organize in their workplace communities, a 
right which is enjoyed by their counterparts at UPS.
    The Teamsters respectfully urge this Subcommittee, the full 
Committee, and the U.S. Senate to include the Express Carrier 
Employee Protection Act language in the FAA Reauthorization 
Bill.
    The second subject I would like to address is of vital 
importance to the safety of America's flying public, as well 
as, to the national security of our country: the dangerous 
trend of outsourcing heavy aircraft maintenance on American 
commercial aircraft to foreign repair stations.
    U.S. air carriers have ever-increasing amounts of 
significant maintenance performed on their aircraft by FAA-
certified foreign repair stations or their contractors that are 
not subject to the same safety and security standards as 
domestic repair stations.
    In fact, the Department of Transportation's Inspector 
General reported that 71 percent of heavy air frame maintenance 
work was outsourced in 2007 with about 27 percent going to 
foreign stations.
    This trend has eroded passenger safety, increased homeland 
security risk and decimated a skilled workforce of American 
aircraft mechanics.
    In addition to the current language of H.R. 15, the IBT has 
proposed additional legislation, the Aircraft Maintenance 
Safety and Security Act of 2009, requiring the FAA and the TSA 
to ensure that passengers on U.S. airlines are provided with 
the same level of safety and security regardless of where the 
aircraft was maintained.
    Specifically, our bill calls for the same drug and alcohol 
testing programs and the same pre-employment investigations, 
including criminal background checks and restrictions for 
employees and contractors of FAA's certified foreign repair 
stations, as are required at domestic repair stations, and 
establishing and enforcing the same high levels of FAA and TSA 
oversight with a deadline of one year requiring the FAA and the 
TSA to develop and promulgate the necessary rules to implement 
the safety and security objectives relating to H.R. 915.
    In other words, the IBT strongly urges a single high 
regulatory standard for all repair stations, both domestic and 
foreign. This is the only way to ensure the safety of America's 
flying public and to protect our homeland from threats 
originating in a foreign repair station as a result of lax 
regulatory standards.
    Mr. Chairman, let me again urge this Subcommittee and the 
full Commerce Committee to act as quickly as possible to enact 
legislation reauthorizing the FAA.
    Thank you for the opportunity to share the views of the IBT 
with this distinguished Subcommittee.
    [The prepared statement of Mr. Hall follows:]

       Prepared Statement of Ken Hall, Vice President-At-Large, 
   Package Division Director, International Brotherhood of Teamsters

    Good afternoon, Mr. Chairman and Members of the Aviation 
Subcommittee.
    My name is Ken Hall, Vice President-at-Large and Director of the 
Package Division of the International Brotherhood of Teamsters, the 
largest transportation union in the country.
    I am honored to have the opportunity to testify before this 
Subcommittee on behalf of 1.4 million Teamster men and women, and 
especially on behalf of over 300,000 Teamsters who are part of the 
Package and Airline Divisions of the IBT.
    The Teamsters are committed to safety on the ground and safety in 
the skies. Our 1.4 million members understand and strongly support the 
efforts of this Subcommittee, and indeed the efforts of the entire 
Congress, to enact, this year, legislation reauthorizing the Federal 
Aviation Administration.
    In the short time available for my oral presentation, I will focus 
on two areas of concern to Teamsters and the entire American public:

  <bullet> Fixing the express carrier loophole to level the playing 
        field in the package delivery industry, and;

  <bullet> Creating a single high regulatory standard with respect to 
        aircraft maintenance outsourcing.

    Mr. Chairman, the Teamsters strongly support the language in H.R. 
915, authored by Chairman Jim Oberstar, which closes a loophole in 
current law allowing one company, FedEx, to misclassify thousands of 
its workers under the wrong labor law. The result is that Congress has 
granted one company an unfair competitive advantage and deprived its 
workers of rights that similarly situated employees working for other 
package delivery companies enjoy.
    As we all know, private sector labor-management relations in our 
country are governed by two laws--the Railway Labor Act and the 
National Labor Relations Act. Mr. Oberstar's language restores the 
original intent of the Railway Labor Act by stipulating that employees 
of an express carrier are covered by the Railway Labor Act only if 
their work relates directly to aircraft operations, while employees 
that have nothing to do with aircraft operations are covered under the 
National Labor Relations Act. We believe that this legislation is fair 
and reasonable.
    The loophole in current law is bad public policy. Because of the 
special treatment that FedEx Express receives, the majority of its 
employees as a practical matter cannot choose to secure union 
representation. For example, UPS employees who work as package car 
drivers, tractor trailer drivers, loaders, unloaders, sorters and truck 
mechanics can organize under the NLRA. Employees at FedEx Express who 
perform precisely the same work requiring the same skill sets are 
treated dramatically different under our labor laws and are subject to 
the Railway Labor Act, even though they never touch an airplane. 
Employees performing the same work, employed by companies that provide 
the same services, should have the same rights to organize a union. 
Unfortunately, the quirk in the current law has deprived FedEx workers 
of the right to determine whether to organize in their workplace 
communities, a right enjoyed by their counterparts at UPS.
    The Teamsters respectfully urge this Subcommittee, the full 
Committee and the U.S. Senate to include the Express Carrier Employee 
Protection Act language in the FAA Reauthorization Bill.
    The second subject I would like to address is of vital importance 
to the safety of America's flying public as well as to the national 
security of our country; the dangerous trend of outsourcing heavy 
aircraft maintenance on American commercial aircraft to foreign repair 
stations.
    U.S. air carriers have ever-increasing amounts of significant 
maintenance performed on their aircraft by FAA-certified foreign repair 
stations or their contractors that are not subject to the same safety 
and security standards as domestic repair stations.
    The Department of Transportation's Inspector General reported that 
71 percent of heavy airframe maintenance work was outsourced in 2007 
with about 27 percent going to foreign stations.
    This trend has eroded passenger safety, increased homeland security 
risk, and decimated a skilled workforce of American aircraft mechanics.
    The FAA certifies foreign aircraft repair stations without holding 
these facilities and their workers to the same standards as domestic 
repair stations. H.R. 915 attempts to close some of these safety 
loopholes. Specifically, the bill mandates that foreign stations be 
inspected at least twice a year by FAA inspectors and that workers at 
these facilities be held to the same drug and alcohol testing rules as 
workers at U.S. stations.
    In addition, the bill puts an end to non-certified stations, both 
in the U.S. and abroad, from performing major and significant overhaul 
work. God forbid one of our aircraft crashes because of shoddy 
maintenance performed at an uninspected foreign repair station.
    In addition to the current language of the H.R. 915, the IBT has 
proposed additional legislation, ``the Aircraft Maintenance Safety And 
Security Act of 2009,'' requiring the FAA and the TSA to ensure that 
passengers on U.S. airlines are provided with the same level of safety 
and security regardless of where the aircraft are maintained. 
Specifically, our bill calls for:

  <bullet> The same drug and alcohol testing programs and the same pre-
        employment investigations, including criminal background checks 
        and restrictions for employees and contractors of FAA-certified 
        foreign repair stations as are required at domestic repair 
        stations;

  <bullet> Establishing and enforcing the same high levels of FAA and 
        TSA oversight with a deadline of one year requiring the FAA and 
        the TSA to develop and promulgate the necessary rules to 
        implement the safety and security objectives relating to H.R. 
        915.

    In other words, the IBT strongly urges a single high regulatory 
standard for all repair stations both domestic and foreign. This is the 
only way to ensure the safety of America's flying public and to protect 
our homeland from threats originating in a foreign repair station as a 
result of lax regulatory standards.
    Foreign based aircraft mechanics should be subject to the same 
regulations as U.S. mechanics. It makes sense to require aircraft 
mechanics to undergo the drug and alcohol testing and criminal 
background checks regardless of where they are located. If a station 
chooses to perform work on U.S. aircraft, that station must meet the 
same requirements as U.S. repair facilities.
    Mr. Chairman, let me again urge this Subcommittee and the full 
Commerce Committee to act as quickly as possible to enact legislation 
reauthorizing the FAA.
    Thank you for the opportunity to share the views of the IBT with 
this distinguished Subcommittee.

    Senator Dorgan. Mr. Hall, thank you very much.
    I'm trying to avoid a lengthy recess of the Committee. The 
votes, the first vote has begun and there are 3 minutes left in 
the vote, and Senator Lautenberg, I believe, was intending to 
vote and return to continue to take testimony. He will be here 
momentarily.
    I'm going to recess and if you would reasonably stay put, I 
believe Senator Lautenberg will appear in a few moments and I 
will go vote and be back shortly, and we will continue with Mr. 
Brantley and Mr. McGlashen and so with that in mind, the 
Committee will stand in recess for just a couple of minutes.
    [Recess.]
    Senator Lautenberg. This is one of the quickest relays you 
will have seen in the U.S. Senate and your testimony's 
important and we apologize for the fact that three votes came 
up.
    So Dorgan is down there now. He's going to vote on the next 
one and then he's going to come back, but all of your 
statements will be in the record. Please remember that. You're 
not talking to air. You're talking to the record and we're 
pleased to have you here and, please, I think, Mr. Brantley, 
you're the next one.

             STATEMENT OF TOM BRANTLEY, PRESIDENT, 
       PROFESSIONAL AVIATION SAFETY SPECIALISTS, AFL-CIO

    Mr. Brantley. Thank you, Senator and Members of the 
Subcommittee.
    I want to thank you for allowing PASS to testify today. We 
represent approximately 11,000 FAA employees and we do have 
some specific views on FAA Reauthorization we'd like to share.
    One of the most critical areas that we feel must be 
addressed immediately is fixing the contract negotiations 
process between the FAA and its unions. The agency's 
willingness to resume negotiations with air traffic controllers 
recently is promising and it's a good first step.
    However, the current negotiating process that is in law is 
one-sided and inadequate and it makes meaningful negotiations 
almost impossible and this leads to difficult working 
conditions and overwhelming tension between labor and 
management, all of which threaten the productivity of FAA 
employees and the efficiency of the aviation system.
    Legislative language is needed to ensure that FAA employees 
who have chosen to be represented by a union have the same 
basic right as every other union member in our country, the 
right to collective bargaining.
    PASS fully supports including language in FAA 
Reauthorization legislation that provides binding arbitration 
for a neutral third party to resolve bargaining disputes.
    PASS is eager to collaborate with the FAA as it works to 
modernize the Air Traffic Control System, but we have 
reservations that some of the methods the FAA is employing will 
not preserve the safety and integrity of the system.
    Of utmost concern is the way the FAA has weakened its 
certification process in which a qualified FAA technician 
evaluates and tests NAS systems on a periodic basis or when 
restoring them to service following a failure.
    For years FAA policy has maintained that all NAS systems 
and services directly affecting the flying public will be 
certified. However, in a drastic change to this policy, the 
agency now says that only FAA-owned systems and services can be 
certified.
    In other words, the FAA is actually prohibiting the 
certification of systems that it does not own, regardless of 
their criticality to the safety of the NAS. PASS believes this 
change to the Certification Program will continue to degrade 
the safety of the NAS as the agency modernizes.
    For instance, the Automatic Dependent Surveillance 
Broadcast, ADS-B, one of the cornerstones of NextGen, will be 
entirely owned by the contractor and under the new 
certification criteria will not be certified. This will leave a 
huge gap in the overall safety umbrella that certification 
currently provides.
    While the FAA modernizes, it is critical that new and 
current systems are properly maintained and certified, 
especially if they are owned and operated by the private 
sector.
    Another topic that has garnered much attention recently is 
the need for increased oversight of the work performed at FAA-
certificated foreign repair stations. Under current practice, 
FAA inspectors are charged with certifying foreign repair 
stations and then recertifying them approximately every 2 
years.
    However, with the increasing amount of repair work being 
outsourced to foreign repair stations, inspectors have 
expressed concern that safety issues are not being addressed. 
In order to uphold the highest safety standards at all FAA-
certificated facilities, inspectors must be permitted to 
physically inspect foreign repair stations at least twice a 
year.
    A recent agreement entered into by the United States and 
the European community raises additional concerns by allowing 
foreign authorities to conduct oversight of the work performed 
on U.S. aircraft without any involvement from the FAA and its 
inspectors. PASS believes that the agreement makes it even more 
imperative that language be included in the FAA Reauthorization 
legislation allowing FAA inspectors to inspect FAA-certificated 
foreign repair stations at least twice a year since they will 
no longer certify and recertify these facilities.
    It is important to note that there is no language contained 
in the agreement that would prohibit the inspection of FAA-
certificated foreign repair stations at least twice a year. The 
United States has the safest aviation system in the world due 
to a committed focus on safety. It is critical that FAA 
inspectors be granted the authority to inspect foreign repair 
stations at least twice a year in order to ensure the continued 
safety of all U.S. aircraft.
    PASS looks forward to working with this committee to ensure 
the continued safety of our country's aviation system and I 
thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Brantley follows:]

            Prepared Statement of Tom Brantley, President, 
           Professional Aviation Safety Specialists, AFL-CIO

    Chairman Dorgan, Senator DeMint and Members of the Subcommittee, 
thank you for inviting PASS to testify today on the reauthorization of 
the Federal Aviation Administration (FAA). The Professional Aviation 
Safety Specialists, AFL-CIO (PASS) represents approximately 11,000 
Federal Aviation Administration (FAA) employees in five bargaining 
units throughout the United States and in several foreign locations. 
The largest PASS bargaining unit is the Air Traffic Organization 
Technical Operations unit, consisting of technical employees (systems 
specialists, electronics technicians and computer specialists) who 
install, maintain, repair and certify the radar, navigation, 
communication automation and environmental systems making up the air 
traffic control system. The Flight Standards and Manufacturing 
Inspector units consist primarily of aviation safety inspectors 
responsible for inspecting every aspect of the commercial and general 
aviation industries. Additionally, PASS represents flight inspection 
pilots, procedures development specialists and airborne technicians in 
Aviation System Standards, examiners in the FAA's Civil Aviation 
Registry, and support staff.
    Reauthorization of the FAA is essential to ensuring that the agency 
has the ability to provide proper oversight of the aviation industry 
and guarantee the safe modernization of the air traffic control system. 
PASS appreciates the opportunity to present our views on issues vital 
to aviation safety, including technician and inspector staffing, FAA 
operation and modernization, and safety oversight. In addition, PASS is 
hopeful that FAA reauthorization legislation will assist in improving 
labor-management relations at the FAA by repairing the contract 
negotiations impasse process within the agency, which will help improve 
productivity and ensure that the FAA has the very best men and women 
working together to protect the safety of our aviation system.

Contract Negotiations
    Over the past several years, labor-management relations within the 
FAA have been largely dysfunctional. By taking advantage of ambiguities 
in the current law covering FAA labor negotiations, the FAA has 
steadfastly refused to bargain in good faith with PASS and other FAA 
unions. This has resulted in low employee morale, stressful working 
conditions and overwhelming tension between labor and management--all 
of which impact the productivity of FAA employees and the efficiency of 
the aviation system. Ensuring a fair contract negotiations process at 
the FAA is of utmost importance to PASS and all unions representing FAA 
employees.
    It was recently announced that the Obama Administration will 
appoint a team of mediators to assist in resolving the contract dispute 
between the FAA and the National Air Traffic Controllers Association 
(NATCA). PASS supports these efforts and is encouraged to see NATCA and 
the FAA returning to the bargaining table. However, this turn of events 
does not change the fact that the contract negotiations process at the 
FAA remains broken. The goodwill of the current administration is 
permitting the FAA and NATCA to meet again in an attempt to resolve 
their dispute, but FAA unions still have no legal means of resolving 
bargaining disputes. Legislative language is needed to ensure that FAA 
employees who have chosen to be represented by a union have the same 
basic right as every other union member in our country--the right to 
real collective bargaining.
    The status of contract negotiations between PASS and the FAA 
highlights the need to fix the contract negotiations process at the 
FAA. Contract negotiations are at impasse with four of PASS's five 
bargaining units, representing approximately 4,000 employees in the 
Flight Standards, Aviation System Standards, Aviation Registry and 
Manufacturing Inspector District Office bargaining units. Negotiations 
over new contracts for these employees have been at impasse for over 
six years. In PASS's largest bargaining unit, Technical Operations, the 
FAA showed little interest in reaching a mutual agreement with PASS. As 
a result, when the agency's final proposal was submitted for a vote, 98 
percent of respondents rejected it. It is unclear when the negotiations 
process will begin again due to pending legal proceedings initiated and 
unnecessarily prolonged by the FAA.
    It is obvious that legislative language is needed in order to 
correct the contract negotiations process at the FAA. PASS supports 
including language in the FAA reauthorization legislation clarifying 
that the Federal Service Impasses Panel has jurisdiction over the FAA 
and that binding arbitration before an impartial board of arbitrators 
is the appropriate method of resolving bargaining impasses such as 
those currently facing PASS and other FAA unions.
ATO Technical Operations

Staffing and Training
    The largest PASS bargaining unit is the Air Traffic Organization 
(ATO) Technical Operations unit, consisting of employees who install, 
maintain, repair and certify the radar, navigation, environmental, 
automation and communication systems making up the air traffic control 
system. PASS believes that insufficient technical staffing continues to 
be a major problem at numerous facilities throughout the country, and 
an increasing attrition rate among the most experienced technical 
personnel in these safety-sensitive positions is worsening the critical 
staffing crisis. For the vast majority of time over the past several 
years, the FAA has been below its required minimum safe number of 6,100 
technical employees. In fact, some facilities are staffed at less than 
half of what the facility's workload generates. The technical workforce 
understaffing is further exacerbated by the agency's inability and 
unwillingness to accurately determine the right number of employees and 
job skills needed to safely and efficiently maintain the National 
Airspace System (NAS). Currently, the FAA does not have a staffing 
standard or model that can accurately determine the number of FAA 
technicians needed and the training required to maintain its current 
system while also introducing new technology, systems and equipment as 
the FAA transitions to the Next Generation Air Transportation System 
(NextGen).
    It is widely acknowledged that the FAA must continue to maintain 
existing systems as it transitions to NextGen; yet, the agency is 
failing to do so. In a recent report, the Government Accountability 
Office (GAO) noted that ``more and longer unscheduled outages of 
existing ATC equipment and ancillary support systems indicate more 
frequent system failures.'' \1\ In fact, in a 2007 report, the GAO 
focused on the duration of unscheduled outages, citing an increase from 
an average of 21 hours in 2001 to about 40 hours in 2006 as a potential 
sign that ``maintenance and troubleshooting activities are requiring 
more effort and longer periods of time.'' \2\ PASS believes these 
numbers reflect both a shortage of staffing and are the result of 
changes to the FAA's maintenance philosophy. When multiple systems 
require maintenance, insufficient staffing forces the agency to allow 
some outages to go unanswered until a technician is available. 
Additionally, the FAA's shift from a proactive maintenance approach to 
a ``fix on fail'' scheme degrades the agency's ability to respond to 
system failures. In the past, FAA technicians performed preventive 
maintenance and periodic certification of systems and equipment, which 
allowed them to find potential problems before they became actual 
outages. This not only kept systems in much better working order, but 
it also ensured a high level of technical proficiency for the FAA 
workforce. More and more, FAA technicians are seeing their proficiency 
reduced at the same time that failures are becoming increasingly 
compounded and severe due to the FAA's abandonment of its proactive, 
preventive maintenance approach. With no changes by the FAA, these 
problems will continue to grow, resulting in an unacceptable increase 
in failures in the future. The GAO has emphasized that it will be 
critical for the FAA to ensure the safety and efficiency of the legacy 
ATC systems and recommended implementing a ``robust preventive and 
regular maintenance strategy and to support the skilled personnel that 
will be required to implement the strategy.'' \3\
---------------------------------------------------------------------------
    \1\ Government Accountability Office, FAA Reauthorization Issues 
are Critical to System Transformation and Operations, GAO-09-377T 
(Washington, D.C.: February 11, 2009), p. 1.
    \2\ Government Accountability Office, Next Generation Air 
Transportation System: Progress and Challenges in Planning and 
Implementing the Transformation of the National Airspace System, GAO-
07-649T (Washington, D.C.: March 22, 2007), pp. 10-11.
    \3\ Government Accountability Office, FAA Reauthorization Issues 
are Critical to System Transformation and Operations, GAO-09-377T 
(Washington, D.C.: February 11, 2009), p. 2.
---------------------------------------------------------------------------
    PASS is aware that a continued debate over the number of employees 
that the FAA needs to maintain the NAS safely and efficiently diverts 
attention away from more critical issues that must be addressed as the 
agency moves forward. For that reason, PASS is strongly in favor of 
requiring the FAA to develop and use a staffing model that takes into 
account the agency's current and future needs with regard to technical 
staffing. Establishing and implementing such a model would ensure that 
the FAA's request for technical staffing and training is based on the 
agency's actual needs rather than budgetary goals set by the Office of 
Management Budget.
    PASS requests that language be included in the FAA reauthorization 
legislation directing the National Academy of Sciences to examine the 
staffing needs of the technical workforce and the GAO to conduct a 
study of technical training. In today's changing aviation environment, 
it is critical that there is a staffing standard in place for the FAA 
technical workforce and that the FAA is required to abide by that 
standard to help ensure that it has an adequate number of 
professionally trained technical employees to maintain both the current 
and future air traffic control system.

Involvement in FAA Modernization
    In the past, PASS was actively involved in many of the FAA's 
efforts to develop and modernize the NAS. The input provided by PASS 
bargaining unit members was invaluable, resulting in safer systems, 
smoother deployment and less cost. Despite the obvious benefits of 
involving the employees who use and operate the systems in the 
development of those systems, about 6 years ago, the FAA abruptly 
eliminated PASS's participation. As the FAA continues to modernize the 
system, it is critical that the men and women responsible for 
maintaining, certifying and protecting this country's aviation system 
be meaningfully involved at every point in the process.
    Implementation of additional NextGen systems must include 
stakeholder participation--especially FAA technicians who are extremely 
knowledgeable of every aspect of the NAS and how each system affects 
every other system. At a 2008 hearing before the House Committee on 
Science and Technology, the GAO emphasized the importance of involving 
FAA stakeholders, such as FAA technicians, in the implementation of any 
new project, stressing that stakeholders will play a key role in 
implementing NextGen. The GAO specifically stated that FAA technicians 
are not playing a large enough role. ``Although air traffic controllers 
and technicians will be responsible for a major part of the 
installation, operations, and maintenance of the systems that NextGen 
will comprise, our work has shown that these stakeholders have not 
fully participated in the development of NextGen. Insufficient 
participation on the part of these employees could delay the 
certification and integration of new systems and result in increased 
costs, as we have seen in previous ATC [air traffic control] 
modernization efforts.'' \4\
---------------------------------------------------------------------------
    \4\ Government Accountability Office, Next Generation Air 
Transportation System: Status of Key Issues Associated with the 
Transition to NextGen, GAO-08-1154T (Washington, D.C.: September 11, 
2008), p. 7.
---------------------------------------------------------------------------
    PASS acknowledges that the FAA's decision to halt the collaborative 
efforts with its unions regarding FAA modernization was a direct result 
of the agency's unfortunate labor-relations policy under the previous 
administration. While PASS has once again started to become involved in 
modernization projects, the process presently relies on the goodwill of 
the administration rather than common sense and historical fact, making 
it essential that language be included in the FAA reauthorization 
legislation requiring the FAA to collaborate with its unions in the 
planning, development and deployment of air traffic control 
modernization projects. This will ensure the safe and efficient 
modernization of the system.

Consolidation and Realignment of FAA Facilities
    PASS has serious reservations regarding the FAA's consolidation and 
realignment of facilities and believes that it is imperative that all 
stakeholders are involved in order to ensure the safety of the system. 
The GAO has expressed concern with the FAA's process, stating that 
``any such consolidations must be handled through a process that 
solicits and considers stakeholder input throughout, and fully 
considers the safety implications of any proposed facility closures or 
consolidations.'' \5\
---------------------------------------------------------------------------
    \5\ Government Accountability Office, Next Generation Air 
Transportation System: Progress and Challenges in Planning and 
Implementing the Transformation of the National Airspace System, GAO-
07-649T (Washington, D.C.: March 22, 2007), p. 12.
---------------------------------------------------------------------------
    While the FAA emphasizes the money-saving aspects of consolidation, 
all aspects of the process and impacts of any actions must be 
considered prior to making a decision. For instance, in some cases, the 
consolidation of a facility does not necessarily mean the consolidation 
or relocation of the associated work. In these instances, consolidation 
may mean only increasing the distance between employees and the work as 
equipment and systems are maintained by employees located at other 
facilities. Furthermore, the understaffing of the technical workforce 
makes this situation even more dangerous and a lack of proper staffing 
at consolidated facilities would place even more stress on the aviation 
system.
    Clearly, FAA technicians represented by PASS would have a unique 
view into the impact of any closures or consolidations. In order to 
preserve a primary focus on safety, it is imperative that stakeholders 
are involved in every aspect of the consolidation process. PASS 
supports including language in the FAA reauthorization legislation 
putting forth a process where stakeholders, including PASS, are 
involved with any decisions related to the closing or consolidating of 
FAA facilities and that safety of the aviation system is always the 
primary goal.

Privatization
Elimination of Certification
    Certification is the process in which a certified FAA technician 
checks and tests systems or pieces of equipment on a periodic basis in 
order to ensure that they can safely remain in or be returned to 
service and not negatively impact any aspect of the NAS. The FAA's 
certification process has been successful for decades and is a key 
element in maintaining the safest and most efficient air transportation 
system in the world.
    Despite the success of its certification program, the agency is 
making radical changes to its policy that PASS and the FAA technicians 
it represents believe will impact the safety of our aviation system. 
For years, the criteria established by FAA policy for determining which 
NAS systems and services require certification stated, ``NAS systems, 
subsystems, and services directly affecting the flying public shall be 
certified.'' \6\ However, in a drastic change, effective September 28, 
2007, the agency changed its policy to read, ``FAA owned NAS systems, 
subsystems, and services directly affecting the flying public shall be 
certified'' (emphasis added).\7\ In other words, the FAA has not only 
changed its criteria to allow systems and services to be deployed 
without requiring certification, it has changed the policy to actually 
prevent certification of systems it does not own.
---------------------------------------------------------------------------
    \6\ FAA Order 6000.15D--General Maintenance Handbook for National 
Airspace System (NAS) Facilities, dated July 23, 2004.
    \7\ FAA Order 6000.15E--General Maintenance Handbook for National 
Airspace System (NAS) Facilities, dated September 28, 2007.
---------------------------------------------------------------------------
    Curiously, the criteria used by the FAA to determine which NAS 
systems, subsystems and services must be certified remains the same. 
Certification is required if the system or service meets any one of the 
following criteria:

        1. Provide moment-by-moment positional information to pilots or 
        air traffic control operations personnel during aircraft 
        operations.

        2. Provide necessary communication or communication control 
        among pilots and air traffic control operations personnel 
        during the above aircraft operations.

        3. Provide decision support information that directly affects 
        aircraft heading, altitude, routing, control, or conflict 
        awareness.

        4. Provide essential meteorological information for takeoff and 
        landing aircraft at airports.

        5. Provide short term, long term, continuous, and conditioned 
        power to NAS systems requiring certification located at a 
        Service Delivery Point (SDP).\8\
---------------------------------------------------------------------------
    \8\ Id.

    The FAA recognizes that its certification criteria are valid; it 
simply precludes its use on systems or services that it privatizes.
    The biggest obstacle the FAA has traditionally faced when wanting 
to outsource portions of the NAS has been its certification program. 
When systems require certification, technicians must be trained to a 
sufficient level in order to be able to judge whether a system is 
functioning as intended. If the agency must train its technicians, it 
makes no sense to pay a vendor to perform maintenance. Although 
certification was intended to provide an absolute safety net for NAS 
operations, many in the FAA's acquisition workforce, as well as most 
senior FAA officials, merely view certification as something preventing 
large-scale privatization of the NAS.
    By altering its policy to specify that only FAA owned systems, 
subsystems and services shall be certified, the FAA abandons its 
ability to provide the highest level of safety oversight to the flying 
American public. In fact, this change goes against the very definition 
of certification contained in FAA Order 6000.15:

        Certification is a quality control method used by the ATO to 
        ensure NAS facilities are providing their advertised service. 
        The ATO employee's independent discretionary judgment about the 
        provision of advertised services, the need to separate profit 
        motivations from operational decisions, and the desire to 
        minimize liability, make the regulatory function of 
        certification and oversight of the NAS an inherently 
        governmental function.\9\
---------------------------------------------------------------------------
    \9\ Id.

    PASS believes this drastic change to the certification program is 
an extremely risky endeavor with the potential to threaten the safety 
of NAS modernization. For instance, the Automatic Dependent 
Surveillance-Broadcast (ADS-B) is a digital alternative to radar that 
allows aircraft to transmit their exact position, direction of flight 
and speed to ground stations and other aircraft. The system has been 
deemed ``the future of air traffic control'' \10\ by the FAA and is 
expected to be the basis of NextGen. However, since the FAA will not 
own the ADS-B hardware, software or infrastructure, the system will not 
be certified by FAA employees. Instead, the FAA will entrust 
responsibility for the safe operation of ADS-B entirely to private 
contractors. The Department of Transportation Inspector General (IG) 
has expressed concern that as a result the FAA ``could find itself in a 
situation where it knows very little about the system that is expected 
to be the foundation of NextGen'' and encouraged the agency to ``take 
steps to ensure it effectively addresses this risk.'' \11\ It must be 
emphasized that this interpretation of the agency's certification 
criteria would apply not only to ADS-B but also to any system that is 
not owned by the FAA.
---------------------------------------------------------------------------
    \10\ Federal Aviation Administration, ``Fact Sheet: Automatic 
Dependent Surveillance-Broadcast (ADS-B),'' June 21, 2007.
    \11\ Department of Transportation Inspector General, Challenges 
Facing the Implementation of FAA's Automatic Dependent Surveillance-
Broadcast Program, CC-2007-100 (Washington, D.C.: October 17, 2007), 
pp. 2-3.
---------------------------------------------------------------------------
    While the FAA transitions to NextGen, it is critical that new and 
current systems are properly maintained and certified and that products 
and systems owned by a third party are held to the same certification 
standards as FAA systems and equipment. As such, PASS proposes that 
language be added to the FAA reauthorization legislation making it 
clear that the FAA will make no distinction between public or 
privately-owned equipment, systems or services used in the NAS when 
determining certification requirements.

Airport Takeover of Navigation Facilities
    Under the previous administration, there was an effort to establish 
a pilot program for airport takeover of air navigation facilities that 
would allow the FAA to permit public or private sponsors to assume 
ownership and responsibility for maintenance and operations of runway 
lighting, navigational aid systems (navaids) and weather equipment. 
PASS is extremely concerned with this pilot program or any similar 
program that would allow these public or private sponsors to maintain 
and operate systems and equipment currently the responsibility of FAA 
employees. Consider the following:

  <bullet> Although the FAA claims that ownership and responsibility 
        for maintenance and operations of navaids and weather equipment 
        is currently split between the FAA and the airport, in reality, 
        the vast majority of airports rely on highly-skilled FAA 
        technicians to maintain and operate the systems and equipment.

  <bullet> FAA technicians are specifically trained to address the 
        intricate details of this work and should be the only people 
        trusted with this responsibility.

  <bullet> If the airport authority was unsuccessful in its attempt to 
        assume or continue responsibility for airport maintenance and 
        operations, including lack of funding or the ability to find 
        quality staff, the FAA would be unable to resume those duties, 
        leaving the airport's viability at risk.

    As one of the largest and most intricate networks in the world, the 
NAS cannot be safely divided into individual components, just as the 
work of those responsible for maintaining it cannot be contracted out 
as independent functions. PASS believes that this pilot program is 
aimed at privatizing aspects of the NAS, which would only succeed in 
threatening the safety of this country's aviation system. As such, PASS 
believes that the FAA should not be permitted to launch a pilot program 
aimed at allowing airport takeover of air navigation facilities.

Aviation System Standards (AVN)
    Flight procedures and flight inspection employees in Aviation 
System Standards (AVN) are charged with developing, evaluating, 
certifying by flight inspection and maintaining the 18,000 instrument 
flight landing and takeoff procedures for every major and municipal 
instrument-capable airport across the country. The development, flight 
inspection and maintenance of flight procedures involves strict 
compliance with a complex series of computations, measurements and 
modeling standards.
    Current administration regulations and directives provide for 
third-party development of special-use operational and approach 
procedures. These special-use procedures, which can also be labeled 
non-public, are not fully integrated into the NAS. However, in the last 
year, the FAA has started contracting out the development of public-use 
procedures, specifically Required Navigation Performance (RNP) approach 
procedures at Bradley International, Windsor Locks, Connecticut, and 
Savannah/Hilton Head International, Savannah, Georgia. The development, 
evaluation, certification and maintenance of public-use RNP procedures 
and all other public-use procedures have always been performed and 
fully integrated into the NAS by highly-trained and skilled 
professionals in AVN who have never missed a performance or production 
goal set forth by the FAA. PASS believes this safety-critical work to 
be inherently governmental.
    In the past, there has been a move to accelerate through 
outsourcing the development and implementation of RNP procedures, which 
PASS has criticized since it allowed for third-party performance of 
safety-critical work. Recently, the FAA has stated that it does not see 
the need to implement an acceleration of the development of RNP 
procedures and revealed that the FAA has the production capacity to 
meet existing implementation demand by reallocating resources to meet 
production goals. Furthermore, the FAA stated that expanding the 
authority for use of third parties does not necessarily result in an 
increased ability to implement RNP or any other Performance-Based 
Navigation procedures. As such, PASS believes that language to increase 
the number of RNP procedures and to expand the contracting out of this 
inherently governmental work should not be included in the FAA 
reauthorization legislation.

Aviation Safety
Inspector Staffing
    PASS represents approximately 3,100 Flight Standards field aviation 
safety inspectors and 150 Manufacturing Inspection District Office 
aviation safety inspectors who are responsible for certification, 
education, oversight, surveillance and enforcement of the entire 
aviation system. PASS is extremely concerned about staffing of the FAA 
inspector workforce. Inspector staffing levels are not adequate to meet 
growing industry demands and ensure the safety of the aviation system, 
and nearly half of FAA inspectors are eligible to retire over the next 
several years. Insufficient inspector staffing combined with the 
evolving aviation industry places an incredible workload on the 
inspector workforce, which has already resulted in missed or canceled 
inspections due to lack of staffing. With the increased outsourcing of 
maintenance work in this country and abroad, growing number of aging 
aircraft, the emergence of new trends in aviation (such as very light 
jets, unmanned aircraft and regional carriers), the increasing number 
of aviation manufacturers and the expansion of the FAA's designee 
programs--all of which require additional inspector oversight--it is 
imperative that there are enough inspectors in place to monitor the 
safety of the system.
    Without a doubt, the state of the inspector workforce must be 
closely monitored as the aviation industry continues to evolve. PASS 
supports including language in the FAA reauthorization legislation 
directing the FAA to increase the number of inspectors and support 
staff and authorizing specific funding to increase safety-critical 
staffing. Furthermore, PASS suggests adding language specifically 
directing the FAA to increase staffing according to the results of the 
development of the inspector staffing model.

Aviation Safety Oversight
    Following last year's Southwest incident, the results of an audit 
released by the IG and information revealed during hearings before 
Congress, there was an increased focus on improving and increasing FAA 
safety oversight. PASS believes language should be included in this 
year's FAA reauthorization bill in order to ensure proper and safe 
oversight of the aviation industry. Specifically, PASS believes the 
following elements should be included in the legislation:

        Modification of Customer Service Initiative (CSI): The 
        advertised intent of the CSI was to allow certificate holders 
        to request reconsideration of a decision made by an aviation 
        safety inspector. Within this document as well as other 
        statements of policy, the FAA refers to air carriers or other 
        entities regulated by the agency as ``customers.'' In PASS's 
        view, the FAA should be focused on protecting aviation safety 
        and treating the flying public as the most important customer. 
        Therefore, PASS suggests including language in the FAA 
        reauthorization bill modifying the CSI program in order to make 
        clear that the flying public are the customers. In addition, 
        PASS requests that language be added to establish a workgroup, 
        which includes the exclusive collective bargaining 
        representative of aviation safety inspectors, to review the CSI 
        and make any necessary changes in order to ensure that it is 
        being used appropriately.

        Post-Employment Restrictions for Flight Standards Inspectors: 
        PASS fully supports the establishment of a two-year cooling-off 
        period for FAA inspectors or persons responsible for FAA 
        inspectors before that individual can act as an agent or 
        representative before the FAA of a certificateholder that they 
        oversaw during their service with the FAA. In other lines of 
        business, it has been proven that this type of respite is 
        useful in preventing the formation of questionable 
        relationships that favor one party over another. With regard to 
        the FAA, these types of relationships can have a critical 
        impact on the safety of the aviation system. As such, PASS 
        believes including this directive in the FAA reauthorization 
        bill would greatly benefit the oversight process.

        Assignment of Principal Supervisory Inspectors: Principal 
        supervisory inspectors directly interact with the air carrier 
        and have the ability to assign work to aviation safety 
        inspectors and the ultimate authority to make safety-critical 
        decisions. It has been shown that the development of overly 
        ``cozy'' relationships between the FAA and airlines can result 
        in a breakdown of safety oversight. In fact, in its report, the 
        IG specifically stated that supervisory inspectors should be 
        rotated to ensure reliable air carrier oversight.\12\ PASS 
        believes language should be included in the FAA reauthorization 
        legislation that would require the FAA to rotate supervisory 
        principal inspectors between FAA air carrier oversight offices 
        every 5 years.
---------------------------------------------------------------------------
    \12\ Department of Transportation Inspector General, Review of 
FAA's Safety Oversight of Airlines and Use of Regulatory Partnership 
Programs, AV-2008-057 (Washington, D.C.: June 30, 2008), p. 5.

        Headquarters Review of Air Transportation Oversight System 
        (ATOS): ATOS was developed in 1998 as a ``system safety'' 
        approach to oversight of the air carrier industry aimed at 
        ensuring airlines comply with FAA safety requirements to 
        control risk and prevent accidents. While prioritizing workload 
        based on levels of risk and attempting to manage that workload 
        through automated tasks are valid concepts, there are several 
        problems with ATOS that prevent the agency from benefiting from 
        the system. PASS believes that including language in the FAA 
        reauthorization legislation implementing monthly reviews of the 
        database by a team of employees will enhance the quality of 
        statistical information generated and the overall use of the 
        system. In addition, PASS supports the inclusion of language 
        ensuring that the exclusive bargaining representative of 
---------------------------------------------------------------------------
        aviation safety inspectors is a member of any such review team.

        Improved Voluntary Disclosure Reporting System: The Voluntary 
        Disclosure Reporting Program (VDRP) allows certificateholders 
        operating under Title 14 of the Code of Federal Regulations to 
        disclose voluntarily to the FAA apparent violations of certain 
        regulations. According to the FAA, this policy is intended to 
        encourage compliance with FAA regulations; however, in order 
        for the VDRP to operate successfully, several steps must be 
        rigorously enforced by the FAA. The Southwest incident and 
        other examinations into the process have revealed serious flaws 
        within the system. In order to improve the VDRP system, PASS 
        believes language should be included in the FAA reauthorization 
        bill requiring a supervisor to review and approve all voluntary 
        self-disclosures received by air carriers following the initial 
        inspector paper review. In addition, PASS suggests Certificate 
        Management Offices be required to report quarterly findings to 
        their respective regional division managers. PASS also believes 
        language should be included to clarify that during the 
        verification and evaluation of the report, it is confirmed that 
        the violation has not been previously reported by an inspector 
        or self-disclosed by the carrier.

        National Review Team: PASS supports the inclusion of language 
        in the FAA reauthorization bill establishing a National Review 
        Team that will report directly to the associate administrator 
        for aviation safety and will be comprised of air carrier 
        principal inspectors who will perform periodic and unannounced 
        audits of air carrier operations, maintenance practices and 
        procedures to evaluate air carrier oversight.

Use of Non-Certificated Repair Facilities
    With airlines increasing their use of outsourced maintenance work, 
there has been a significant increase in the use of non-certificated 
repair stations. ``Non-certificated'' means that the repair facility 
does not possess a certificate issued by the FAA to operate under 
Federal Aviation Regulation Part 145 and is therefore not subject to 
direct FAA oversight. A certificated repair station meets the standards 
as outlined in the Federal Aviation Regulation and is therefore subject 
to direct FAA oversight to ensure that it continues to meet those same 
standards. The differences in regulatory requirements and standards at 
the two facilities are extremely troubling. For example, in an FAA-
certificated repair station, it is required that there be designated 
supervisors and inspectors and a training program. These items are not 
required at non-certificated repair facilities.
    Effective oversight of non-certificated repair facilities gained 
attention in the aftermath of the January 2003 Air Midwest crash in 
Charlotte, N.C. The National Transportation Safety Board determined 
that incorrect rigging of the elevator system by a contractor 
contributed to the accident and pointed to ``lack of oversight'' by Air 
Midwest and the FAA.\13\ The airline contracted out the work to an FAA-
certificated repair station, which then subcontracted to a non-
certificated repair facility. Under Federal regulations, the airline is 
ultimately responsible for ensuring that the work is performed in 
accordance with FAA standards and requirements.
---------------------------------------------------------------------------
    \13\ National Transportation Safety Board, Loss of Pitch Control 
During Takeoff, Air Midwest Flight 5481, Raytheon (Beechcraft) 1900D, 
N233YV, Charlotte, North Carolina, January 8, 2003, Aircraft Accident 
Report NTSB/AAR-04/01 (Washington, D.C.: 2004), p. x.
---------------------------------------------------------------------------
    According to the IG, the FAA does not know how many non-
certificated maintenance facilities air carriers currently use, but the 
IG identified ``over 1,400 non-certificated repair facilities 
performing maintenance and more than 100 of these facilities were 
located in foreign countries.'' \14\ The IG also discovered that there 
are no limitations to the amount of maintenance work non-certificated 
facilities can provide, and that these facilities are performing far 
more work than minor services, including much of the same type of 
safety-critical work FAA-certificated repair stations perform, such as 
repairing parts used to measure airspeed, removing and replacing jet 
engines, and replacing flight control motors. Some of these non-
certificated facilities are even performing safety-critical 
preventative maintenance.
---------------------------------------------------------------------------
    \14\ Department of Transportation Inspector General, Aviation 
Safety: FAA's Oversight of Outsourced Maintenance Facilities, CC-2007-
035 (Washington, D.C.: March 29, 2007), p.13.
---------------------------------------------------------------------------
    Despite the fact that these facilities are performing safety-
critical work, FAA oversight is practically nonexistent. In other 
words, these facilities are performing work pivotal to aviation safety 
with no guarantee that it is being done in line with FAA and air 
carrier standards. It is obvious that there must be changes made 
regarding air carriers' use of non-certificated repair facilities. PASS 
is in full support of including language in the FAA reauthorization 
language requiring that within 3 years all air carrier maintenance work 
(substantial, regularly scheduled or required inspection items) only be 
performed by an FAA-certificated repair station.

Oversight of Foreign Repair Stations
    FAA aviation safety inspectors responsible for overseeing the 
certification and recertification of the work performed at foreign 
repair stations have concerns regarding the oversight of these 
facilities. Whereas much of this maintenance work was once done at the 
air carrier's facility, according to the IG, major air carriers 
outsourced an average of 64 percent of their maintenance expenses in 
2007, compared to 37 percent in 1996.\15\ For the most recent report, 
the IG reviewed nine major air carriers. These carriers sent 71 percent 
of their heavy airframe maintenance checks--including performing 
complete teardowns of aircraft--to repair stations in 2007, up from 34 
percent in 2003. Foreign repair stations performed 27 percent of 
outsourced heavy maintenance checks for these nine air carriers in 
2007, up from 21 percent in 2003.\16\
---------------------------------------------------------------------------
    \15\ Department of Transportation Inspector General, Air Carriers' 
Outsourcing of Aircraft Maintenance, AV-2008-090 (Washington, D.C.: 
September 30, 2008), p. 1.
    \16\ Id.
---------------------------------------------------------------------------
    FAA inspectors at international field offices are charged with 
certifying foreign repair stations and then recertifying them 
approximately every 2 years. In addition, FAA inspectors at certificate 
management offices in this country provide oversight of the maintenance 
work performed on their assigned air carriers at FAA-certificated 
foreign repair stations. However, with the increasing amount of work 
being performed at FAA-certificated foreign repair stations, inspectors 
have expressed concern that safety issues are not being addressed. In 
order to ensure the safety of the work performed on U.S. aircraft at 
foreign repair stations, it is critical that FAA inspectors be 
permitted to physically inspect foreign repair stations at least twice 
a year.
    PASS is aware of an agreement entered into by the United States and 
the European Community, which has raised concerns regarding the safety 
oversight of work performed at foreign repair stations by eliminating 
the role of the FAA inspector to certify and recertify FAA-certificated 
foreign repair stations. PASS believes that the agreement makes it even 
more imperative that language be included in the FAA reauthorization 
legislation allowing FAA inspectors to inspect FAA-certificated foreign 
repair stations at least twice a year. It is important to note that 
there is no language contained in the agreement that would prohibit the 
inspection of all FAA-certificated foreign repair stations at least 
twice a year by an FAA inspector. In fact, Article 15 of the agreement 
specifically states that nothing in the agreement shall limit the 
authority of a party to ``determine, through its legislative, 
regulatory and administrative measures, the level of protection it 
considers appropriate for civil aviation safety.'' Therefore, allowing 
these two FAA inspections would not in any way impact the terms of the 
agreement between the United States and the European Community.
    The FAA should not have to rely entirely on data submitted by a 
foreign aviation authority but should be permitted the opportunity to 
validate the accuracy of such data through FAA inspections of the 
foreign repair stations. This is especially important when it has been 
revealed that information provided to the FAA by foreign entities is 
often found to be incomplete. In fact, according to the IG, foreign 
authorities do not always provide the FAA with sufficient information 
on what was inspected and the problems discovered. The IG revealed that 
inspection documents given to the FAA were found to be incomplete or 
incomprehensible in 14 out of 16 files (88 percent) examined by the IG. 
The IG even stated that at least one foreign authority representative 
said that ``they did not feel it was necessary to review FAA-specific 
requirements when conducting repair inspections.'' \17\ The questions 
surrounding the information provided by foreign aviation authorities 
make it critical that FAA inspectors be permitted to inspect foreign 
repair stations at least twice per year.
---------------------------------------------------------------------------
    \17\ Department of Transportation Inspector General, Review of Air 
Carriers' Use of Aircraft Repair Stations, AV-2003-047 (Washington, 
D.C.: July 8, 2003), p. v.
---------------------------------------------------------------------------
    There is also considerable concern over the regulations governing 
foreign repair stations. For example, as opposed to domestic airline or 
repair station employees, workers at foreign repair stations are not 
required to pass drug and alcohol tests. In addition, criminal 
background checks are not required at foreign repair stations. There 
also continues to be major concerns regarding security at these 
facilities, with many of the foreign repair stations lacking any 
security standards as opposed to those in this country. Domestic repair 
stations are also required to have at least one FAA-certificated 
individual at the facility in order to approve an airplane or part for 
return to service, while this is not a requirement at foreign repair 
stations.\18\ If a foreign repair station wants to perform maintenance 
on U.S.-registered aircraft or any aircraft that operate in this 
country, those repair stations should be required to meet the same 
safety standards as domestic repair stations.
---------------------------------------------------------------------------
    \18\ U.S. Code of Federal Regulations, Section 145.157.
---------------------------------------------------------------------------
    Inspectors represented by PASS inform the union that they continue 
to find safety issues at both domestic and foreign repair stations. The 
difference, however, is that FAA inspectors are visiting domestic 
repair stations on a regular basis, which allows them to address issues 
in a timely manner. Furthermore, inspectors are even able to make 
unannounced visits to domestic repair stations. In order to ensure that 
the work performed at foreign repair stations meets FAA and air carrier 
standards, PASS believes that all FAA-certificated foreign repair 
stations should be inspected at least twice a year by an FAA inspector 
and all workers working on U.S. aircraft should be drug and alcohol 
tested. Requiring two inspections of FAA-certificated foreign repair 
stations working on U.S. aircraft should be the minimum standard for 
this country to protect the work being performed by foreign repair 
stations. The union supports including such language in the FAA 
reauthorization legislation.

Conclusion
    The work of the highly-trained and skilled employees represented by 
PASS is essential to protecting aviation safety and fulfilling the 
agency's mission. PASS and the bargaining unit employees we represent 
are hopeful that this committee will enact significant legislation that 
will promote positive labor-management relations, protect the work 
performed by FAA employees and ensure that safety of the aviation 
system is always the top priority.

    Senator Lautenberg. Thank you. Thank you very much.
    Mr. McGlashen.

  STATEMENT OF WILLIAM McGLASHEN, EXECUTIVE ASSISTANT TO THE 
INTERNATIONAL PRESIDENT, ASSOCIATION OF FLIGHT ATTENDANTS--CWA, 
                            AFL-CIO

    Mr. McGlashen. Thank you, Senator, for giving the 
Association of Flight----
    Senator Lautenberg. You're the clean-up hitter.
    Mr. McGlashen. I'm the clean-up and I've got a great aisle 
seat.
    Thank you, Senator, for giving the Association of Flight 
Attendants, the world's largest flight attendant union, the 
opportunity to testify today.
    Our President, Pat Friend, regrets that she is unable to be 
here today but thanks you for holding this important hearing.
    Our written testimony details a number of critical issues 
for the Nation's flight attendants, from the lack of basic OSHA 
protections to the growing and serious problem of flight 
attendant fatigue, problems with cabin air quality, and the 
lack of access to the HIMS Programs for flight attendants.
    These are serious issues that the FAA has neglected and in 
some cases refuses to recognize.
    We appreciate the leadership of this Committee particularly 
and how closely you've worked with us to address these issues 
and to force the FAA to do its job which is to protect the 
safety and health of all those that call the aircraft cabin 
their workplace and the millions of passengers who travel 
onboard each and every day.
    One thing I'd like to highlight that was not included in 
the previous Senate version but has been included into the 
current House version of the Reauthorization legislation is the 
prohibition on the use of cell phones during flight, including 
the use of Voice Over Internet Protocol which is essentially 
cell phone-like conversations on laptop computers.
    Flight attendants view this prohibition as an important 
issue that must be addressed from a safety and security 
perspective. The potential disruption of cell phone 
conversations onboard in a contained environment proposes 
potential and serious safety and security risks that can be 
prevented with a clear and unambiguous elimination on the use 
of these devices.
    I would like to especially highlight the concerns we have 
with the contamination of aircraft air supply.
    For over a decade AFA has been concerned with a number of 
our members suffering from severe neurological disorders that 
can be attributed to exposure to certain neurotoxins contained 
in engine oils and lubricants used in aircraft systems.
    The more we have researched the problem, the more clear it 
has become to us that such contaminated air poses a direct 
threat to flight safety. Almost all aircraft models use a 
system called a ``bleed air system'' to provide fresh air to 
the cabin. This air has to be heated before being pumped into 
the aircraft and is done so by bleeding the air off the 
engines.
    If there's an engine oil or hydraulic fluid leak, these 
chemicals are heated and broken down to their most basic 
chemical compositions. Many of these include a chemical 
referred to as TCP, a dangerous neurotoxin.
    Evidence continues to mount that this chemical is indeed 
being pumped into the aircraft cabin. Accounts from crew 
members, including pilots, have come forward about the 
frequency of this exposure and the risk it poses.
    Crew members have reported becoming incapacitated after 
experiencing engine oil leaks, mist and smoke in the cabin. In 
a review of available data, AFA-CWA has documented seven air 
quality incidents each month over a nine-month period at one 
airline. That involved both smoke and mist in the cabin.
    AFA-CWA also found that over an 18-month period there were 
470 air quality events in the U.S. among 47 aircraft types. 
Globally, the U.S. Flight Safety Foundation estimates that 
there are 5 to 10 diversions per day due to smoke and/or fumes 
in the aircraft.
    Finally, AFA believes that this FAA Reauthorization process 
provides a sound platform to begin a comprehensive discussion 
on developing a national and rational aviation policy for our 
country.
    This legislation addresses some immediate and indeed some 
long-term needs and that is appropriate, but the larger 
conversation must take place on how we build a 21st Century 
aviation policy for our country and it's a conversation that is 
long overdue.
    For instance, AFA is pleased to see increased funding for 
the Essential Air System in the House bill and hopes that the 
Senate follows. Small and even mid-sized communities are the 
first casualties when airlines cut capacity, leaving a trail of 
wasted infrastructure investments and unemployment for 
thousands of aviation workers.
    It is essential to make a bold policy statement that 
service to all communities is important in our country. This is 
the type of discussion and policymaking that needs to occur, 
frankly, on a broader stage.
    This, along with provisions that address the issue of 
foreign ownership and control of our domestic airlines, are 
important in protecting U.S. workers and consumers alike.
    Mr. Chairman, Senator Lautenberg, today's hearing serves 
two purposes in my view. First, the Association of Flight 
Attendants endorses this bill and urges you to ensure that the 
provisions banning the use of cell phone use on the aircraft 
and steps to end the FAA's decades-long policy of ignoring the 
serious risks posed by contaminated aircraft bleed is included 
in this vital legislation.
    Second, this legislation provides a long overdue platform 
again for formulating a national and, indeed, rational aviation 
policy. In this season of change, this is our opportunity to 
construct a 21st Century aviation policy that works for 
passengers, communities and the union men and women who each 
and every day transport a number of passengers equal to the 
size of the City of Chicago.
    It's time that millions of aviation workers are part of 
this process and this debate on our national aviation policy 
and we look forward to working with you to ensure that this 
happens.
    Thank you for your time and I look forward to your 
questions.
    [The prepared statement of Mr. McGlashen follows:]

  Prepared Statement of William McGlashen, Executive Assistant to the 
International President, Association of Flight Attendants--CWA, AFL-CIO

    Thank you, Chairman Dorgan, for giving us the opportunity to 
testify today. My name is William McGlashen and I am the Executive 
Assistant to the International President of the Association of Flight 
Attendants--CWA (AFA-CWA), AFL-CIO. President Friend regrets that she 
could not be here today and sends her best wishes and thanks. AFA-CWA 
represents over 55,000 flight attendants at 20 different airlines 
throughout the United States and is the world's largest flight 
attendant union. Flight attendants, as the first responders in the 
aircraft cabin, have a unique perspective on a number of the safety 
programs of the Federal Aviation Administration (FAA) and we are 
pleased to have a seat here today to discuss many of the issues which 
remain for the FAA to address.
    Our testimony today does not differ much from that given almost 2 
years ago when this Committee began work on the FAA Reauthorization 
legislation. I applaud this Committee for the good work done on that 
bill and your efforts to clear that legislation. Unfortunately, I'm 
here to tell you that not much has changed in the past 2 years. The FAA 
has continued to fail to take action on several fronts to improve the 
overall safety and health of the employees that work under its 
jurisdiction. We firmly believe that the FAA's mentality of denial and 
delay toward these serious health and safety issues only threaten the 
overall safety of the aviation system for the traveling public as well. 
That is why the continued vigilance and oversight of the FAA by the 
members of this Committee is necessary and vital. We look forward to 
working with this Committee in the coming weeks as you work toward 
passing a comprehensive FAA Reauthorization bill to address a number of 
the matters we will highlight today.

Flight Attendant Fatigue
    We all know that the FAA's failure to address the growing problem 
of fatigue for numerous aviation industry workers--not just flight 
attendants, but pilots and air traffic controllers as well--could lead 
to an incident resulting in the loss of many lives. I know that you 
have heard from our brothers and sisters at ALPA and NATCA about their 
ongoing concerns with the FAA and its inability to address fatigue 
amongst their members. I am here to tell you that fatigue is a very 
real and serious concern for the flight attendant workforce in this 
country as well. As the deep concessions demanded of flight attendants 
during the recent and ongoing financial turmoil of the airline industry 
have taken hold, it has become clear that airline management hopes to 
keep our members working for as long as possible with greatly reduced 
time off between duty. Some air carriers are routinely taking advantage 
of a ``reduced rest'' provision in the Federal Aviation 
Administration's Flight Attendant Duty Time and Rest Regulations which 
allows the minimum rest of 9 hours to be reduced to 8. The exception 
has become the rule and flight attendants are so exhausted that they 
have informed us that they have in some cases forgotten to perform 
critical safety functions, including the arming of doors and even 
fallen asleep on the jumpseats. Even more troubling is that the FAA 
continues to allow the carriers to schedule reduced rest periods, 
making them more routine, and has failed to recognize or show any 
concern for the impact that flight attendant fatigue has on the overall 
safety of the aviation system.
    Multiple studies have shown that reaction time and performance 
diminishes with extreme fatigue--an unacceptable situation for safety 
and security sensitive employees. Flight attendants are required to be 
on board to assist in case an aircraft emergency evacuation is 
necessary. In addition, they are inflight first responders who are 
trained to handle inflight fires, medical emergencies including CPR and 
emergency births. Furthermore, since 9/11 the security responsibilities 
of flight attendants have greatly increased. It has become even more 
important for flight attendants to be constantly vigilant of the 
situation in the aircraft cabin and aware of their surroundings at all 
times. An inability to function due to fatigue jeopardizes the 
traveling public and other crewmembers.
    According to the Federal Aviation Regulations (FAR's), flight 
attendants must have a minimum rest period of at least 9 hours 
following any duty period of less than 14 hours. The nine-hour period 
can be reduced to as little as 8 hours, if the employer schedules a 10-
hour rest period following the next duty period. I'd like to make a 
further clarification at this point. Using the term ``rest period'' can 
be misleading because much more must be done during this period of time 
other than simply sleeping. The ``rest period'' can begin as soon as 
fifteen minutes after an aircraft pulls into the gate and continues 
until one hour prior to their next departure. This ``rest period'' must 
also include travel through an airport, waiting time for a shuttle to 
the layover hotel, travel to the hotel, checking-in, possibly finding 
time to eat a meal since many of our carriers in an effort to cut costs 
have removed flight attendant crew meals from the flights, getting 
prepared for bed, getting dressed and prepared for work the next 
morning, travel back to the airport and last, but certainly not least 
is sleep time. Our members are continually reporting that the actual 
sleep time this schedule allows is in many cases between only 3-5 hours 
of actual sleep before beginning another full duty day.
    The airline industry practice has been to schedule as little as 9 
hours of rest for flight attendants. It is our understanding that the 
reduced rest period provision was originally meant to accommodate ``day 
of'' scheduling when carriers encounter delays out of the carriers' 
control such as bad weather or air traffic control delays. The FAA has 
chosen to ignore the routine implementation of this provision by 
airline management and the further erosion of meaningful rest periods 
for flight attendants. To further highlight the FAA's turning of a 
blind eye to this practice, an FAA spokesperson, in response to a 
question from the media on this issue stated, ``The FAA rules on flight 
time and rest for both pilots and flight attendants are fundamentally 
sound. They serve aviation safety very well.'' We fundamentally 
disagree.
    Congress also has expressed concerns. The Omnibus Appropriations 
for FY 2005 contained an appropriation for $200,000 directing the FAA 
to conduct a study of flight attendant fatigue. The FAA was to report 
back to Congress by June 1, 2005 with their findings. The report 
language stated: ``The Committee is concerned about evidence that FAA 
minimum crew rest regulations may not allow adequate rest time for 
flight attendants. Especially since the terrorist attacks of September 
11, 2001, the Nation's flight attendants have been asked to assume a 
greater role in protecting the safety of air travelers during flight. 
Current flight attendant duty and rest rules state that flight 
attendants should have a minimum of 9 hours off duty that may be 
reduced to 8 hours, if the following rest period is 10 hours. Although 
these rules have been in place for several years, they do not reflect 
the increased security responsibilities since 2001, and only recently 
have carriers begun scheduling attendants for less than 9 hours off. 
There is evidence that what was once occasional use of the `reduced 
rest' flexibility is now becoming common practice at some carriers.''
    The FAA delayed release of the report for over one year, even 
though the study itself was completed. The FAA repeatedly ignored 
requests from AFA-CWA and Members of Congress to release the report and 
explain the delay in reviewing the study by the Administrator's office. 
Finally, after AFA-CWA staged an all night ``sleep-in'' by flight 
attendants in front of the FAA headquarters in order to draw attention 
to the issue, the FAA released the report.
    In order to complete the required study, representatives of the FAA 
from the Civil Aerospace Medical Institute (CAMI) initiated an 
agreement with NASA Ames Research Center to perform an evaluation of 
the flight attendant fatigue issue. Due to the short internal deadline 
for conducting the report, the researchers were unable to conduct a 
thorough and comprehensive study of flight attendant fatigue. It 
primarily consisted of a review of existing literature on the issue, an 
evaluation of flight attendant duty schedules and a comparison of those 
schedules to the current regulations regarding rest. Based just on this 
limited research, the report concluded that flight attendants are 
``experiencing fatigue and tiredness and as such, is a salient issue 
warranting further evaluation.'' They also stated that ``not all the 
information needed could be acquired to gain a complete understanding 
of the phenomenon/problem of flight attendant fatigue.''
    The report listed a number of recommendations for further study. 
They were:

        1. A scientifically-based, randomly-selected survey of flight 
        attendants as they work. Such a study would assess the 
        frequency with which fatigue is experienced, the situations in 
        which it appears, and the consequences that follow.

        2. A focused study of aviation incident reports in order to 
        determine what role fatigue played in already reported safety 
        incidents.

        3. The need for research on the effects of fatigue. This 
        research would explore the impact that rest schedules, 
        circadian factors and sleep loss have on flight attendants' 
        ability to perform their duties.

        4. The determination and validation of fatigue models for 
        assessing how fatigued a flight attendant will become. 
        Developing a reliable fatigue modeling system would be an 
        important tool for the aviation industry in helping to 
        determine when rest periods should be scheduled.

        5. A study of International policies and practices to see how 
        other countries address these issues.

        6. Development of training material to reduce the level of 
        fatigue that may be experienced by flight crews and to avoid 
        factors that may increase fatigue levels.

    Based on this limited report and its recommendations, Congress 
included funding for a continuation of the study and for CAMI to act on 
these recommendations for further study and to continue their research 
on this important aviation safety issue in the Consolidated 
Appropriations Act 2008. The legislation called for CAMI to complete 
the study and report back to Congress by the end of 2009.
    Unfortunately, the airlines have attempted to stonewall this 
Congressionally-mandated study by refusing to provide to the CAMI 
researchers contact information for flight attendants. Fortunately, by 
working with flight attendant unions and the FAA flight attendant 
certification database, the researchers were able to get their initial 
information sent to flight attendants. Currently, we are communicating 
with the research team and providing them with information as needed. 
The study is progressing and is in the field engaged in extensive 
research. Because of airline management's earlier stonewalling as well 
as delays resulting from the change in Administrations, it appears that 
the CAMI research team will need additional time to complete work on 
the study. We encourage the Committee to extend the deadline for the 
report to Congress on the research an additional 6 months.
    Furthermore, we believe that based on the FAA's clearly stated 
belief that ``. . . rules on flight time and rest for both pilots and 
flight attendants are fundamentally sound.'' and their demonstrated 
efforts to stonewall and delay release of the initial report, along 
with the carriers efforts to stymie the study, Congress must provide 
firm and strong guidance to the FAA to address this growing problem to 
aviation safety.

Workplace Safety and Health Protections
    For well over 30 years AFA-CWA has been fighting for even the most 
basic workplace safety and health protections for flight attendants. 
Those pleas have continued to fall on deaf ears at the FAA. Flight 
attendants encounter numerous occupational hazards while working aboard 
commercial flights, including but not limited to turbulence, severe air 
pressure changes, unwieldy service carts, broken luggage bins, balky 
exit doors and door handles, exposure to toxic chemicals mixed with the 
engine air that is bled into the passenger cabin, unruly passengers, 
communicable diseases and emergency evacuations. These hazards cause 
flight attendants to suffer occupational injuries and illnesses at 
rates far in excess of those experienced by workers in almost every 
other sector of private industry, as is evident from an analysis of 
survey data available from the U.S. Bureau of Labor Statistics (BLS). 
For example, occupational injury and illness rates among flight 
attendants and all scheduled air transport workers are historically 
several times greater than the rates for all private industry workers; 
and even significantly greater than the rates experienced by 
construction workers.
    With respect to specific characteristics of injuries and illnesses 
experienced by flight attendants, detailed in data from the BLS surveys 
reveal that:

  <bullet> Overexertion, contact with objects/equipment, exposure to 
        harmful substances/environments, and falls are the most 
        significant exposure events;

  <bullet> Approximately 90 percent of injuries are traumatic in 
        nature, and include sprains/strains/tears, effects of air 
        pressure, and bruises and contusions;

  <bullet> All body parts are affected, but injuries/illnesses to the 
        trunk, head and extremities predominate.
1975 FAA Assertion of Jurisdiction over Crewmember Health and Safety
    The reason that flight attendants continue to experience such high 
rates of injuries, is that flight attendants are not covered under the 
Occupational Safety and Health Act (OSHA) nor has the FAA made any 
effort to regulate the safety and health of flight attendants in the 
aircraft cabin. On July 10, 1975, the FAA published a statement in the 
Federal Register (40 Fed. Reg. 29114, 1975) asserting complete and 
exclusive jurisdiction over crewmember health and safety on ``civil 
aircraft in operation . . . from the time it is first boarded by a 
crewmember, preparatory to a flight, to the time the last crewmember 
leaves the aircraft after completion of that flight, . . . even if the 
engines are shut down.'' In asserting such jurisdiction over crewmember 
health and safety, the FAA claimed that ``with respect to civil 
aircraft in operation, the overall FAA regulatory program . . . fully 
occupies and exhausts the field of aircraft crewmember occupational 
safety and health.''
    Since 1975, the FAA has continued to assert complete and exclusive 
jurisdiction over crewmember health and safety aboard a civil aircraft; 
unfortunately, at all relevant times since 1975, the FAA has declined 
to exercise its asserted statutory authority to prescribe or enforce 
standards or regulations affecting the occupational safety and health 
of crewmembers. Significant areas of regulatory neglect include, but 
are not limited to, recording and reporting of occupational injuries 
and illnesses; blood borne pathogens; noise; sanitation; hazard 
communications; access to employee exposure and medical records, and 
anti-discrimination protections for reporting safety and health 
violations.

1990 AFA Petition of Rulemaking
    After years of inaction by the FAA, on May 8, 1990, AFA-CWA filed a 
petition for rulemaking with the FAA that asked the agency to adopt 
selected OSHA safety regulations and apply them to the crewmembers 
working in the airline industry, addressing such areas as the recording 
and reporting of injuries; access to employee exposure and medical 
records; right to inspections; safety definitions; the handling of 
hazardous materials; personal protective equipment; medical and first 
aid; fire protection, and toxic and hazardous substances. In submitting 
its petition, AFA-CWA was attempting to fill the void created when the 
FAA asserted jurisdiction over crewmember health and safety without 
actually exercising that authority. As AFA-CWA stated in its petition:

        This petition offers one solution to the gaps in crewmember 
        health and safety coverage caused by the FAA's de facto 
        industry-wide preemption of OSHA. Although this industry-wide 
        preemption is probably incorrect as a matter of law, it is the 
        rule currently followed by OSHA and the FAA, with the possible 
        exception of OSHA's recordkeeping requirement. If the FAA is 
        going to claim total jurisdiction over crewmembers, it should 
        exercise that jurisdiction by providing protections equal to 
        those provided by OSHA. It is for that reason that this 
        petition asks the FAA to adopt the OSHA regulations and apply 
        them to crewmembers. (Emphasis added).

FAA Rejection of AFA-CWA Petition for Rulemaking
    Almost seven (7) years after AFA-CWA filed its petition for 
rulemaking, the FAA finally responded by letter dated June 6, 1997, in 
which it stated in part:

        The FAA has determined that the issues identified in your 
        petition may have merit but do not address an immediate safety 
        concern. Because of budgetary constraints, and the need to meet 
        the demands of a changing aviation industry and a complex air 
        transportation system, the FAA finds that it must dedicate its 
        rulemaking resources to the most pressing problems and issues 
        associated with safety. For these reasons, we are unable to 
        consider your petition for Rulemaking; therefore it is 
        declined.

August 7, 2000 Memorandum of Understanding between FAA and OSHA
    On August 7, 2000, after increased pressure from AFA-CWA, the FAA 
and OSHA entered into an historic Memorandum of Understanding (MOU), 
the purpose of which was ``to enhance safety and health in the aviation 
industry.'' In the MOU, FAA and OSHA agreed to establish a joint team 
(FAA/OSHA Aviation Safety and Health Team or Joint Team) to identify 
the factors to be considered in determining whether the OSH Act's 
requirements could be applied to the working conditions of employees on 
aircraft in operation (other than the flight deck crew) without 
compromising aviation safety.
    The MOU required the Joint Team to produce a first report within 
120 days from the date of the MOU's execution that addressed whether 
and to what extent OSHA's existing standards and regulations with 
respect to six (6) specific health and safety areas could be applied to 
employees on aircraft in operation, without compromising aviation 
safety. In December 2000, the first report of the FAA/OSHA aviation 
safety and health team concluded that, with the exception of bloodborne 
pathogens and noise, the other five (5) subject areas under 
consideration could be implemented for all employees in the aviation 
industry without implicating aviation safety concerns. Those five 
subject areas are recordkeeping, sanitation, hazard communication, 
anti-discrimination and access to employee exposure/medical records. 
With respect to bloodborne pathogens and noise, the report found that 
the ``OSHA requirements that necessitate engineering and administrative 
controls may implicate aviation safety and would need to be subject to 
FAA approval.''
    The report also proposed that the team give further consideration 
to establishing ``a procedure for coordinating and supporting 
enforcement of the OSH Act with respect to working conditions of 
employees on aircraft in operation (other than the flight deck crew) 
and for resolving jurisdictional questions.'' Although the December 
2000 report recommended that the Joint Team continue to meet to resolve 
this and other issues, the team did not meet again until January 2002, 
at which time they could not agree on a timeline for implementation of 
relevant OSHA regulatory standards for employees on aircraft in 
operation.

September 2001 Report of the Office of Inspector General of the DOT
    In September 2001, the Office of the Inspector General (OIG) for 
the Department of Transportation (DOT) issued a report titled: 
``Further Delays in Implementing Occupational Safety and Health 
Standards for Flight Attendants Are Likely'' (the OIG Report). The OIG 
review was requested by a distinguished member of this Committee, 
Representative Peter DeFazio, who expressed concerns over the dearth of 
OSHA standards for airline employees in the areas of bloodborne 
pathogens, repetitive motion injuries, noise, and unhealthy cabin air.
    The OIG Report found that in the 26 years since the FAA asserted 
statutory authority for prescribing and enforcing occupational safety 
and health standards for aircraft crewmembers onboard aircraft;

        . . . it has not issued industry standards to address employee 
        safety and health issues associated with working conditions 
        onboard aircraft in operation. Instead, FAA focused its 
        resources on providing and enforcing industry standards for 
        aircraft design and operational problems affecting safety.

    Furthermore, the OIG Report concluded that ``unless FAA and OSHA 
resume working together, we have no confidence that industry standards 
will be issued in the near future to address occupational hazards.'' 
Accordingly, the OIG Report recommended that within 90 days of the 
issuance of its report,

        FAA in conjunction with OSHA should establish milestones for 
        the completion of work begun under the August 2000 MOU, and 
        address the occupational safety and health concerns identified 
        in the December 2000 joint report. Within this timeframe, FAA 
        should also reinstitute its rulemaking procedures on injury and 
        illness recordkeeping and reporting, which FAA can do without 
        OSHA's assistance. This is necessary in order to identify the 
        types and frequency of injuries and illnesses occurring. If FAA 
        implements our recommendations, it will in our opinion, be a 
        clear sign of forward progress. We will advise the Secretary of 
        Transportation and the Congress of FAA's actions. If these 
        recommendations are not implemented, it will, in our opinion, 
        be apparent that after 25 years of limited progress, an 
        alternative approach will be necessary. One approach would be 
        to revoke FAA's exclusive authority to provide occupational 
        safety and health standards for employees in aircraft, and have 
        this function performed by OSHA. FAA would then intervene in 
        any regulatory proceedings, when in FAA's judgment, a proposed 
        OSHA regulation would negatively affect the safety of air 
        traffic operations. (Emphasis added).

    To date, although the FAA/OSHA Aviation Safety and Health Team met 
on several occasions since the September 2001 publication of the OIG 
Report, the FAA and OSHA have taken no steps to implement the 
recommendations of the OIG Report, or in any other way regulate the 
workplace health and safety of flight attendants.

Aviation Safety and Health Partnership Program
    The FAA took one final step toward complete abandonment of its 
August 2000 MOU with OSHA when it announced on March 4, 2003, that it 
was creating the ``Aviation Safety and Health Partnership Program'' 
(ASHPP). In an announcement in the Federal Register (68 Fed. Reg. 
10145, 2003), the FAA claimed that the ASHPP was being created to 
provide ``empirical data concerning injury and illness hazards on 
aircraft in operation'' to allow air carriers to ``voluntarily'' 
provide ``selective'' safety and health protections for ``employees not 
covered by OSHA.'' In addition, the FAA announced that the ASHPP

        would preserve the FAA's preeminent authority over aviation 
        safety issues by reserving to the FAA complete and exclusive 
        responsibility for determining whether proposed abatements of 
        safety and health hazards would compromise or negatively affect 
        aviation safety. The ASHPP would include electronic web-based 
        procedures for air carriers to report employees' injury and 
        illness information, thereby enabling FAA to obtain the 
        required data. This data will be used to determine if FAA 
        should take additional measures, including rulemaking 
        activities, to address safety and health issues in air carrier 
        operations.

    On March 31, 2003, AFA-CWA, along with many of the other affiliated 
unions of the Transportation Trades Department (TTD) of the AFL-CIO, 
wrote to the FAA Flight Standards Service informing them that the TTD 
unions were ``disappointed with and angered by the FAA's decision to 
create a voluntary program that will halt the progress we have made 
over the years toward providing the Nation's flight attendants with the 
Federal safety and health protections they need and deserve.'' 
Furthermore, the TTD wrote that it was troubled by the ``fact that the 
ASHPP proposal relies solely on voluntary measures, with no underlying 
regulatory requirements or enforcement provisions.''
    Since its inception, the ASHPP has failed to propose or institute 
procedures, rules or guidelines for carriers to follow to improve 
airline employee health and safety protections. As a result of the 
voluntary nature of the ASHPP, air carriers have instituted no 
improvements to reduce or mitigate flight attendant injuries. As a 
direct result of the FAA's failure to exercise its asserted statutory 
authority, flight attendants are substantially more likely to be 
injured on the job then employees in other industries.

AFA-CWA Lawsuit Filed in U.S. District Court
    On September 19, 2005, AFA-CWA filed a complaint in the United 
States District Court for the District of Columbia against the 
Secretary of Labor and the FAA Administrator. The AFA-CWA complaint 
asked the court to issue an order declaring that the FAA has failed to 
exercise its asserted jurisdiction to establish occupational health and 
safety standards for flight attendants and crewmembers, and, as a 
result, the Secretary of Labor failed to fulfill her statutory duty 
under the OSH Act to ensure healthy and safe working conditions for 
flight attendants. On May 22, 2006, the District Court dismissed AFA-
CWA's complaint for lack of subject matter jurisdiction; On January 10, 
2007, AFA-CWA filed an appeal brief; on February 9, 2007, the FAA filed 
an appeal brief; on February 23, 2007, AFA-CWA filed a reply brief; and 
on March 26, 2007, oral arguments were heard before the District of 
Columbia Circuit Court of Appeals. In 2007, the D.C. Circuit Court of 
Appeals affirmed the district court's dismissal of AFA's suit to compel 
the Dept. of Labor to apply OSHA workplace standards on the FAA. The 
Appeals court found that the court did not have jurisdiction to hear 
AFA's suit.
    In light of the continued stonewalling on the part of the FAA to 
act on behalf of the safety and health of flight attendants and its 
obvious attempts to totally disavow the 2000 MOU, we believe that it is 
time for Congress to act in order to force the FAA to relinquish the 
exclusive jurisdiction that it has claimed, without any subsequent 
action, for over 30 years.

Aircraft Cabin Air Quality
    The issue of poor aircraft cabin air quality and in many cases the 
contamination of the air supply by potentially toxic chemicals 
continues to pose a threat to those that work onboard the aircraft as 
well as those that travel onboard the aircraft. At the heart of the 
failure of the U.S. Federal Aviation Administration (FAA), the 
manufacturers, and the airlines to resolve problems with aircraft air 
quality is their failure to acknowledge problems with aircraft air 
quality. There are no standards for protective measures or access to 
information necessary to prove individuals' cases; there is effectively 
no government oversight, allowing the steady flow of ``anecdotal'' 
reports to be dismissed as unreliable, and therefore irrelevant.
    It is no small task to describe and document problems with air 
quality on aircraft; hence, the length of this submission. The problems 
are varied, but the lack of oversight and protective measures is common 
to all and is in desperate need of remedy. Here, seven problems with 
aircraft air quality are described in detail. The highlights are 
described here:

        Inadequate ventilation. In buildings, owners must meet minimum 
        ventilation standards intended to protect occupant health and 
        comfort. On aircraft, there is no ventilation standard, despite 
        the fact that aircraft are the most densely occupied of any 
        environment. In buildings, workers can request an OSHA 
        investigation of indoor air quality. On aircraft, there is no 
        government body assigned to investigate related illness 
        reports. Further, there are no protections in place for flight 
        attendants assigned to fly to areas affected by Severe Acute 
        Respiratory Syndrome (SARS), even though crewmembers do not 
        have the option of ``postponing non-essential travel.'' The 
        World Health Organization recognizes flight attendants as 
        potential ``close contacts''; the Centers for Disease Control 
        and Prevention does not.

        Polluted air supply on the ground. Exhaust fumes and heated de-
        icing fluids can be ingested into the air supply systems, 
        especially during ground operations.

        Exposure to heated oils and hydraulic fluids. Heated oils and 
        hydraulic fluids can leak or spill into the air supply systems 
        during any phase of flight, potentially exposing passengers and 
        crew to carbon monoxide and neurotoxins, such as 
        tricresylphosphates (TCPs). There are almost no protective 
        measures in place to prevent air supply contamination, and 
        contaminated aircraft can be--and are--dispatched as 
        ``airworthy.'' Chronic or even permanent neurological damage 
        can result, although affected passengers and crew have little 
        recourse without any record of air monitoring or access to 
        maintenance records. Pilot incapacitation is an additional 
        risk. The FAA has shown no signs that it plans to follow the 
        recent National Research Council committee recommendation for 
        requisite carbon monoxide monitoring on all flights.

        Reduced oxygen in the ambient air during flight. During flight, 
        the aircraft cabin is maintained at a reduced pressure, 
        generally equivalent to an altitude of 6,000-8,000 feet, 
        although sometimes higher. At an effective altitude of 8,000 
        feet, the supply of oxygen is reduced by 25 percent relative to 
        sea level. There is evidence that the current ``8,000 feet 
        standard'', first issued in 1957, is based not on health, but 
        on operating costs, and that the reduced oxygen supply may be 
        inappropriately low for a substantial portion of the flying 
        public.

        Inadequate attention to the thermal environment. Providing air 
        nozzles (``gaspers'') at each occupant seat and work area 
        allows flight attendants and passengers to adjust the 
        temperature of their environment. This is especially important 
        in areas where flight attendants are physically active. In 
        addition, flight attendants regularly report that the galleys 
        and jumpseats located near the aircraft doors can be 
        uncomfortably cold at ankle level, presumably because the doors 
        are poorly insulated. A standard that defines a target 
        temperature range and maximum vertical and horizontal 
        temperature differentials would address this problem. Door 
        heaters have already proven an effective and practical remedy.

        Exposure to ozone gas. Symptoms associated with ozone exposure 
        are well documented and include respiratory distress and 
        increased susceptibility to infection. Ozone levels increase 
        with altitude and latitude, and are highest in the late winter 
        and early spring. The exposure limit for ozone cited in the 
        Federal Aviation Regulations is 2.5 times higher than the 
        workplace limit set by the National Institute for Occupational 
        Safety and Health. Airlines are under no obligation to monitor 
        or record ozone levels in the cabin.

        Exposure to potentially high concentrations of pesticides. Some 
        countries require that incoming aircraft are sprayed with 
        pesticides to kill any insects that may be on board and may 
        carry disease. The pesticides are applied in occupied or soon-
        to-be-occupied aircraft cabins without any measures to inform 
        or protect the health of passengers or crew. Reported symptoms 
        range from sinus problems and rash to anaphylactic shock and 
        nerve damage. Differences in exposure levels and individual 
        susceptibilities are described. The U.S. Department of 
        Transportation's investigation into the feasibility and 
        efficacy of non-chemical methods to keep aircraft cabins 
        insect-free must be actively supported.

    Years of research and documentation have led to further evidence 
that contamination of the aircraft air supply by dangerous chemicals 
such as TCPs pose a direct and potentially serious threat to flight 
safety. Pilots have reported becoming incapacitated after experiencing 
engine oil leaks and mist and smoke in the aircraft. In a review of 
available data, AFA-CWA has documented 7 air quality incidents 
involving smoke or mists in the aircraft a month over a nine-year 
period at one airline. AFA-CWA also found that over an 18-month period, 
there were 470 air quality events in the U.S. involving 47 aircraft 
types. Globally, the U.S. Flight Safety Foundation estimated that there 
are 5-10 diversions per day due to smoke and/or fumes in the aircraft. 
Clearly there is a problem that poses a direct and serious threat to 
everyone onboard the aircraft. While the concerns about the long-term 
health impact of repeated exposure to these chemicals remain a serious 
one, the potential risk they pose to pilot incapacitation and potential 
in flight safety risks is even a more serious one.
    Most recently, this problem came to light in the media when twin 
sisters on a Southwest Airlines flight that was diverted to 
Albuquerque, New Mexico reported difficulty breathing on the flight and 
a mist coming through the air system developed serious health issues. 
These two women have reported many of the same health issues that AFA-
CWA has found in our members that have been exposed to these dangerous 
neurotoxins in the aircraft.
    It is imperative that the members of this Committee keep the FAA 
focused on addressing this serious issue and supporting vital research 
that will help clarify and solve this ongoing problem. It is also 
important that the Committee assist in preventing airline management 
from stonewalling efforts to conduct vital studies of and efforts to 
address aircraft cabin air quality.

Flight Attendant English Language Standards
    AFA-CWA believes that it is long past due for an English language 
regulatory standard for flight attendants that is similar to the 
existing standard for pilots, flight engineers and security personnel. 
The FAA requires flight attendants onboard most commercial flights to 
protect the safety and security of the cabin and the passengers. 
Effective communication is essential to fulfilling these 
responsibilities.
    Virtually every type of safety, security or health-related cabin 
emergency requires effective communication with other flight 
attendants, with passengers and with the flight deck crew. For example, 
if there is a fire in the galley, the flight attendant must clearly, 
quickly and completely explain the problem to the flight deck so the 
captain in command can make the appropriate decision(s). In addition, 
the cabin crew needs to be able to coordinate the emergency response by 
clearly communicating with each other, as well as, to the passengers. 
In the event of an emergency, flight attendants would need to brief 
able bodied passengers to assist in an evacuation. It is crucial that 
the passengers completely understand the briefing and actions they 
would be expected to perform. Clear, distinct, and audible directions 
and commands are essential in the process of evacuating an aircraft. It 
is imperative that during an emergency the entire crew work as a team 
to prepare for or respond to an emergency in the cabin.
    The FAA has been working on developing an English language 
proficiency standard for over a decade. In April 1994, the FAA issued 
an Advanced Notice of Proposed Rule Making (ANPRM) on Flight Attendant 
English Language Docket No. 27694; Notice No. 94-11. ``The FAA is 
considering rulemaking to establish requirements to ensure that flight 
attendants understand sufficient English language to communicate, 
coordinate, and perform all required safety-related duties. If the FAA 
actually proposes such a requirement, it would be comparable to 
regulatory requirements for other crewmembers and dispatchers. 
Improvements in communication, coordination, and performance of 
required safety-related duties that may result from this regulatory 
process would benefit crewmembers and passengers.''
    In February 1996, the FAA announced the formation of an Aviation 
Rulemaking Advisory Committee (ARAC) to dispose of the comments made to 
the 1994 ANPRM No. 94-11 and recommend an appropriate rulemaking action 
(e.g., NPRM, withdrawal) or if advisory material should be issued. 
Represented on the group were representatives from various flight 
attendant unions and airlines. Midstream of the ARAC process the FAA 
withdrew the ANRPM stating that any possible rulemaking on the subject 
would be incorporated into the overall context of a crew training 
rulemaking project currently being developed internally at the FAA. 
This all, despite the ARAC working group voting 11-2 that an NPRM 
should be developed and 10-2 that an Advisory Circular should also be 
developed to provide guidance on implementation of such a rule.
    In 2004, the Crewmember/Dispatcher Qualification Aviation 
Rulemaking Committee (ARC) was tasked with finishing the training 
rulemaking project that was started in 1997. The proposed new 
regulatory section provides an English Language requirement for all 
crewmembers, including flight attendants, to help ensure that 
crewmember communication is in accordance with crew resource management 
objectives and that flight attendants can communicate with passengers. 
This rulemaking was recently published and currently open for comments. 
The ARC proposed the following language to the FAA:

        English language requirement

                No certificate holder may use any person nor may any 
                person serve as a pilot, flight engineer, or flight 
                attendant under this part, unless that person has 
                demonstrated to an individual qualified to evaluate 
                that person under this part, the ability to do the 
                following:

                        (a) Read, write, speak and understand the 
                        English language.

                        (b) Have their English language speech and 
                        writings understood.

    AFA-CWA hopes that Congress will push the FAA to ensure that 
proposed language on an English language regulatory standard for flight 
attendants becomes mandatory.

Carry-on Baggage Limitations
    AFA-CWA strongly urges legislation which would direct the 
Transportation Security Administration (TSA) and the Federal Aviation 
Administration (FAA) to issue regulations that would set a limit on 
carry-on baggage that may be brought on an airplane. Current guidelines 
for carry-on bags were established more than two decades ago when air 
travel was much different than today. Carriers had to have individual 
programs to control the weight, size and number of carry-on bags. This 
created a maze of varying carrier programs making it difficult and 
confusing for passengers. This individual program philosophy is still 
in force today. Furthermore, the recent actions taken by most airlines 
to charge a fee for checked baggage has resulted in an increase in the 
size and number of items being brought onboard and into the passenger 
cabin.
    AFA-CWA has filed two petitions for rulemaking requesting the FAA 
to enhance their carry-on baggage rule, citing incidents involving 
carry-on bags that range from disruption in the cabin, delays in 
boarding and deplaning, physical and verbal abuses of flight attendants 
and passenger, and injuries and impediments to speedy evacuations. 
Despite these two requests for rulemaking, the FAA has failed to 
establish a specific requirement regarding size and number of carry-on 
bags allowed stating the FAA simply provides guidance to carriers on 
how to establish their programs. According to the FAA, this allows the 
carriers flexibility to create a program that fits their individual 
unique operations.
    The September 11 terrorist attacks underscored the need for a 
comprehensive effort to improve security and further supported the need 
for a tighter limit on carry-on baggage. Reducing the size and number 
of carry-on bags would ultimately enhance security screening by 
reducing the number of bags that need to be screened and reducing the 
volume of the individual bag, both of which would allow for a better, 
clearer, uncomplicated e-ray image.
    The concept of limiting the size, type and amount of carry-on 
baggage is nothing new and was recommended by an FAA Aviation Security 
Advisory Committee in 1996. International countries and bodies, such as 
the European Union (EU) which represents 25 member states, also 
recognize the security enhancements relative to limiting the number and 
size and have adopted a new rule effective April 2007 that would limit 
passengers to one carry-on item with a size limit of 56 cm by 45 cm by 
25 cm (22 in by 17.75 in by 9.85 in approx).
    FAA and Transportation Security Administration (TSA) recognizing 
the necessity to limit carry-on baggage both issued guidance to 
carriers that limited passengers to one carry-on bag and one personal 
bag (such as a purse or briefcase). These restrictions are loosely 
enforced and neither agency is very explicit in their information to 
the public regarding the limit. In fact, the TSA website no longer even 
mentions the limit of one carry-on and one personal bag.
    AFA-CWA will continue to fight for clear and concise limits on the 
number and size of carry-on bags to ensure continued enhancement of 
security and safety for the traveling public.

Human Intervention Management Study (HIMS)
    Flight attendants and pilots work under nearly identical and strict 
regulations of the DOT and FAA regarding drug and alcohol abuse. Both 
groups are subjected to drug and alcohol testing on a random basis; 
following a serious aircraft accident or incident; or based on 
suspicion of co-workers and supervisors.
    However, there is one major difference: Pilots who test positive 
for prohibited substances have access to a rehabilitation and recovery 
process called Human Intervention Management Study (HIMS) and, if a 
pilot complies with the recovery program, he/she may return to flying. 
On the other hand, flight attendants who test positive are terminated 
quickly and have little to no access to treatment making recovery 
improbable. It is time for the FAA to institute a HIMS program for the 
Nation's flight attendants.
    HIMS was formed and funded in 1992 by Congress, is administered by 
the FAA, and provides a comprehensive education and training program 
for alcohol and drug abuse prevention in the airline industry. Congress 
has appropriated approximately $500,000 to fund HIMS.
    The success of HIMS for pilots is well-documented and provides a 
glimpse at the potential assistance this worthy program can provide for 
flight attendants. Over 3,500 pilots have been returned to the flight 
deck through their own efforts with the support of the HIMS program. 
Importantly, over 57,000 pilots and their families at 47 carriers have 
received preventative educational services from the HIMS program.
    Flight attendants earn their wings by first passing a company 
training program which includes mandatory FAA training requirements. 
The FAA orders that flight attendants pass proficiency tests during 
training. Training records and test results are a part of a flight 
attendants permanent personnel file and can be accessed at any time by 
management and by the FAA in post-serious aircraft incident and/or 
accident investigations. Following successful completion of the initial 
training course, the FAA issues a certificate to the flight attendant 
who must attend on-going training courses and pass proficiency tests to 
remain certified each year throughout her/his career. Flight attendants 
are also subject to unannounced inspections by FAA Cabin Safety 
Inspectors and are subject to FAA enforcement action for non-compliance 
with FAA regulations.
    This FAA oversight of flight attendants is nearly identical to the 
way in which the FAA governs and enforces Federal regulations 
concerning other aviation professionals such as pilots and mechanics. 
Therefore, an effective HIMS program will provide parity for flight 
attendants and their aviation industry colleagues.
    According to Employee Assistance Program (EAP) experts, flight 
attendants are at greater risk for developing addiction diseases 
because they may be exposed to multiple traumatic and near-traumatic 
incidents while on the job. As the first responders in cabin safety and 
security incidents, flight attendants, like other emergency response 
professionals who experience traumatic incidents, can become vulnerable 
to substance abuse.
    Company-sponsored employee assistance programs are valuable, but 
limited, in their scope. They offer intervention with troubled 
employees by training supervisors to refer workers with observable 
performance problems for help. Unfortunately, these programs have a 
narrow capacity to identify ``at risk'' flight attendants simply 
because the vast majority of the time, a flight attendant is 
unsupervised, working in a distant environment at 30,000 feet.
    HIMS can provide a safe harbor for flight attendants, as it does 
for pilots, who want to report fellow crewmembers they suspect of 
having an abuse problem. In a largely unsupervised work environment, 
fellow flight attendants are often the first to suspect and/or 
recognize substance abuse patterns of a co-worker. But currently, the 
practice of alerting management to a flight attendant that may be 
struggling with an addiction is the fast track to her/his unemployment 
with no health benefits to count on for help.
    HIMS can prevent a wasteful human toll and can produce cost 
efficiencies at airlines that effectively promote and utilize the HIMS 
model. A HIMS model for flight attendants could save substantial 
training costs for carriers that currently have to hire new flight 
attendants to fill vacancies that result when management fires flight 
attendants for a first positive drug or alcohol test. Each time a 
flight attendant is terminated, the costs of training that flight 
attendant are a wasted investment.
    Because HIMS promotes peer identification and intervention, it 
increases the chance that a flight attendant will get treatment early 
and avoid mounting medical bills that often result from a sustained 
substance abuse. Also, absenteeism and on-the-job injuries, costly 
bottom lines for management, may also improve with an effective HIMS 
program. Countless union and management dollars could be saved as a 
result of HIMS. Airline expenses for grievances, system board and 
arbitration for substance abuse cases are substantial. With management 
and union endorsement, HIMS can reduce costly legal bills associated 
with substance abuse termination and/or discipline cases.
    It's well past time to institute HIMS programs for flight 
attendants. It's time to give all flight attendants a chance at 
rehabilitation and recovery and a return to their careers. Too many of 
our colleagues have suffered in silence, afraid to speak up about their 
addiction struggles and management's draconian termination policies 
silence those who want to extend a helping hand. The warning signs 
often come too late to save careers. Expanding the HIMS program for 
flight attendants can usher in a cooperative environment that will work 
to ensure safety in the air and hope and recovery for those of our 
colleagues in need.

Development of a Method for Assessing Evacuation Capability of Aircraft 
        under Actual Emergency Conditions
    AFA-CWA urges Congress to have the National Academy of Sciences 
study the issues related to emergency evacuation certification of 
passenger transport aircraft and begin the process of developing a 
method for assessing evacuation capability of aircraft under real 
emergency conditions.
    Design standards are used in the design phase of a project, and can 
be verified while the product, in this case, an airplane, ``is still on 
the drawing board.'' i.e., before the airplane is built. Performance 
standards evaluate the performance of the product, often under the 
influence of factors that cannot be effectively integrated or evaluated 
during the design. Typically, a performance standard involves a test of 
the product after it is built. In the case of a full-scale evacuation 
demonstration (a performance standard) of an airplane, the factors that 
must be evaluated are the performance of the passengers and crew.
    The FAA made a change in policy that would allow new airplane 
designs or any increase in an existing design's capacity to be approved 
using analysis of data from past tests, rather than conducting a full-
scale test of the model requiring certification. But there is currently 
no analytical method that is capable of predicting failure of the crew 
and passengers to meet the performance standard after the design 
standard has been met. There have been such failures in the past. Since 
there are no analytical methods that can properly substitute for the 
full-scale demonstration, the FAA cannot enforce their policy.
    The requirement for full-scale emergency evacuation demonstrations 
was introduced by FAA NPRM 63-42 (28 FR 11507, October 23, 1963). This 
notice justified this proposal by stating: ``Recently, the Agency 
observed several simulated passenger emergency evacuation 
demonstrations which were conducted by various air carriers using 
different types of airplanes. The time required to accomplish each of 
these demonstrations varied from 131 to 213 seconds using 178 to 189 
persons. In all instances, it was evident that a more realistic 
assignment of functions within the cabin would have resulted in lesser 
time to evacuate the airplane satisfactorily. From these 
demonstrations, it has been concluded that a physical demonstration of 
an air carrier's ability to execute its established emergency 
evacuation procedures within a specific time period is necessary in the 
interest of safety and to insure a more realistic assignment of 
functions which, in turn, will result in satisfactory accomplishment of 
emergency evacuation procedures.''
    Clearly, the original intent of the evacuation demonstration was to 
show the satisfactory accomplishment of emergency evacuation 
procedures. The final rule reinforced this intent (30 FR 3200, March 9, 
1965).
    The following year, FAA Notice 66-26 (31 FR 10275, July 29, 1966) 
proposed to establish comparable requirements for the airplane 
manufacturers. This notice stated that ``. . . traditionally, it has 
been considered sufficient to provide the necessary components for 
emergency evacuation through detailed quantitative requirements 
prescribed in the airworthiness rules. However, experience has shown 
that compliance with these requirements does not ensure that the 
airplane can be evacuated, during an emergency, within an acceptable 
time interval. Differences in the relationships between elements of the 
emergency evacuation system introduce a considerable variation in 
evacuation time, and this variation is expected to be even more marked 
on larger transport aircraft under development.'' Thus it was 
acknowledged that relationships between the various elements of the 
evacuation system, not just the elements themselves, had a critical 
influence on evacuation time. In other words, the whole was 
considerably more complicated than the sum of its parts. Since the 
manufacturer would be demonstrating the basic capability of a new 
airplane type without regard to crewmember training, operating 
procedures and similar items (such demonstration of procedures was 
still required under Part 121, the operational requirements), this new 
demonstration was not expected to validate the evacuation procedures of 
the air carriers or operators. FAA Notice 66-26 also proposed that once 
a manufacturer had successfully conducted an evacuation demonstration 
for a particular airplane type, the passenger seating capacity could be 
increased by no more than 5 percent if the manufacturer could 
substantiate, by analysis, that all the passengers could be evacuated 
within the prescribed time limit. This appears to be the first proposal 
to suggest the use of ``analysis'' in lieu of full-scale evacuation 
testing. However, this analysis was intended to provide comparison with 
the full-scale evacuation actually conducted on the airplane. These 
proposals were adopted as a final rule (32 FR 13255, September 20, 
1967).
    The tests conducted by operators to show satisfactory 
accomplishment of emergency evacuation procedures and by manufacturers 
to show that the aircraft interior configuration and the relationship 
between the elements of its emergency evacuation system could be 
evacuated within a specified time period were allowed to be satisfied 
under a single test under Amendment 25-46 (43 FR 50578, October 30, 
1978). Under this amendment, the FAA also stated that ``A combination 
of analysis and tests may be used to show that the airplane is capable 
of being evacuated within 90 seconds under the conditions specified in 
25.803(c) of this section if the Administrator finds that the 
combination of analysis and tests will provide data with respect to the 
emergency evacuation capability of the aircraft equivalent to that 
which would be obtained by actual demonstration.'' The FAA recognized 
the problems with this new provision and in its discussion of it 
concluded that: ``Several commentators objected to the proposed 
amendment to 25.803(d) which would allow analysis in showing that the 
airplane is capable of being evacuated within 90 seconds. One 
commentator stated that analysis alone is an incomplete means of 
showing compliance and should not be allowed. Another commentator 
stated that extrapolations based on analytical testing have no 
practical relation to actual conditions which occur in accidents and 
evacuation demonstrations. The FAA agrees that the limitations on the 
use of analytical procedures should be made clear. The requirement that 
the Administrator find the analysis data acceptable was intended to 
preclude approvals which might be based on insufficient test data, such 
as in the case of a completely new model or a model which has major 
changes or a considerably larger passenger capacity than a previously 
approved model'' (Italics ours.)
    This intent was reinforced by the FAA Administrator in a 1986 
Regulatory Interpretation and FAA Advisory Circular (AC) 25.803.1, 
Emergency Evacuation Demonstrations, issued November 13, 1989.
    In 1985 testimony before the U.S. House of Representatives 
Subcommittee on Investigations and Oversight of this Committee 
(formerly named Public Works and Transportation Committee) and its 
Chairman, James Oberstar, the FAA Administrator suggested that a 
reassessment of regulations pertaining to emergency evacuation of 
transport airplanes was warranted. Consequently, an Emergency 
Evacuation Task Force, open to the public, for that purpose was 
established in September, 1985. The continued use of full-scale 
emergency evacuation demonstrations was one of the matters considered 
by that task force. One of the presentations, by Boeing, suggested that 
a rudimentary analytical procedure be used in lieu of full-scale 
demonstrations. Basically, the manufacturers favored analysis, while 
the representatives of people who flew on the airplanes, either as 
crewmembers or passengers, opposed analysis. The task force was unable 
to reach consensus on when to accept analysis in lieu of a 
demonstration. A similar process was undertaken by an advisory 
committee to the FAA in the 1990s with the same failure to reach 
consensus.
    The procedures used by the flight attendants in a full-scale 
emergency evacuation certification demonstration are intended to become 
the baseline procedures for the aircraft type and model tested. This 
was the reason for the promulgation of the 1965 rule requiring 
operators to conduct full-scale emergency evacuation demonstrations. 
These procedures are found in the Flight Standardization Board Report 
for each type and model of aircraft. Yet some demonstrations conducted 
since 1996 have utilized a procedure that makes it easier for the 
manufacturer to pass the test, but it is not a procedure that is used 
by U.S. scheduled operators. The intent of the regulation requiring 
full-scale evacuation demonstrations is not being carried out by the 
FAA.
    The analytical method does little more than calculate that, if the 
design standards are met, the aircraft could be evacuated within the 
requirements of the performance standard. Since the design requirements 
were intended to provide an airplane capable of being evacuated within 
the requirements of the performance standard, use of the analytical 
method is redundant.
    Analysis is not a method that can predict failure of an emergency 
evacuation system, unlike a full-scale demonstration utilizing 
appropriate evacuation procedures.
    The result of the FAA's policy and of the currently inadequate 
``state-of-the-art'' analytical methods accepted under the policy, is 
that the first full-scale evacuation of a new airplane will be 
performed by the traveling public under emergency conditions rather 
than by paid test subjects under the controlled test conditions of a 
demonstration. There is no assurance that the evacuation would be 
successful. For this reason, the FAA should be required to rescind its 
policy of allowing the use of analysis in lieu of the full-scale 
demonstration until a scientifically valid method is developed.
    The time is past due for development of a method for assessing the 
evacuation capability of aircraft under real emergency conditions. An 
independent blue ribbon panel needs to be established within the 
National Academy of Sciences (NAS) to examine these problems in depth 
and design a study to develop such a method, if not develop the method 
itself.

Foreign Control of U.S. Airlines
    Recent years have seen an effort in the airline industry to move 
toward greater globalization. We remain concerned that these efforts 
will lead to greater foreign control of U.S. airlines, something that 
Congress has historically opposed on a strong bipartisan basis. We are 
pleased to see that the Committee has included language to address 
these concerns in the legislation passed last year by the House of 
Representatives. AFA believes that Congress should require that oral 
evidentiary hearings are held by DOT when an application for a 
certificate of public convenience and necessity is submitted by or on 
behalf of an applicant with any direct or indirect foreign carrier 
investment. Oral evidentiary hearings should also be required at DOT 
when a continuing fitness review of a carrier's certificate is held if 
that carrier has any direct or indirect foreign carrier investment in 
order to ensure that all issues are fully addressed, that Congressional 
intent in this area is carried out and the public interest is 
protected.
    As you can tell from our testimony, AFA-CWA believes that there are 
a number of areas where improvements could be made by the FAA to 
improve aviation safety. We look forward to continuing our working 
relationship with this Committee and the Chairman to make progress on 
these important issues. Thank you again for the opportunity to testify 
today.

    Senator Lautenberg. Thank you for your timely finish. 
Everybody is pressured with the last-minute things.
    And Mr. McGlashen, I would just ask you one question. How 
glad are you and your colleagues in the Union that I and the 
Senate authored the no smoking law in airplanes?
    Mr. McGlashen. Yes, Senator. It was long overdue and your 
leadership, I think, has--I mean, you followed up with 
international rules, as well, and we can't be thankful enough.
    Senator Lautenberg. Thank you. I did it for my own 
convenience. I can't stand being in an airplane with all that 
smoke.
    [Laughter.]
    Senator Lautenberg. But thank goodness we took a wise step 
there.
    Mr. Forrey, we heard a lot of conversation about what it is 
that's causing all these delays and so forth and the one 
response that I got to the question I asked was that the Air 
Traffic Control System.
    Now, there were a lot of retirements in the past, but very 
few in number compared to what we face. What will the impact be 
of the retirements of veterans, veteran controllers on safety 
of our aviation system, the training of the next generation of 
the traffic controllers? What actions does the FAA have to take 
now to keep our controllers, our control towers fully staffed 
and our skies safe well into the future?
    Mr. Forrey. Well, that's a good question and probably takes 
a long time to answer and I'll try to do it as succinctly as I 
can.
    Senator Lautenberg. Please do.
    Mr. Forrey. First of all, we need to maintain the levels of 
controllers we have now. We can't afford to lose any more 
experienced controllers in the system.
    There was just a study done by the FAA of the Newark TRACON 
which oversees the air space around Newark, Kennedy, LaGuardia, 
Teterboro, and they said if the continuation of the attrition 
continues on, and they have not certified a single new 
controller in the last two and a half years at that facility, 
that they will be unsustainable and they will not be able to 
handle traffic in that area.
    So this is getting compounded even worse. We need to find a 
quick solution to a contract, to find a way to keep those 
experienced controllers from retiring not only in New York but 
throughout the system. We need to bring in those new trainees 
and we need to train them properly and not cut corners like the 
agency is doing now where they've basically given themselves 
waivers to shorten the training process and put people into 
circulation quicker than they probably should be, and we've 
seen the result of that in Buffalo, unfortunately.
    This is the kind of thing that Congress and the Senate, 
through this FAA Reauthorization Bill, needs to jump on 
immediately to get this bill passed, so that it will shut down 
the agency's, you know, their continuation of moving down the 
Bush policies of consolidating and co-locating, splitting, 
certifying as quickly as they can to cover up the mess they've 
made of this Air Space system, and I think until they do that, 
until this bill gets passed and until we get a new 
administrator in place, that's not going to happen.
    So anything that this Senate can do, this committee can do, 
obviously, and this Congress can do with the Administration to 
get this bill moving and passed so that we can stop this 
outtake of controllers and keep them in the system and train 
them right, the proper way, I think we're looking for a real 
dismal future. Forget about NextGen. You can--NowGen is going 
to be a dismal failure.
    Senator Lautenberg. Are you aware of, for instance, the 
population in the Newark Tower, the controllers? We're not full 
strength now. We haven't had experienced controllers. We're off 
considerably from what we're supposed to have. I don't have the 
exact number, but it's at least 20 percent way down from where 
it should be.
    Newark, you know, is one of the most delayed airports or if 
not the most delayed airport in the country and we don't have 
enough people there now to do what we have to.
    Mr. Forrey. Agreed, sir, and, quite frankly, I get upset 
when I continue to hear people like Mr. May, who I respect 
greatly, state that the problems with the delays in New York 
are because of the Air Traffic Control System.
    It's not completely the truth. The Air Traffic Control 
System in New York, actually the New York TRACON, is the most 
efficiently run TRACON in the country with those three airports 
because of the finals that they run at those places. They're 
the tightest in the country and the FAA's own data indicates 
that for the last year and a half--two years.
    They continue to throw shots at the system which is there 
are problems in the system because of the staffing and it's 
only going to get worse, but they also have to look at 
themselves, as well.
    You can't land 50 airplanes when the runways only handle 40 
and you can't depart 60 airplanes when the runways will only 
allow 45 in an hour and that's what they continue to do and I 
don't care if it's sunny out or if there's, you know, a 
thunderstorm or a tornado flying through the area. That's just 
the physics. Unless they change the physics of the airport and 
procedures, then it's not going to change.
    Senator Lautenberg. Captain Prater, do you agree with Mr. 
Forrey's assessment here?
    Captain Prater: I'd be glad to tag on to Pat's statement 
because I've been flying out of Newark, based out of Newark 
since 1989. So I've had more than my share of delays on the 
ramp there.
    Some of the problem is lack of concrete. We don't have 
enough runways in the Northeast. So it's not just air space. So 
we have to move the most people that we can.
    Let's take a look at the airline industry itself and far be 
it for me to criticize the industry, but when you block up, 
intentionally block up an airport to prevent other people from 
coming in, when you intentionally put smaller airplanes into 
the system so that you can have more frequency and say that's 
what the marketplace wants, you're going to clog up the air 
space.
    We could use larger airplanes and serve more people without 
quite as many delays, but that is up to each and every airline 
and the airlines certainly try to use their hub fortress 
mentality to protect from competition.
    Senator Lautenberg. I won't get into that. Your viewpoint 
is respected, but we do have runway lengthening in place to be 
accomplished in Newark at a fairly early date, and all I have 
is about 40 more questions.
    I think this is an uprising against the Chairman. We thank 
Senator Dorgan. We did get everybody's statement in and I told 
them it would be in the record, that they weren't just talking 
to an empty hall, and I thank them for the cooperation and know 
that the record will be kept open and we can submit questions 
that we have.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    I did just vote on the vote that just started and so 
they'll be--most of them will be waiting for you to arrive in 
the Chamber.
    Senator Lautenberg. OK.
    Senator Dorgan. I told them you'll be on your way and we 
will have another vote in 10 minutes. So we're going to 
necessarily not be able to ask a lot of questions. I know some 
of you have traveled some distance to be here and the fact is I 
described the breadth of this issue and many of you represent a 
portion of that, it's a very important portion, as we discuss 
how to put a reauthorization bill together, how to do 
modernization, how to fix what we need to fix.
    Senator Lautenberg. Mr. Chairman, may I raise one thing----
    Senator Dorgan. Yes.
    Senator Lautenberg.--that came up, a subject of interest, 
and that is cell phones in airplanes, and with that I leave 
you.
    Senator Dorgan. All right. There's a trap door somewhere 
there, I'm sure.
    [Laughter.]
    Senator Lautenberg. Well, see you.
    Senator Dorgan. I thank Senator Lautenberg for his courtesy 
of hearing your testimony while I had to go vote.
    Let me just, as we conclude, because again we have another 
vote that will begin right after this one.
    Captain Prater, you responded to what I had said earlier. 
We're going to do a safety hearing and we're going to begin 
digging into some of these issues, and again, I don't ever, in 
a hearing want to suggest to the American people that when they 
get on an airplane they are in any way unsafe because they're 
flying on bad equipment or they're flying with a crew that's 
ill-prepared or ill-trained or that sort of thing and that's 
the last thing that I want to do.
    On the other hand, there are occasions when I wonder 
whether there are certain kinds of flights in which there is 
substantially less experience in the cockpit, some folks in the 
cockpit that earn very little money.
    In the case that I read about today, someone in the cockpit 
that flew all night across the country in order to get there to 
make a flight that co-pilot then had to serve on. It just seems 
to me that there's something missing here, you know, that does 
in fact cause someone like me to say there's a safety issue, a 
training issue. There's something here that needs desperately 
to be resolved.
    Would you respond to that?
    Captain Prater. Yes. I'd be glad to. While I certainly do 
not want to go into any of the current details because we are a 
party to the investigation, those pilots of Colgan Air flying 
as Continental Connection 3407 from Newark to Buffalo were my 
members for all of 3 weeks. They had just voted to organize 
after several years of trying to organize.
    We also lost another pilot in the back of the airplane who 
I had just appointed 2 days before to be on the Safety 
Committee of Colgan Airlines.
    What we need to do is look at the best practices in our 
industry and some of the worst practices in our industry and 
we're willing to do that, to pull back the layers of that 
onion, to pull back the blankets. Let's take a look at how we 
can do it better.
    We cannot afford to lose one airplane, one passenger, one 
pilot without looking at how we can do it better and we're 
certainly committed to do that investigation.
    We do have serious concerns that you've alluded to. I've 
used the analogy that if you're a first officer, a co-pilot on 
an ATC airplane and you fly from here, from Washington, D.C., 
to New York, you'll be roughly on duty about an hour and you'll 
carry maybe 80 passengers in that turboprop airplane and if, at 
the end of that flight of about 45 minutes, if each passenger 
got off the airplane and handed the first officer a quarter, 
two bits in my dad's generation, you would double the salary of 
that co-pilot.
    That's the conditions that we're living in today. The toll 
that the bankruptcies of this industry have taken, the fact 
that judges have thrown out contract after contract, they threw 
out more than just wages and retirements, they threw out 
working conditions and they threw out some of the safety net 
that we have to put back in.
    The one thing we do need to get rid of in this industry is 
the statement, well, it's legal, the FAA says it's legal, 
therefore it must be safe.
    Let me give you just two examples of legal. I'll let you 
determine safe.
    As a 777 captain, I can take off from Newark at noon today, 
fly to Hong Kong and at 4:30 Newark time tomorrow morning I'll 
land you in Hong Kong, along with three other pilots, so there 
will be four of us on that 16+ hour flight. According to the 
FAA, I don't need any rest. I can turn around with those same 
three other pilots after an hour and fly another load of 
passengers back another 16 and a half or 17 hours, landing in 
Newark without any intervening break.
    I can take in that ATC turboprop and go to work at noon and 
fly for 8 hours, maybe fly 6 legs, wind up in a place like 
Buffalo or Manchester, and take off 4 or 5 hours while the 
company says just stay at the airport, sleep in the airplane, 
find yourself a chair and then I can fly you back the next 
morning because I'm still within my 16-hour duty day.
    Of course, it's legal by the current FARs. It's not safe 
and we need to change it.
    Thank you.
    Senator Dorgan. Captain Prater, just for the record, we 
should probably point out that I didn't forewarn you of that 
question because you seem so prepared for it.
    [Laughter.]
    Senator Dorgan. It is a very significant issue, as are all 
of the issues that you have raised, and as we try to put a 
piece of legislation together, we want to balance all of these 
interests in a way that provides for safety and provides for 
modernization, you know, moves our system ahead. All of that's 
very important.
    Again, let me say to you, I regret we have not had more 
time to question this panel, but you will have 2 weeks within 
which to submit additional material to us from the perspective 
of all of your constituencies and it will when you do that 
benefit us as we try to gather up all the information possible 
within which to write a bill.
    I do want to say that we, as Senator Rockefeller, myself, 
Senator Hutchison and Senator DeMint and others, we want to try 
to put a bill together in a reasonably short period of time, 
move it out of the Commerce Committee the next couple of months 
and then get into a conference.
    The House has already passed its--the Committee of the 
House has already passed its legislation. My hope is that we 
can get to conference. You know, we've been moving around a 
long time on this issue and we have not got it done and 
meanwhile we're not just wasting time, we're falling behind. 
All kinds of issues are laying there without being addressed or 
resolved and so I'm determined to try to see if we can fix that 
and change that.
    So let me thank the second panel for being with us.
    This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    I want to thank Chairman Rockefeller, Senator Dorgan and the 
Committee for their commitment to crafting and implementing an FAA 
Reauthorization bill this Congress. This critical piece of legislation 
will modernize our air traffic control system and make air travel safer 
and more efficient.
    In the wake of the recent air tragedy in Buffalo, the FAA is an 
agency that needs our attention and resources now more than ever.
    I want to mention a few of my priorities for this legislation.
    Clearly, the number one priority for the FAA must be safety. The 
initial National Transportation Safety Board (NTSB) hearings into the 
Buffalo crash raised serious concerns over FAA's oversight of the 
aviation industry. It is the FAA's responsibility to promote a culture 
that demands greater oversight and accountability and it must do more 
to ensure the safety and confidence of the flying public.
    I am very concerned with the FAA's failure to implement critical 
NTSB recommendations designed to address some of the most pressing 
aviation safety deficiencies.
    I recently joined Senator Snowe in a letter to the Department of 
Transportation urging the Agency to take immediate action to address 
unmet safety recommendations and issues. FAA must do more to enact 
preventative safety measures prior to a crash and not only in response 
to a tragedy. I will continue to work with Senator Snowe and my 
colleagues to press FAA on these safety issues to better protect the 
flying public.
    Consumers also need to be reassured when they board an aircraft 
that they will not be held captive unnecessarily without access to 
basic necessities. While this may seem like a simple concept, for many 
Americans, being trapped on a tarmac in a severely delayed aircraft is 
a horrible reality.
    That is why I introduced S. 213, the Airline Passenger Bill of 
Rights, to ensure passengers can no longer be trapped on airplanes for 
excessive periods of time without adequate food, water, working 
restrooms, properly ventilated cabins, and medical treatment while a 
plane is delayed.
    My legislation requires air carriers and airports to develop 
emergency contingency plans to be approved by the Department of 
Transportation. It requires air carriers to offer passengers the option 
of safely deplaning every 3 hours that the plane continues to sit on 
the tarmac. The bill also provides a safety exemption if the pilot 
deems conditions for deplaning to be unsafe or if the flight will 
depart within the next 30 minutes.
    Last year, the 2nd U.S. Circuit Court of Appeals struck down New 
York's Passenger Bill of Rights law because the court found that 
protections for airline passengers must be enacted at the Federal 
level.
    We have relied on the airline industry before to regulate itself on 
this issue and it has failed. Efforts are underway in both Canada and 
the European Union to provide passengers with better protections and 
passengers in America cannot be left behind. We need to enact strong 
Passenger Bill of Rights legislation with a firm time-frame for 
deplanement to ensure that passengers will no longer be trapped on 
airplanes. I look forward to working with the Committee to include the 
strongest version of my bill possible in the FAA Reauthorization Bill.
    Finally, the FAA must work to fix its deteriorated relationship 
with its workforce, primarily with its air traffic controllers. I am 
greatly concerned about morale among our air traffic controllers and by 
a recent DOT IG report highlighting the severe staffing shortages 
expected at California air traffic control facilities. I look forward 
to working with the Committee to address these staffing shortages in 
the FAA Reauthorization Bill.
    The FAA Reauthorization Bill is a critical piece of legislation 
which would make air travel safer, more efficient, and provide greater 
protection for consumer rights. As a member of this Committee, I am 
dedicated to working together with my colleagues to pass and implement 
this legislation quickly.
                                 ______
                                 
            Prepared Statement of Craig Fuller, President, 
                 Aircraft Owners and Pilots Association

Statement Highlights
    1. The Nation's Aviation system needs modernization on an expedited 
basis and there are actions that should be taken immediately to foster 
implementation.
    2. The Nation's Air Traffic Controllers are crucial to aviation 
safety and modernization efforts, and need a fair agreement in place as 
soon as possible.
    3. A four-year FAA Reauthorization is needed to insure efficient 
and effective investment in air traffic control modernization and the 
fulfillment of FAA's mission.
    4. Continued support of the FAA through general fund contributions 
is fully consistent with national policy and is critical to achieving 
air transportation system priorities. It is also in line with the 
commitment to fund other modes of transportation with general fund 
monies.
    5. Funding approaches, such as those suggested for FY 2011 in the 
Administration's budget request involving user fees leading to 
commercialization of air traffic control create new bureaucracies, 
disincentives to utilize a system dedicated to safety for all who fly, 
prove devastating to general aviation where tried and have historically 
slowed down the process of advancing a critically important aviation 
agenda in Congress.
    6. The Senate's leadership in setting a 4-year agenda for the 
Nation's air transportation system has never been more critical.
    The Aircraft Owners and Pilots Association (AOPA) is a not-for-
profit individual membership organization representing more than 
414,000 members, which is nearly three-quarters of the Nation's pilots. 
AOPA's mission is to effectively represent the interests of its members 
as aircraft owners and pilots concerning the economy, safety, utility, 
and popularity of flight in general aviation (GA) aircraft.
    As pilots flying in the United States, we experience firsthand the 
safest and most efficient air transportation system in the world. This 
aviation network of 5,200 public use airports, complemented by the more 
than 13,000 privately-owned landing facilities is a unique national 
resource. In a poll conducted on election night last November, more 
than 60 percent of American voters said they understood that general 
aviation (all flying other than military or commercial airlines) is a 
vital part of America's transportation system. Each year, 170 million 
passengers fly using personal aviation, the equivalent of one of the 
Nation's major airlines, contributing more than $150 billion to U.S. 
economic output, directly or indirectly, and employing nearly 1.3 
million people whose collective annual earnings exceed $53 billion.

Current Economic Climate
    The general aviation community, like many other parts of the 
aviation industry has been adversely impacted by the economic downturn. 
More than 13,000 jobs have been lost nationally. Sales of aviation 
gasoline, the life blood of light aircraft flying, saw a 19 percent 
decline from February 2008 to February 2009. Flight training has 
slowed, with a 24 percent reduction in student pilot certificates 
issued from March 2008 to March 2009, and there is a six-percent 
reduction in the number of private pilot certificates issued in 2008, 
the lowest since 1984. Another indicator of the downturn is the number 
of airplanes flying through the system. According to the FAA's traffic 
statistics, general aviation flew 13 percent fewer flights at airports 
with operating control towers.
    Just last week, the General Aviation Manufacturers Association 
announced in the first 3 months of 2009, deliveries of general aviation 
airplanes dropped 41.4 percent from the same period last year. The 
piston aircraft segment was down 55.1 percent and business jet 
shipments fell 35.7 percent. The turboprop segment was the only segment 
that increased, up 3.4 percent during the same period in 2008.

Long Term FAA Funding Needed
    A four-year FAA authorization bill and the certainty it provides is 
vital for Federal investments in safety, modernizing the air traffic 
control system, FAA operations, airport improvements and aviation 
research efforts.
    Historically, Congress has used a system of passenger 
transportation and aviation fuel taxes in combination with general fund 
tax revenues to support the FAA and the aviation system. The existing 
financing mechanism has served the Nation well providing a stable and 
reliable aviation system during good and difficult times over the last 
50 years. Aviation fuel taxes collected at the pump and ticket taxes 
collected at the counter, combined with a healthy contribution from the 
general tax fund, remain the best way to pay for the Nation's aviation 
system and avoid an unfair burden on general aviation and costly new 
bureaucracy.
    Just prior to establishing the FAA's Airport and Airway Trust Fund 
in 1969, Congress recognized that a general fund contribution is 
necessary. Nearly 40 years ago, they observed that, ``there are others 
who are indirectly benefited by air transportation because of the non-
aviation employment which air transportation generates.''
    The use of General Fund investment in transportation is consistent 
in other areas of the Federal budget. For example, the waterway system 
receives 75 percent of its funds from general taxpayers. Amtrak 
receives more than 40 percent from the General Fund, and even highways 
received $8 billion from the General Fund this past year.
    The current sharp economic downturn is affecting all sectors of the 
economy, and year-to-date data show that the revenue stream to the 
Aviation Trust Fund is no exception. Although Trust Fund tax receipts 
for FY2008 came in about as projected at roughly $12 billion, Trust 
Fund receipts for FY2009 are forecast to drop to $11.3 billion. The 
revenue stream is likely to begin to improve in 2010 to $11.7 billion. 
Forecasts differ on how long it will take for a complete rebound, so we 
are not in a position to make firm projections. Of course, much will 
depend on the overall economy.
    What are the implications of this? The situation clearly bears 
watching, but the Committee should anticipate a need for a larger 
General Fund contribution to FAA's budget, probably in the neighborhood 
of 25-30 percent in 2009--still well within historical norms. The 
average General Fund contribution to the Aviation Trust Fund since 1982 
has been 32 percent and over the last 8 years has averaged 22 percent. 
In 2008, that contribution was about 20 percent and in 2009, it is 25 
percent. The President's 2010 budget proposes a General Fund 
contribution of approximately 25 percent. We encourage the Committee to 
include a General Fund contribution of no less than 25 percent 
annually.
    Congress has wisely recognized that a Federal aviation network is 
only possible by using tax revenues from various parts of the system 
for financial support. As an illustration of how this is similar to 
other modes, if Federal highways had been built in only those states 
that have contributed since 1956, the Interstate and U.S. highway 
system would exist in only 15 states! Drivers in Wisconsin, New Jersey, 
Tennessee, California, Missouri, Florida, Ohio, Georgia, Michigan, 
South Carolina, North Carolina, Oklahoma, Indiana and Texas have 
``subsidized'' Federal-aid highway construction in 35 other states and 
the District of Columbia.
    AOPA strongly supports the financing approach of using the time-
tested system of passenger transportation and aviation fuel taxes in 
combination with general fund tax revenues to support the FAA and the 
aviation system.
    During the last Congress, AOPA agreed to a 25 percent tax increase 
on aviation gasoline and a 65 percent tax increase on non-commercial 
jet fuel. Even though economic times are worse now than 1 year ago, and 
the United States is going through the worst economic crisis since the 
Great Depression, AOPA members continue to support the agreed-to 
increases in the general aviation fuel taxes which would achieve 
additional revenue to the Aviation Trust Fund for air traffic control 
modernization in lieu of user fees. We encourage the Committee to 
expeditiously approve legislation following that framework.
    We are disappointed that the Administration's FY2010 Budget Revenue 
Proposal assumes that the air traffic control system will be funded 
with direct charges levied on users of the system beginning October 1, 
2011 and that aviation excise taxes will be commensurately reduced.

Looking Ahead on Air Traffic Control Modernization
    Aviation in America is growing in size and diversity in both the 
civilian and military sectors. New technologies have resulted in engine 
and airframe enhancements that have sparked the introduction of several 
new general aviation airplane designs. Meanwhile, the Department of 
Defense has increased their use of unmanned aircraft, resulting in the 
need for the FAA to accommodate their operations without affecting 
current airspace users.
    In late January, the FAA released their ten-year (mid-term) plan 
for NextGen, called the NextGen Implementation Plan (NGIP), outlining 
key projects and activities that the FAA wants to complete by 2018. It 
is encouraging that the FAA plan includes the proliferation of much 
needed precision approaches at thousands of general aviation airports, 
and the FAA intends to improve services at small airports, upgrading 
the level of ATC services to nearly the same quality as those found 
only at large hub airports. However, the ten-year plan also recommends 
policy changes that raise concerns about general aviation's access to 
airports and airspace.
    AOPA supports and is participating in the recent FAA initiative to 
create an industry Task Force to review Next Generation Implementation 
Plan, and identify areas of agreement on priorities. We urge this 
Subcommittee to track the progress made by the task force and we ask 
that you consider monitoring the FAA response, to ensure that the 
recommendations are accepted and addressed. Because the Task Force is 
asked to look at the near-term and mid-term timeframe, quick action 
will be needed by the FAA, industry and Congress to remove any of the 
identified roadblocks and address the critical policy issues.

ATC Modernization
    AOPA believes that the Congress should require the FAA to develop 
plans for the next 5 years that will help implement existing 
modernization efforts and lay the groundwork for others under 
development. It is also necessary for this Subcommittee to maintain a 
high degree of oversight to ensure that the plans continue to proceed.
    AOPA has identified three modernization efforts that can be 
implemented in the next 5-8 years.
    1. Commit to 500 Precision Wide Area Augmentation System (WAAS) 
approaches annually--An exciting example of a new technology that 
efficiently improves safety and enhances access to airports across the 
country is WAAS. Because of WAAS, more than 340 airports are accessible 
with precision approaches for the first time, and 785 runways now 
support all-weather access. In fact, there are now more precision WAAS 
LPV approaches published than the much more expensive Instrument 
Landing System (ILS). However, more WAAS approaches are needed, and if 
the FAA develops 500 WAAS approaches per year, many more communities 
will have improved access to the aviation system.
    2. Modify procedures and policies to improve GPS use for 
navigation--The FAA has greatly enhanced navigation by enabling pilots 
to use the Global Positioning System (GPS) and WAAS. However, pilots 
flying throughout the country continue to be assigned routes and 
clearances that follow the zigzag ground path of the 1960s and 1970s 
ground-based navigation systems such as Very High Frequency Omni Range 
(VOR). This is inefficient, wasting time and increasing fuel 
consumption.
    The FAA now needs to finish transforming today's low-altitude en-
route airspace system so that GPS point-to-point navigation can be 
achieved throughout the entire country. This includes the publication 
of low-altitude airways through congested airspace and a much greater 
use of direct-to navigation. Navigation along the east coast of the 
United States remains largely as it was two decades ago, and the 
voluntary equipage by general aviation could be more fully utilized 
with a comprehensive overhaul of routes flown by our membership. In 
addition, pilots should not be required to rely on VORs or other 
ground-based navigation for departure from general aviation airports. 
The FAA should design new, easy-to-use departures that can be flown 
using a GPS and that offer multiple departure directions. Finalizing 
the transition of our airspace so that it fully supports GPS navigation 
will deliver the added benefits that motivates pilots to continue their 
voluntarily transition to satellite navigation.
    3. Identify and implement incentives that encourage ADS-B adoption 
and equipage--For the longer term, Automatic Dependant Surveillance-
Broadcast (ADS-B) will require extensive investments in ground and air 
borne equipment as the FAA shifts from a ground-based radar system, to 
one relying on GPS and ADS-B transmitters installed in aircraft. 
Unfortunately, ADS-B does not share the same good news equipage story 
associated with GPS navigation. Instead, our members tell us that ADS-B 
incentives are difficult to identify and the investment costs are 
excessive.
    The FAA must define an acceptable approach to move ahead, one that 
addresses the benefits, costs and the schedule for the future. As you 
know from our previous testimony during the economic recovery efforts, 
one near-term way to facilitate this would be for Congress to approve a 
pilot program that provides for reimbursement or tax incentives to 
aircraft owners for ADS-B equipment installations on aircraft involved 
in evaluations and demonstrations. The FAA can also take steps to 
increase general aviation pilot access to the services and information 
enabled with ADS-B. The current FAA plan is to provide ADS-B services 
in the same geographical footprint as today's radar coverage. As you 
are likely aware, thousands of general aviation airports are outside 
radar coverage, and may never benefit from ADS-B unless this strategy 
is changed.

Air Traffic Control Modernization Has Limits; Airport Improvements and 
        Adequate Airport Funding are also Critical to Aviation Growth
    Context is also important when discussing NextGen. Without a doubt, 
incorporating new technology will improve the air traffic control 
system, but it takes time and there is a limit to the amount of 
improvement and capacity enhancements that modernization brings. In 
fact, as I travel to general aviation airports across the Nation, I am 
constantly reminded that airports are as critical to the aviation 
transportation system as on- and off-ramps are to our Federal highway 
system. Federal airport funding should be no less than $3.8 billion.
    Repeatedly, I find communities enthusiastic about airport 
expansions that produce immediate jobs as well as renewed opportunities 
in the community for economic growth. My staff reviews news headlines 
across the country and the economic recovery funding is making a 
difference at general aviation airports, and is proving that Congress 
understands the value of local airports. It is important to note that 
all of the new technology and capabilities will be underutilized unless 
pilots have a place to take off and land. America's airports foster air 
transportation and a discussion about modernization cannot be complete 
without an integrated plan for airport improvements. General aviation 
facilities are an important part of the U.S. infrastructure and should 
not be left out of any infrastructure initiative.

Registration Fees Impact General Aviation
    The House FAA Reauthorization Bill, H.R. 915, includes significant 
increases in various FAA fees for aircraft and airman registration. 
Many of these fees have not been increased since 1963. Based on an 
analysis conducted by AOPA in 2007, many of these adjusted fees would 
be similar, or in the range of those imposed on automobiles and boats. 
However, many members objected to establishing a new $42 fee for 
issuing an airman's medical certificate. Unique to aviation, the FAA 
requires each Aviation Medical Examiner to not only evaluate an 
airman's medical condition, but also to process and transmit the 
completed medical application and approval package to the FAA, and the 
medical examiner currently recovers the costs associated with this 
service. Therefore, AOPA questions the extent to which the FAA incurs 
any additional expenses to simply file airman medicals, and therefore, 
we do not believe an FAA medical issuance fee is warranted.

Aviation and the Environment
    It is important that the Department of Transportation and the FAA 
be involved in environmental issues that affect aviation. AOPA urges 
the Committee to ensure that the FAA is prepared to address proposed 
policies, regulations and standards that target aviation gasoline, 
greenhouse gas emissions, and aircraft noise. It is also important that 
the FAA continue supporting efforts by the aviation industry to 
identify an unleaded replacement for aviation gasoline.

FAA Administrator Will Play Vital Role in Aviation's Future
    This Committee is well aware how important strong leadership is for 
the FAA. The FAA must respond to the challenges being faced by the 
aviation industry and ensures that the air transportation system 
continues its role in the economic revitalization of the country. AOPA 
believes that the next Administrator must make unifying the aviation 
community a priority.

Conclusion
    On behalf of the members of AOPA, thank you for your leadership in 
examining the need for action on the FAA Authorization legislation. We 
urge you to move expeditiously in approving a four-year bill that 
provides support for Federal investments in safety, modernizing the air 
traffic control system, FAA operations, airport improvements and 
aviation research efforts. We endorse the financing mechanism of using 
the time-tested system of passenger transportation and the agreed to 
increases in general aviation fuel taxes in combination with General 
Fund tax revenues to support the FAA and the aviation system.
                                 ______
                                 
   Prepared Statement of the Airport Minority Advisory Council (AMAC)

    Mr, Chairman, Mr. Ranking Member, and Members of the Subcommittee 
on Aviation Operations, Safety, and Security, my name is Don O'Bannon 
and I am proud to serve as the Chair of the Airport Minority Advisory 
Council (AMAC). AMAC is the only national, non-profit organization 
dedicated to increasing participation of minority- and women-owned 
businesses in airport contracting and concessions and to increasing 
minority and women employees in the airport industry. Combined with its 
affiliate, the AMAC Educational Scholarship Program, AMAC represents 
thousands of individuals involved in the airport industry, ranging from 
minority and women business owners to corporations.
    On behalf of AMAC, I am submitting this statement for the record 
regarding the Department of Transportation's Airport Disadvantaged 
Business Enterprise (DBE) program. As you are aware, the airport DBE 
program is administered by the Federal Aviation Administration (FAA) 
and the Department of Transportation (DOT). As further discussed in 
this statement, the airport DBE program is critically important in 
ensuring that there is a ``level playing field'' for small minority and 
women-owned businesses with respect to airport contracting I sincerely 
thank you for this opportunity and for your consideration of AMAC's 
views.

I. Introduction
    AMAC is devoted to the full inclusion and participation of minority 
and women in airport management and the participation of DBE firms in 
contracting in airports and airport-related industries. In particular, 
AMAC is a strong advocate for Federal policies like the airport DBE 
program that redress past and ongoing discrimination in the airport 
industry. In addition, AMAC also seeks to raise awareness regarding the 
significant economic benefits that DBE firms contribute to airports, to 
the traveling public, and to the communities in which they do business. 
For example, I work at the Dallas/Fort Worth International Airport 
(DFW). DFW is committed to ensuring that local DBE firms have an equal 
opportunity to compete for contracts awarded by the DFW Airport 
Authority. Some of the prime concessionaires for DFW's new D terminal 
began as minority joint venture partners under the DBE program; these 
firms have subsequently been awarded several concession packages as 
prime contractors. Given the opportunity to compete because of the 
airport DBE program, these businesses flourished as a result of their 
owners' hard work and business prowess.
    The importance of DBE efforts like the DFW program cannot be 
overstated. As this Subcommittee is aware, racial and gender 
discrimination against minority and women business owners continues to 
be an ongoing and a critical problem throughout the United States. I 
have routinely seen minority and women business owners experience 
discrimination in all aspects of airport contracting and concessions--
in areas such as contract formation, bonding, insurance, credit, the 
purchase of supplies, and interactions with their business peers.
    As a consequence, AMAC believes that there is a continuing need for 
a robust airport DBE program and to this end, my statement respectfully 
highlights certain governmental policies that AMAC believes should be 
adopted as part of the FAA Reauthorization.

II. The Airport Disadvantaged Business Enterprise Program
    As this Subcommittee is aware, the airport DBE program is codified 
as part of the Airport Improvement Program (AIP). Specifically the 
airport DBE program consists of two sub-components--one pertaining to 
airport contracting (e.g., construction or professional services 
contracts), codified in Part 26 of Title 49 of the Code of Federal 
Regulations (CFR) and referred to as the DBE program, and one 
pertaining to airport concessions, codified in Part 23 of Title 49 of 
the CFR and referred to as the Airport Concessions DBE program (ACDBE). 
Again, both components are designed to remedy past and ongoing 
discrimination based on the race or gender of the business owner.
    As part of the airport DBE program, Congress has established a 10 
percent aspirational participation goal for DBEs with respect to 
federally-assisted airport contracting and for concessions (i.e., the 
goal is not a quota or a set aside). All primary airports, however, 
must develop and execute an FAA-approved DBE program in good faith and 
with overall contracting and concession participation goals based on 
the levels of participation that would be expected in the absence of 
discrimination. In order to be certified as a DBE and participate in 
the program, a firm and its minority and women owners must meet 
requirements related to: (1) ownership and control; (2) personal net 
worth; and (3) firm size.
    Except for certain Department of Transportation (DOT) rules that 
uniquely apply to airport concessions, the airport DBE program 
regulations are the same as those that govern other Federal surface 
transportation programs. DOT and FAA jointly implement the programs.\1\ 
Importantly, the program and its implementing regulations have been 
found by the courts to meet constitutional requirements for a ``race-
conscious'' program. The facial constitutionality of the program has 
been upheld by every Federal circuit court that has considered it.
---------------------------------------------------------------------------
    \1\ DOT has primary responsibility for developing rules and 
guidelines for the national DBE program and for considering 
certification appeals. The FAA Office of Civil Rights has primary 
oversight responsibility for the program and for airport compliance.
---------------------------------------------------------------------------
III. Economic Benefits of Airport DBE Program
    The minority- and women-owned firms that participate in the airport 
DBE programs provide substantial economic benefits to the airports and 
to the surrounding communities in which they operate. These firms 
provide a variety of important products and services to the travelers 
and businesses that rely on airports. Moreover, the airport DBE 
programs are a significant source of entrepreneurship, employment, and 
economic growth.
    The University of North Texas recently conducted a study of the 
economic impact of DBE concessions businesses at the airport where I 
work, the Dallas/Ft. Worth International Airport.\2\ Between September 
2006 and August 2008, the study found firms that participated in the 
Airport's Disadvantaged, Minority-, and Women-Owned Business Enterprise 
(DMWBE) Program produced more than $350 million in gross concession 
revenue and $280 million in contracting revenue. These businesses 
created over 14,000 job years of employment, increased labor income by 
more than $450 million, and generated an astonishing $1.2 billion in 
economic activity.\3\ The significant and positive economic 
contributions of airport DBE firms should he celebrated and documented.
---------------------------------------------------------------------------
    \2\ Terry L. Clower, Bernard L. Weinstein, Michael Seman, and 
Mehmet Adalar, Center for Economic Development and Research--University 
of North Texas, DFW International Airport's Disadvantaged, Minority- 
and Women-owned Business Enterprise Program: Detailed Findings and 
Updates (Feb. 2009).
    \3\ Id.
---------------------------------------------------------------------------
IV. Discrimination in the Aviation Industry is Still a Problem for DBE 
        Firms
    Although the airport DBE contracting and concessions programs have 
begun to make headway, discrimination against minority- and women-owned 
businesses continues to be pervasive in the airport industry. The 
evidence is abundant, compelling, and demonstrative of the vital role 
these programs play in the effort to address current and past 
discrimination against minority- and women-owned firms.
    With our testimony today, AMAC is submitting twenty-one disparity-
type studies.\4\ These studies, through detailed statistical and 
anecdotal evidence, demonstrate insidious discrimination against women 
and minorities in the airport industry. Discrimination is also present 
in every sector in which airports and other transportation agencies 
conduct business, such as professional services and heavy construction, 
and in every stage of the concessions and contracting business 
lifecycle. The twenty studies submitted represent a cross-section of 
our country--every region of the Nation, including rural, urban, and 
suburban areas. Regardless of location, the studies confirm that 
discrimination continues to be directed at women and all minority 
groups, including but not limited to African-Americans, Hispanic 
Americans, Asian Americans, Subcontinent Asian Americans, and Native 
Americans. Further, the discrimination takes a variety of forms.
---------------------------------------------------------------------------
    \4\ Race, Sex and Business Enterprise: Evidence from Memphis, 
Tennessee, Prepared for the Memphis-Shelby County Airport Authority, 
NERA Economic Consulting, December 18, 2008; Final Report: Alaska 
Disadvantaged Business Enterprise Study--Availability and Disparity, D. 
Wilson Consulting Group, LLC, June 6, 2008; Race, Sex, and Business 
Enterprise: Evidence from the City of Austin: Final Report Prepared for 
the City of Austin, Texas, NERA Economic Consulting, May 15, 2008; 
Final Report for Development and Revision of Small, Minority and Women 
Business Enterprise Program, Nashville International Airport (BNA), 
Griffin and Strong, PC, September 19, 2007; Disadvantaged Business 
Enterprise Availability Study, prepared for the Maryland Department of 
Transportation, NERA, separate studies for: Maryland Aviation 
Administration, Maryland Transit Administration, and State Highway 
Administration, November 2, 2006; Race, Sex and Business Enterprise, 
Evidence from the State of Washington, NERA Economic Consulting, 
October 20, 2005; Anecdotal Evidence of Race and Sex Disparities in the 
Washington State Department of Transportation's Contracting Market 
Place, Colette Holt & Associates, July 2006; Race, Sex and Business 
Enterprise: Evidence from Denver, CO, NERA Economic Consulting, May 5, 
2006; Race, Sex and Business Enterprise: Evidence from the State of 
Maryland, NERA, Economic Consulting, March 8, 2006; Race, Sex and 
Business Enterprise: Evidence from the State of Minnesota, NERA 
Economic Consulting and Colette Holt and Associates, September 27, 
2005; State of New Jersey Disparity Study of Procurement of 
Professional Services, Other Services, Goods and Commodities, MGT, June 
13, 2005; The City of Phoenix, Minority-Women-Owned and Small Business 
Enterprise Program Update Study: Final Report, MOT of America, April 
21, 2005; Disadvantaged Business Enterprise Availability Study, 
prepared for the Missouri Department of Transportation, NERA, November 
26, 2004; Disadvantaged Business Enterprise Availability Study, 
prepared for the Illinois Department of Transportation, NERA, August 
16, 2004; North Carolina Department of Transportation Second Generation 
Disparity Study: Final Report, MGT of America, Inc., March 30, 2004; 
Disparity Study for the Commonwealth of Kentucky, Griffin and Strong, 
P.C., March 2003; Broward County Small Disadvantaged Business 
Enterprise (SDBE) Disparity Study, MGT of America, Inc., April 3, 2001; 
The Utilization of Minority Business Enterprises by The State of 
Maryland, NERA Economic Consulting, January 8, 2001; and Dallas/Fort 
Worth International Airport Board Disparity Study Final Report, MGT of 
America, October 17, 2000.
---------------------------------------------------------------------------
    Many of the studies present extensive anecdotal evidence that 
provides direct insight into the sources and forms of discrimination. 
More importantly, this evidence humanizes the impact of discrimination 
on DBE owners--these are the actual stories of individuals and families 
struggling to build their businesses and contribute to their 
communities. Here are just a few examples:

  <bullet> A minority contractor reported that a project engineer told 
        him that ``being a Mexican, [he] did shitty work,'' and refused 
        to pay him the full amount of the contract.\5\
---------------------------------------------------------------------------
    \5\ Evidence from Denver, CO, at pp. 206.

  <bullet> An Alaska native contractor has been consistently treated 
        unfairly because of his race. On one occasion, the prime 
        contractor's excavator hit a power line, falling on and 
        damaging his new truck. Even though he had witnessed the event, 
        the prime contractor denied responsibility. He said ``they all 
        just gang up on you and lie for each other.'' \6\
---------------------------------------------------------------------------
    \6\ Final Report: Alaska Disadvantaged Business Enterprise Study--
Availability and Disparity, at 8-27 to 8-28.

  <bullet> One female business owner was told she was not selected 
        because she is a woman. She demurred in filing a complaint 
        because of fears of retaliation. Other firms reported receiving 
        no relief, being punished, or being ``blackballed'' if they 
        spoke up.\7\
---------------------------------------------------------------------------
    \7\ Evidence from Denver, CO, at pp. 206.

  <bullet> An African-American business owner has experienced direct 
        discrimination in obtaining loans. She applied for a loan with 
        excellent credit and with a bank she had a relationship with 
        for 9 years. The bank continually delayed the approval process. 
        She felt as though the delay was due to her race. She observed 
        that when ``somebody who does not want to do business with you 
        and will find a way not to do business with you.'' \8\
---------------------------------------------------------------------------
    \8\ Race, Sex, and the Business Enterprise: Evidence from the City 
of Memphis: Final Report, at 261.

  <bullet> A Hispanic-American female said that a general contractor 
        discriminated against her and tried to intimidate and degrade 
        her due to her gender and race. She noted ``He wanted to see me 
        on the field. He didn't like the fact that I . . . had people 
        working under me.'' \9\
---------------------------------------------------------------------------
    \9\ city of Phoenix, Minority-, Women-Owned and Small Business 
Enterprise Program Update Study: Report, at 210-11.

  <bullet> An African-American male stated that he is often confronted 
        with discriminatory attitudes, with companies commonly saying 
        that they do not want to do business with him. He recalls that 
        on one occasion he was told to ``get [his] Black ass out.'' 
        \10\
---------------------------------------------------------------------------
    \10\ Broward County Small Disadvantaged Business Enterprise (SDBE) 
Disparity Study, at 6-82.

    Each of the disparity studies also provides significant 
quantitative evidence of discrimination against minority- and women-
owned businesses dealing in industries that are integral to airport 
contracting. I would like to cite just a few of the myriad of examples 
---------------------------------------------------------------------------
in order to demonstrate the gravity of this issue:

  <bullet> Several studies have established widespread wage 
        differentials between non-minority men and African Americans, 
        Hispanic Americans, Asian Americans, Native Americans, and 
        women, even when controlling for relevant factors. One study 
        describes the wage disparity as ``large, negative, and 
        statistically significant.'' The study concludes that the wage 
        disparities are indicative of the presence of discrimination in 
        the labor market.\11\ This wage differential makes it 
        especially difficult for minorities and women to accumulate the 
        capital necessary to start their own businesses.
---------------------------------------------------------------------------
    \11\ Race, Sex and Business Enterprise: Evidence from the State of 
Maryland, at 7.

  <bullet> In one study, over 40 percent of African American firms and 
        over 23 percent of Hispanic American firms reported they had 
        experienced some form of racial discrimination.\12\
---------------------------------------------------------------------------
    \12\ Broward County Small Disadvantaged Business Enterprise (SDBE) 
Disparity Study, at 6-32.

  <bullet> Several studies indicate that there are statistically 
        significant and large business formation disparities for 
        minorities and women. For example, one study found that 
        business formation for Hispanic Americans is 32 percent to 43 
        percent lower than business formation for non-minority 
        males.\13\
---------------------------------------------------------------------------
    \13\ Race, Sex and Business Enterprise: Evidence from the State of 
Minnesota, at 35-37.

  <bullet> One disparity study found that an astonishing 78.81 percent 
        of construction firms are owned by non-minority males. The 
        second highest group, non-minority females, only own 7.52 
        percent of construction firms. Asian-American firms comprise 
        the smallest group, with only 0.44 percent. Moreover, the study 
        concluded that firms owned by non-minority males were over-
        utilized.\14\
---------------------------------------------------------------------------
    \14\ Final Report for Development and Revision of Small, Minority 
and Women Business Enterprise Program, Nashville International Airport 
(BNA), at 4-10, 46.

  <bullet> Research has indicated that minority and female 
        entrepreneurs earn substantially and significantly less from 
        their efforts than similarly situated non-minority male 
        entrepreneurs. One study concludes that ``these disparities are 
        a symptom of discrimination in commercial markets that directly 
        and adversely affects DBEs.'' The study further notes that ``if 
        minorities and women cannot earn remuneration from their 
        entrepreneurial efforts comparable to that of White males, 
        growth rates will slow, business failure rates will increase, 
        and as demonstrated in the next section, business formation 
        rates will decrease. Combined, these phenomena result in lower 
        DBE availability levels than observed in a race- and sex-
        neutral marketplace.'' \15\
---------------------------------------------------------------------------
    \15\ Evidence from the State of Washington, at 30.

  <bullet> Several studies established widespread discrimination in the 
        credit market. One study found that 60.5 percent of African-
        Americans report being ``always'' denied loans, whereas only 
        7.3 percent of non-minority males report the same. Once loans 
        are approved, minority- and women-business owners pay higher 
        interest rates as well. According to the study, Hispanic 
        Americans pay 20.9 percent interest on approved loans compared 
        to 6.7 percent for non-minority males.\16\
---------------------------------------------------------------------------
    \16\ Final Report for Development and Revision of Small, Minority 
and Women Business Enterprise Program, Nashville International Airport 
(BNA), at 9-10.

    These studies provide a strong anecdotal and statistical record of 
evidence of pervasive discrimination against minorities and women. They 
also demonstrate that there is a strong and continuing need for the 
airport contracting and concessions DBE programs. We urge Congress to 
continue to investigate and document the continuing impact of 
discrimination against businesses owned by minorities and women in 
airport-related industries.

V. Improvements to the Airport DBE Programs
    I would like to take this opportunity to bring to your attention a 
few issues related to the DBE program. First, it is important to note 
that, AIP is a critical source of funding for airport capital projects, 
particularly for smaller airports whose access to private capital 
markets is limited. We support reauthorization of the AIP program at a 
funding level that provides for necessary airport infrastructure. In 
addition, the series of short-term extensions over the last year and a 
half has limited the ability of airports to plan and execute much 
needed infrastructure programs. As such, AMAC would like to urge the 
Senate to act quickly to enact an FAA Reauthorization bill.
    Second, as noted previously, there is one set of Federal 
regulations that govern DBE programs across the country. However, 
certifying officials often vary in their interpretation and application 
of the rules. This is a great burden on DBE firms, many of which are 
small, family-run businesses that expend sizable resources during the 
DBE certification process. Thus, AMAC supports efforts to establish a 
mandatory certification training program and require DBE certifiers to 
complete the training. A provision addressing these concerns is 
included in Section 135 of the House FAA Reauthorization Bill (H.R. 
915, as amended), which has been reported favorably out of the T&I 
Committee. AMAC encourages the Senate to consider including a provision 
to address these issues as part of its consideration of FAA 
Reauthorization.
    Third, a minority or woman owner of a firm must have a personal net 
worth (PNW) that does not exceed $750,000 in order to meet DBE 
certification requirements. The $750,000 PNW standard in the airport 
DBE program regulations was originally established by the Small 
Business Administration (SBA) over two decades ago, and more recently 
borrowed by DOT and implemented for the DBE program. It was first 
applied to airport contracting (Part 26) in 1999 and later applied to 
airport concessions (Part 23) in 2005. The SBA has not adjusted the 
standard for inflation since it first adopted it by regulation in 1989 
and, to date, neither has DOT. Moreover, the PNW formula does not take 
into account the realities of operating an airport contracting or 
concession business. Businesses incur increased operating costs 
associated with working in an airport, such as expenses related to 
higher general contracting costs for remodeling and for compliance with 
airport security protocols.
    AMAC strongly supports adjusting the PNW for inflation as a matter 
of economic common sense and fairness. In particular, AMAC supports 
Sec. 137 of the House FAA Reauthorization Bill (H.R. 915), which would 
direct DOT to issue final regulations to initially adjust the PNW for 
the inflation that has occurred since 1989 and then to adjust the PNW 
for inflation each year thereafter. We encourage the inclusion of such 
a provision as part of the Senate FAA Reauthorization Bill. In 
addition, we urge you to exclude retirement assets from an applicant's 
PNW assessment. AMAC believes it is unfair and unwise to have a program 
rule that, in effect, assumes that retirement savings are available to 
business owners--or, even worse, indirectly encourages such savings to 
be liquidated. We recommend that assets in a qualified retirement 
account be excluded when calculating personal net worth.
    A fourth recommendation involves rules relating to airport security 
projects financed by TSA or projects funded with revenues from 
passenger facility charges (PFCs). When airports expend AIP funds, they 
are required to have a DBE program to address the problem of 
discrimination in airport related business. There is no requirement, 
however, for a DBE program for projects funded with Passenger Facility 
Charges (PFC) or through the Transportation Security Administration 
(TSA). Despite this, the need for a level playing field for minority 
and women-owned businesses is no less acute in projects funded with 
PFCs or through TSA grants than it is in projects and contracts funded 
with AIP funds. Discrimination poses barriers to minority and women-
owned firms regardless of the source of funds.
    AMAC seeks to ensure that discrimination against minority and 
women-owned businesses is vigorously addressed regardless of the 
funding source or its classification. Experience demonstrates that 
without Federal DBE aspirational goal requirements programs, minority 
and women business owners will be left out and left behind. AMAC urges 
Congress to consider policy mechanisms to address this problem. One 
alternative would be to simply apply the existing (and court-tested) 
DBE program to PFC-funded projects and TSA funds. Another alternative 
for the PFC context might be to allow airports to choose one of two 
options: either (1) apply their existing airport DBE program or (2) 
apply a meaningful and enforceable local minority and women business 
program that contains provisions that are similar to the airport DBE 
program but that is not federally defined. AMAC's chief concern is the 
fight against discrimination and to ensure a level playing field for 
minority and women-owned businesses--and that goal requires both 
diligence and a robust minority and women business programs regardless 
of whether the programs are Federal or local in nature.

VII. Conclusion
    Mr. Chairman, thank you for the opportunity to submit this 
statement to this esteemed panel and for your consideration of our 
views. AMAC greatly appreciates the Senate Aviation Operations, Safety, 
and Security Subcommittee's leadership against discrimination and in 
support of disadvantaged business enterprises operating in the airport 
industry. We look forward to working with the Subcommittee on these 
important issues.
                                 ______
                                 
                                                       May 12, 2009
Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison:

    We are writing to urge you to oppose any and all attempts to 
include language in the Senate version of the Federal Aviation 
Administration (FAA) Reauthorization bill that would either legislate 
changes in the current aircraft rescue and fire fighting (ARFF) 
standards or legislate that an unfair rulemaking process be undertaken 
to make changes in the standards. If enacted into law, these proposals 
could unnecessarily increase costs for airports and airlines as well as 
jeopardize commercial air service to small communities.
    As you may know, H.R. 915, the FAA Reauthorization Act that the 
House Transportation and Infrastructure Committee approved earlier this 
year, contains a provision that could force airports of all sizes to 
comply with controversial National Fire Protection Association (NFPA) 
standards. Although each of us supports various sections in the House 
bill, we are unified in our opposition to Sec. 311, in part, because it 
could impose huge costs onto airports and the airlines without any 
benefit to aviation safety.
    To meet NFPA standards, airports of all sizes would be required to 
dramatically increase the number of fire fighters and add additional 
facilities without any evidence that these changes would improve the 
safety of airports. Increased capital and annual operating costs 
resulting from the NFPA standards would force airports to divert their 
already limited funding resources from other necessary safety and 
airport improvement projects. For communities that rely on Essential 
Air Service, adopting NFPA standards without careful evaluation could 
further damage a program that is already under stress. These increased 
costs would be passed on to the traveling public at a time when many 
can least afford it.
    A survey of 55 airports conducted by Airports Council 
International--North America (ACI-NA) in October found that the capital 
costs to comply with the NFPA standards would range between several 
thousand dollars and $33 million, with the average cost of compliance 
being $6.5 million. The responding airports also reported that the NFPA 
standards would increase their annual operating costs by between 
$25,000 and $10 million, with the average cost of compliance being $2.5 
million per year.
    The American Association of Airport Executives (AAAE) has also been 
compiling information from airports around the country about the cost 
to comply with NFPA standards. Based on feedback the association has 
received from approximately 50 large, medium, small and non-hub 
airports, AAAE expects that the increased operating requirements could 
cost the airport industry as much as $1 billion per year and $4 billion 
in increased infrastructure and equipment costs.
    Updates to the FAA ARFF standards have been evaluated by the 
Aviation Rulemaking Advisory Committee (ARAC), which allows all 
interested stakeholders, including airlines, pilot organizations, 
airports, the FAA and fire fighters to participate, and the final 
report is being sent to FAA. In addition, a study conducted under the 
well-respected Airport Cooperative Research Program (ACRP) on how 
proposed ARFF standards would impact airports will be released this 
summer. The FAA needs time to properly evaluate the information put 
forth by both the ARAC and the ACRP study to determine what, if any, 
changes are needed to the ARFF standards.
    Please reject any efforts to include any language in the Senate 
version of the FAA Reauthorization Bill that would either legislate 
changes to the current ARFF standards or legislate that an unfair 
rulemaking process be undertaken to make changes in the standards. 
Instead, we urge you to allow the FAA to continue to work with aviation 
stakeholders as the ARAC process comes to a close and carefully review 
the ACRP report data.
    Thank you for your leadership on aviation issues. We look forward 
to continuing our working relationship to ensure that our Nation's 
aviation system remains safe and secure.
            Sincerely,

Greg Principato,
President,
Airports Council International--North America.

James C. May,
President and CEO,
Air Transport Association.

Charles Barclay,
President,
American Association of Airport Executives.

Thomas E. Zoeller,
President,
National Air Carrier Association.
  

James C. Coyne,
President,
National Air Transport Association.
  

Henry M. Ogrodinski,
President and CEO,
National Association of State Aviation Officials.

Roger Cohen,
President,
Regional Airline Association.
  
  

CC: Hon. Byron Dorgan
     Hon. Jim DeMint

                                 ______
                                 
Prepared Statement of William Horn on Behalf of the Alaska Professional 
                          Hunters Association

    Mr. Chairman. The following statement is submitted for the record 
on behalf of the Alaska Professional Hunters Association (APHA). APHA 
represents professional guides, outfitters, and associated businesses 
providing outdoor recreation services in Alaska. APHA appreciates the 
opportunity to share its concerns and recommendations regarding the 
Federal Aviation Administration (FAA) reauthorization bill.
    APHA applauds the Committee's efforts to overhaul Federal aviation. 
Our aviation system is at a pivotal moment in time, and APHA recognizes 
the importance of a modern and efficient air transportation system. 
Alaska, in particular, is highly dependent on aviation for 
transportation and business. Seventy percent of Alaska's communities 
are accessible only by boat or plane, and Alaska has three times as 
many pilots per capita than any other state. We trust that Congress 
will consider Alaska's unique aviation position as it pursues FAA 
legislation.
    Since 1973, APHA has worked to ensure that hunters have reasonable 
access opportunities in Alaska. APHA's members promote economic 
opportunities in rural Alaska by providing well-paying jobs to 
residents. As you likely know, hunting areas in Alaska are usually 
remote, and APHA members rely on small aircraft to carry hunters to 
their destinations. APHA is concerned that some of the provisions in 
the FAA reauthorization bill, which are designed for conditions in the 
continental U.S., will impose undue, harmful burdens on Alaska hunting 
and fishing guide pilots.
    Alaska guide pilots operate under Part 91 rules per a specific 
Congressional directive that codified agency practice and policy dating 
from the early 1960s (i.e., provision of flight services incidental to 
hunting or fishing guide services did not require Part 135 
certification). Although the FAA was authorized to establish special 
Part 91 rules for Alaska guide pilots, the agency has not used the 
authority.
    Although most guide pilots operate under Part 91, some Alaska 
guides and outfitters also operate charter services governed by Part 
135 rules. However, it is not uncommon to provide Part 135 services in 
the morning and incidental Part 91 services in the afternoon. The 
current House Reauthorization Bill would require pilots who fly back-
to-back Part 91 and Part 135 trips to count their Part 91 flight time 
when calculating their needed Part 135 rest. APHA believes that this 
change would burden small carriers in Alaska, particularly hunting 
guides who count on the flexibility of Part 91 flights. The simple 
solution is to exclude Alaska guide pilots from this ``piggy back'' 
provision and instead have FAA establish rules for the enhanced Part 91 
standards as authorized 9 years ago.
    Prohibiting pilots from flying to their full capacity will only 
hurt business. Many of APHA's members are ``mom and pop'' companies who 
rely on one or two pilots to offer their services. By requiring 
inordinate amounts of downtime for Part 91 pilots, the FAA would 
unnecessarily hamper companies' ability to put planes in the air. The 
proposed rest requirements would prevent these companies from 
diversifying their operations thereby causing them undue economic harm.
    APHA is also concerned that Air Tour Management Program provisions 
in the current House Reauthorization Bill are contrary to Alaska-
specific air access guarantees enacted in 1980. In 1980, the Alaska 
National Interest Lands Conservation Act (ANILCA) (P.L. 96-487) 
directed that ``notwithstanding any other provision of law'' all 
National Park lands in Alaska are open to airplane access and can be 
closed only following a site specific determination that such access is 
harming unit resources. (See Section 1110(a); 16 U.S.C. 3170(a)). In 
2000, Congress affirmed Alaska's access rights by exempting the State 
from participation in the air tour program when it passed The National 
Parks Air Tour Management Act.
    In marked contrast, current House provisions would implement new 
requirements for the Air Tour Management Program which could broaden 
its scope to include Alaska. While the requirements are meant to 
mitigate noise and other adverse impacts in the continental U.S., they 
are contrary to the critical access guarantees enshrined in ANILCA. 
Moreover, these changes are likely to limit vital access to Federal 
lands in Alaska. Alaska's National Parks are of a scale much different 
from those in other states. There are 13 NPS areas in Alaska, 10 of 
which were created by ANILCA. These 13 parks have a total land area of 
nearly 50 million acres (almost four times larger than West Virginia) 
and constitute nearly 15 percent of Alaska.
    The House bill contravenes section 1110(a) and would give the FAA 
too much latitude to limit overflights. In many cases, developing an 
FAA air management plan could be costly for businesses. Hunting guide 
operations and other small carriers do not have the funds to suspend 
operations during public comment periods or to engage in extensive 
environmental reviews required under the program. Furthermore, the Air 
Tour Management Program would be impractical in Alaska due to the large 
number of small carriers forced to rely on the FAA's limited regional 
staff and resources. We encourage the Committee to recognize and honor 
the crucial access provisions in ANILCA and limit any park overflight 
restrictions to the other 49 states.
    APHA stands ready to work with you and your staff to do whatever we 
may to help in your undertaking.

                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                       Charles M. Barclay, A.A.E.

    Question. Mr. Barclay, how much thought have airports given to the 
infrastructure and operational requirements to support biofuels?
    Answer. Airports around the county are working closely with their 
airline partners to reduce greenhouse gas emissions. For instance, the 
Seattle-Tacoma International Airport provides airlines with gate-side 
electricity to reduce fuel burn. The airport is also working with 
airlines to provide the necessary infrastructure to accommodate a 
larger number of electric-powered ground support equipment vehicles.
    Airports look forward to collaborating with airlines, engine 
manufacturers and others that are exploring the use of sustainable 
biofuels in aviation as a way to reduce emissions and reliance on 
petroleum-based fuels. As you may know, Continental Airlines conducted 
the first biofuel-powered demonstration flight of a U.S. carrier 
earlier this year. According to Continental, the Boeing 737-800 used a 
``special fuel blend including components derived from algae and 
jatropha plants. . . .''
    As airlines and engine manufacturers continue to make progress on 
using biofuels in aviation, airports are looking ahead to consider the 
infrastructure that may be necessary to accommodate the use of 
alternative fuels. The Airport Cooperative Research Program funded a 
project that will provide airports with a handbook to help them 
``evaluate the costs and benefits of providing a `drop-in' alternative 
turbine engine fuel at airports, taking into account that such fuel may 
also be used for other purposes (e.g., ground vehicles, generators).''
    Implementing the Next Generation Air Transportation System and 
building more runways, taxiways and other capacity-enhancing projects 
will also help reduce airline delays, unnecessary energy consumption 
and aircraft emissions. That is why AAAE is urging Congress to include 
provisions in the next FAA reauthorization bill that would raise the 
cap on Passenger Facility Charges to $7.50, index the cap for inflation 
and increase Airport Improvement Program funding by at least $100 
million per year.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Marion C. Blakey

    Question 1. Where do you believe the FAA is with respect to 
developing a national strategy to accelerate the use of public 
Performance Based Navigation (PBN) procedures in both the terminal 
environment and en route airspace of the National Airspace System?
    Answer. The FAA is currently not resourced to accelerate PBN 
implementation throughout the National Airspace System (NAS). The FAA's 
current strategy follows the NextGen Implementation Plan by incremental 
upgrades on a schedule to achieve full implementation in the 2020-2025 
timeframe.
    In order to accelerate implementation of PBN throughout the NAS, 
FAA's strategy needs to address a number of challenges including:

  <bullet> Overall airspace redesign for en route airspace and OEP 35 
        metro areas (arrivals, departures, satellite airports) based on 
        RNP containment concepts.

  <bullet> Implementation of air traffic management tools to enable air 
        traffic controllers to effectively manage aircraft on PBN 
        paths.

  <bullet> Changes to air traffic control procedures to permit the use 
        of RNP flight procedures.

  <bullet> New Methodology and tools to enable airspace usage and 
        redesign for PBN.

    <ctr-circle> A new methodology utilizing RNP containment in 
            determining route spacing and aircraft separation.

    <ctr-circle> New approaches to safety analysis of airspace 
            operations that appropriately consider normal, and 
            specified non-normal system performance, as well as 
            suitable normal and limit conformance monitoring.

  <bullet> A more expeditious process to translate and integrate the 
        results of these analyses into the appropriate FAA procedures 
        and processes so that operators can use PBN procedures.

    Providing a process to incentivize operators to equip aircraft with 
advanced capabilities and to expend resources for procedures and 
training.

    Question 2. As of the beginning of this year, how many U.S. 
airports have approaches that combine continuous decent and Required 
Navigation Performance (RNP) procedures in service?
    Answer. The FAA can answer how many airports have CDA and RNP 
procedures in service. The real issue for industry is how many aircraft 
at those airports are able to use those approaches. While the FAA has 
done a commendable job of developing RNAV and Continuous Descent 
Arrival procedures in complicated airspace such at Atlanta, Dallas/
Forth Worth, Washington, D.C. and Los Angeles, there are a number of 
reasons those procedures are not getting full use;

  <bullet> It is difficult to employ RNP procedures at airports where 
        some aircraft and crews are trained and equipped to perform the 
        approaches and some are not.

  <bullet> The benefits and efficiencies of RNP procedures accrue when 
        a majority of operators are trained and equipped to use the 
        procedures. At airports with a lot of different operators, no 
        one wants to be the first to equip.

  <bullet> There has also been insufficient justification for airlines 
        to equip with required equipment because the FAA has not 
        addressed how to give priority to equipped aircraft and 
        qualified crews. FAA should change its service priority policy 
        from ``first come, first served'' to ``best equipped, best 
        served''.

    Question 3. What is involved in the design of a RNP procedure?
    Answer. The design of an RNP procedure ranges from what is called, 
``cookie cutter implementation'' to ones requiring much more detailed 
design and study before implementation. All designs must follow 
Terminal Instrument Procedures, or ``TERPS'' in laying out an RNP 
procedure in the terminal airspace or approach to a runway. This is 
easier at some airports than others. The task is more difficult and may 
take considerably longer to develop and implement when special 
considerations exist. Closely spaced parallel runways, an obstacle rich 
environment, high traffic density, challenging terrain and frequent 
adverse weather are all factors that can make the design of RNP 
procedures particularly difficult.
    As with the introduction of previous new air traffic procedures, 
the experience with RNP has shown that the procedural design process is 
not the most difficult task. Operational success requires the 
choreography of new tasks that include new ATC controller and flight 
crew procedures and training, controller work rule changes, and final 
FAA operational approval.

    Question 4. Realistically, how many RNP procedures do you believe 
the FAA can approve per year given its current level of resources?
    Answer. FAA probably has the resources to implement approximately 
300 new or updated instrument approach procedures per year. The 
development of RNAV and RNP procedures depends on the priority and 
balance of the work programs within the FAA flight procedure standards 
organization.

    Question 5. Looking ahead, should the FAA prioritize the rollout of 
RNP procedures to our most congested airports?
    Answer. The FAA should prioritize the rollout of RNP procedures 
where the value is the greatest, to include all phases of flight with 
emphasis on the terminal area and airport operations.
    To facilitate an accelerated resolution of the issues identified in 
QFRs 1 and 2, we recommend that the FAA to commit to several targeted 
joint government/industry implementation projects to most effectively 
resolve operational issues. These should be targeted at specific 
operational areas (e.g., en-route, oceanic, terminal area departures, 
and terminal area arrivals) with each acceleration venue being 
structured to include all significant stakeholders.

    Question 6. Does AIA support the use of third parties to design RNP 
procedures?
    Answer. Yes, due to increasing demand for PBN procedures in the 
near future, AIA supports third party design followed by FAA 
certification.

    Question 7. Are there standards for third-party RNP developers to 
design to?
    Answer. Yes, the standards are essentially identical to those used 
by the FAA.

    Question 8. Are RNP definitions, procedures, and naming conventions 
the same in the U.S. and in other regions of the world?
    Answer. RNP definitions are the same. However, naming conventions 
have moved toward greater standardization but still differ slightly. 
This convergence continues as part of activities under the 
International Civil Aviation Organization's Air Navigation Bureau. The 
procedures are similar but differ in that the FAA uses TERPS criteria 
and other States use guidance and criteria from ICAO called PAN OPS.

    Question 9. What issues related to RNP do you believe Congress 
should address in the reauthorization bill?
    Answer. The reauthorization bill should direct FAA to move 
aggressively toward using RNP routinely in all phases of flight. To 
achieve this goal, the FAA should develop a phased transition plan to 
reach NAS-wide implementation. The plan should consider airspace 
design, aircraft capability, operator training and approvals, air 
traffic procedures, and realistic flow times that include 
infrastructure evolution, ground automation services, and air traffic 
controller processes, training and acceptance.
    To accelerate implementation, FAA should participate in several 
targeted joint government/industry implementation projects to most 
effectively resolve operational issues. These should be targeted at 
specific operational areas (e.g., en-route, oceanic, terminal area 
departures, terminal area arrivals) and each acceleration venue should 
be structured to include all significant stakeholders.
    To gauge progress, FAA should establish appropriate metrics that 
measure operational use of RNP in the NAS and utilize this information 
through the transition period.

    Question 10. What do you believe are the primary barriers for 
integrating UASs into our national airspace system?
    Answer. Among the barriers to integration of UAS into the national 
airspace system is that requirements for access to the NAS vary widely 
by mission and aircraft. All stakeholders agree, however, that UAS 
should adhere to the same standards as other aircraft. To prevent 
artificial limitations on the use of these aircraft the FAA, industry 
and Congress must work together to address the challenges that these 
systems present to the certification and integration process.
    Another challenge for UAS integration is that FAA has to certify 
different aircraft for different operations. This challenge is similar 
to what FAA confronted when the jet airplane was first introduced, but 
much more complex. AIA is committed to working with FAA to help 
identify and assess best methods for going forward on UAS 
certification, procedural, and operational challenges. AIA acknowledges 
FAA's efforts to advance certification and integration, but we believe 
that organizational structure could be improved for greater 
effectiveness. Moreover, AIA is pleased with FAA's willingness to 
consult with industry on these myriad UAS issues.
    Given that the FAA has not experienced a complex challenge such as 
this since the advent of the jet engine, we applaud the FAA's 
establishment of the UAS Program Office. We recommend, however, the 
agency consider elevating the Program Office to a level with more 
authority, independence and NextGen-related focus.
    Admittedly, a significant encumbrance to progress is the 
development of standards and guidance, which are the linchpin to UAS 
airspace access. While some progress has been made, we believe that 
continued industry-government cooperation can greatly accelerate the 
process. For example, AIA has encouraged FAA to organize standards 
development according to UAS size/weight categories. FAA successfully 
used this approach in setting civil aircraft standards. FAA recognized 
the value of this when it tasked a small UAS aviation rulemaking 
committee, whose report was recently released. Industry also believes 
progress would be amplified if FAA utilized all standards setting 
organizations in this endeavor.
    Industry also recommends FAA review existing aircraft standards to 
determine their applicability to UAS. Once existing standards are 
evaluated, gaps that are identified can then be the focus of standards 
development efforts by the most appropriate organizations.
    UAS issues exemplify the need to expedite NextGen which would 
facilitate integration of new vehicles into the NAS. Industry is 
encouraged that UAS are included in the NextGen testbed evaluations in 
Florida, and that NextGen has greater prominence within the Agency 
under the Senior Vice President of NextGen and Operations Planning. UAS 
inclusion in NextGen planning and development will facilitate 
identification of the appropriate research beyond just detect, sense 
and avoid capabilities.
    Finally, the greatest barrier to UAS has been, and continues to be, 
lack of adequate funding for this FAA program. For the FAA to 
adequately meet the current and projected UAS demand, FAA needs 
assurance of dependable, dedicated funding and resources. Despite the 
FAA's efforts, the funding profile remains insufficient to support 
demand.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              James C. May

    Question 1. As of the beginning of this year, how many U.S. 
airports have approaches that combine continuous decent and Required 
Navigation Performance (RNP) procedures in service?
    Answer. None

    Question 2. What equipage is required for commercial airlines to 
have RNP capability?
    Answer. GPS and Flight Management System (FMS) upgrades.

    Question 3. Which commercial aircraft airlines currently 
incorporate RNP procedures?
    Answer. Among ATA-member airlines, Delta, American, Continental and 
Alaska.

    Question 4. Looking ahead, should the FAA prioritize the rollout of 
RNP procedures to our most congested airports?
    Answer. RNP procedures should be rolled out at airport and runway 
configurations where they can provide the most benefit.

    Question 5. What is the difference between public and private RNP?
    Answer. Private procedures are developed and available for use by a 
single carrier. Public procedures may be used by anyone.

    Question 6. Do you believe the FAA has the in-house capability to 
meet the demand for RNP procedures?
    Answer. We do not believe FAA has the human resources necessary to 
meet the demand for new RNP procedures in a timely manner.

    Question 7. Does ATA support the use of third parties to design RNP 
procedures?
    Answer. ATA supports the use of qualified third parties to design 
RNP procedures in accordance with FAA standards. There are a number of 
entities qualified to do this work, which would allow FAA to use its 
own resources to review/approve procedures designed by third-parties in 
addition to designing RNP procedures itself.

    Question 8. Are there standards for third-party RNP developer to 
design to?
    Answer. Yes. FAA makes available its standards for developing RNP 
procedures.

    Question 9. Are RNP definitions, procedures, and naming conventions 
the same in the U.S. and in other regions of the world?
    Answer. Yes.

    Question 10. What issues related to RNP do you believe Congress 
should address in the reauthorization bill?
    Answer. Funding for aircraft equipage, FAA staffing for 
certification of equipment and development of procedures, and allowing 
FAA to use third parties to develop procedures.

    Question 11. What do you see as the strengths and weaknesses of the 
Commercial Aviation Alternative Fuels Initiative?
    Answer. CAAFI's primary strength is that it pulls together the 
expertise and collective will of a broad and engaged swath of 
stakeholders who hold most of the keys to development and deployment of 
commercially viable, environmentally friendly alternative jet fuels. 
Before ATA co-founded CAAFI with others in 2006, most of the 
stakeholder efforts in aviation alternative fuels were individual 
efforts. While individual, entrepreneurial efforts remain critically 
important, these efforts are leveraged through the coordination and 
focus that CAAFI provides. Specifically, CAAFI's four teams--(1) 
research and development; (2) certification/qualification; (3) 
environment; and (4) business--have developed and are executing 
roadmaps to get over the hurdles in each of these areas. Through these 
roadmaps, the range of stakeholders, including airlines, airports, 
airframe and engine manufacturers, government agencies, would-be 
alternative fuel suppliers, universities, etc., are able to deploy 
resources where needed most and to minimize duplicative efforts.
    To the extent CAAFI has a ``weakness,'' it is in the fact that 
aviation alternative fuels do not appear to be a high priority for 
policymakers, making it more difficult to get financial and other 
support for aviation-fuel-specific research, development and deployment 
projects. While CAAFI functions primarily based on the intellectual 
capital and in-kind resources provided by its sponsors and supporters, 
test programs, environmental analyses and other research and 
development activities require significant funding. Also, to make 
second-generation bio-feedstocks for alternative jet fuel production 
price competitive in early years, some level of Federal support likely 
will be needed. While fuels for ground-based transportation sources 
(such as motor vehicles) have been successful in obtaining such Federal 
support, it is more difficult for aviation given that we represent a 
smaller fuel user group and alternative jet fuels are a ``higher 
hurdle'' in light of our rigorous fuel standards. As an umbrella group, 
CAAFI can advocate for such support. However, it must ultimately be up 
to the policymakers to provide appropriate funding to complement our 
efforts.

    Question 12. What gaps do you see in the Federal Government's 
current efforts to support the development of aviation biofuels that 
can pass the FAA's airworthiness requirements?
    Answer. Both FAA and the Air Force have been invaluable 
contributors to commercial aviation's efforts to develop and deploy 
alternative jet fuels. As head of CAAFI's certification/qualification 
team, FAA continues to work closely with stakeholders on the pending 
and upcoming efforts to revise the jet fuel specification (which is 
maintained by ASTM International) and to have approved jet fuel 
specifications recognized under FAA equipment certifications. 
Significantly, to the extent that we can develop an alternative jet 
fuel that meets the jet fuel specification, is virtually 
indistinguishable from petroleum-based jet fuel and can be ``dropped 
in'' to existing aircraft engines and fuel distribution systems, FAA 
has worked out an approach that should prevent the airlines from having 
to re-certify each, individual aircraft to use that approved fuel. 
(Should this approach not be taken, however, an aircraft-by-aircraft 
certification approach would almost certainly doom our efforts to 
deploy alternative jet fuels.)
    The Air Force, which is undertaking its own alternative fuels test 
program, has worked with us closely to help leverage our efforts, 
through appropriate data-sharing and other cooperative efforts.
    In spite of the close cooperation and coordination the commercial 
airlines have with FAA and the Air Force, there still are challenges to 
getting alternative jet fuels through the approval process. The first 
challenge is in the nature of the jet fuel specification revision 
process under ASTM International. While this international standard-
setting body brings together the necessary expertise to ensure the 
safety of jet fuel, the process can be slow, particularly given the 
presence of some petroleum company representatives who may have 
conflicting interests with respect to non-petroleum-based fuels. The 
second challenge, which can be related to the first, is the 
availability of funding to generate significant quantities of 
alternative jet fuel needed for the testing process. Here is where 
additional Federal support and funding would help. In light of the 
rigorous safety standards that jet fuel must meet (for example, it must 
withstand very cold temperatures at altitude), alternatives must go 
through even more rigorous testing than fuels for ground-based units. 
And yet the vast majority of Federal funding for test programs goes to 
testing for ground-based units. Further support for jet fuel test 
programs is warranted and would be helpful both for the ASTM 
International specification and FAA's equipment certification 
processes.

    Question 13. What do you believe are the primary barriers for 
integrating UASs into our national airspace system?
    Answer. We do have concerns, primarily related to safety, about 
UASs operating in the national airspace system. Our concerns center on 
the reliability of UASs, command and control procedures--in terms of 
safety and security, protocols for recovery or destruction of UASs in 
the event control is lost, and integration into airline collision 
avoidance systems (TCAS). The RTCA has created a committee to examine 
integration on UASs into the national airspace system, and we look 
forward to its recommendations.

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              James C. May

    Question 1. Mr. May, in your written testimony submitted to the 
Subcommittee, page 7 cites cost-benefits associated with implementing 
NowGen. Specifically, Mr. May's testimony cites $12 billion in U.S. 
economic benefits, including $7.4 billion alone in job creation. How 
did ATA arrive at these numbers?
    Answer. The referenced economic benefits associated with NowGen are 
cumulative over the period 2009-2012 and derive from reduced FAA costs, 
improved access to general aviation airports, operating efficiencies, 
and U.S. job creation.

    Question 2. Mr. May, in your testimony you reference a Joint 
Economic Committee finding that domestic delays in 2007 resulted in 
costs of $41 billion to industry and passengers. What specific factors 
comprise the $41 billion/year in delay costs that you reference in your 
testimony? How do delays impact the airline industry?
    Answer. With respect to 2007 delays, the Joint Economic Committee 
report breaks down the $41 billion figure as follows: $19 billion in 
increased operating costs to airlines, $12 billion in terms of lost 
time/productivity to passengers, and $10 billion in indirect costs to 
businesses that rely on and/or service the airline industry.
    Delays affect airlines in many ways. As the report notes, delays 
drive additional crew time, use of replacement crews, overtime for 
ground personnel, cancellations, and increased fuel consumption. Delays 
also increase the challenge of prompt baggage handling and delivery. 
The ripple effect alters operations at down-line stations, forcing 
delays, cancellations, and rerouting of aircraft and crews. Finally, 
delays adversely affect customer good-will, which airlines work very 
hard at to develop and maintain.

    Question 3. If industry will see a significant financial benefit 
from decreased delays, in the opinion of ATA, can the money saved by 
industry be reinvested in the deployment of NextGen capabilities for 
the national airspace?
    Answer. In our view, the General Fund should pay for the deployment 
of NextGen technology as part of the Nation's investment in critical 
national infrastructure systems. The air traffic control system 
operated by the FAA, including airborne components, is no less a 
critical national infrastructure system than the interstate highway 
system; its benefits flow across the entire nation and U.S. industries. 
The reduced costs from reduced delays will enable airlines to fund 
their normal operating costs and capital investment needs. Today, U.S. 
airlines face a tremendous revenue problem due to the weak economy. 
U.S. airlines lost $9.5 billion in 2008, and they will suffer another 
multi-billion dollar loss in 2009--particularly given the return of 
speculation-driven oil prices that now hover around $70 per barrel. The 
airline industry remains in survival mode, as it has throughout this 
decade.

                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                                Ed Bolen

    Question. What gaps do you see in the Federal Government's current 
efforts to support the development of aviation biofuels that can pass 
the FAA's airworthiness requirements?
    Answer. There is a need for additional testing of ``prototype'' 
biofuels by FAA and NASA. Once a viable prototype is identified, 
government support for large-scale production of a ``test run'' volume 
of fuel is needed.

                                  <all>

</pre></body></html>
